<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Shelby, Hutchison, Voinovich, 
and Cochran.
    Also present: Senators Bennett and Hatch.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science Subcommittee on Appropriations will come to 
order.
    Today, we will be meeting with the Administrator and very 
interested parties, including our good Senator from Utah, 
Senator Hatch, on the NASA, the national space agency's fiscal 
year 2011 budget.
    I would like to make my opening remarks, and then turn to 
my colleague, and then, Senator Hatch, to you. Is that 
agreeable, Senator?
    Senator Hatch. Of course, it is.
    Senator Mikulski. I know the Judiciary Committee is 
meeting.
    Well, we are going to be welcoming Administrator Bolden, of 
course, our colleague Senator Hatch, and then Mr. John Frost, a 
member of the NASA Aerospace Safety Advisory Panel, who will be 
speaking to the subcommittee to ensure that no matter what we 
decide, we ensure the safety of the astronauts.
    The 2011 NASA budget is $19 billion, $276 million more than 
2010. The top highlight of this new budget includes major 
investments in science--$5 billion in 2011. This is an 
especially heartened plus-up in Earth science. We will be 
talking about that in a minute.
    The other that we think is quite heartening is extending 
the life of the International Space Station to continue its 
operation through 2020 and possibly beyond, meaning better 
value for our dollar and better value for our astronauts' 
efforts. We have spent a lot of time building the space 
station. Now we have got to spend our time using the space 
station.
    It is time to retire the space shuttle, and the President 
provides for that at the end of calendar 2010--only three more 
flights to go after 30 years of exceptional and honorable 
service. The President's budget also increases funding for 
aeronautic research, $72 million above 2010, and a must-do to 
keep America competitive.
    There are extremely dramatic changes to the Constellation 
program to be--and that will be a subject, I know, of a great 
deal of focus. And in the area of the Constellation program, we 
want to be sure and clarify, is the President talking about 
canceling the Constellation program or restructuring the 
Constellation program? It will be a major source of, I know, a 
deep Earth probe from this subcommittee.

                             SCIENCE BUDGET

    I just want to come back to the science budget which I 
think, while we are going to focus a lot on Constellation, we 
must focus on the other aspects of NASA. There is this strong 
emphasis on Earth science, and the budget also includes $1.5 
billion for planetary science, for research on asteroids, Mars, 
Saturn, beyond--all that we need to do in order to get ready to 
go there.
    There is also within the astrophysics budget request $688 
million for cosmic origins. We would note for our subcommittee 
to remember the astrophysics appropriation also supports the 
Hubble Space Telescope, celebrating its 20th anniversary in 
space, and also the building of the James Webb telescope.
    We look at the field of heliophysics and how the Sun's 
solar flares affect our lives, including the solar probe for a 
launch. We note how important that is because solar flares 
could take down our power grid, and all that we need to know 
about early warnings and information is there.

                           HUMAN SPACE FLIGHT

    As I said, the President retires the shuttle, and we want 
to work with the subcommittee and with all in Florida and 
connected to the shuttle for an honorable retirement.
    Let us go directly to the area of human space flight. The 
area of controversy is huge. NASA requests $2.4 billion for 
exploration. It is below the 2010 level by $1.4 billion. That 
is big. The budget originally said cancel the Constellation 
program. The President, in going to Florida, elaborated and 
some say clarified that we are not canceling. He is not 
recommending the cancellation of Constellation, but rather 
restructuring it. This is of very, very, very keen interest in 
this subcommittee.

                             CONSTELLATION

    Constellation was to be our way to go to the Moon and to 
Mars. A crew vehicle made up of Ares the rocket, Orion the crew 
capsule. The cargo vehicle made up of Ares V and also the Crew 
Moon Lander.
    Now, just let me say what my position is. I need to know 
more, and that is the purpose of this hearing. And if we need 
to have more, we are going to do it. Congress needs to know 
more. We owe it to the American people. We owe it to the 
taxpayers. And we owe it to the astronauts to be very clear 
about what we are going to do and how are we going to do it. I 
need to know more details.
    I want to know if this is the program that the Congress and 
the American people are going to support from one 
administration to the next. We cannot reinvent NASA every 4 
years. Every new President can't have a new NASA agenda. That 
is the purpose of today's hearings. We are here to get the 
facts. It is not about finger-pointing. It is about 
pinpointing.
    I have been in contact with the leaders in the space field, 
including our colleague, Senator Shelby, as well as Bill 
Nelson, our Commerce Committee authorizer. I outlined a basic 
set of principles that will guide me in this hearing, and it 
will guide me as I do the appropriation.

                                 SAFETY

    First of all, no matter what we do, my No. 1 priority is 
astronaut safety. We must have a reliable transportation system 
to protect our astronauts during launch, mission execution, and 
reentry.
    And I want to be sure that we are applying the same safety 
standards for deep space exploration as we will for low-orbit 
work. We want to be sure that the astronauts, when they suit 
up, know that we have cared for them and want to protect them.

                       THE NEED FOR A DESTINATION

    Second, we need a destination. NASA has been a mission-
driven agency since its creation. Having a clear direction and 
a clear destination tends to keep us focused on what we need to 
do, the budget to which we need to adhere, and the involvement 
of our international partners.
    I would hope that whatever we do, to focus on the fact that 
we do need a balanced space program that includes human 
exploration, a reliable and safe transportation system for both 
low-orbit and deep space, robust science to save our science 
and explore our universe, and aeronautics research to keep our 
country competitive. The key purpose of the space exploration 
must always include science and not only be derring-do 
missions. We also need a plan for whatever we decide for 
workforce transition.
    The retirement of the space shuttle is anticipated to 
proceed as planned. This causes job dislocation anyway. We 
don't want to be dismissive of that. We have got to be mindful 
of that. This is really a big transition. Then, if we are going 
to cancel or restructure Constellation, it causes major 
dislocation in a variety of States, all of whom I know will 
articulate their concerns.

                          CONTRACT TERMINATION

    In protecting the astronauts, we also need to protect the 
taxpayer. This new plan has significant issues with contract 
termination. We need to be sure that we are not paying for 
closing down one, or, are we going to be paying down one set of 
contracts to close them out, and then paying to start new 
contracts? It is very complex, and I am puzzled, quite frankly, 
about how we are going to do it.
    We also want to be sure that we do not lose our technology, 
no matter what the cancellation or transition is, and we do not 
lose our industrial base.
    So we look forward to hearing where we are going to go, how 
we are going to get there, how we are going to protect the 
astronauts, and how we are going to protect the taxpayer. We 
have a lot of questions as we launch this hearing.
    I would like to now turn to my colleague, Senator Shelby.

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman, for having 
this critical hearing to examine the administration's 
continually changing plans for the future of human space 
flight.
    The President's new plan, like his old one, shows that 
NASA's leadership team still does not understand the issues at 
stake. While the administration may have realized that its 
initial budget request was a failure, the new plan from the 
same team still ends this country's human space flight program.
    Mr. Administrator, your plan does nothing more than 
continue the abdication of America's leadership in space. The 
President's own Augustine Commission highlighted what we all 
believe, that our human space flight program must be worthy of 
a great nation. I have read NASA's budget, and I find it to be 
anything but great.
    The President's plan only ensures that for decades to come, 
the United States will be both subservient to and reliant on 
other countries for our access to space. Future generations 
will learn how the Chinese, the Russians, and even the Indians 
took the reins of human space exploration away from the United 
States.
    This request, I believe, abandons our Nation's only chance 
to remain the leader in space and instead chooses to set up a 
welfare program for the commercial space industry. It is a 
plan, I believe, where the taxpayer subsidizes billionaires to 
build rockets that NASA hopes one day will allow millionaires, 
and our own astronauts, to travel to space.
    The administration claims that if we build up this so-
called commercial rocket industry, the private sector market 
will magically materialize to produce more expendable launches 
at a lower cost, earlier than the schedule of Constellation. 
What NASA and this administration have failed to disclose to 
the U.S. taxpayer is that NASA has no verifiable data to 
support their claim.
    The head of the Office of Science and Technology Policy, 
Dr. Holdren, as well as you, Mr. Administrator, have testified 
that NASA did not conduct independent market research to show 
that this private launch market even exists.
    Let me repeat that. The White House adviser on science and 
technology policy testified that there was no real research or 
verification done on the viability of the administration's 
approach for the commercial market to sustain America's space 
future. Instead, this administration is relying on information 
provided by the very people who stand to receive billions in 
taxpayer subsidies to promote their unproven products.
    The primary source the administration can cite is a 2002 
Futron study that has proven to be overly optimistic. This 
study was based on a survey of affluent individuals that 
predicted 33 commercial passengers would have flown between 
2002 and 2010. To date, eight space tourists have gone beyond 
sub-orbital space.
    Former Martin Marietta chief executive Thomas Young 
testified before Congress that the Air Force, in the 1990s, 
tried to commercialize their space program. The Air Force then, 
as NASA is proposing now, ceded top-level management of the 
national security space program to industry under a contracting 
approach called Total System Performance Responsibility.
    TSPR required Air Force project managers to stand back and 
let industry have total responsibility of the space systems 
they created for the U.S. Government. Mr. Young stated, and I 
will quote, that ``the results were devastating, and the 
adverse impact is still with us today.'' Those are his words. 
This misguided program ended up costing the taxpayers billions 
to correct.
    Also in the 1990s, commercial companies made significant 
investments in evolved expenditure and launch vehicles based on 
a commercial market that never materialized to support their 
vehicles. In the end, the Government had to keep this domestic 
commercial launch provider alive with billions of taxpayers' 
dollars.
    We have made these mistakes before, Mr. Administrator. 
Albert Einstein said the definition of insanity is doing the 
same thing over and over again and expecting different results. 
I believe that is the case here.
    With this past experience in mind, where are the recent, 
truly independent market analysis of the booming commercial 
sector for delivering people to low-Earth orbit and back? We 
should make those public and let there be a real debate about 
whether taxpayers should shoulder the cost of building space 
rides for millionaires.
    The truth is when troubles mount and a commercial rocket 
market again fails to materialize, the taxpayers, I believe, 
will be called upon to bail out these companies and their 
investors, a recurring theme with this administration.

                                 SAFETY

    Other than the Augustine Commission's cursory examination 
of safety, there is no evidence that NASA has done any in-depth 
analysis related to the safety concerns of putting humans on a 
commercial rocket. I remain steadfast in insisting on safety as 
the first priority for the space program. Nothing less is 
acceptable.
    And contrary to NASA's position on commercial safety, the 
Aerospace Safety Advisory Panel, whose sole focus is to ensure 
that lives are not needlessly lost in our space program, stated 
in their 2009 report that no commercial manufacturer is 
currently human rating requirements qualified, despite some 
claims and beliefs to the contrary.
    This is after the 2008 report, written in part by you, Mr. 
Administrator, declaring that commercial vehicles, I will quote 
you, ``are not proven to be appropriate to transport NASA 
personnel.'' I will ask some questions about how you could, in 
2008, state that this industry was incapable of safely 
transporting astronauts, and yet today say just the opposite.
    Madam Chairwoman, I find this abrupt change in opinion to 
be without evidence and highly suspect. NASA's safety experts 
agree that current commercial vehicles are untested and 
unworthy of carrying our most valuable assets--our Nation's 
astronauts.
    As a resounding rebuke of the Augustine options and their 
biased and overly optimistic view of newcomers to commercial 
space, the Aerospace Safety Advisory Panel reaffirmed what has 
been known for some time, and I will quote, ``To abandon Ares I 
as a baseline vehicle for an alternative without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective. The ability of any 
current COTS design to close the gap or even provide an 
equivalent degree of safety is speculative. Switching from a 
demonstrated, well-designed, safety-optimized system to one 
based on nothing more than unsubstantiated claims would seem a 
poor choice. Before any change is made to another architecture 
the inherent safety of that approach must be assessed to ensure 
that it offers a level of safety equal to or greater than the 
program of record.''

            COMMERCIAL ORBITAL TRANSPORTATION SYSTEM (COTS)

    A year ago, I had some very strong criticisms of the COTS 
program, and those criticisms are just as valid today as they 
were then.
    This request represents nothing more than a commercially 
led, faith-based space program. Today, the commercial providers 
that NASA has contracted with cannot even carry the trash back 
from the space station much less carry humans to or from space 
safely.
    These providers have yet to live up to the promises they 
have already made to the taxpayer. Not a single rocket or ounce 
of cargo has been launched since we met last year. Instead of 
requiring accountability from these companies, the President's 
budget proposes to reward those failed commercial providers 
with an additional bailout.
    The President's retreat from his initial proposal last week 
was rolled out in the shadow of the rocket that is the basis of 
the new commercial vision for the future of human space flight. 
Yet this visionary company's first foray into rocketry--the 
Falcon 1--was 4 years delayed in launching a successful rocket. 
After three failures and a cost escalation of 50 percent, it 
finally got its rocket off the ground.
    The Falcon 9, the very vehicle the President touted a week 
ago as the future for NASA, is 2 years behind schedule and 
counting. Yet the President's budget rewards the commercial 
space industry with an additional $312 million bailout to 
deliver on already-signed contracts in the hope that they will 
actually be able to deliver something someday. This equals a 60 
percent cost overrun for an unproven commodity.
    Given the current record of repeated failure to deliver on 
their agreements, the continued schedule delays, and now the 
cost overruns, I believe that the President canceled the wrong 
rocket program.
    Mr. Administrator, this plan lacks vision, is unrealistic, 
and jeopardizes our entire human space exploration program. I 
am astounded by the enthusiasm with which NASA leadership has 
maligned the years of hard work by your own engineers.
    Congress has a responsibility, I believe, to those whom 
your plan will put in the unemployment line, something your 
leadership team dismisses as mere collateral damage. However, 
we do not see it that way. To us, they are people who already 
have been devoting and maintaining the leadership and heritage 
of 50 years of space flight.
    The jobs that are promised to be created will hardly 
materialize before the pink slips begin to arrive. Once those 
highly skilled workers leave, they will likely never come back. 
Given the way they have been treated so far this year, I would 
hardly blame them.
    Now, you are even attempting to undermine the letter and 
the spirit of the law as it relates to the current funding of 
Constellation. Your destructive actions toward the 
Constellation program will only ensure that members cannot 
trust you. Mr. Administrator, you are creating an atmosphere 
where you and your leadership team have become a major 
impediment, I believe, to moving forward.
    Under the administration's plan, NASA, as we know it, will 
never be the same. Today, NASA is immediately associated with 
success in spite of insurmountable odds. There is a deeply 
ingrained respect for what NASA can do because of what NASA has 
done and is doing today.
    If this proposal is the best that we can do as a Nation, 
then we do not deserve, I believe, the rich heritage of human 
space flight, which previous generations sacrificed for to make 
the country's space program what it is--great.
    The proposed NASA budget abandons most of Constellation in 
favor of an unproven commercial option that will devastate any 
goal the United States has in exploring beyond low-Earth orbit. 
The President's announcement of his new plan last week merely 
replaced one visionless plan with another.
    It is clear that the administration, and more specifically 
you, Mr. Administrator, do not believe that American leadership 
in human space flight is a priority worth fighting for. No 
matter how many summits, press releases, or parades you 
conduct, hope is not a strategy. This plan would destroy 
decades of U.S. space supremacy by pinning our hopes for 
success on unproven commercial companies. This budget is not a 
proposal for space exploration worthy of this great Nation.
    Thank you.
    Senator Mikulski. Senator Hatch?

                  STATEMENT OF SENATOR ORRIN G. HATCH

    Senator Hatch. Well, thank you, Madam Chairwoman, Senator 
Shelby, Senators Cochran, Bennett, Voinovich, and Hutchison. It 
is a privilege for me to be with you. I would ask, Madam 
Chairwoman, that my full statement be placed in the record.
    Senator Mikulski. Without objection.
    [The statement follows:]

              Prepared Statement of Senator Orrin G. Hatch

    Chairwoman Mikulski, Senator Shelby, Senator Bennett, and Members 
of the Appropriations Subcommittee on Commerce, Justice, Science, and 
Related Agencies, thank you for affording me the opportunity to make 
these brief comments during the subcommittee's hearing on the National 
Aeronautics and Space Administration's (``NASA'') fiscal year 2011 
budget request.
    For more than 50 years, our Nation has made a commitment to lead 
the world in space exploration. This was never more eloquently 
expressed then by President John F. Kennedy when he said: ``. . . our 
leadership in science and industry, our hopes for peace and security, 
our obligations to ourselves as well as others, all require us to . . . 
become the world's leading space-faring nation.'' I believe NASA 
Administrator, Charlie Bolden, recently echoed this sentiment when he 
expressed his strong support for a space program that inspires the 
creation of the technological innovations which are essential to our 
Nation's future prosperity.
    Therefore, I am puzzled by the administration's fiscal year 2011 
NASA budget request.
    This proposal calls for the termination of Project Constellation, 
and its associated rocket systems, the Ares I and ``heavy-lift'' Ares 
V. As a result, if ratified by Congress, our Nation could capitulate 
its position as the world leader in space exploration as well as forgo 
the technological harvest which has historically accompanied such 
endeavors.
    Let me be clear, if Project Constellation is cancelled, our Nation 
will not, in the near-future, be able to travel beyond low-Earth orbit. 
This is ironic considering the President's and NASA Administrator 
Bolden's recent statements that the ultimate objective of our space 
program is Mars.
    To be fair, the President has spoken of choosing a new heavy-lift 
system by 2015. Yet, in a time of greatly diminished financial 
resources, we cannot afford to throw away the $10 billion our Nation 
has invested in Project Constellation and the Ares systems and then 
spend billions more to research and develop new heavy-lift 
technologies. This point is especially germane since the other heavy-
lift technologies contemplated may or may not match the capabilities of 
solid rocket motors.
    I believe Neil Armstrong, the first man on the moon, James Lovell, 
the commander of Apollo 13, and Eugene Cernan, the commander of Apollo 
17, said it best. If we follow the administration's plan ``we will have 
lost the many years required to recreate the equivalent of what will be 
discarded.''
    This conclusion was echoed by the independent Aerospace Safety 
Advisory Panel, which in 2009 stated ``to abandon Ares I as a baseline 
vehicle for an alternative without demonstrated capability nor proven 
superiority, or even equivalence, is unwise and probably not cost-
effective.''
    In other words, an alternative to Project Constellation will take 
years of additional time and cost billions more.
    Some opponents argue Project Constellation is a troubled endeavor. 
The truth is quite to the contrary. Just last fall, the world witnessed 
the launch of the Ares I-X rocket from the Kennedy Space Center in a 
stunning and successful test. In addition, the heavy-lift Ares V is 
designed to leverage the engineering and technologies used on Ares I. 
Therefore, one can surmise, in the end, there will be overall savings 
using this comprehensive approach versus the piecemeal approach 
proposed by the administration. Together, the Ares system of rockets 
provides our Nation and our astronauts with the most reliable, most 
affordable, and safest means of reaching low-Earth orbit and beyond--a 
fact which NASA itself has affirmed.
    Let me emphasize that point. Ares is the safest system. Nothing 
comes close. The 2005 NASA Exploration Systems Architecture Study, of 
which Administrator Bolden was a member of the study's independent 
review team, concluded the Ares system is 10 times safer than the 
current Space Shuttle. This was reaffirmed by the Aerospace Safety 
Advisory Panel which stated that ``the ability of any current COTS 
design to close the gap or even provide an equivalent degree of safety 
is speculative.'' The Panel also concluded that ``switching from a 
demonstrated, well-designed, safety-optimized system to one based on 
nothing more than unsubstantiated claims would seem a poor choice.''
    This only underscores the administration's proposal relies on 
utilizing unproven private businesses as the means to transport our 
astronauts to the International Space Station. It also should be noted, 
many of the companies which are expected to bid for these contracts are 
start-ups. These new start-ups do not have any experience in carrying 
humans, or even cargo, into space. In addition, even under these 
corporations' most optimistic near-term proposals, their systems will 
not be able to travel beyond low-Earth orbit.
    Some have argued, in this difficult fiscal environment, Project 
Constellation is simply too expensive and should fall victim to the 
budget ax. Again, this is not the case. The administration's proposed 
plan actually increases NASA's budget by more than $6 billion over the 
next 5 fiscal years. In addition, cancelling the Ares system, and the 
plans associated with it, will cost the taxpayer an addition $2.5 
billion because of contractual obligations. On top of these costs, 
since private businesses have never previously developed a low-Earth 
orbit system to transport humans to the International Space Station or 
a heavy-lift system to explore deeper into the cosmos, one can 
naturally hypothesize lengthy delays and expensive cost overruns for 
this novel venture. It is also not hard to imagine when the inevitable 
delays and cost overruns occur that these private enterprises will turn 
to the Government with requests for additional funds.
    Project Constellation should also be seen as an investment in our 
Nation's future economic competitiveness. In fact, studies have shown 
for every dollar invested in space exploration, seven dollars has been 
returned to our economy through the development of new technologies and 
industries. For example: the revolutionary developments in computers, 
smoke detectors, water filters, portable X-ray machines, Computer-Aided 
Topography, Magnetic Resonance Imaging technologies, and advanced 
plastics are a few of the thousands of products which were developed 
because of the space program. In addition, I learned, just this week, 
the Boeing Corporation's work on the International Space Station's 
electrical systems led to the development of the electrical systems for 
the 787 Dreamliner, which will be a major U.S. export for the 
foreseeable future.
    Congress should also consider the nexus between the Ares system and 
the ability of our Nation to maintain future strategic deterrent 
programs. Both the Ares rockets and our land-based Intercontinental 
Ballistic Missile (ICBM) force use solid-rocket motors. Our Nation will 
shortly complete the modernization of our ICBM fleet. Since the early 
1990s, NASA has served as the backbone of the solid-rocket motor 
industry, providing stability to offset the often inconsistent 
production requirements of the military and commercial sector. 
Therefore, the termination of Ares would cripple the solid-rocket motor 
industrial base and could push it beyond recovery for this and future 
generations.
    This was one of the primary reasons I authored an amendment which 
was included in the fiscal year 2008 Defense Authorization Act which 
required the Department of Defense to conduct a study on the status, 
capability, viability, and capacity of the solid-rocket industrial 
base. The report concluded maintaining the solid-rocket industrial base 
is ``essential to meeting national security objectives.'' The report 
also stated ``delays in the NASA Ares program could have significant 
negative impact on the large solid-rocket motor prime contractor 
industrial base and more significantly on the sub-tier supplier base, 
specifically material suppliers.''
    Accordingly, I arranged for the inclusion of a second amendment in 
the fiscal year 2010 Defense Authorization Act. This additional 
amendment requires the Secretary of Defense to devise a plan to 
maintain the solid-rocket industrial base in order to sustain currently 
deployed strategic and missile defense systems and preserve an 
intellectual and engineering capacity to support the development and 
production of next-generation rocket motors. I look forward to studying 
its conclusions when it is published in July of this year.
    However, I must admit my surprise upon learning, during a meeting 
between myself and Administrator Bolden last Friday, that NASA and 
Department of Defense officials have only recently begun to discuss the 
future of maintaining the solid-rocket industrial base. Frankly, I do 
not understand how NASA could have devised its budget request without 
closely coordinating its proposal with the Department of Defense, 
especially since the solid rocket industrial base is ``essential to 
meeting national security objectives.''
    Finally, cancelling Project Constellation will have a profound 
effect on the employment of thousands of jobs during a period of 
financial uncertainty. Studies indicate approximately 12,000 jobs will 
be lost when the Space Shuttle program ends next year and at least 
another 12,000 will lose their jobs if Project Constellation is 
terminated. Many of these individuals have unique skills which are not 
easily transferred to other positions.
    Therefore, based upon these facts, I can only reach one conclusion. 
If Project Constellation is cancelled, our Nation's objective of 
sending an astronaut to Mars will be replaced with the fleeting hope 
that one day, some day, we will be able to explore the cosmos again. In 
addition, our national security could be irretrievably harmed.
    Again, Chairwoman Mikulski, Senator Shelby, Senator Bennett and 
members of the subcommittee, thank you for affording me this 
opportunity to share my thoughts with the subcommittee.

    Senator Hatch. Well, thank you.
    I am puzzled. I have to admit I am puzzled by the 
administration's request. This proposal calls for the 
termination of Project Constellation and its associated rocket 
systems, the Ares I.
    Senator Mikulski. Senator Hatch, we really want to hear 
every word.
    Senator Hatch. Should I move a little closer?
    Senator Mikulski. Is the microphone on, sir?
    Senator Hatch. Yes, it is on. Senator Feinstein always 
says, ``Orrin, quit mumbling.'' I have got to speak a little 
louder, I am afraid.
    Well, like I say, this proposal calls for the termination 
of Project Constellation and the associated rocket systems, the 
Ares I and the heavy-lift Ares V. As a result, if ratified by 
Congress, our Nation could capitulate our position as the world 
leader in space exploration, as well as forego the 
technological harvest which has historically accompanied such 
endeavors.
    Let me be clear, if Project Constellation is canceled, our 
Nation will not in the near future be able to travel beyond 
low-Earth orbit. This is ironic considering the President's and 
NASA Administrator Bolden's recent statements that the ultimate 
objective of our space program is Mars.
    To be fair, the President has spoken of choosing a heavy-
lift system by 2015. Yet in a time of greatly diminished 
financial resources, we cannot afford to throw away the $10 
billion our Nation has invested in Project Constellation and 
the Ares systems and then spend billions more to research and 
develop new heavy-lift technologies. This point is especially 
germane since the other heavy-lift technologies contemplated 
may or may not match the capabilities of solid rocket motors.
    I believe Neil Armstrong, the first man on the Moon, James 
Lovell, the commander of Apollo 13, and Eugene Cernan, the 
commander of Apollo 17, said it best. If we follow the 
administration's plan, ``we will have lost the many years 
required to re-create the equivalent of what will be 
discarded.''
    This conclusion was echoed by the independent Aerospace 
Safety Advisory Panel, which in 2009 stated ``to abandon Ares I 
as a baseline vehicle for an alternative, without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.''
    In other words, an alternative to Project Constellation 
will take years of additional time and cost billions of dollars 
more.
    Some opponents argue Project Constellation is a troubled 
endeavor. The truth is quite to the contrary. Just last fall, 
the world witnessed the launch of the Ares I-X rocket from the 
Kennedy Space Center in a stunning and successful test. In 
addition, the heavy-lift Ares V is designed to leverage the 
engineering and technologies used in Ares I.
    Therefore, one can surmise in the end there will be overall 
savings using this comprehensive approach versus the piecemeal 
approach proposed by the administration. Together, the Ares 
system of rockets provides our Nation and our astronauts with 
the most reliable, most affordable, and safest means of 
reaching low-Earth orbit and beyond.
    Let me emphasize that point. Ares is the safest system. 
Nothing else comes close. The 2005 NASA Exploration Systems 
Architecture Study, of which Administrator Bolden was a member 
of the study's independent review team, concluded the Ares 
system is 10 times safer than the current space shuttle.
    Now, this was reaffirmed by the Aerospace Safety Advisory 
Panel, which stated, ``The ability of any current COTS design 
to close the gap or even provide an equivalent degree of safety 
is speculative.'' The panel also concluded ``switching from a 
demonstrated, well-designed, safety-optimized system to one 
based on nothing more than unsubstantiated claims would seem a 
poor choice.''
    Now this only underscores the administration's proposal 
that relies on utilizing unproven private businesses as the 
means to transport our astronauts to the International Space 
Station. It also should be noted, many of the companies which 
are expected to bid for these contracts are startups.
    These new startups do not have any experience in carrying 
humans or even cargo into space. In addition, even under these 
corporations' most optimistic near-term proposals, their 
systems will not be able to travel beyond low-Earth orbit.
    Some have argued in this difficult fiscal environment 
Project Constellation is simply too expensive and should fall 
victim to the budget ax. Again, this is not the case. The 
administration's proposed plan actually increases NASA's budget 
by more than $6 billion over the next 5 fiscal years. In 
addition, canceling the Ares system and the plans associated 
with it will cost the taxpayer an additional $2.5 billion 
because of contractual obligations.
    On top of these costs, since private businesses have never 
previously developed a low-Earth orbit system to transport 
humans to the International Space Station or a heavy-lift 
system to explore deeper into the cosmos, one can naturally 
hypothesize lengthy delays and expensive cost overruns for this 
novel venture. It is also not hard to imagine when the 
inevitable delays and cost overruns occur, that these private 
enterprises will turn to the Government with requests for 
additional funds.
    Project Constellation should also be seen as an investment 
in our Nation's future economic competitiveness. In fact, 
studies have shown for every dollar invested in space 
exploration, $7 has been returned to our economy through the 
development of new technologies and industries.
    Congress should also consider the nexus between the Ares 
system and the ability of our Nation to maintain future 
strategic deterrent programs. Both the Ares rockets and our 
land-based intercontinental ballistic missile force use solid 
rocket motors. Our Nation will shortly complete the 
modernization of our ICBM fleet.
    Now, since the early 1990s, NASA has served as the backbone 
of the solid rocket motor industry, providing stability to 
offset the often inconsistent production requirements of the 
military and commercial sector. Therefore, the termination of 
Ares would cripple the solid rocket motor industrial base and 
could push it beyond recovery for this and future generations.
    Let me just say again, Madam Chairwoman and all of the 
other Senators on this illustrious subcommittee, I just want to 
thank you for affording me the privilege. I had much more in my 
original statement, but I just wanted to get some of these 
ideas across. And I want to thank you very much for affording 
me this privilege to appear before your very important 
subcommittee.
    Senator Mikulski. Well, thank you very much, Senator Hatch.
    You know, your support of science is well known within the 
institution. We have worked well together on the FDA. We were 
happy to have you.
    Also, I am devoted to the fact that Senator Jake Garn, 
another man of Utah, once chaired this subcommittee. He was a 
good friend and a mentor to me when I got started. I have 
conveyed to Senator Garn, and I want to say to the two Senators 
from Utah, if Senator Garn would also like to submit testimony 
or so on, I would be enthusiastic about welcoming it and look 
forward to welcoming him.
    [The statement follows:]

     Prepared Statement of Hon. Jake Garn, Former Senator From Utah

    Madam Chair, and distinguished members of the subcommittee, former 
colleagues and, in the case of Senator Bennett, my successor in the 
seat previously held with such great distinction by his father, Senator 
Wallace Bennett. I consider it a privilege to be asked to submit 
testimony to the subcommittee regarding the very serious issues facing 
the Congress with regard to the fiscal year 2011 budget request for 
NASA.
    I am well aware of the challenges you face, especially when a 
requested budget and changing priorities present very real challenges 
and would bring about changes that not all members can agree to and 
represent a major departure from current direction and programs--
without a compelling case having been made for those changes.
    Your challenge is even greater, when dealing with human space 
flight issues, in the face of the current economic situation, from 
which you and the country are still struggling to emerge, because human 
space flight--or any other programs NASA undertakes, whether space 
science, earth and climate observation, or advanced aeronautics 
research and technology--are not cheap.
    Possibly more than ever before, we are being forced to decide 
whether these activities are of real and material value to the country, 
or just extravagant and exciting things that, in an era of scarce 
resources, the country is better setting aside. That, really, is the 
underlying issue that I believe the subcommittee and the Congress--and 
the American people--must come to grips with and which will decide, in 
the end, whether we stay in the business of space or not. Especially in 
the business of human space exploration.
    Even before I left the Senate in 1992, after my flight aboard the 
Space Shuttle Discovery in April of 1985, I was asked to make far more 
speeches and appearances than ever before in my Senate career. I'm sure 
it will not surprise any of the members that, in the vast majority of 
those appearances, I didn't get a lot of questions about the nuances 
and details of the appropriations process or specific issues before the 
subcommittee or the Banking Committee, but I did--and still do--get 
many questions about what it was like to go into space, and view the 
Earth from that vantage point. Especially with the younger audiences 
and students. I know first-hand the extraordinary catalyst that space 
exploration--and especially human space exploration--has for exciting 
and inspiring young people to pursue studies and careers in sciences, 
technology, engineering and mathematics. I think that is something that 
must not be forgotten as you wrestle with the challenges of 
establishing the proper levels of funding for NASA and the programs you 
will support.
    I am one who absolutely believes that our Nation would not have 
become a leader in technology and innovation without the extra catalyst 
provided by the space program. In recent years, we have, as a Nation, 
lost sight of that. As the future of the space program has seemed 
uncertain, after the Columbia accident, and we have begun to plan the 
end of space shuttle operations and even the premature, in my view, 
termination of the space station in 2015 that had been the plan up to 
this point, we have begun to lose the drawing power of space. I believe 
that has been reflected in the findings of the ``Gathering Storm'' 
report, prepared several years ago under the leadership of Norm 
Augustine.
    It is somewhat ironic that Norm was asked to chair the Human Space 
Flight Review Committee last year to examine options for moving our 
human space flight programs into a more positive direction which, if we 
are able to do so as a Nation, will enhance our competitive posture 
once again. And if we fail to do so, we will make the problems 
identified in the ``Gathering Storm'' report even deeper and even more 
damaging to our long-term economic stability.
    That is why I am so concerned about the Obama administration's 
response to the Augustine panel report. The administration seemed to 
ignore the most salient point of the report--that a space program 
``worthy of a great Nation'' was one that needed adequate and sustained 
funding levels beyond those that had been provided over the past 5 
years since the announcement of the Vision for Exploration by President 
Bush. The committee made it clear that the Constellation program was 
experiencing many of the problems that it was experiencing because the 
funding levels promised in the projections made in the 2005 budget 
request were not only not met, they were reduced by several billions of 
dollars, cumulatively.
    I know that you know those details. And I know, too, that the 
allocations made available to the subcommittees on appropriations every 
year have their genesis in the budget resolution, which is largely 
based on the budget request. And the Bush administration failed to 
request the amounts it had originally projected to support the Vision 
for Exploration. The Bush administration also failed to request a 
single dime of funding to reimburse NASA for the cost of re-certifiying 
the shuttle program for its return to flight after Columbia. As you 
know, Madame Chair, that was more than $2.5 billion that NASA had to 
absorb within an essentially flat budget. You and Senator Hutchison 
were successful in adding a down-payment of a little over $1 billion to 
reimburse NASA for those costs, and it was unanimously adopted by the 
Senate--a remarkable achievement. Only to have it taken out in 
subsequent negotiations between the House and the White House over an 
Omnibus appropriations bill--because the White House didn't support it.
    I remind you this is the Bush administration I am talking about. MY 
party was in control. But were they, in reality?
    After the President's Vision for Exploration announcement, the 
implementation of that plan was left to be managed and controlled not 
by NASA, but by the nameless, faceless, green eye-shaded bureaucrats in 
the Office of Management and Budget. The budget drove the policy after 
that, and the budget drove the program to the edge of a cliff. Not just 
Constellation, but the entire U.S. human space flight program. Because 
the budget plan included insisting on stopping the shuttle at the end 
of fiscal year 2010--whether its mission was accomplished or not. It 
didn't start out that way in the President's announcement. The 
announcement said the shuttle would retire ``after the completion of 
the space station--which was expected to be in 2010.'' But within a 
year, in the next budget cycle, that qualifier went away and fiscal 
year 2010 became a hard, unequivocal date. Why? Because the budgeteers' 
plan was to take the money from the shuttle and move it to 
Constellation which was expected, by then, to be ready to ``bend 
metal'' and move to its next phase of development. That's the reason 
for the shuttle retirement: to meet the demands of a budget plan. It's 
not about safety, which I'll refer to in more detail in a moment; it's 
about money.
    And the budgeteers weren't satisfied with just raiding the Shuttle 
pot. They chose to take the space station funding, as well. They told 
the Congress, when asked, that funding of the space station beyond 2015 
was ``beyond the budget planning horizon.'' But in reality they planned 
to use the space station operating funds to take Constellation to the 
next level of development; the manufacturing of the heavy-lift vehicle. 
That way they could still, they reasoned, ``support'' Constellation and 
the Vision, but not have to increase the top-line for NASA funding. 
They didn't care about the scientists and researchers that had planned 
to conduct research on the space station, once it was completed. They 
had already thrown most of them overboard in 2005, when they decreed 
that the station would be used only for ``exploration-related'' 
research. A group of over 900 principal investigators--and their 
associated students and universities and organizations--was reduced to 
no more than 30. It took the 2005 NASA Authorization Act to even 
provide them a life-line, by requiring that at least 15 percent of all 
ISS research would be in non-exploration-related disciplines.
    The budgeteers also didn't care about what our international 
partners thought about having only a 5 year period of full operations 
for scientific research, instead of the 10 to 15 they had anticipated 
when they signed on to the partnership. Those partners have been 
wondering for the past 2 years, at the least, what the future held for 
the ISS, because they knew that NASA was not able to make concrete 
plans about the U.S. participation without the permission of the 
budgeteers.
    National Space Policy and International Relations with our ISS 
partners have been driven by the Office of Management and Budget. Not 
by the policy process at the White House, which allowed that to happen 
by, at the very least, benign neglect. Not by the Congress, which, 
despite overwhelmingly passing authorization bills since 2005 which 
endorsed the Exploration program at funding levels needed to actually 
have a chance at succeeding, never received a budget request that 
matched those levels. The Congress could only have increased those 
funds to necessary levels by taking the money from somewhere else 
within NASA or finding an off-set elsewhere within the allocations, and 
we all know how difficult that is to accomplish.
    These are the failures of the prior administration to follow up on 
the Policy of the Vision for Exploration with the budget to make it 
happen. The question now is whether the current administration is going 
to do the same.
    The good news is that, at least for the space station, they have 
agreed with the Augustine Report observation that continuing its 
support and operations to at least 2020 is the right and smart thing to 
do. It simply makes no sense to invest something like $100 billion to 
build and operate it and then not provide the opportunity for 
scientists to finally use it as long as possible, now that is nearly 
complete.
    What does NOT make sense to me, or to many people I've spoken to, 
is to cut the ribbon on the completed space station and then 
unilaterally and arbitrarily remove--for no more than budgetary 
reasons, again--the only independent means the United States has to get 
there: the space shuttle.
    Not only that, the Obama administration proposal is to rely 
exclusively, for domestic capability to reach the space station, on a 
commercial capability that has, as yet, not been adequately defined. 
And even if commercial is broadly defined to include the larger, 
established companies, like Boeing, ATK, Lockheed Martin, United Launch 
Alliance, etc., as I think it should be, as well as the newer, more 
``entrepreneurial'' style companies like SpaceX or the longer-
established Orbital Sciences, none of them could conceivably provide a 
proven, human-rated crew launch capability within 3 or 4 years and 
likely even longer.
    In the meantime, we are left with only one means of access to the 
newly-completed space station: Russian Soyuz vehicles, for which we 
must pay an average--today--of $56 million per seat. And remember, we 
also are obligated to pay for at least two of those seats per year for 
our European, Japanese and Canadian partners, under the terms of the 
intergovernmental agreement that established the partnership.
    And there is one more major failing of the administration's plan. 
That is that there is no consideration given, anywhere that I can see, 
to taking steps to ensure the space station can actually remain a 
viable, healthy and functional spacecraft through the year 2020. In 
2005, there were 28 remaining space shuttle missions planned to the 
ISS. It was anticipated they would not only complete the assembly, but 
continue to be available to bring down equipment to be refurbished and 
returned to the space station, as well as exchange crews without 
relying on Soyuz, except for emergency crew rescue capability, and 
bring scientific samples and equipment back to earth for analysis and 
upgrades. But, once again, the masters of the budget in OMB decreed 
that NASA could only plan to fly 17 of those missions--plus one 
additional for making a Hubble servicing mission.
    The result was a scramble to make sure that the 17 authorized 
flights were loaded with essential spare and replacement parts to 
ensure the station could be maintained at full capacity. But the 
choices made in juggling the payloads to provide that assurance were 
based on an internal planning date for an end-of-life for the station 
in 2015. Now the plan is to continue it's life to at least 2020, but 
without the benefit of the servicing capabilities of the space shuttle 
which, for large and heavy items, can only be provided by the space 
shuttle.
    Senator Hutchison has seen this problem clearly, and has raised it 
in speeches and statements in hearings of the Commerce Committee, and 
here as a member of this subcommittee. I completely agree with her that 
a new assessment must be made, immediately, of what the potential 
equipment servicing and replacement and down-mass requirements are 
expected to be from 2015 to at least 2020, and determine whether the 
space shuttle must be available, in the short term, to deliver 
essential spares before it is retired. That is the only reasonable and 
responsible course, if one is truly serious about extending the ISS 
life-time. Without that analysis, there is simply no way to know if the 
promise of 2020 operations is only an empty gesture, with more risk 
than many potential researchers--or investors in commercial crew and 
even cargo launch development--will be willing to expose their time and 
resources to.
    Let me repeat the last part of that, since the administration has 
placed such extreme reliance on the commercial sector to develop new 
cargo and crew launch capabilities. Without the space station as a 
viable, fully functional destination, there is no business case for 
those companies to develop their launch and delivery systems. None. At 
least in the crucial high-risk period of actually developing those 
systems. No space station equals no NASA anchor contracts for services, 
and no basis for ensuring investors that they should ante up the 
necessary matching capital to make those efforts succeed. How the 
administration could adopt and propose a course that leaves the only 
active U.S. human spaceflight program remaining after the Shuttle, for 
the next 4 to 7 years, exposed to that sort of risk is simply 
inconceivable to me. It probably flies in the face of the painful 
lessons we are supposed to have learned in the past 2 years about 
secure and responsible management and oversight of investment 
practices.
    That, I believe, is perhaps the major Achilles Heel of the 
President's plan. They can talk all they want about plans to increase 
utilization of the space station, and project extra hundreds of 
millions over time to support that, but their failure to have a plan to 
protect those opportunities makes that talk nothing more than empty 
promises. And there appears to be no interest on the part of the 
administration to address it in the short term through the only means 
available to do so: a plan for the potential continued availability of 
the space shuttle.
    As I said before, this decision is purely budgetary, and not one--
as many have tried to portray it--a matter of safety. Because the OMB 
has been successful in creating and promoting the Big Lie that there 
simply is not, cannot, and never will be an increase in NASA funding 
levels, even those in the aerospace industrial and support communities 
who know what it necessary to provide assured sustainability for the 
space station have not protested the shuttle termination, because they 
fear their opportunities for participation in the movement beyond low-
earth orbit will be jeopardized by the lack of the ``cash cow'' 
represented by the end of the shuttle program. Even companies like 
Boeing, ATK, Lockheed-Martin, who benefit from both ongoing shuttle and 
station operations, are afraid or unwilling to support shuttle 
extension of ANY kind, for fear of having their Constellation and 
exploration contracts reduced and that program stretched out to the 
point where it makes no more sense from a cost and schedule stand-
point. You can't blame them, since no one in the White House or so far 
a majority in the Congress, is willing to step up to the plate and 
demand that this Nation provide the level of funding that is absolutely 
necessary to secure our leadership role in space--or even our role as a 
second-rate participant in the community of space faring nations.
    I don't need votes from ATK employees in Utah any more, so I am not 
advocating alternatives to the Obama plan in order to ensure their 
corporate interests. I am doing so because it is the right thing, I 
believe, for this Nation to not abandon all of the investments made in 
the Constellation program, and to fail to continue the capability to 
operate shuttles in support of the space station--even at a greatly 
reduced flight rate, and therefore at a greatly reduced annual cost.
    I have referred frequently to the space station. As you recall, 
Madam Chair, in our early days working together on the subcommittee, we 
spoke a great deal about human space flight, and the space station, 
back in the days when our colleague, Senator Dale Bumpers, was actively 
trying to stop that program. You came to have a greater appreciation 
for the scientific potential of the station. Science and research has 
always been an important value to you. We joined together in efforts to 
defeat those early attempts to kill the station, and you continued that 
in the years after I left the Senate. In 2005, under Senator 
Hutchison's leadership of the Science and Space Subcommittee of 
Commerce, the ISS was designated as a national laboratory. I know that 
you were there when the Memorandum of Understanding was signed between 
NASA and the National Institutes of Health, setting the stage for their 
active use of the unique qualities of the microgravity environment to 
do a host of research--important to the health and well-being of people 
all over the world. I know the USDA research programs have signed a 
similar MOU, and announcements of opportunity for research have been 
issued--with more to follow. If you haven't had a briefing from NIH 
lately, I encourage you to invite Dr. Stephen Katz to come in and fill 
you in on the exciting potential they see.
    I know, too, that you are deeply concerned about ensuring the 
safety of our astronauts, and that you are seeking to work closely with 
the authorizing committees, and Senators Nelson, Vitter and Hutchison, 
in making sure that safety is of the highest priority in our human 
spaceflight activities. I applaud all of that, and encourage you to 
continue those efforts.
    I believe Senator Hutchison has established a strong working 
relationship with Democrat House counterparts in developing and 
introducing a Human Spaceflight Assurance and Enhancement Act, on a 
bipartisan and bicameral basis. That kind of approach is the best way 
for this problem to be addressed. Space exploration has always been a 
bipartisan effort, and it should continue to be so. The concerns I have 
and the current debate about the Obama plan is not about political 
expediency. It is about a way to preserve American leadership, for all 
Americans to receive the benefits of space exploration in their daily 
lives, right here on Earth.
    Let me conclude by focusing for a moment on the matter of safety, 
as it relates to the shuttle, the Soyuz, and to any of the planned or 
hoped for developments in finding replacements to the shuttle for 
sending humans into space to realize the science potential of the space 
station and to prepare to move beyond low-earth orbit to new and 
exciting destinations.
    If someone tells you that the space shuttle is ``too unsafe to 
fly'' they are either very poorly informed or deliberately deceitful.
    If someone else tells you that the space shuttle is ``safe'' to 
fly, they are either very poorly informed or deliberately deceitful.
    I believe both statements to be true. And not only of the space 
shuttle, but of any human spaceflight vehicle. That creates an 
inescapable conclusion that I believe applies now--and likely will 
always apply to human space flight vehicles: they will never be 
completely safe and their ``relative'' safety will always depend on the 
question of ``compared to what?''
    In discussions about the shuttle replacement vehicle options, it is 
often argued that those vehicles will be ``safer'' than the shuttle, 
and that is based primarily on two arguments. One, that they will be 
simpler and less complex vehicles and two, that they will have a crew 
escape system for getting away from an errant or exploding launcher 
during ascent. It seems ``logical'' that that can be described as a 
``safer'' system. On the other hand, regardless of how a spacecraft 
gets into orbit, it is necessary for it to return to Earth for a 
successful mission.
    The current plan is to use the Russian Soyuz spacecraft for both 
ascent and descent for the 5 to 7 years between the last planned 
shuttle flight and the first manned TEST flight of a new vehicle, 
whether Government-developed or commercially-developed. Not only will 
we be setting the clock back to the initiation of a new and un-proven 
system we ``hope'' will work because we have paper designs and 
probabilistic risk assessments that say they ``should.'' But remember 
Norm Augustine's comment about never flying on an aircraft with a tail 
number of less than 10. New systems inevitably have a potential high 
rate of ``infant mortality'' for the vehicles in their testing stages.
    In the meantime, while waiting for those systems to be ``proven,'' 
we will be voluntarily relying on the Soyuz system, about which we have 
little insight into its production and maintenance standards or 
detailed component designs, and which has no ``escape system'' during 
re-entry. Furthermore, it has a record of having lost two crews during 
re-entry--that we know of. Not only that, two of its last six flights 
have experienced still-unexplained ``anomalies'' that caused the re-
entry profile to be ``ballistic'' and which resulted in dangerous 
gravity forces being applied to the crews and, if steeper and more 
uncontrolled, could have led to the serious injury or, more likely, 
death of the three occupants. Imagine the situation if that were to 
happen under the current plan. It would mean that we would then be in a 
position where six crew members would still be aboard the space station 
and their ONLY way back to earth, in an emergency, would be on two 
vehicles identical to the one that would have just ``crashed'' and 
injured or killed their three recently-departed crew mates.
    And again, why will this be the case? Because the budget-masters in 
the bowels of the White House decreed that the Nation simply could not 
afford to continue flying a proven system, that has been actually made 
safer than ever before as a result of the $3 billion invested in 
redesign, modifications, recertification of systems, and improved 
processing techniques after the Columbia accident. How does any of this 
make sense for the Nation that has been the leader in human spaceflight 
for the past 50-plus years?
    Let's remember, too, how we established that leadership. We began 
by launching men with names like Shepard, Grissom, Carpenter, Glenn, 
and Cooper, on vehicles that were converted ballistic missiles, and 
which in fact had seen demonstrated failure rates exceeding those of 
either Soyuz or the Shuttle. Yet we launched them and held our 
collective breath, and were lucky enough not to lose any of them on 
launch. We came close to losing some of them during flight and upon re-
entry, like John Glenn whose heat shield may or may not have been 
damaged and whose retro-rocket pack was kept aboard during re-entry to 
hopefully hold it in place, but itself created a dangerous and 
uncertain re-entry profile. We had a Gemini spacecraft careen wildly 
out of control on orbit, until Neil Armstrong managed to get it back 
under control. And of course, later we had the crew of Apollo 13 battle 
against all odds to survive a circuit of the moon and return to Earth 
long enough to make a barely successful re-entry based on the sheer 
skill--and a lot of luck--of their crew and the innovative and 
determined supporting cast on the ground.
    Human spaceflight, in reality, is no ``safer'' today than it was in 
those early days. We are just better equipped and experienced to handle 
the risks presented by the speeds and stresses needed to escape Earth's 
gravity. Today, that skill and experience is reflected wholly in the 
space shuttle program and the people who prepare the shuttles to fly, 
operate them in space, and fly them back to Earth. We have now learned 
not only how to avoid or at least reduce the kind of ascent damage that 
doomed Columbia, but we've shown we can closely inspect the thermal 
protection system and vehicle structures in flight and, if necessary 
repair them on orbit, none of which was possible before Columbia. And 
if the vehicle is structurally sound upon re-entry, nothing else in 
existence has the resiliency, maneuverability and capability to adapt 
to the sub-space flight environment that the orbiters have, to ensure a 
safe re-entry and landing.
    Despite all of that, we seem intent on pressing hard--and possibly 
dangerously hard--to meet a schedule to rapidly fly out the remaining 
five shuttle missions in as short a time as possible--precisely the 
kind of pressure that was cited as a significant contributor to both 
the Challenger and Columbia accidents. And then we can rush to shut 
them down and lose the skilled workforce that maintains, assembles and 
operates them, creating a surge in unemployment within a key sector of 
the country's technical industry, where we are already facing major 
competitive challenges from abroad, and eliminating thousands of the 
very kinds of jobs that would otherwise draw more and more students 
into the study of the critical areas of science, technology, 
engineering and mathematics! And again, why are we going down this 
path? Because we can't ``afford'' to sustain the most magnificent space 
flying system ever developed while at the same time developing its 
successor systems?
    How can anyone believe it makes sense to follow this plan for 
purely budgetary reasons--when we have just spent close to a trillion 
dollars on short-term relief on efforts that we will never really know 
whether they kept the Nation from going over an economic cliff or not? 
The Nation's space programs--led by the excitement and challenges of 
the human space flight program--are known to have been the most 
consistent and effective ``engine of excellence'' in technology, 
innovations and science for the past 50 years . . . the question should 
be: How can we afford not to fully support them and ensure that they 
remain indisputable factors in driving our Nation's technical, 
industrial and scientific excellence, securing our competitive 
position, and sustaining our global leadership?
    Despite what I believe is the compelling logic suggesting we 
reconsider the decision to terminate the space shuttle at the end of 
the current manifest, the administration has chosen to hide behind the 
Bush administration mistaken plan--driven by OMB--to terminate the 
Shuttle program on, or close to, a date certain. But let me remind you 
just why they cannot credibly pretend that an irreversible decision was 
made that they are simply implementing. In the 2008 NASA Authorization 
bill, enacted in October of that year--before the election--there was 
language written specifically to preserve the option of some degree of 
continued shuttle flights for the President--whoever it was--until at 
least the end of April 2009. NASA was directed to take no action before 
that date which might preclude continuing shuttle operations. NASA 
insisted right up until the expiration of that provision that they were 
in compliance, 4 months into the current administration.
    When the fiscal year 2010 budget was released the following week, 
it established the Augustine Panel, as mentioned above, to review 
options for the future direction of U.S. human spaceflight. Members of 
Congress encouraged NASA--and were assured by NASA that it was the 
case--that the option of continued shuttle operations would not be lost 
during the period of the Augustine review. In fact, NASA briefed the 
Augustine panel on a range of options for extended shuttle flights for 
2, 3, and 5 year periods, and raised no concerns about it being 
impossible to do. And, on the basis of that information, one of the 
options provided to the President was to continue shuttle flights until 
2015. So the option to continue shuttle operations was available to 
President Obama, and he cannot now credibly claim that it was a 
decision set in stone 5 or 6 years previously. He has chosen not to 
continue those operations, and so that decision--and the consequences 
that may follow from it, are, and will always be, his responsibility. 
That is simply a fact. And the Congress, even today, has that option 
open to them, and they, too, will own the consequences of allowing that 
decision to go unreviewed, and unmodified.
    I believe I have stated why the need to reconsider the wisdom of 
that choice is something this subcommittee and the Congress as a whole, 
must seriously address. I strongly support Senator Hutchison's efforts 
to ensure that a review of space station requirements is conducted and 
an informed decision made before the only capable and proven system of 
human spaceflight this country has is lost by default and a failure to 
accept responsibility for the results.
    That decision must not be driven by fear of another possible 
failure. That same fear could easily be the reason for backing away 
from any future crew launch system, because whatever the mathematical 
risk calculations one can apply, based as much on theory as experience, 
will be at the mercy of the incredible forces necessary to propel 
humans into space. The human errors that can creep into the most 
careful and sound engineering designs, manufacturing processes and 
launch preparations will always be there, to one degree or another.
    Those who fly aboard the shuttle, the Soyuz, or, I'm sure, the 
Shenzhou, know that reality. But every single one of them is a 
volunteer, as I was, and as Senator Bill Nelson was.
    I will never forget the experience, just under a year after I flew 
aboard the space Shuttle Discovery, when I flew down to the Kennedy 
Space Center with John Glenn and then-Vice President Bush, to meet with 
the families of the Challenger crew, just hours after that tragic loss. 
We walked into the room where the family members were gathered and the 
first thing June Scobee, the wife of Challenger's Commander Dick 
Scobee, said to us in a strong, determined voice and speaking for all 
those grieving family members, was that we must make sure the shuttle 
was not cancelled; that it would be returned to flight and that the 
dream of those brave crew members must be kept alive.
    After the Columbia accident in 2003, there was a ceremony at the 
Space Mirror Memorial located at the Visitor's Center at the Kennedy 
Space Center to enter the names of Columbia's crew members to that 
large mirror. Dr. John Clark, husband of Laurel Clark, who was lost as 
a member of Columbia's crew, spoke for the families on that occasion. 
He said that despite the risks, America must remain a space faring 
nation and not become a space fearing nation.
    Madam Chair, I know you feel strongly that safety is the number one 
priority. And no stone should be left unturned in understanding risks, 
identifying ways to mitigate them, and continuously improving our 
launch systems and spacecraft designs. But at some point, if we are to 
remain a space faring nation, and keep the dream of human spaceflight 
alive, and honor the sacrifice of those who gave their lives in its 
advancement, and for our future generations, we need to find the will 
and the commitment as a Congress, and as a nation, to ``Go for 
launch.''

    Senator Hatch. Well, thank you. He will want to do that.
    Senator Mikulski. Yes, and I would welcome that, and I 
would welcome any conversations with him.
    Senator Hatch. Well, you have been great. I really 
appreciate it, and I appreciate every one of you on this panel. 
Thank you so much.

                  INTRODUCTION OF ADMINISTRATOR BOLDEN

    Senator Mikulski. You are welcome.
    I am going to call up Administrator Bolden to present the 
administration's testimony. Administrator Bolden is really also 
General Bolden, who served in the Marine Corps with a great 
deal of distinction, a graduate of the Naval Academy like John 
McCain, a Marine helicopter pilot who went on to be an 
astronaut in the Astronaut Hall of Fame. So we look forward to 
his testimony.
    I want to remind members that we have a two-tier hearing, 
that after Administrator Bolden and questions from our 
colleagues, we will also then hear from John Frost of the 
Aerospace Advisory Committee, and I know this committee's deep 
commitment.
    Senator Bennett, I understand you have a time challenge. I 
would like for Administrator Bolden to present his testimony. 
Then let us work out how we can accommodate everyone with the 
greatest courtesy, but robust questioning.
    Administrator Bolden?

                STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Administrator Bolden. Madam Chair and members of the 
subcommittee, thank you for the opportunity to discuss the 
President's fiscal year 2011 budget request for NASA. I am 
incredibly grateful for the support and guidance of this 
subcommittee, and I look forward to working with you on 
consideration of the President's bold new direction for the 
agency.
    All of us at NASA were honored to host the President one 
week ago at the Kennedy Space Center, where he said, and I 
quote, ``I am 100 percent committed to the mission of NASA and 
its future because broadening our capabilities in space will 
continue to serve our society in ways we can scarcely imagine, 
because exploration will once more inspire wonder in a new 
generation, sparking passions, launching careers. And because, 
ultimately, if we fail to press forward in the pursuit of 
discovery, we are ceding our future.''
    Since the introduction of the budget, many have asked what 
is the destination for human space flight beyond low-Earth 
orbit under the President's plan? As the President made very 
clear last Thursday, NASA's deep space exploration efforts will 
include crude test flights early next decade of vehicles for 
human exploration beyond low-Earth orbit, a human mission to an 
asteroid by 2025, and a human mission to orbit Mars and return 
safely to Earth by the 2030s.
    We can and must identify the missing capabilities needed 
for such a mission or such a suite of missions and use them to 
help define many of the goals of our emerging technology 
development. The right investments in technology will allow us 
to map out a realistic path to this destination that will 
continue to inspire generations of school children, just as it 
inspired me many years ago growing up in Columbia, South 
Carolina, and watching Buck Rogers go to Mars with ease each 
week from my seat in the balcony of the Carolina Theater.

                    FISCAL YEAR 2011 BUDGET REQUEST

    The President's fiscal year 2011 budget request for NASA is 
$19 billion, as you have mentioned, including an increase of 
$276 million over the enacted 2010 level. Longer term, I am 
pleased that the budget commits to an increased investment of 
$6 billion in NASA science, aeronautics, and enabling 
technologies over the next 5 years compared with last year's 
plan. All of us at NASA appreciate the President making NASA 
such a high priority at a time when budget realities dictate 
reductions and freezes for other worthwhile programs.
    As we celebrate the 40th anniversary of Earth Day today, I 
want to note that the proposed budget supports an enhanced, 
robust program of Earth science research and observation. Earth 
observation from space produces the critical data sets we need 
to understand our changing planet. At the same time, we will 
continue our robust efforts to observe the rest of the universe 
through missions like the Hubble telescope and the Solar 
Dynamics Observatory, for which we released its first stunning 
images of the Sun yesterday.
    With the President's new vision, the NASA budget will 
invest much more heavily on technology, research, and 
development than recent NASA budgets. This will foster new 
technological approaches, standards, and capabilities that are 
critical to enable next-generation space flight, Earth sensing, 
and aeronautics capabilities. These investments will produce 
additional opportunities for U.S. industry and spur new 
businesses such as a recently announced partnership between 
NASA and General Motors to build an advanced dexterous humanoid 
robot, R2.

                         CONSTELLATION PROGRAM

    As the Constellation program is transitioned in an orderly 
manner, I want to thank all of the NASA employees and 
contractors who have worked so hard on the program. Their 
commitment has brought great value to the agency and to our 
Nation, and they will continue to play a pivotal role in NASA's 
future. Many of the things NASA has learned from the 
Constellation program will be critical as the agency moves 
forward, especially as we restructure the Orion project as a 
crew escape vehicle and incremental test crew vehicle for 
missions beyond low-Earth orbit.
    However, as the Augustine Committee concluded, the overall 
human space flight program is on an unsustainable trajectory. 
If we continue on our current course, we will have to make even 
deeper cuts to the other parts of NASA's budget, terminating 
support of the International Space Station early and reducing 
our science and aeronautics efforts.
    The President's proposal to transition Constellation 
enables us to present a 2011 budget that includes the flagship 
technology demonstration and development program that allows us 
with our international and commercial partners and other 
Government entities to demonstrate critical technologies; 
automated autonomous rendezvous and docking and closed-loop 
life support systems; heavy-lift research and development that 
will investigate a broad scope of R&D activities to support 
development, test, and ultimately flight of a heavy-lift launch 
vehicle sooner than projected for the Constellation program as 
assessed by the Augustine Committee.
    As the President committed, we will decide on the right 
heavy-lift vehicle no later than 2015; robotic precursor 
missions to multiple destinations in the solar system in 
support of future human exploration including missions to the 
Moon, Mars and its moons, Lagrange points, and nearby 
asteroids; significant investments for the development of 
commercial crew and further cargo capabilities; in concert with 
our international partners, extension of the utilization of the 
International Space Station to 2020 and beyond; pursuit of 
cross-cutting space technology capabilities led by the newly 
established Office of the Chief Technologist to spawn game-
changing innovations to make space travel more affordable and 
sustainable; climate change research and observations which 
will enable NASA to substantially accelerate and expand its 
Earth science capabilities, including a replacement for the 
Orbiting Carbon Observatory; aeronautics R&D, including 
critical areas of next-generation air transportation system or 
NextGen, green aviation, and safe integration of unmanned 
aircraft systems into national air space; education 
initiatives, including the Summer of Innovation pilot program 
to inspire middle school students and better equip their 
teachers for improved classroom performance in STEM-related 
courses.
    We understand that many concerns are being expressed about 
this budget, but I believe it is the right vision for NASA. I 
look forward to continued discussion with you and our 
authorizers about your concerns and how we might solve them. I 
want to acknowledge to the subcommittee the subcommittee's 
concerns that details such as our justification documents were 
slow in reaching you. I apologize and ask for your continued 
patience as we finalize the details of this historic change in 
NASA's direction.
    Americans and people worldwide have turned to NASA for 
inspiration throughout our history. Our work gives people an 
opportunity to imagine what is barely possible, and we at NASA 
get to turn their dreams into real achievements for all 
humankind through the missions we execute. This budget gives 
NASA a road map to even more historic achievements as it spurs 
innovation, employs Americans in exciting jobs, and encourages 
people around the world.

                           PREPARED STATEMENT

    Madam Chair, thank you again for your support and that of 
this subcommittee. I would be pleased to respond to any 
questions from you or other members.
    [The statement follows:]

           Prepared Statement of Hon. Charles F. Bolden, Jr.

    Madam Chair and members of the subcommittee, thank you for the 
opportunity to appear today to discuss the President's fiscal year 2011 
budget request for NASA. NASA is grateful for the support and guidance 
received from this subcommittee through the years and looks forward to 
working with you on enactment of the President's bold new direction.
    The President's fiscal year 2011 budget request for NASA is $19.0 
billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Pub. L. 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5 years compared with last 
year's budget plan. Enclosure 1 displays the details of the President's 
fiscal year 2011 budget request for NASA.
    Before I discuss the details of the NASA budget request, I would 
like to talk in general about the President's new course for human 
exploration of space. With this budget, the United States has 
positioned itself to continue our space leadership for years to come.
    The President's fiscal year 2011 budget request is good for NASA 
because it sets the agency on a sustainable path that is tightly linked 
to our Nation's interests. One measure of this is that it increases the 
agency's top-line, in a time when many agencies have been flat or taken 
a cut. Even more, it reconnects NASA to the Nation's priorities--
creating new high-tech jobs, driving technological innovation, and 
advancing space and climate science research. It puts the agency back 
on track to being the big-picture innovator that carries the Nation 
forward on a tide of technological development that creates our future 
growth. We should make no mistake that these are the drivers for NASA's 
proposed budget increase of $6 billion dollars over the next 5 years.
    At the highest level, the President and his staff, as well as my 
NASA senior leadership team, closely reviewed the Augustine Committee 
report, and we came to the same conclusion as the Committee: The 
Constellation program was on an unsustainable trajectory. And if we 
continue on that course, at best we would end up flying a handful of 
astronauts to the moon sometime after 2030. But to accomplish that 
task, we would have to make even deeper cuts to the other parts of 
NASA's budget, terminating support of the International Space Station 
(ISS) early and reducing our science and aeronautics efforts. Further, 
we would have no funding to advance the state of the art in any of the 
technology areas that we need to enable us to do new things in space, 
such as lowering the cost of access to space and developing closed-loop 
life support, advanced propulsion technology, and radiation protection. 
The President recognized that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration. In doing so, the President 
put forward what I believe to be the most authentically visionary 
policy for real human space exploration that we have ever had. At the 
same time, under the new plan, we will ensure continuous American 
presence in space on the ISS throughout this entire decade, re-
establish a robust and competitive American launch industry, start a 
major heavy lift R&D program years earlier, and build a real 
technological foundation for sustainable, beyond-LEO exploration of our 
moon, near-Earth asteroids, Lagrange points, and, ultimately, Mars.
    Now let me turn to describe the fiscal year 2011 NASA budget 
request in detail.

           HIGHLIGHTS OF THE FISCAL YEAR 2011 BUDGET REQUEST

    The President has laid out a bold new path for NASA to become an 
engine of innovation, with an ambitious new space program that includes 
and inspires people around the world. Beginning in fiscal year 2011, 
the United States will pursue a more sustainable and affordable 
approach to human space exploration through the development of 
transformative technologies and systems. As the Constellation Program 
is ended in an orderly manner, NASA will encourage the development of 
commercial human spaceflight vehicles to safely access low-Earth orbit 
and will develop new technologies that will lay the foundation for a 
more exciting, efficient and robust U.S. human exploration of the solar 
system than we are currently capable of, while further strengthening 
the skills of our workforce and our Nation in challenging technology 
areas. NASA will also invest increased resources in climate change 
research and observations; aeronautics research and development (R&D), 
including green aviation; space technology development of benefit 
across the entire space sector; and education with an emphasis on 
Science, Technology, Engineering and Mathematics (STEM) learning.
    Here is a broad outline of the fiscal year 2011 budget plan 
followed by more details. In fiscal year 2011, NASA will undertake:
  --Transformative technology development and demonstrations to pursue 
        new approaches to human spaceflight exploration with more 
        sustainable and advanced capabilities that will allow Americans 
        to explore the Moon, Mars and other destinations. This effort 
        will include a flagship demonstration program, with 
        international partners, commercial and other Government 
        entities, to demonstrate critical technologies, such as in-
        orbit propellant transfer and storage, inflatable modules, 
        automated/autonomous rendezvous and docking, closed-loop life 
        support systems, and other next-generation capabilities. It 
        will also include projects that are smaller and shorter-
        duration, which will demonstrate a broad range of key 
        technologies, including in-situ resource utilization and 
        advanced in-space propulsion.
  --Heavy-lift propulsion research and development that will 
        investigate a broad scope of R&D activities to support next-
        generation space launch propulsion technologies, with the aim 
        of reducing costs and shortening development timeframes for 
        future heavy-lift systems for human exploration.
  --Robotic precursor missions to multiple destinations in the solar 
        system in support of future human exploration, including 
        missions to the Moon, Mars and its moons, Lagrange points, and 
        nearby asteroids.
  --Significant investments for the development of commercial crew and 
        further cargo capabilities, building on the successful progress 
        in the development of commercial cargo capabilities to-date. 
        NASA will allocate these funds through competitive 
        solicitations that support a range of higher- and lower-
        programmatic risk systems and system components, such as human 
        rating of existing launch vehicles and development of new 
        spacecraft that can ride on multiple launch vehicles.
  --Extension of the lifetime of the International Space Station (ISS), 
        likely to 2020 or beyond, in concert with our international 
        partners, with investments in expanded ISS utilization through 
        upgrades to both ground support and onboard systems and use of 
        the ISS as a National Laboratory.
  --Pursuit of cross-cutting Space Technology capabilities, led by the 
        newly established Office of the Chief Technologist, which will 
        fund advancements in next-generation technologies, to help 
        improve the Nation's leadership in key research areas, enable 
        far-term capabilities, and spawn game-changing innovations that 
        can unlock new possibilities and make space activities more 
        affordable and sustainable. A NASA focus on innovation and 
        technology will enable new approaches to our current mission 
        set and allow us to pursue entirely new missions for the 
        Nation.
  --Climate change research and observations, which will enable NASA to 
        substantially accelerate and expand its Earth Science 
        capabilities, including a replacement for the Orbiting Carbon 
        Observatory, development of new satellites recommended by the 
        National Academy of Sciences Decadal Survey, and development of 
        smaller Venture class missions. This investment will ensure the 
        critically important continuity of certain key climate 
        measurements and enable new measurements to address unknowns in 
        the climate system, yielding expanded understanding of our home 
        planet and improved understanding of climate change.
  --Aeronautics research and development, including critical areas of 
        the Next Generation Air Transportation System, environmentally 
        responsible aviation, and safe integration of unmanned aircraft 
        systems into the national airspace.
  --Education initiatives, including the recently announced Summer of 
        Innovation pilot program involving NASA scientist and curricula 
        to inspire middle-school students and their teachers with 
        exciting experiences that spur those students to continue in 
        STEM careers.
    I wish to emphasize that NASA intends to work closely with the 
Congress, including this subcommittee, to make a smooth transition to 
the new Exploration program, called for in the President's request, 
working responsibly on behalf of the taxpayers. With my deepest 
gratitude, I commend the hard work and dedication that thousands of 
NASA and contractor workers have devoted to Constellation over the last 
several years. Their commitment has brought great value to the agency 
and to our Nation, and they will continue to play a pivotal role in 
NASA's future path. Many of the things NASA has learned from the 
Constellation program will be critical as the agency moves forward.
    The following contains more detail on the summary points made 
above, in the standard budget order for NASA's appropriation accounts.

                                SCIENCE

    The President's fiscal year 2011 request for NASA includes $5,005.6 
million for Science. The NASA Science Mission Directorate (SMD) 
continues to expand humanity's understanding of our Earth, our Sun, the 
solar system and the universe with 59 science missions in operation and 
30 more in various stages of development. The Science budget funds 
these missions as well as the research of over 3,000 scientists and 
their students across our Nation. The recommendations of the National 
Academies/National Research Council (NRC) decadal surveys help to guide 
SMD in setting its priorities for strategic science missions; and SMD 
selects competed missions and research proposals based on open 
competition and peer review.
    The fiscal year 2011 budget request for Science includes $1,801.7 
million for Earth Science. This request increases investment in Earth 
Science by $1.8 billion from fiscal year 2011 to fiscal year 2014 
compared to the fiscal year 2010 budget, for a more aggressive response 
to the challenge of climate change. NASA will rapidly develop an 
Orbiting Carbon Observatory-2 mission for launch early in 2013 and a 
GRACE Follow-On mission for launch in late 2015, respectively, to 
initiate and extend key global climate data sets. This request 
accelerates several high-priority Decadal Survey missions that will 
advance climate research and monitoring. The increased funding 
accelerates launch of the Soil Moisture Active/Passive (SMAP) mission 
by 6 months from its estimated date at the recent agency Key Decision 
Point (KDP)-B review, to November 2014. ICESAT-2 is advanced by 5 
months relative to the estimated date at its recent agency KDP-A 
review, to October 2015. The Climate Absolute Radiance and Refractivity 
Observatory (CLARREO) mission and the Deformation, Ecosystem Structure 
and Dynamics of Ice (DESDynI) mission are each accelerated by 2 years, 
with both launching in late 2017. Thus, the budget request allows all 
four Tier-1 Decadal Survey missions to be launched between 2014 and 
2017. In addition, NASA--working with the U.S. Global Change Research 
Program--will be able to identify and begin development for accelerated 
launch of selected Tier-2 Decadal Survey missions focused on climate 
change. The budget supports critical continuity of climate 
observations, including a Stratospheric Aerosol and Gas Experiment III 
(SAGE III) instrument to be developed for deployment on the ISS, while 
also supporting an accelerated pace of smaller ``Venture class'' 
missions. Finally, increased resources for Earth Science will allow 
NASA to expand key mission-enabling activities, including carbon 
monitoring, technology development, modeling, geodetic ground network 
observations, and applications development including the highly 
successful SERVIR program.
    At present, NASA Earth-observing satellites provide the bulk of the 
global environmental observations used for climate change research in 
the United States and abroad. This year, analyses of NASA satellite 
measurements quantified the rates of ground water depletion since 2003 
in California and in India's Indus River valley--rates that are 
unsustainable for the future. NASA conducted the first ICEBridge 
airborne campaigns in both Arctic and the Antarctic, to maintain the 
critical ice measurements during the gap in time between the ICESAT-1 
and -2 satellites.
    In fiscal year 2011, the Glory and Aquarius missions will launch; 
and fiscal year 2011 should close with the launch of the NPOESS 
Preparatory Project. The Landsat Data Continuity Mission will complete 
spacecraft integration and test, the Operational Land Imager will be 
delivered, and the Thermal Infrared Sensor will continue development. 
The Global Precipitation Mission will complete its System Integration 
Review in preparation for the beginning of assembly, integration and 
testing. During fiscal year 2011, the SMAP mission will transition from 
formulation to development, and ICESAT-2 will begin design. Also in 
fiscal year 2011, instrument development and observations initiated 
under the first Venture class solicitation for sustained airborne 
missions will reach full funding, and the next Venture class 
solicitations will be released--this time for space-based mission 
instrument, and complete mission, developments. Engineering studies and 
focused, actively-managed technology investments--instruments, 
components, and information systems--continue for the suite of future 
missions recommended by the National Research Council (NRC) Decadal 
Survey. In fiscal year 2011, the Earth Science Technology Program will 
make additional, competitively-selected, instrument technology 
investments to meet decadal survey measurement goals. Earth Science 
Research and Applied Sciences Programs will continue to employ 
satellite observations to advance the science of climate and 
environmental change, mitigation, and adaptation. NASA will demonstrate 
the use of Uninhabited Aerial Systems in field campaigns addressing 
atmospheric trace gas composition and hurricane genesis, and NASA's 
modeling and data analysis efforts will contribute to assessment 
activities of the Intergovernmental Panel in Climate Change and the 
U.S. Global Change Research Program.
    The fiscal year 2011 budget request for Science includes $1,485.8 
million for Planetary Science. The current NASA planetary missions 
continue to make new discoveries and return fascinating images, 
including a previously unknown large and askew ring of Saturn and a 
near-complete map of the surface of Mercury. Mars continues to intrigue 
with signs of water ice just below the surface at mid-latitudes. The 
Mars rover Spirit is now an in situ science prospector, while 
Opportunity continues to roll toward the crater Endeavor. The Moon 
Mineralogy Mapper instrument on India's Chandrayaan-1 mission detected 
small amounts of water and hydroxyl molecules at unexpectedly low 
latitudes on the lunar surface. NASA selected three new candidate 
mission concepts for further study under the New Frontiers program, and 
will select the winning concept in fiscal year 2011 to proceed to 
development. NASA will issue its next Discovery Announcement of 
Opportunity this year, and will select mission concepts and fund 
concept studies in fiscal year 2011. NASA will also begin Advanced 
Stirling Radioisotope Generator development in fiscal year 2011 to be 
available as an option to improve the performance of the radioisotope-
fueled power sources for use in the next Discovery mission. The Mars 
Science Laboratory will complete development in fiscal year 2011 for 
launch in fall 2011, beginning the most comprehensive astrobiology 
mission to the Red Planet to date. The MAVEN Mars aeronomy mission will 
continue development for launch in late 2013. NASA will establish a 
joint Mars Exploration Program with the European Space Agency (ESA) 
with a trace gas orbiter mission, including a European technology 
demonstration lander. In fiscal year 2011, NASA plans to select 
instruments for the mission via a joint Announcement of Opportunity. To 
advance scientific exploration of the Moon, NASA will launch the GRAIL 
mission in late 2011 and continue development of LADEE for launch in 
2013. Continuing its exploration of the outer planets, NASA will launch 
the Juno mission to Jupiter in August 2011. NASA will continue studies 
that support the possibility of a new major Outer Planets Mission 
concept pending the outcome of the NRC decadal survey now in progress, 
and will coordinate with ESA on a solicitation for science instruments. 
The new NRC Decadal Survey in Planetary Science should be complete in 
fiscal year 2011. The fiscal year 2011 budget request increases NASA's 
investment in identification and cataloging of Near Earth Objects and, 
with the Department of Energy, begins funding the capability to restart 
Plutonium-238 production here in the United States.
    The fiscal year 2011 budget request for Science includes $1,076.3 
million for Astrophysics. The golden age of Astrophysics from space 
continues, with 14 observatories in operation. Astrophysics research, 
technology investments, and missions aim to understand how the universe 
works, how galaxies, stars and planets originated and developed over 
cosmic time, and whether Earth-like planets--and possibly life--exist 
elsewhere in the cosmos. The NASA Kepler telescope has discovered five 
exoplanets, ranging in size from Neptune to larger than Jupiter, 
demonstrating that the telescope is functioning as intended; additional 
discoveries are anticipated in the coming months and years. NASA's 
newest space observatory, WISE (Wide-Field Infrared Explorer), has 
captured its first look at the starry sky and its sky survey in 
infrared light has begun. Radio astronomers have uncovered 17 
millisecond pulsars in our galaxy by studying unknown high-energy 
sources detected by the Fermi Gamma-ray Space Telescope.
    The Hubble Space Telescope is operating at its peak performance 
thanks to the very successful servicing mission last year by the STS-
125 crew. The Herschel and Planck missions, led by the European Space 
Agency with NASA as a partner, launched in 2009 and are returning 
remarkable scientific results. In fiscal year 2011, NASA will complete 
most of the development of the NuSTAR mission and prepare it for 
launch. NASA will also begin developing the Gravity and Extreme 
Magnetism (GEMS) mission recently selected in the Explorer small 
satellite program. The James Webb Space Telescope (JWST) continues to 
make good progress in development toward a 2014 launch. Flight hardware 
for the many JWST subsystems is being designed, manufactured and 
tested, including the 18 segments of its 6.5-meter primary mirror; and 
the mission-level Critical Design Review for JWST will occur this 
spring. The SOFIA airborne observatory successfully conducted its first 
open-door flight test in December 2009--a major milestone toward the 
beginning of early science operations this year. The NRC is conducting 
a new Decadal Survey in astronomy and astrophysics, which will set 
priorities among future mission concepts across the full spectrum of 
Astrophysics, including dark energy, gravity wave, and planet-finding 
missions; the ``Astro2010'' Decadal Survey is expected in September.
    The fiscal year 2011 budget request for Science includes $641.9 
million for Heliophysics. The Heliophysics operating satellites provide 
not only a steady stream of scientific data for the NASA research 
program, but also supply a significant fraction of critical space 
weather data used by other Government agencies for support of 
commercial and defense activities in space. These data are used for 
operating satellites, optimization of power transmission networks, and 
supporting communications, aviation and navigation systems. The NASA 
Aeronomy of Ice in Mesosphere (AIM) satellite has provided the first 
comprehensive, global-scale view of the complex life cycle of Earth's 
highest clouds, Polar Mesospheric Clouds, finding clues to why they 
appear to be occurring at lower latitudes than ever before. The STEREO 
B spacecraft recently observed a sunspot behind the Sun's southeastern 
limb--before it could be seen from Earth. In a few days, this sunspot 
produced five Class M solar flares of the kind that disturb radio 
signals on Earth, signaling the end of the Sun's extended quiet period 
of recent years. The Solar Dynamic Observatory (SDO), launched on 
February 11, will provide images of the Sun of unprecedented 
resolution, yielding new understanding of the causes of solar 
variability and its impact on Earth. In fiscal year 2011, the Radiation 
Belt Storm Probes mission will complete hardware manufacturing and 
begin integration and testing. The Solar Orbiter Collaboration with the 
European Space Agency will continue in formulation, and the Solar Probe 
Plus mission will undergo an initial confirmation review at the end of 
fiscal year 2011. The Magnetospheric Multi-scale mission will continue 
development toward a Critical Design Review. IRIS, a recently selected 
small Explorer mission, will hold its Critical Design Review in fiscal 
year 2011. The next Explorer Announcement of Opportunity will be 
released in 2010, with selection for Phase A studies in fiscal year 
2011. NASA is working with the NRC to arrange for the next decadal 
survey in Heliophysics.

                          AERONAUTICS RESEARCH

    The U.S. commercial aviation enterprise is vital to the Nation's 
economic well being, directly or indirectly providing nearly 1 million 
Americans with jobs. In 2008 aerospace manufacturing provided the 
Nation with a trade surplus of over $57 billion. In the United States, 
more than 60 certified domestic carriers operate more than 28,000 
flights daily, moving nearly 1 million travelers each day. We expect 
these flights to be safe, affordable, and convenient. We expect 
airlines to offer flights when and where we want to travel. In business 
and in our personal lives, the aviation industry is a key enabler to 
our way of life and the smooth functioning of our economy. However, the 
air transport system is near maximum capacity given today's procedures 
and equipment. Rising concerns about the environmental and noise 
impacts of aviation further limit future growth.
    The fiscal year 2011 budget request for Aeronautics is $579.6 
million, an increase of $72.6 million, which will strongly support our 
existing portfolio of research and development to directly address 
these most critical needs of the Nation and enable timely development 
of the Next Generation Air Transportation System (NextGen). Through a 
balanced research and development portfolio, NASA's Aeronautics 
Research Mission Directorate (ARMD) is exploring early-stage innovative 
ideas, developing new technologies and operational procedures through 
foundational research, and demonstrating the potential of promising new 
vehicles, operations, and safety technology in relevant environments. 
Our goals are to expand capacity, enable fuel-efficient flight 
planning, reduce the overall environmental footprint of airplanes today 
and, in the future, reduce delays on the ground and in the sky, and 
improve the ability to operate in all weather conditions while 
maintaining the current high safety standards we demand.
    The fiscal year 2011 budget request for Aeronautics includes $228.5 
million for the Fundamental Aeronautics Program, which seeks to 
continually improve technology that can be integrated into today's 
state-of-the-art aircraft, while enabling game-changing new concepts 
such as Hybrid Wing Body (HWB) airframes which promise reduced drag 
(thus improving fuel burn) and open-rotor engines which offer the 
promise of 20 percent fuel burn reduction compared to today's best jet 
engines. In partnership with Boeing and the Air Force, NASA has 
completed over 75 flights of the X48B sub-scale HWB aircraft at Dryden 
Flight Research Center in the last 2 years to explore handling and 
control issues. NASA is partnering with General Electric and Boeing to 
evaluate performance and integration of new open-rotor engine concepts 
in propulsion wind tunnels at the Glenn Research Center. NASA is also 
addressing key challenges to enable new rotorcraft and supersonic 
aircraft, and conducting foundational research on flight at seven times 
the speed of sound. American Recovery and Reinvestment Act funds have 
enabled NASA to recommission a full-scale airframe structural test 
facility and to improve wind tunnels at the Langley, Ames, and Glenn 
Research Centers that are needed to assess new concepts that hold the 
promise of significant reductions in aircraft weight and fuel 
consumption. In partnership with industry, NASA has just initiated the 
first new Government-funded effort on low NO<INF>X</INF> combustors in 
15 years. In fiscal year 2011, NASA will invest $20.0 million to 
design, build, and demonstrate a new generation of aircraft engine 
combustors that will lower the emission of harmful nitrogen oxides by 
50 percent compared with current combustors while ensuring 
compatibility with current and future alternative aviation fuels.
    A key research goal is to develop synthetic and bio-derived 
alternatives to the petroleum-derived fuel that all jet aircraft have 
used for the last 60 years, but little is known about the emissions 
characteristics of these alternative fuels. In 2009, NASA led a team of 
eight partners from Government agencies, industry, and academia in 
measuring emissions from an aircraft parked on the ground operating on 
various blends of synthetic and standard jet fuel. This team discovered 
that synthetic fuel blends can reduce particulate emissions by as much 
as 75 percent compared to conventional jet fuels, which would offer a 
major improvement in local air quality around airports. Using results 
from this and other research efforts, NASA has established a publicly-
available database of fuel and emissions properties for 19 different 
fuels and will perform similar tests on biofuels as they become 
available.
    The fiscal year 2011 budget request for Aeronautics includes $82.2 
million for Airspace Systems. The focus of this program is to develop 
improved air traffic management procedures, which will expand the 
capacity and reduce the environmental footprint of the air 
transportation system. Using flight data from just the top 27 airports 
in the country, NASA systems analysis results indicate that nearly 400 
million gallons of fuel could be saved each year if aircraft could 
climb to and descend from their cruising altitude without interruption. 
Another 200 million gallons could be saved from improved routing during 
the cruise phase of flight. Achievement of such operations requires 
that aircraft spacing in the air and on-time arrival and departure from 
the regions around our major airports be greatly improved. New 
satellite-based navigation aids such as the ADS-B system that the 
Federal Aviation Administration (FAA) is installing throughout the 
country can enable these improvements, but safe and efficient 
operational procedures must first be developed, validated, and 
certified for operational use. In 2009, NASA partnered with FAA, United 
Airlines, and Air Services Australia to validate pilot and controller 
procedures for a new concept originally developed by NASA that enables 
aircraft to safely conduct climbs and descents outside radar coverage 
in close proximity to nearby traffic. NASA also provided safety 
analyses needed for regulatory approval. The procedures benefit both 
airlines and the traveling public by providing long-haul oceanic flight 
with easier access to fuel-efficient, turbulence-free altitudes. United 
Airlines is expected to begin flying the oceanic in-trail procedures on 
revenue flights in May 2011.
    The fiscal year 2011 budget request for Aeronautics includes $113.1 
million for the Integrated Systems Research Program. Begun in fiscal 
year 2010, this program evaluates and selects the most promising 
``environmentally friendly'' engine and airframe concepts emerging from 
our foundational research programs for integration at the systems 
level. In fiscal year 2011, the program will test integrated systems in 
relevant environments to demonstrate that the combined benefits of 
these new concepts are in fact greater than the sum of their individual 
parts. Similarly, we are integrating and evaluating new operational 
concepts through real-world tests and virtual simulations. These 
efforts will facilitate the transition of new capabilities to 
manufacturers, airlines and the FAA, for the ultimate benefit of the 
flying public. In addition to strongly supporting our ongoing research 
portfolio, the fiscal year 2011 budget request includes increased 
funding to expand our research in new priority areas identified through 
close consultation with industry, academia and other Federal agencies. 
In fiscal year 2011, NASA will initiate a $30 million targeted effort 
to address operational and safety issues related to the integration of 
unmanned aircraft systems into the National Airspace System and augment 
research and technology development efforts by $20 million, including 
grants and cooperative agreements, to support NASA's environmentally 
responsible aviation research.
    The fiscal year 2011 budget request for Aeronautics includes $79.3 
million for the Aviation Safety Program. This program conducts research 
to insure that aircraft and operational procedures maintain the high 
level of safety which the American public has come to count on. Safety 
issues span aircraft operations, air traffic procedures, and 
environmental hazards and this program is supporting research and 
delivering results in all three areas. American carriers operate 6,500 
aircraft on more than 28,000 flights daily. For most of the day the FAA 
is controlling more than 4,000 aircraft in the sky at the same time. 
Further increases in capacity will require increased levels of 
automation for command and control functions and to analyze vast 
amounts of data, as well as increased complexity of the overall system. 
It now costs more to prove today's flight-critical systems are safe 
than it does to design and build them. The Joint Planning and 
Development Office has identified Verification and Validation (V&V) of 
aviation flight-critical hardware and software systems as one of the 
major capability gaps in NextGen. Therefore in fiscal year 2011, NASA 
is initiating a new $20 million research activity in V&V of aviation 
flight-critical systems to develop methodologies and concepts to 
effectively test, validate and certify software-based systems that will 
perform reliably, securely, and safely as intended.
    NASA will continue to tackle difficult issues that threaten the 
safety of commercial flight, ranging from human/machine interaction to 
external hazards such as weather and icing, as the aircraft industry 
has come to rely on NASA expertise in predicting the effects of icing 
on aircraft performance at low and intermediate altitudes. However, 
over the last 10 years a new form of icing problem has surfaced, 
occurring primarily in equatorial regions at high cruise altitudes and 
causing engine power loss or flameout. These conditions cannot be 
duplicated in any existing ground test facility. To study this problem, 
in 2009 NASA initiated an effort to modify the Propulsion Systems 
Laboratory at the Glenn Research Center to enable research on ways to 
mitigate the effects of high-altitude icing and development of new 
engine certification procedures.
    The fiscal year 2011 budget request for Aeronautics includes $76.4 
million for the Aeronautics Test Program (ATP), which makes strategic 
investments to ensure availability of national ground facilities and 
flight assets to meet the testing needs of NASA and the Nation. The 
program also invests in the development of new test instrumentation and 
test technologies. One such example is ATP's collaboration with the 
Aviation Safety Program to provide a new testing capability in the 
NASA-Glenn PSL facility to address the threat of high-altitude ice 
crystals to jet engine operability. The program recently demonstrated 
for the first time the ability to generate ice crystals at the very 
cold temperatures (-60 F) encountered at commercial aircraft cruise 
altitudes. The PSL high-altitude ice crystal capability will become 
operational in fiscal year 2011. The program also completed the 
development of a new Strategic Plan to provide the vision and 
leadership required to meet national goals; provide sustained support 
for workforce, capability improvements, and test technology 
development; and provide strategic planning, management, and 
coordination with NASA, Government, and industry stakeholders. This 
plan will provide informed guidance as ATP develops a critical decision 
tool for building well-coordinated national testing capabilities in 
collaboration with the Department of Defense through the National 
Partnership for Aeronautical Testing (NPAT).
    Partnerships with industry, academia, and other Federal agencies 
are critical to the success and relevance of NASA research. Through 
close collaboration, NASA ensures that it works on the right challenges 
and improving the transition of research results to users. NASA is 
using NASA/FAA Research Transition Teams (RTTs) to conduct joint 
research and field trials to speed acceptance of new air traffic 
management procedures. The agency is also coordinating management and 
operation of the Federal Government's large aeronautics ground test 
infrastructure through the NPAT. Through NASA Research Announcements 
(NRAs), NASA solicits new and innovative ideas from industry and 
academia while providing support for Science, Technology, Engineering, 
and Math departments. The agency also funds undergraduate and graduate 
scholarships, Innovation in Aeronautics Instruction grants to improve 
teaching programs at the university level, and sponsor student design 
competitions at undergraduate and graduate levels for both U.S. and 
international entrants. By directly connecting students with NASA 
researchers and our industrial partners we become a stronger research 
organization while inspiring students to choose a career in the 
aerospace industry.

                              EXPLORATION

    The fiscal year 2011 budget request for Exploration is $4,263.4 
million, an increase of $483.6 million above the fiscal year 2010 
enacted level. Included in this budget request is funding for three 
new, robust programs that will expand the capabilities of future space 
explorers far beyond those we have today. NASA will embark on these 
transformative initiatives by partnering with the best in industry, 
academia and other Government agencies, as well as with our 
international partners. These partners have been integral to much of 
NASA's previous success and are vital to our bold new vision.
    NASA will encourage active public participation in our new 
exploration missions via a new participatory exploration initiative. 
Additionally, the fiscal year 2011 budget request builds upon NASA's 
commercial cargo efforts by providing significant funding for the 
development of commercial human spaceflight vehicles, freeing NASA to 
focus on the forward-leaning work we need to accomplish for beyond-LEO 
missions. The fiscal year 2011 budget request is a 40 percent increase 
over last year's investment in the Human Research Program, to help 
prepare for future human spaceflight exploration beyond low-Earth 
orbit. Lastly, the Exploration fiscal year 2011 budget request includes 
funding for the Constellation Program close out activities spread 
across fiscal year 2011 and fiscal year 2012.
    In the near term, NASA is continuing Constellation work to ensure 
an orderly closeout of the program in fiscal year 2011 and to capture 
of all of the knowledge learned through its key efforts. The 
Constellation Program is focusing on completing its Preliminary Design 
Review (PDR), which will conclude this year. NASA believes that 
completing the Constellation PDR will support not only the close-out 
process for Constellation, but also will ensure that historical data 
from Constellation work is documented, preserved and made accessible to 
future designers of other next-generation U.S. human spaceflight 
systems.
    The Exploration fiscal year 2011 budget request includes three new 
robust research and development programs that will enable a renewed and 
reinvigorated effort for future crewed missions beyond low-Earth orbit:
  --Technology Development and Demonstration Program.--$652.4 million 
        is requested in fiscal year 2011, and a total of $7,800.0 
        million is included in the 5 year budget plan, to invent and 
        demonstrate large-scale technologies and capabilities that are 
        critical to future space exploration, including cryofluid 
        management and transfer technologies; rendezvous and docking 
        technologies; and closed-loop life support systems. These 
        technologies are essential to making future exploration 
        missions more capable, flexible, and affordable.
  --Heavy-Lift and Propulsion Research and Development Program.--$559.0 
        million is requested in fiscal year 2011, and a total of 
        $3,100.0 million is included in the 5-year budget plan, for an 
        aggressive, new heavy-lift and propulsion R&D program that will 
        focus on development of new engines, propellants, materials and 
        combustion processes that would increase our heavy-lift and 
        other space propulsion capabilities and significantly lower 
        operations costs--with the clear goal of taking us farther and 
        faster into space consistent with safety and mission success.
  --Robotic Exploration Precursor Program.--$125.0 million is requested 
        in fiscal year 2011, and $3,000.0 million is included in the 5-
        year budget plan, for robotic missions that will pave the way 
        for later human exploration of the Moon, Mars and nearby 
        asteroids. Like the highly successful Lunar Reconnaissance 
        Orbiter and Lunar Crater Observation and Sensing Satellite 
        missions that captured our attention last fall, future 
        exploration precursor missions will scout locations and 
        demonstrate technologies to locate the most interesting places 
        to explore with humans and validate potential approaches to get 
        them there safely and sustainably.
    Cross-agency teams for each of these three areas are working to 
develop plans that delineate key areas for research and development, 
specify milestones for progress and set launch dates for relevant 
missions. They will report to the Administrator over the coming months, 
and the results of their efforts will be shared with the Congress when 
they are complete.
    The Exploration fiscal year 2011 budget request for Commercial 
Spaceflight is $812.0 million, which includes $500.0 million to spur 
the development of U.S. commercial human spaceflight vehicles, and a 
total of $6 billion in the 5-year budget plan. This investment funds 
NASA to contract with industry to provide astronaut transportation to 
the International Space Station as soon as possible, reducing the risk 
of relying solely on foreign crew transports, and frees up NASA 
resources to focus on the difficult challenges in technology 
development, scientific discovery, and exploration. We also believe it 
will help to make space travel more accessible and more affordable. An 
enhanced U.S. commercial space industry will create new high-tech jobs, 
leverage private sector capabilities and energy in this area, and spawn 
other businesses and commercial opportunities, which will spur growth 
in our Nation's economy. And, a new generation of Americans will be 
inspired by these commercial ventures and the opportunities they will 
provide for additional visits to space. NASA plans to allocate this 
fiscal year 2011 funding via competitive solicitations that support a 
range of activities such as human rating existing launch vehicles and 
developing new crew spacecraft that can ride on multiple launch 
vehicles. NASA will ensure that all commercial systems meet stringent 
human-rating and safety requirements before we allow any NASA crew 
member (including NASA contractors and NASA-sponsored International 
partners) to travel aboard a commercial vehicle on a NASA mission. 
Safety is, and always will be, NASA's first core value.
    In addition to the $500 million identified for crew transportation 
development efforts, the budget also includes $312.0 million in fiscal 
year 2011 for incentivizing NASA's current commercial cargo program. 
These funds--by adding or accelerating the achievement of already-
planned milestones, and adding capabilities or tests--aim to expedite 
the pace of development of cargo flights to the ISS and improve program 
robustness.
    Today, NASA is using $50.0 million from the American Recovery and 
Reinvestment Act of 2009 to help drive the beginnings of a commercial 
crew transportation industry. Through an open competition, in early 
February, NASA awarded Space Act Agreements to five companies who 
proposed ideas and concepts intended to make commercial crew services a 
reality. While there are many vibrant companies out there that we hope 
to partner with in the future, these five companies, along with our two 
currently funded Commercial Orbital Transportation Services partners 
(Space Exploration Technologies and Orbital Sciences Corporation) are 
at the forefront of a grand new era in space exploration.
    The Exploration fiscal year 2011 budget request includes $215.0 
million for the Human Research Program, an increase of more than 40 
percent over the fiscal year 2010 enacted level, and an investment of 
$1,075 million over the 5-year budget plan. The Human Research Program 
is a critical element of the NASA human spaceflight program in that it 
develops and validates technologies that serve to reduce medical risks 
associated for crew members.
    The Exploration fiscal year 2011 budget request includes $1,900.0 
million for Constellation Closeout requirements, and a total of 
$2,500.0 million over the fiscal year 2011-2012 timeframe. These funds 
will be used for related facility and close-out costs, potentially 
including increased costs for Shuttle transition and retirement due to 
Constellation cancellation. The agency has established senior planning 
teams to outline options for Constellation close out expeditiously and 
thoughtfully and to assess workforce, procurement and other issues, 
which will report to the Administrator over the coming months, to 
ensure that people and facilities are best utilized to meet the needs 
of NASA's new missions. NASA will work closely with the Congress as 
these activities progress.
    NASA recognizes that this change will personally affect thousands 
of NASA civil servants and contractors who have worked countless hours, 
often under difficult circumstances, to make the Constellation Program 
successful. I commend the investment that these dedicated Americans 
have made and will continue to make in our Nation's human spaceflight 
program. Civil servants who support Constellation should feel secure 
that NASA has exciting and meaningful work for them to accomplish after 
Constellation, and our contractor colleagues should know that NASA is 
working expeditiously to identify new opportunities for them to partner 
with the agency on the new Exploration portfolio.

                            SPACE TECHNOLOGY

    Through the new Space Technology Program, led by the recently 
established Office of the Chief Technologist, NASA will increase its 
support for research in advanced space systems concepts and game-
changing technologies, enabling new approaches to our current mission 
set and allowing the pursuit of entirely new missions. Using a wide 
array of management, funding, and partnership mechanisms, this program 
will engage the brightest minds in private industry, across the NASA 
Centers, and throughout academia. This new program builds upon the 
success of NASA's Innovative Partnerships Program and directly responds 
to input from multiple NRC reports, as well as the Augustine Committee. 
The Space Technology program will meet NASA's needs for new 
technologies to support future NASA missions in science and 
exploration, as well as the needs of other Government agencies and the 
Nation's space industry in a manner similar to the way NACA aided the 
early aeronautics industry. Many positive outcomes are likely from a 
long-term NASA advanced space systems concepts and technology 
development program, including a more vital and productive space future 
than our country has today, a means to focus NASA intellectual capital 
on significant national challenges and needs, a spark to renew the 
Nation's technology-based economy, an international symbol of our 
country's scientific and technological leadership, and a motivation for 
many of the country's best young minds to enter into educational 
programs and careers in engineering and science.
    The fiscal year 2011 budget request for Space Technology is $572.2 
million, and $4,925.9 million is included in the 5-year budget plan. 
With this initiative, NASA will expand its Technology and Innovation 
portfolio to include: open competitions to stimulate highly innovative, 
early-stage space system concepts and ideas; development of 
technologies that can provide game-changing innovations to address NASA 
and national needs; and development and infusion of cross-cutting 
capabilities into missions that address needs from multiple NASA 
Mission Directorates, other Government agencies, and commercial 
activities in space, while fostering and stimulating a research and 
development culture at NASA Centers. Beginning in fiscal year 2011, 
activities associated with the Innovative Partnerships Program are 
transferred to Space Technology.
    The need for advanced capabilities is increasing as NASA envisions 
missions of increasing complexity to explore and understand the Earth, 
our solar system, and the universe. Technology and innovation are 
critical to successfully accomplishing these missions in an affordable 
manner. The Space Technology program will enhance NASA's efforts to 
nurture new technologies and novel ideas that can revolutionize our 
aerospace industrial base, as well as to address national and global 
challenges and enable whole new capabilities in science and exploration 
that will be of benefit to the Nation. Key focus areas include 
communications, sensors, robotics, materials, and propulsion. The Space 
Technology program will use open competitions such as NASA Research 
Announcements and Announcements of Opportunity, targeted competitions 
such as those for small business (SBIR), universities (STTR), and 
engage early career scientists and engineers. NASA will also continue 
to use challenges and prizes to stimulate innovative new approaches to 
technology development and will encourage partnerships with both 
established and emerging commercial space industries. Through the three 
major elements of this program--Early-Stage Innovation, Game-Changing 
Innovation, and Crosscutting Capabilities--a broad suite of management, 
funding and partnership mechanisms are employed to stimulate innovation 
across NASA, industry and academia.
    The Early-Stage Innovation program element sponsors a wide range of 
advanced space system concept and initial technology development 
efforts across academia, industry and the NASA Centers. This program 
element includes: (a) the Space Technology Research Grant program 
(analogous to the Fundamental Aeronautics program within NASA's 
Aeronautics Research Mission Directorate) that focuses on foundational 
research in advanced space systems and space technology; (b) re-
establishment of a NIAC-like Program to engage innovators within and 
external to the agency in accordance with the recommendations of the 
NRC's Fostering Visions of the Future report; (c) enhancement of the 
Innovative Partnership Programs Seed Fund into a Center Innovations 
Fund to stimulate aerospace creativity and innovation at the NASA field 
Centers; (d) NASA's SBIR/STTR program to engage small businesses; and 
(e) the Centennial Challenges Prize Program to address key technology 
needs with new sources of innovation outside the traditional aerospace 
community. Competitive selection is a major tenet of all the activities 
within this low technology readiness level (TRL) program element.
    The Game Changing Innovation program element focuses on maturing 
advanced technologies that may lead to entirely new approaches for the 
agency's future space missions and solutions to significant national 
needs. Responsive to the NRC report, America's Future in Space: 
Aligning the Civil Space Program with National Needs, this program 
element demonstrates the feasibility of early-stage ideas that have the 
potential to revolutionize future space missions. Fixed-duration awards 
are made to PI-led teams comprised of Government, academia and industry 
partners. These awards are evaluated annually for progress against 
baseline milestones with the objective of maturing technologies through 
ground-based testing and laboratory experimentation. NASA intends to 
draw from DARPA's experience to create and implement collaborative 
game-changing space technology initiatives. New technologies considered 
may include advanced lightweight structures and materials, advanced 
propulsion, power generation, energy storage and high bandwidth 
communications. With a focus on such potentially revolutionary 
technologies, success is not expected with each investment; however, on 
the whole, and over time, dramatic advances in space technology 
enabling entirely new NASA missions and potential solutions to a wide 
variety of our society's grand technological challenges are 
anticipated.
    A Crosscutting Capabilities program element matures a small number 
of technologies that are of benefit to multiple customers to flight 
readiness status. Technical risk, technology maturity, mission risk, 
customer interest, and proposed cost are discriminators planned for use 
in the selection process. For infusion purposes, proposing teams are 
required to have a sponsor willing to cost share a minimum of 25 
percent of the planned development effort. With objectives analogous to 
the former New Millennium program, NASA will pursue flight 
demonstrations not only as standalone missions, but also as missions of 
opportunity on planned NASA missions as well as international and 
commercial space platforms. The Commercial Reusable Suborbital Research 
Program (which provides suborbital flight opportunities for technology 
demonstrations, scientific research and education), the Facilitated 
Access to the Space environment for Technology (FAST) project (which 
focuses on testing technologies on parabolic aircraft flights that can 
simulate microgravity and reduced gravity environments) and the Edison 
Small Satellite Demonstration Missions project (which develops and 
operates small satellite missions in partnership with academia). are 
also included in this program element.
    NASA has had past success in the development of game-changing 
technologies and the transfer of its products and intellectual capital 
to industry. As an example, consider the Mars Pathfinder mission of the 
early 1990s. In addition to accomplishing its science and technology 
objectives, Mars Pathfinder established surface mobility and ground 
truth as important exploration principles, created a groundswell of 
interest and a foundational experience for a new generation of Mars 
scientists and engineers, re-engaged the public with Mars as a 
destination worthy of exploration, led to the creation of NASA's Mars 
program and establishment of a Mars program budget line, and led to a 
wide spectrum of small missions to Mars, the asteroids, comets and 
other bodies in our solar system. For NASA's robotic exploration 
program, Mars Pathfinder was clearly a game-changer. In a more recent 
example, consider NASA's recent improvements to thermal protection 
system (TPS) materials through an Advanced Capabilities development 
project. Over 3 years, a NASA-industry team raised the TRL of 8 
different TPS materials from 5 different commercial vendors, eventually 
selecting the best as the system for the Orion heat shield. In addition 
to providing a heat shield material and design for Orion on time and on 
budget, this Advanced Capabilities development project re-invigorated a 
niche space industry that was in danger of collapse, re-established a 
NASA competency able to respond to future TPS needs. For example, the 
team identified a potentially catastrophic problem with the planned MSL 
heat shield and remedied the problem by providing a viable alternate 
heat shield material and design within stringent schedule constraints. 
The mature heat shield material and designs have been successfully 
transferred to the commercial space industry, including the TPS 
solution for the SpaceX Dragon capsule. Beginning in fiscal year 2011, 
the new NASA Space Technology program aims to strengthen and broaden 
these successful innovation examples across a wide range of NASA 
enterprises and significant national needs.

                            SPACE OPERATIONS

    The fiscal year 2011 budget request includes $4,887.8 million for 
Space Operations, funding the Space Shuttle program, the International 
Space Station Program, and the Space and Flight Support program.
    The fiscal year 2011 budget request for the Space Shuttle program 
is $989.1 million. In 2009, the Space Shuttle flew five times, 
delivering to the ISS its final set of solar arrays and the equipment 
needed to support a six-person permanent crew; servicing the Hubble 
Space Telescope; completing the assembly of the three-module Japanese 
Kibo science laboratory; outfitting the Station with two external 
payload and logistics carriers, the Materials Science Research Rack-1, 
the Fluid Integrated Rack, the Minus 80-Degree Laboratory Freezer, a 
treadmill, and air revitalization equipment; and, delivering key 
supplies.
    In 2010, the Shuttle is slated to fly out its remaining four 
missions, including the recently completed STS-130 mission. In April, 
Shuttle Discovery will carry up critical supplies for the ISS using a 
Multi-Purpose Logistics Module (MPLM) and the Lightweight Multi-Purpose 
Experiment Support Structure Carrier (LMC). Atlantis will launch in May 
with the Russian Mini-Research Module-1, as well as the Integrated 
Cargo Carrier--Vertical Light Deployment (ICC-VLD). This summer, 
Endeavour will carry the Alpha Magnetic Spectrometer (AMS) and attach 
it to the Station's truss structure. The AMS is a particle physics 
experiment, which will use the unique environment of space to advance 
knowledge of the universe and contribute to understanding the 
universe's origin. AMS is presently undergoing critical thermal and 
electrical testing at the European test facilities in the Netherlands. 
If these tests are successful, AMS will ship to KSC in May for the July 
launch. The final Shuttle mission, STS-133, is targeted for September 
of this year. Discovery will carry supplies to ISS, as well as an MPLM 
that will be installed on ISS as a permanent module, expanding the 
Station's storage volume. This flight will mark the completion of ISS 
assembly.
    For almost 30 years, the Space Shuttle has carried U.S. and 
international astronauts into orbit; played a key role in the 
construction, outfitting, and resupply of the ISS; serviced the Hubble 
Space Telescope five times; served as an Earth-orbiting laboratory 
through the Spacelab and SpaceHab missions; and deployed a diverse 
array of payloads, including science probes and research experiments 
(such as the Magellan mission to Venus and Earth-orbiting tether 
experiments), communications satellites; and even student projects. 
NASA recognizes the role the Space Shuttle vehicles and personnel have 
played in the history of space activity, and looks forward to 
transitioning key workforce, technology, facilities, and operational 
experience to a new generation of human spaceflight exploration 
activities.
    Fiscal year 2011 will be the first full year of major Space Shuttle 
Program (SSP) transition and retirement (T&R) activities. T&R is 
focused on the retirement of the SSP and the efficient transition of 
assets to other uses once they are no longer needed for safe mission 
execution. These activities include identifying, processing, and safing 
hazardous materials, and the transfer or disposal of SSP assets, 
including the preparation of Orbiters and other flight hardware for 
public display. T&R also covers severance and retention costs 
associated with managing the drawdown of the SSP workforce.
    A key element of America's future in space is the International 
Space Station. The fiscal year 2011 budget request for the 
International Space Station Program is $2,779.9 million. As of May 
2009, the ISS has been able to support a 6-person permanent crew, and 
during the STS-127 mission last July, the Station hosted 13 astronauts 
representing the 5 space agencies in the ISS partnership, including 
those of the United States, Russia, Japan, Europe and Canada. The three 
major science labs aboard ISS were completed in 2009 with the delivery 
of the Exposed Facility of the Japanese Kibo module. In addition, the 
first flight of Japan's H-II Transfer Vehicle (HTV) was successfully 
carried out last fall, adding a new cargo-carrying spacecraft to the 
fleet.
    This year will mark the completion of assembly of the ISS--the 
largest crewed spacecraft ever assembled, measuring 243 by 356 feet, 
with a habitable volume of over 30,000 cubic feet and a mass of 846,000 
pounds, and powered by arrays which generate over 700,000 kilowatt-
hours per year. The ISS represents a unique research capability aboard 
which the United States and its partner nations can conduct a wide 
variety of research in biology, chemistry, physics and engineering 
fields which will help us better understand how to keep astronauts 
healthy and productive on long-duration space missions. Funding for ISS 
research is also reflected in the Exploration budget request and in the 
Space Technology budget request.
    The fiscal year 2011 budget request includes a dramatic increase in 
the Nation's investment in the research and capabilities of the ISS. 
With this investment, NASA will be able to fully utilize the ISS and 
increase those capabilities through upgrades to both ground support and 
onboard systems. Importantly, this budget extends operations of the 
ISS, likely to 2020 or beyond. This budget makes a strong commitment to 
continued and expanded operation of the ISS. The United States as 
leader in space made this first step and will now work with the other 
ISS international partners to continue International operation of the 
ISS. ISS can inspire and provide a unique research platform for people 
worldwide.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The fiscal year 2011 budget request for ISS reflects 
increased funding to support the ISS as a National Laboratory in which 
this latter type of research can be conducted. NASA has two MOUs with 
other U.S. Government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS. This budget request supports both an increase in research and 
funding for cargo transportation services to deliver experiments to the 
Station.
    ISS can also play a key role in the demonstrations and engineering 
research associated with exploration. Propellant storage and transfer, 
life support systems, and inflatable technology can all benefit by 
using the unique research capabilities of ISS.
    In addition to supporting a variety of research and development 
efforts, the ISS will serve as an incubator for the growth of the low-
Earth orbit space economy. NASA is counting on its Commercial Resupply 
Services (CRS) suppliers to carry cargo to maintain the Station. The 
first CRS cargo flights will begin as early as 2011. It is hoped that 
these capabilities, initially developed to serve the Station, may find 
other customers as well, and encourage the development of further space 
capabilities and applications. The suppliers involved will gain 
valuable experience in the development and operation of vehicles that 
can: (1) fly to the ISS orbit; (2) operate in close proximity to the 
ISS and other docked vehicles; (3) dock to ISS; and, (4) remain docked 
for extended periods of time.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, longterm, 
international effort; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
    The fiscal year 2011 budget request for Space and Flight Support 
(SFS) is $1,119.0 million. The budget request provided for critical 
infrastructure indispensable to the Nation's access and use of space, 
including Space Communications and Navigation (SCaN), the Launch 
Services Program (LSP), Rocket Propulsion Testing (RPT), and Human 
Space Flight Operations (HSFO). The SFS budget also includes a new and 
significant investment in the 21st Century Space Launch Complex, 
intended to increase operational efficiency and reduce launch costs by 
modernizing the Florida launch capabilities for a variety of NASA 
missions, which will also benefit non-NASA users.
    In fiscal year 2011, the SCaN Program will begin efforts to improve 
the robustness of the Deep Space Network (DSN) by initializing the 
replacement of the aging 70m antenna capability with the procurement of 
a 34m antenna. The NASA DSN is an international network of antennas 
that supports interplanetary spacecraft missions and radio and radar 
astronomy observations for the exploration of the solar system and the 
universe. The DSN also supports selected Earth-orbiting missions. In 
the third quarter, a System Requirements Review (SRR) of the Space 
Network Ground Segment Sustainment (SGSS) Project will be conducted, 
and the Program will have begun integration and testing of the Tracking 
and Data Relay Satellites (TDRS) K&L. In the area of technology, the 
Communication Navigation and Networking Reconfigurable Testbed 
(CoNNeCT) will be installed on ISS. This test bed will become NASA's 
orbiting SCaN laboratory on the ISS and will validate new flexible 
technology to enable greater spacecraft productivity. NASA will also 
have its first optical communication system ready for integration into 
the Lunar Atmosphere and Dust Environment Explorer (LADEE) spacecraft. 
In addition, the Disruption Tolerant Networking (DTN) protocols will 
complete their development at the end of fiscal year 2011 and should be 
ready for operations throughout the solar system. The SCaN operational 
networks will continue to provide an unprecedented level of 
communications and tracking services to over 75 spacecraft and launch 
vehicles during fiscal year 2011.
    The LSP has five planned NASA launches in fiscal year 2011 
including Glory, Aquarius, Juno, NPOESS Preparatory Project (NPP) and 
the Gravity Recovery and Interior Laboratory (GRAIL) mission. In 
addition to processing, mission analysis, spacecraft integration and 
launch services, LSP will continue to provide support for the 
development and certification of emerging launch services.
    The RPT Program will continue to provide test facility management, 
and provide maintenance, sustaining engineering, operations, and 
facility modernization projects necessary to keep the test-related 
facilities in the appropriate state of operational readiness. These 
facilities will support many of the tests planned under ESMD's 
propulsion research program.
    HSFO includes Crew Health and Safety (CHS) and Space Flight Crew 
Operations (SFCO). SFCO will continue to provide trained crew for the 
manifested Space Shuttle requirements, four ISS long-duration crew 
rotation missions. CHS will identify and deliver necessary core medical 
capabilities for astronauts. In addition, CHS will gather astronaut 
medical data critical for determining medical risk as a result of space 
flight and how best to mitigate that risk.
    The 21st Century Launch Complex initiative will primarily benefit 
NASA's current and future operations at the Kennedy Space Center (KSC), 
but will also help to improve KSC launch operations for future and 
current non-NASA users of the range, with the goal of transforming KSC 
into a modern facility. This new initiative focuses on upgrades to the 
Florida launch range, expanding capabilities to support commercial 
launch providers, such as commercial cargo flights and future 
commercial crew flights in support of ISS, and expendable launch 
vehicles in support of the Science mission directorate payloads and 
robotic precursor missions. Additional areas under consideration 
include modernization activities to support safer and more efficient 
launch operations; enhancing payload processing capabilities through 
capacity increases, improvement, and modernization, in addition to 
potentially relocating the KSC perimeter where appropriate and 
feasible, to enable certain existing private sector facilities to lie 
outside the security perimeter, thus making it far more convenient to 
use those facilities; environmental remediation to reduce the impact on 
the surrounding areas; and supporting the modernization of the launch 
range capabilities. We will fully coordinate this activity with all 
users of the range.

                               EDUCATION

    The fiscal year 2011 budget request for Education is $145.8 
million. This budget request furthers NASA's commitment to inspiring 
the next generation of explorers in the STEM disciplines. In fiscal 
year 2011, NASA will continue to strongly support the administration's 
STEM priorities and will continue to capitalize on the excitement of 
NASA's mission to stimulate innovative solutions, approaches, and tools 
that inspire student and educator interest and proficiency in STEM 
disciplines. This strategy will increase the distribution and impact of 
NASA progressive opportunities for elementary and secondary teachers, 
university faculty, students of all ages, and the public.
    In fiscal year 2011, NASA will support the administration's STEM 
education teaching and learning improvement efforts, including Race to 
the Top and Educate to Innovate, while continuing efforts to 
incorporate NASA content into the STEM education initiatives of other 
Federal agencies. This summer, NASA will launch Summer of Innovation, 
an intensive STEM teaching and learning program targeted at the middle 
school level that includes follow-on activities during the school year. 
NASA content and products will be incorporated into evidence-based 
summer learning programs across participating States with the goal of 
improving student academic performance and motivating them to pursue 
further education and successful careers. The fiscal year 2011 request 
includes funding for Summer of Innovation over a 3-year period.
    NASA will also continue to partner with academic institutions, 
professional education associations, industry, and other Government 
agencies to provide K-12 teachers and university faculty with the 
experiences that capitalize on the excitement of NASA discoveries to 
spark their student's interest and involvement. Examples of such 
experiences are the NASA student launch initiatives and other hands-on 
payload development and engineering opportunities. The fiscal year 2011 
budget request also places increased emphasis on Education and cyber-
learning opportunities and expands teacher pre-service, professional 
development and training programs. Additionally, NASA seeks to prepare 
high school students for undergraduate STEM study through experiences 
that blend NASA research and engineering experiences with classroom 
study and mentoring. Another agency education goal is to broaden 
community college participation in NASA research and STEM workforce 
development.
    In fiscal year 2011, the agency aims to increase both the use of 
NASA resources and the availability of opportunities to a diverse 
audience of educators and students, including women, minorities, and 
persons with disabilities. An example is the Innovations in Global 
Climate Change Education project that will be implemented within the 
Minority University Research and Education Program. The project will 
seek innovative approaches to providing opportunities for students and 
teachers to conduct research using NASA data sets to inspire 
achievement and improve teaching and learning in the area of global 
climate change.

                          CROSS-AGENCY SUPPORT

    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes two themes: Center 
Management and Operations and Agency Management and Operations. The 
fiscal year 2011 budget request includes $3,310.2 million for Cross 
Agency Support.
    NASA's fiscal year 2011 budget request includes $2,269.9 million 
for Center Management and Operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects.
    NASA's fiscal year 2011 budget request includes $1,040.3 million 
for Agency Management and Operations, which funds the critical 
management and oversight of agency missions, programs and functions, 
and performance of NASA-wide activities, including five programs: 
Agency Management, Safety and Mission Success, Agency Information 
Technology Services, and Strategic Capabilities Assets Program. 
Beginning in fiscal year 2011, activities associated with the 
Innovative Partnerships Program are transferred to the Space Technology 
program. The fiscal year 2011 budget request provides:
  --$428.1 million for Agency Management, which supports executive-
        based, agency-level functional and administrative management 
        requirements. Agency Management provides for the operational 
        costs of Headquarters as an installation; institutional and 
        management requirements for multiple agency functions; 
        assessment and evaluation of NASA program and mission 
        performance; strategic planning; and independent technical 
        assessments of agency programs.
  --$201.6 million for Safety and Mission Success activities required 
        to continue strengthening the workforce, training, and 
        strengthening the fundamental and robust checks and balances 
        applied on the execution of NASA's mission, and to improve the 
        likelihood for safety and mission success for NASA's programs, 
        projects, and operations. The engineering, safety and mission 
        assurance, health and medical independent oversight, and 
        technical authority components are essential to NASA's success 
        and were established or modified in direct response to many of 
        the key Challenger and Columbia accident board recommendations 
        for reducing the likelihood for future accidents. Included 
        under Safety and Mission Success is the Software Independent 
        Verification and Validation program.
  --$177.8 million for Agency Information Technology Services, which 
        encompasses cross-cutting services and initiatives in IT 
        management, applications, and infrastructure necessary to 
        enable the NASA Mission and improve security, integration and 
        efficiency of agency operations. NASA plans significant 
        emphasis on continued implementation of five major agency-wide 
        procurements to achieve the following: (1) consolidation of IT 
        networks leading to improved network management, (2) 
        consolidation of desktop/laptop computer services and mobile 
        devices to improve end-user services, (3) data center 
        consolidation to provide more cost-effective services, (4) 
        agency public Web site management to improve access to NASA 
        data and information by the public, and (5) agency business 
        systems development and maintenance to provide more efficient 
        and effective business systems. NASA will also continue to 
        improve security incident detection, response, and management 
        through the Security Operations Center.
  --$29.8 million for the Strategic Capabilities Assets Program (SCAP). 
        This program funds the costs required to sustain key agency 
        test capabilities and assets, such as an array of flight 
        simulators, thermal vacuum chambers, and arc jets, to ensure 
        mission success. SCAP ensures that assets and capabilities 
        deemed vital to NASA's current and future success are sustained 
        in order to serve agency and national needs. All assets and 
        capabilities identified for sustainment either have validated 
        mission requirements or have been identified as potentially 
        required for future missions.
       construction and environmental compliance and restoration
    NASA Construction and Environmental Compliance and Restoration 
provides for the design and execution of all facilities construction 
projects, including discrete and minor revitalization projects, 
demolition for closed facilities, and environmental compliance and 
restoration. The fiscal year 2011 budget request includes $397.4 
million for Construction and Environmental Restoration, made up of:
  --$335.3 million for the Construction of Facilities (CoF) Program, 
        which funds capital repairs and improvements to ensure that 
        facilities critical to achieving NASA's space and aeronautics 
        program are safe, secure, environmentally sound, and operate 
        efficiently. The agency continues to place emphasis on 
        achieving a sustainable and energy-efficient infrastructure by 
        replacing old, inefficient, deteriorated building with new, 
        efficient, high performance buildings that will meet NASA's 
        mission needs while reducing future operating costs.
  --$62.1 million for Environmental Compliance and Restoration (ECR) 
        Program, which supports the ongoing cleanup of current or 
        former sites where NASA operations have contributed to 
        environmental problems. The ECR Program prioritizes these 
        efforts to ensure that human health and the environment are 
        protected for future missions. This program also supports 
        strategic investments in environmental methods and practices 
        aimed at reducing NASA's environmental footprint and lowering 
        the risks of future cleanups.

                               CONCLUSION

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the subcommittee on implementation of the fiscal year 2011 budget 
request.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.

                           NATIONAL AERONAUTICS AND SPACE ADMINISTRATION--PRESIDENT'S FISCAL YEAR 2011 BUDGET REQUEST SUMMARY
                                                       [Budget Authority, in millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            Fiscal Year
                                                  Fiscal Year    Recovery       2010     Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                  2009 Actual      Act        Enacted        2011         2012         2013         2014         2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science:
    Earth Science...............................      1,377.3        325.0      1,420.7      1,801.8      1,944.5      2,089.5      2,216.6      2,282.2
    Planetary Science...........................      1,288.1  ...........      1,341.3      1,485.7      1,547.2      1,591.2      1,630.1      1,649.4
    Astrophysics................................      1,229.9         75.0      1,103.9      1,076.3      1,109.3      1,149.1      1,158.7      1,131.6
    Heliophysics................................        607.8  ...........        627.4        641.9        647.6        679.8        704.4        750.8
                                                 -------------------------------------------------------------------------------------------------------
      Total, Science............................      4,503.0        400.0      4,493.3      5,005.6      5,248.6      5,509.6      5,709.8      5,814.0
                                                 =======================================================================================================
Aeronautics and Space Research and Technology:
    Aeronautics Research........................        500.0        150.0        507.0        579.6        584.7        590.4        595.1        600.3
    Space Technology............................  ...........  ...........  ...........        572.2      1,012.2      1,059.7      1,063.9      1,217.9
                                                 -------------------------------------------------------------------------------------------------------
      Total, Aeronautics and Space Research and         500.0        150.0        507.0      1,151.8      1,596.9      1,650.1      1,659.0      1,818.2
       Technology...............................
                                                 =======================================================================================================
Exploration:
    Exploration Research and Development........  ...........  ...........  ...........      1,551.4      2,577.4      3,318.9      3,623.3      3,979.3
    Commercial Spaceflight......................  ...........  ...........  ...........        812.0      1,400.0      1,400.0      1,300.0      1,300.0
    Constellation Transition....................  ...........  ...........  ...........      1,900.0        600.0  ...........  ...........  ...........
    Constellation Systems.......................      3,033.2        400.0      3,325.8  ...........  ...........  ...........  ...........  ...........
    Advanced Capabilities.......................        472.3  ...........        454.0  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total, Exploration........................      3,505.5        400.0      3,779.8      4,263.4      4,577.4      4,718.9      4,923.3      5,179.3
                                                 =======================================================================================================
Space Operations:
    Space Shuttle...............................      2,979.5  ...........      3,139.4        989.1         86.1  ...........  ...........  ...........
    International Space Station.................      2,060.2  ...........      2,317.0      2,779.8      2,983.6      3,129.4      3,221.9      3,182.8
    Space and Flight Support....................        725.0  ...........        724.2      1,119.0      1,220.6      1,123.9      1,140.7        947.7
                                                 -------------------------------------------------------------------------------------------------------
      Total, Space Operations...................      5,764.7  ...........      6,180.6      4,887.8      4,290.2      4,253.3      4,362.6      4,130.5
                                                 =======================================================================================================
Education.......................................        169.2  ...........        183.8        145.8        145.8        145.7        145.7        146.8
                                                 =======================================================================================================
Cross-Agency Support:
    Center Mgmt & Ops...........................      2,024.3  ...........      2,067.0      2,270.2      2,347.4      2,427.7      2,509.7      2,594.3
    Agency Mgmt & Ops...........................        921.2  ...........        941.7        841.2        842.2        849.1        856.8        867.9
    Institutional Investments...................        293.7         50.0         23.4  ...........  ...........  ...........  ...........  ...........
    Congressionally Directed Items..............         67.2  ...........         63.0  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total, Cross-Agency Support...............      3,356.4         50.0      3,095.1      3,111.4      3,189.6      3,276.8      3,366.5      3,462.2
                                                 =======================================================================================================
Construction and Environmental Compliance and
 Restoration:
    Construction of Facilities..................  ...........  ...........        381.1        335.2        316.3        319.5        344.6        349.0
    Environmental Compliance and Restoration....  ...........  ...........         67.2         62.1         47.5         47.4         48.9         49.5
                                                 -------------------------------------------------------------------------------------------------------
      Total, Construction and Environmental       ...........  ...........        448.3        397.3        363.8        366.9        393.5        398.5
       Compliance and Restoration...............
                                                 =======================================================================================================
Inspector General...............................         33.6          2.0         36.4         37.0         37.8         38.7         39.6         40.5
                                                 =======================================================================================================
      Total, NASA Fiscal Year 2011..............     17,782.4      1,002.0     18,724.3     19,000.0     19,450.0     19,960.0     20,600.0     20,990.0
                                                 =======================================================================================================
          Year to Year Change (percent).........  ...........  ...........          5.3          1.5          2.4          2.6          3.2          1.9
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 SAFETY

    Senator Mikulski. Thank you very much, Administrator 
Bolden.
    I am going to ask a few questions, and then the courtesy of 
Senator Shelby says we will turn to Senator Bennett. Then we 
will return to our regular order and go straight on down. Does 
that sound like a good way to go?
    Administrator Bolden, I have many questions. Actually, I 
have 13 pages of questions. And my original questions were 
going to focus, of course, on space science as well as human 
exploration, but I think we have got to get right to the human 
exploration aspects.
    My No. 1 concern, while we have to always look at the 
budget, is the safety of the astronauts. Many members on this 
subcommittee have been to launches, but we have also been there 
when the Challenger went down, and witnessed the terrible 
tragedy of the Columbia. We say a grateful Nation will never 
forget. Well, whatever course of action, we don't want to 
forget.
    So my question will be the safety standards. First of all, 
how will you ensure the safety of the astronauts in this new 
proposed program? And will NASA have one safety standard for 
humans in space, not one safety standard for Government 
development programs that are very tough and another for 
commercial companies?
    One commercial company said they could produce a crew 
vehicle in 3 years. Well, that sounds promising. It also sounds 
ambitious. My look at the history books showed that the shuttle 
took 12 years from when President Nixon approved it to the 
first human test, from 1969 to 1981. Again, tell me about the 
safety standards, and are we going to have one set of safety 
standards for low-orbit and commercial vehicles and so on, 
because it would be my hope that there is one safety standard.
    Administrator Bolden. Madam Chair, as has been pointed out 
already by several speakers, I was a member of the Aerospace 
Safety Advisory Panel, the NASA safety advisory panel that now 
advises me. When I was a member of that panel, as John Frost, 
who will testify after me will comment, we were concerned that 
NASA was not sharing its human rating requirements with the 
commercial vendors.
    I think and I hope Mr. Frost will attest to the fact that 
since my becoming the NASA Administrator, we share the human 
rating standards with all of the prospective vendors, whether 
they are large or small business, whether they are 
entrepreneurial or not. We are actually developing a set of 
human rating requirements for commercial vehicles that will 
take the massive numbers of engineering requirements and 
various other requirements and put them in one source document 
that will be available for all who wish to enter the commercial 
launch market.
    In terms of safety and reliability are very interesting 
factors. When I talk about safety of a vehicle and satisfying 
myself that a vehicle is safe, there are a number of criteria 
that have to be met. The No. 1 criteria are demonstrated 
reliability. I would point out that we have three candidate 
vehicles at the present time: Ares I, Falcon 9, and Taurus II. 
The demonstrated reliability of all three vehicles is zero. We 
have never flown an Ares I. We have never flown a Falcon 9. We 
have never flown a Taurus II. So while there are predictions of 
the safety of all these vehicles and their reliability, they 
are equal. They are all zero.
    I will also point out that when we flew the space shuttle, 
when I came to NASA in 1980, the predicted reliability and 
safety factors for the space shuttle, I think, was going to be 
1 in 1,000. We were going to fly 50 flights a year. I think 
most people know that we now struggle, the maximum we flew when 
I was in the astronaut office, I think we had a banner year in 
which we flew nine space shuttle missions. That was an 
incredible year for us.
    The demonstrated reliability of the space shuttle today is 
1 in 125, or somewhere in that neighborhood. So I would caution 
anyone to get carried away with predicted safety and predicted 
reliability numbers because we all know, as we say in the 
military, that no plan survives crossing the line of departure. 
So I am very comfortable that I can guarantee before I put a 
human being in any vehicle, whether it is Government-produced 
or commercially produced, it will meet the safety standards 
that have been required.
    Senator Mikulski. Do I take it to say that there will be 
one safety standard?
    Administrator Bolden. There will be one safety standard for 
any vehicle that carries human beings from this planet to 
anywhere.

                          CONTRACT TERMINATION

    Senator Mikulski. Well, thank you for that. I would like to 
ask a contract termination question. Because if this is what 
you want, if this is what the President is proposing, how do 
you intend to handle contract termination and the workforce 
dislocation? But for us, and I know others will be asking 
questions about safety----
    Administrator Bolden. Yes, ma'am.
    Senator Mikulski. But what is your plan for the contractors 
who will be forced to terminate your work if this proposal is 
accepted? And are you planning to terminate all Constellation 
contracts? The issue of saving technology is one thing, but 
this has tremendous implications for our budget.
    Administrator Bolden. Yes, ma'am. Madam Chair, we are in 
the process of transitioning the Constellation program from 
where it was when I inherited it to where it is going to be in 
the future. The term contract--termination liability, potential 
termination liability is one that has caused a lot of angst 
recently, and it is because it is a term that is used in 
procurement and it is a factor in all of NASA contracts. Every 
NASA contract has a stipulation that the contractor should 
provide for termination expenses, and every contractor knows 
that. So we are not changing requirements. We are not modifying 
requirements. Those have existed in prior NASA contracts, and 
they exist in our contracts today.
    Senator Mikulski. I am puzzled by this. How have you been 
reminding contractors of their obligation to have reserve 
funds. How does that square with the fiscal 2010 appropriations 
law that prevents you from terminating or restructuring 
contracts for this fiscal year?
    Administrator Bolden. I cannot terminate anything that has 
to do with the Constellation program, and we are doing that. If 
I can just make just one minor correction--we are not informing 
contractors that they have to maintain reserve funds. We are 
reminding them that it is their responsibility to determine--I 
guess technically for them, it is to determine what level of 
risk the company is willing to accept in terms of being able to 
handle a termination if it should come. So we are not telling 
them that they need to reserve funds. We are telling them that 
they do have to be aware of the fact that termination 
liabilities, some of them lie on them by their contract. It is 
the company's determination of what level of risk they want to 
incur, whether they put aside funds or whether they assume that 
they are not going to need them.
    Senator Mikulski. Well, I want to ask more about this.
    Administrator Bolden. Yes, ma'am.
    Senator Mikulski. I do want to make sure that other members 
have a chance.
    Senator Bennett.
    I have a great deal of questions about this.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Madam Chairwoman, and 
I very much appreciate your courtesy in allowing me to 
participate in this.
    General Bolden, I am a businessman. If I was sitting on the 
board of directors and you were making this pitch to the board 
of directors as to the direction in which you are going to take 
the company, I would tell you, you haven't made the sale. And 
let me give you four areas where I think you have failed to 
make the sale.

                           PREPARED STATEMENT

    By the way, Madam Chairwoman, I have a formal statement and 
would appreciate it put in the record.
    Senator Mikulski. Without objection.
    [The statement follows:]

            Prepared Statement of Senator Robert F. Bennett

    Madam Chairwoman, I would like to express my appreciation to you 
for allowing me to join this subcommittee hearing this morning. This 
issue is extremely important to Utah and to me personally, so I am 
sincere in my gratitude.
    Utah has a rich history in supporting NASA's human space 
exploration missions. For decades, talented workers in Utah have helped 
engineer, design, and manufacture solid rocket motors that have safely 
and efficiently launched our astronauts into outer space. We have 
launched over 100 shuttle flights, all of which have begun their 
journey on solid rocket motors made in Utah, a fact of which I am 
extremely proud. Even though there have been some setbacks along the 
way, they have made us stronger and have taught us valuable lessons 
that have made subsequent flights safer and more reliable.
    And now, at the end of this year, the Space Shuttle that has helped 
the United States maintain its role as the leader in space exploration, 
leading to life-changing technological discoveries along the way, will 
be retired. But the end of the Space Shuttle was not supposed to be the 
end of human space exploration. Rather, the Constellation program, 
which grew out of the Challenger disaster several years ago, was 
supposed to seamlessly take over for the Space Shuttle to continue to 
ferry our astronauts to the International Space Station and, 
eventually, beyond low-earth orbit by venturing back to the moon and 
eventually to mars, a plan that was approved by both Republican and 
Democratic leadership.
    And now after several years and billions of dollars of investment 
in this program, the President has decided to cancel the program. Why? 
To me, it's not clear, and neither the President nor anyone in his 
administration has made a compelling case for why we should abandon the 
Constellation program. The President made a decision to cancel the 
Constellation program and laid out his vision for space exploration 
earlier this year, and then last week he ``revised'' that vision. This 
type of ``on-the-fly'' decisionmaking has made me very concerned about 
who may actually be making these decisions.
    Regardless, I have several very serious concerns about canceling 
the Constellation program. If we are going to cancel this program and 
pursue a different path, we should only do so under the following 
conditions: (1) the President has demonstrated a clear vision for human 
space exploration and adequately explained why it is superior to the 
Constellation program; (2) the alternative provides significant 
advantages in cost, schedule, performance, and safety; (3) the 
potential consequences of changing course mid-stream do not outweigh 
the anticipated advantages of such a significant shift in policy; and 
(4) we are able to maintain our leadership in space exploration. 
Unfortunately, the President's alternative plans to replace the 
Constellation program fail these conditions miserably.
    First, since the President announced he was cancelling the 
Constellation program, he has already announced changes to his new 
plan. His new plan is short on details and expected costs, relying on 
the commercial industry to take over the role of transporting crew and 
cargo to the International Space Station, increasing the role of 
robotics for exploration, and speeding up development of a ``heavy 
lift'' vehicle by 2015. The problem is that the commercial industry has 
not proven to be able to meet any safety or budget deadlines and the 
Constellation program already has a heavy lift vehicle, the Ares V, in 
the works. So, here we have a program that is meeting all of its 
milestones and has a demonstrated capability to achieve our space 
objectives with Constellation, and we are scrubbing it for a commercial 
industry that has not proven its worth in space travel and for a heavy 
lift vehicle that we will begin working on in 5 years. And do we intend 
to go to the moon? To Mars? To an asteroid? What exactly do we hope to 
achieve with the new plan envisioned by the President? The problem is I 
can't tell.
    Second, the President's alternative plan will actually cost us more 
money and delay our ability to get ourselves into space. The Ares 
program, which is a major component of Constellation, is a prime 
example of how this program is on track. Just last year we launched a 
successful test flight of the Ares I rocket. It went perfectly. It has 
been under design and testing phases for over 4 years, with $6 billion 
already invested in perfecting the rocket. The Ares I is built off of 
the same manufacturing format as the current rockets that have been 
putting our space shuttle into space for over two decades, so we know 
we have a proven technology that takes advantage of an existing 
manufacturing base and capability. Scrapping this investment and 
starting fresh does not make sense to my business sense. The Augustine 
Panel said we'd need about $3 billion a year to keep the program on 
track. This year alone the President wants to spend $2.5 billion to 
cancel the Constellation program, with billions more in funding set 
aside to subsidize the commercial industry. This makes no sense. And 
finally, the Ares I design is proven to be the safest mode of 
transporting our astronauts. The Safety Advisory Panel that found that 
the model embraced by Ares would be the safest for our astronauts, and 
now we are going to pretend that safety doesn't matter. This has me 
very concerned. The President's alternative plan does not provide 
significant advantages in cost, schedule, performance, or safety.
    My third point of concern is regarding the consequences of 
canceling Constellation. I don't believe the administration fully 
understands the drastic impact this decision will have on our national 
security. Ending Constellation will devastate an industrial base 
critical to our national security. The Constellation Program is powered 
by the Ares I, a large scale solid rocket motor. If there are no large 
solid rocket motors in production with the cancelation of Constellation 
(other than NAVY D-5 at 12 motors a year under their ``warm line'' 
program), the current industrial base will be too large to support 
small solid motor production, requiring massive layoffs. In Utah alone, 
this means losing about 2,000 jobs. Producing only small solid motors 
would not be sufficient to keep the supplier base engaged as many of 
them would go out of business or stop producing highly specialized 
components because the economies of scale won't justify the decision to 
remain in business. This will certainly lead to price spikes at the 
Department of Defense for smaller tactical missiles (which are solids-
based), and lead to hundreds of millions of dollars in price increases 
on tactical weapons systems every year. It could also mean that DOD may 
have difficulty getting solid-based tactical missiles produced in the 
future at all, which is not good for either readiness or costs.
    And finally, I don't believe the current plan of the President will 
allow the United States, a country which has been the leader in space 
technology development for over 40 years, to continue to lead the world 
in space exploration. It's almost embarrassing that we will rely on the 
Russians to take our astronauts into space starting next year. And what 
happens if the commercial industry isn't able to deliver on time? Do we 
rely on the Russians for the next decade to meet our space needs? And 
what about other emerging nations like China and India? Will they 
surpass the United States? Of course I applaud other nations in further 
developing their technologies, but I believe if we continue down the 
path this President wants to take us, we will lose our global 
competitive advantage that space exploration has helped us develop. We 
cannot allow this to happen.

                                SCIENCE

    Senator Bennett. The four areas that I think you haven't 
made the sale are No. 1, the science; No. 2, protecting the 
industrial base; No. 3, the money; and No. 4, the law. And let 
me run through those very quickly, and then you can respond to 
them as you will.
    You made a statement just now that I find incredible when 
you say the demonstrated reliability of Ares is zero. Now, you 
probably have seen this, but let me show it to you. Time 
magazine just 6 months ago, in November 2009, published the 50 
best inventions of the year, and No. 1 of the 50 is Ares--the 
best invention of the year. Doesn't sound like shabby science 
to me. It doesn't sound like something that is obsolete.
    And they say--you can contradict this--they talk about 
this, and I am quoting from Time, ``In 2004, the U.S. committed 
itself to sending astronauts back to the Moon and later to 
Mars, and for that, you need something new and nifty for them 
to fly. The answer is the Ares I, which had its first unmanned 
flight on October 28 and dazzled even the skeptics.''
    That doesn't sound like there is no demonstration of 
reliability. I think there is a definition problem here. None 
of the other things you talked about can match the tested 
perfection of Ares with the test that has already been done. So 
I challenge that one.

                            INDUSTRIAL BASE

    No. 2, the industrial base, you said the President will 
make a decision as to what will be done by 2015. If you kill 
the industrial base of solid rocket motors now with this 
action, in 2015 you cannot get it back.
    This is not like--this is not saying, ``Well, we are going 
to stop buying this kind of car, and we will look at buying 
another kind of car or pickup truck or SUV 4 or 5 years from 
now, and there is an industrial base that will have those kinds 
of cars or trucks available to us.'' This is the only game in 
town.
    And you shut down the industrial base of rockets, solid 
rocket motors, and there will be no contractors available in 
2015 if you make the decision that is the way you want to go. 
And I think that is a very significant issue you have to 
address now.

                          PROTECTING THE MONEY

    No. 3 Money, you have not made the case that this is going 
to save money. And let me point out two particular things with 
respect to money. On the--Senator Shelby has referred to this 
already--the fiscal 2011 budget includes $2.5 billion in 
Constellation contract termination costs; $6 billion for new 
commercial providers, whom we don't really know who they are, 
who likely will suffer the normal cost and schedule growth that 
has been referred to in the opening statements already with 
their level of inexperience; an additional $312 million for 
COTS money that was never planned.
    So you have got the $2.5 billion. You have got the 
uncertainty of where you are going. And it seems to me, a much 
more responsible use of taxpayer dollars would be to use the 
combined $8.8 billion that is represented in your budget to 
finish the program that has had 5 years' worth of progress and 
accomplishments and is designed to deliver a safer and more 
reliable way to send our astronauts to orbit than something 
that we are just guessing about.
    I think the prudent financial circumstance is to stay with 
what we have got instead of plunging into the unknown. And 
looking at construction costs, I would like you to address what 
I find a significant gap in your money calculations. You stated 
in congressional testimony that the Ares program to fly would 
cost approximately $4 billion a year.
    Doug Cook, the Associate Administrator for Exploration 
Systems Mission Directorate, recently stated in testimony that 
the recurring cost for Ares is $140 million per flight, you 
have got to have a lot of flights at $140 million to get to the 
$4 billion per year. I find that to be a disturbing kind of 
thing that I think you need to explain.

                           PROTECTING THE LAW

    Finally, the law, this subcommittee--Congress in the fiscal 
2010 omnibus appropriations bill expressly prohibited using any 
2010 funds to terminate or in any way change or modify the 
Constellation program. Just yesterday, ATK received a notice 
that funds for their contract under the launch abort system 
will be limited, and no additional funds will be forthcoming 
after April 30, 2010. That is a week away.
    It seems to me this is a clear violation of the law that 
says no money will be used--no funds will be used in any way to 
change or modify the program for fiscal 2010. Fiscal 2010 has 
not run out yet.
    So, to summarize what I said in the beginning, I think your 
conclusion on science runs afoul of the experience of what we 
have found with the testing of Ares. I think the threat to the 
industrial base casts doubt upon your ability to do something 
in 2015 if the President decides, or whatever President it is 
decides they want to go back to solid rocket motors. They won't 
be able to. I think your numbers on the money don't add up, and 
I think what is being done right now is a contravention of the 
law.
    So I would very much appreciate your reaction to those four 
points.

                                SCIENCE

    Administrator Bolden. Thank you, Senator. I will try to go 
down the line.
    The first thing is the science. And with all due respect, 
we are very proud of having been recognized for the No. 1 
invention of the year by a number of different authoritative 
publications and the like.
    Perhaps we were not very good in explaining to people that 
Ares I-X is not Ares. Ares I-X was a four-segmented rocket that 
had a dummy fifth stage, fifth segment, and a dummy interstage, 
and a dummy nose cap. The Ares I vehicle is a five-segmented 
solid rocket motor that has never flown.
    So we are very proud of Ares I-X and its recognition for 
what it did because it gave us 700 pieces of data from sensors 
that were put on the vehicle, and I always told people it was 
the greatest wind tunnel test conducted by humans ever. But 
that was not an Ares I. That was an Ares I-X, an experimental 
rocket that we wanted to do a number of things just to 
demonstrate that the shape and form would work.
    So the science does----
    Senator Mikulski. In the interest of time, we are not going 
to have a debate. We appreciate the extensive data that you 
could provide, but if you could answer the question, because 
there are several other members, I would like to keep a well-
paced hearing.

                          PROTECTING THE MONEY

    Administrator Bolden. Yes, ma'am. The money--there is a big 
difference between the per-flight cost and recurring costs. 
Most of the recurring costs from shuttle and from Constellation 
would come from just maintaining the infrastructure. So that is 
the reason that the money difference is.

                           PROTECTING THE LAW

    The law--we have not terminated any contracts. We have not 
directed anyone to stop work on anything. If you were talking 
about the launch abort system test that is still scheduled for 
May--I may be misunderstanding your comment. But the launch 
abort system test is still scheduled for May 5, and we are very 
much looking forward to seeing that because, again, we will get 
a lot of data from that test.

                            INDUSTRIAL BASE

    And then the industrial base, unfortunately, the solid 
rocket industry has been overcapitalized for many, many years. 
It was far overcapitalized for the shuttle because we said we 
were going to fly 100 missions a year, or 50 missions a year. 
And that is what it was set up to service. We ended up flying 
eight missions a year.
    It would have been overcapitalized--it was overcapitalized 
for the shuttle. It would have been grossly overcapitalized for 
Constellation. And so, the business decision, and since you are 
a businessman, sir, the business decision that needs to be made 
by the only company that is legitimately in that industry right 
now is ``how do I downsize?'' if they want to be competitive.
    There is a big difference between what NASA uses in solid 
rocket motors. We use large, segmented, solid rocket motors. 
Since the cancellation of the Titan program, there is no other 
use for that type of solid rocket motor. So we are carrying 70 
percent of the industry for a capability that nobody uses but 
NASA.
    I am concerned about the industrial base, and we are doing 
everything we can to work with our counterparts in DOD, to work 
with ATK to help them in any way we can because we still need 
solid rocket motors.
    Senator Mikulski. Administrator Bolden, we need really 
shorter----
    Administrator Bolden. Those are the four questions.
    Senator Mikulski. I need good answers, and so does Senator 
Bennett, but----
    Administrator Bolden. I am done.
    Senator Mikulski. No, he asked about the law.
    Administrator Bolden. I said, ma'am, we have not violated 
the 2010 Appropriations Act and the stipulations in that. I 
have not terminated any contracts nor directed people not to go 
forward with, to my knowledge.
    Senator Mikulski. Senator Bennett, I know you had many more 
questions. I must turn to other members. I want to ask the 
Administrator and also invite my colleagues to submit other 
questions in writing, to leave them open for the record so that 
there is an extensive record of these deliberations and proceed 
that way.
    Is that satisfactory?
    Senator Bennett. Absolutely, Madam Chairwoman. I very much 
appreciate your courtesy and apologize for letting my 
enthusiasm and desire to engage get hold of me.
    Senator Mikulski. We have got a lot of people who want to 
talk and ask questions.
    Let us turn to Senator Shelby, the ranking member.
    Senator Shelby. Thank you, Madam Chairwoman.

                             SPACE PROGRAM

    Madam Chairwoman, I have two articles. One appeared in 
Tuesday's Globe and Mail in Toronto regarding the space 
program, and one appeared in Florida Today, and I would like to 
ask that they be made part of the record.
    Senator Mikulski. Without objection.
    [The information follows:]

             [From Globe and Mail, Tuesday, April 20, 2010]

    There is no doubt, given the serious deficits facing the United 
States Government, that some retrenchment at NASA was unavoidable. The 
space administration will spend $18.6 billion in 2010, an increase of 
$900 million over 2009. These are not insignificant figures, even in 
the context of vast U.S. Government expenditures. However, the plan to 
fundamentally reposition NASA to concern itself more with ``earth 
science'' goes beyond an exercise in fiscal rectitude. U.S. President 
Barack Obama has lowered the ambition of America.
    In February, Mr. Obama cancelled the Constellation program, which 
committed the United States to returning people to the moon by 2020. 
``We've been there before,'' he said, adding ``there's a lot more of 
space to explore.'' Except that most experts think a Moon mission is a 
practical and necessary first step to sending people to Mars, and the 
cancellation means that the $10 billion already spent on the mission 
has been wasted.
    Mr. Obama's own plan, announced last week, really only feigns 
interest in space exploration, and indeed, were it not for some funding 
for a new crew capsule, would have effectively ceded manned spaceflight 
entirely to Russia. Mr. Obama did announce a fuzzy commitment to land 
on an asteroid by 2025, and to land people on Mars by 2035, but these 
are more or less sops to science fiction enthusiasts. Without an 
interim step of a return to the Moon, such missions may prove 
impracticable. Contrast this with Mr. Obama's 60 percent hike over the 
next 5 years in funding for NASA's Earth sciences program, with its 
overarching emphasis on climate change research.
    That is no doubt also a priority. But somehow, investments in Earth 
science research satellites, airborne sensors and computer models, do 
not have the same capacity to inspire the popular imagination, and 
generate the potential for game-changing innovation, as NASA's 
traditional mission to ``pioneer the future in space exploration.'' As 
Neil Armstrong has written, ``Without the skill and experience that 
actual spacecraft operation provides, the United States is far too 
likely to be on a long downhill slide to mediocrity.'' Under the Obama 
plan, space is not the final frontier, Earth is.
                                 ______
                                 

                  [From Florida Today, April 16, 2010]

  A ``Devastating'' Plan--Obama Doesn't get it; Space is Last Frontier
    KENNEDY SPACE CENTER.--President Obama in effect pulled the plug on 
our space program in a speech here Thursday, although he masked it with 
some vague long-term suggestions.
    The late President John F. Kennedy must have turned over in his 
grave. JFK launched the moon-landing program in the 1960s because he 
understood that any nation that wants to remain No. 1 on Earth must 
also be No. 1 in space.
    We are now No. 2 behind Russia and soon may be No. 3 behind China. 
Even India and Brazil are developing ambitious space programs.
    Obama's proposal not only abandons our space shuttle, he also has 
no timetable or real plan for what he says ultimately will send humans 
to Mars. Obama doesn't seem to care that soon we will have to hitchhike 
rides with the Russians just to get our astronauts to the International 
Space Station.
    Unfortunately, some political and business leaders in Florida are 
buying the Obama plan because it may provide a few jobs for some of 
those thousands who will be unemployed here when the shuttle program 
ends. That should not be the most important of our Nation's concerns.
    Fortunately, some of those who pioneered our space program get it. 
Neil Armstrong, the first human to step on the moon, called the Obama 
plan ``devastating.''
    Obama's proposal is all about money priorities and our inexcusable 
war costs, not about peaceful world leadership. His proposed budget for 
2011 makes that clear:
  --Wars.--$159.3 billion.
  --Space.--$19 billion. That suggests Obama thinks that wars in places 
        like Afghanistan and Iraq are nearly 10 times more important 
        than exploring the last frontier in space. I voted for Obama 
        for president. But. Neuharth lives in Cocoa Beach. He is the 
        founder of ``USA Today'' and FLORIDA TODAY.

                         CONSTELLATION PROGRAM

    Senator Shelby. And I would like to quote just a little 
from, first, Tuesday's Globe and Mail about the Obama plan. 
This plan basically, they say, and I paraphrase, ``U.S. 
President Barack Obama has lowered the ambition of America. 
Under the Obama plan, space is not the final frontier, Earth 
is.'' That is part of the article.
    Under the Florida Today article, appeared April 16, says, 
``Obama doesn't get it. Space is last frontier. President 
Obama, in effect, pulled the plug on our space program in a 
speech here Thursday,'' talking about in Florida, ``although he 
masked it with some vague, long-term suggestions. The late 
President John F. Kennedy must have turned over in his grave. 
JFK launched the Moon landing program in the 1960s because he 
understood that any nation that wants to remain No. 1 on Earth 
must also be No. 1 in space.''
    A couple of questions, it is my understanding, Mr. 
Administrator, that there has been a lot of internal discussion 
at NASA regarding how to circumvent the fiscal year 2010 
language that limits NASA's ability to terminate or to alter 
the current Constellation program. Given the importance of this 
issue, we need to understand here in the subcommittee the 
legality of the decisions NASA is making related to the program 
of record, especially in view of legislation.
    Could you provide to this subcommittee, the Appropriations 
Committee overview, within the next week a letter and the 
decision documents from NASA's general counsel regarding NASA's 
interpretation of the 2010 appropriations language and the 
applicability of the Antideficiency Act. Could you do that?
    Administrator Bolden. I will do that, sir.
    [The information follows:]

    There are no ``decision documents from NASA's General Counsel.'' 
NASA has neither intended nor attempted to circumvent the restriction 
on terminating Constellation programs, projects, or activities. 
Instead, NASA's focus has been on ensuring compliance with the strict 
terms of the provision. The fiscal year 2010 appropriations act 
contained a general appropriation for Exploration activities without 
specifically addressing the Constellation program. The appropriations 
act then included a provision that there be no termination or 
elimination of the architecture of Constellation, and no creation or 
initiation of a new program, project, or activity without further 
authority. The fiscal year 2010 appropriations act provided as follows:

``. . . Provided, That . . . none of the funds provided herein and from 
prior years that remain available for obligation during fiscal year 
2010 shall be available for the termination or elimination of any 
program, project or activity of the architecture for the Constellation 
program nor shall such funds be available to create or initiate a new 
program, project or activity, unless such program termination, 
elimination, creation, or initiation is provided in subsequent 
appropriations acts.''

    Title III, Consolidated. Appropriations Act, 2010, Public Law No. 
111-117, 123 Stat. 3034 (2009).
    GAO defines ``program, project, or activity'' (PPA) as ``an element 
within a budget account.'' Terms and Definitions, ``A Glossary of Terms 
Used in the Federal Budget Process,'' GAO-05-734SP Budget Glossary, 
September 2005. ``Program activity'' is defined as ``[a] specific 
activity or project as listed in the program and financing schedules of 
the President's budget.'' Id.
    Thus, based on established usage, the restriction on Constellation 
termination contained in the 2010 appropriations act is limited to 
termination of a PPA, or an element within the Exploration account. 
NASA has not terminated any specific contract, although NASA could do 
so under the restrictive language of the appropriations act, which only 
prohibits termination of any program, project, or activity of the 
Constellation architecture.
    The Antideficiency Act (``ADA'') provides in relevant part that no 
officer of the United States may make or authorize an expenditure or 
obligation exceeding an amount available in an appropriation, fund, or 
formal subdivision of funds. 31 U.S. Code Sec. Sec. 1341(a)(1), 1517. 
The ADA also requires that an agency ensure it does not contract for 
work in excess of the appropriations available to fund the work. 31 
U.S.C. Sec. Sec. 1341(a)(1), 1517. Most of the Constellation contracts, 
including all of the major primes, are incrementally-funded, cost-
reimbursement contracts, which are required to have, and do contain, a 
Limitation of Funds (``LOF'') clause to ensure work is performed within 
the limits of the funding allotted to the contract. The LOF clause 
(Federal Acquisition Regulation 52.232-22), in paragraph (h), states 
``the Government is not obligated to reimburse the Contractor for any 
costs incurred in excess of the total amount allotted by the Government 
to this contract, whether incurred in the course of the contract or as 
a result of termination'' (emphasis added). Allotted funding therefore 
includes all costs under the contract, for performance and for any 
costs resulting from termination.
    NASA is acting to comply with both the ADA and the fiscal year 2010 
appropriations act. The fiscal year 2010 appropriations act, 
prohibiting use of funds for termination of Constellation PPA, does not 
require that NASA risk an ADA violation, and certainly does not create 
an exception to the ADA. Reading the fiscal year 2010 appropriations 
act with the ADA, NASA is bound to take steps to ensure that the 
Constellation contracts are managed according to their existing terms, 
including the express terms of the Limitation of Funds clause. GAO, 
Principles of Appropriations Law Vol. 11, at 7-48 (2009). As stated 
previously. NASA has not terminated any Constellation contracts; but 
NASA has issued letters to two Constellation contractors, reminding the 
companies of obligations under the LOF clause. This is prudent contract 
management, intended to avoid coercive deficiencies in violation of the 
ADA, and should not be interpreted in any other way. Most importantly, 
it does not terminate any PPA within the Exploration account.

    Senator Shelby. Okay. Has NASA sought any guidance from the 
Department of Justice on this? And if so, what was their legal 
opinion? Could you----
    Administrator Bolden. Sir, I will submit that for the 
record.
    [The information follows:]

    NASA received input from the Department on the drafting of the 
letters referenced above. However, NASA did not receive a legal opinion 
from the Department.

    Senator Shelby. And the subcommittee.
    Administrator Bolden. Just in summary, the discussion with 
the Department of Justice had to do with potential termination 
liability, as the chairwoman was, Madam Chair was talking.

                         ARES I VERSUS FALCON 9

    Senator Shelby. Thank you.
    I want to get into Ares I versus the Falcon 9. General 
Bolden, it is my understanding that you have stated to 
congressional members that you think Ares and Orion are no 
safer than the Falcon 9 and Dragon capsule. However, according 
to a July 2009 independent safety review of rocket options 
initiated by NASA, the Valador report states that the Ares I 
launch vehicle ``is clearly the safest launch vehicle option 
and that it is superior to all other options.''
    What information do you have that validates the safety of 
the Falcon 9? And if you have it, would you furnish it to the 
committee?
    Administrator Bolden. Sir, we will get what information we 
have. But my comment to people over the last week has been, 
specifically when asked by Senator Hatch earlier, my gut tells 
me that Ares would be safer than anything else, but that is not 
what the data says.
    Senator Shelby. But you will furnish this to the 
subcommittee?
    Administrator Bolden. I will furnish the data, yes, sir. 
Yes, sir.
    [The information follows:]
                       Demonstrated Safety Record
    Any current risk estimates for future launch vehicles are based on 
modeling probabilistic risk analysis (PRA). When referring to safety 
records, demonstrated safety records are far more important.
    Both NASA's Ares-I program and SpaceX have launched test flights--
NASA's Ares I-X suborbital flight and SpaceX's inaugural Falcon 9 
orbital flight. However, even SpaceX has not yet flown its Dragon 
capsule, so these flights do not equate to a demonstrated safety 
record, and thus no design has yet proven itself to be safer.

                            ACCESS TO SPACE

    Senator Shelby. The new capsule plan. The latest plan 
restructures the Orion capsule so that it will be the--as we 
understand will be nothing more than a space station escape 
pod. I fail to see how this escape pod will lessen our reliance 
on other nations for our access to space. We are still going to 
pay the Russians for a roundtrip. We are going to pay for a 
commercial rocket and capsule, and we will now pay to build our 
own return vehicle. What is the--tell me, explain this to me.
    Administrator Bolden. Sir, the restructuring of the Orion 
program is actually an--it is my desire that it be an 
incremental approach to develop a vehicle that will one day 
take us to the Moon and Mars and beyond low-Earth orbit. We 
need to have a domestically produced capability to get crews 
back and forth to the International Space Station, and the 
original version that the President talked about last week 
would be a vehicle that we could get there much quicker than 
anyone else because we don't have to human rate it for ascent. 
We would send it to space just on any launch vehicle, but it 
would be rated to comply with the visiting vehicle requirements 
and rated for human rating for entry, descent, and landing.

                        COMMERCIAL SPACE FLIGHT

    Senator Shelby. General Bolden, if the commercial route is 
truly the route that you are headed; wouldn't it be cheaper and 
wiser to just use a Dragon capsule for this purpose? If not, 
why not?
    Administrator Bolden. Senator, we hope it would be cheaper 
and wiser, and that is our long-range intent. The first use of 
a restructured Orion, is because we think we can get it there 
in 3 years. So that gives us a domestically produced return 
vehicle on the International Space Station in 3 years. It also 
relieves some of the pressure from the commercial vendors to 
try to deliver a vehicle that has the human-rated capability in 
a shorter period of time.

                             SAFETY PROGRAM

    Senator Shelby. General, you are a four-time veteran of 
space flights as an astronaut, and each time you arrived safely 
home, thank God. You have also been a member of the Aerospace 
Safety Advisory Panel, a group that was founded to help ensure 
the safety of our astronauts. Of all the possible people to 
lead NASA on its missions of human exploration, you are more 
than qualified to understand the role of safety.
    Now you appear to be deliberately choosing to ignore safety 
concerns from the very people at NASA that you entrusted your 
life with and you came home four times. Could you explain to 
the subcommittee and the people at NASA who made the United 
States such a leader in space for 50 years, why you, as the 
Administrator, are ignoring their record, basically, they 
claim, of safety and engineering excellence?
    Administrator Bolden. Are you referring to the ASAP, sir?
    Senator Shelby. I am talking about the overall safety 
program.
    Administrator Bolden. Oh, I am not ignoring the inputs of 
anyone from the safety program.
    Senator Shelby. They believe you are.
    Administrator Bolden. If you ask Bryan O'Connor, who is my 
conscience, he is my Director of Safety and Mission Assurance, 
Bryan, I think, will tell you that I listen to him every day. 
John Frost is going to come up, and I think John Frost will 
tell you that I listen to him every day. We are decidedly 
looking at everyone's concerns on safety, and that is why I can 
assure everybody that before we put a human in a vehicle and 
launch him off this planet, we are going to have the safest 
possible vehicle.
    I am a safety professional. It is my life. It is in NASA's 
core values, and there are not a lot of other companies in the 
country that can say that safety is one of their core values.
    Senator Shelby. But you benefited from it four times, did 
you not?
    Administrator Bolden. I flew four times, and I had every 
confidence in the world that I was going to return safely to 
Earth, and that is going to be the case with every astronaut 
that I launch, whether they are on a privately produced 
vehicle, a foreign-produced vehicle, or any other vehicle.
    Senator Shelby. That is not the message that is being 
received at NASA right now.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Cochran.

                         ROBUST TESTING PROGRAM

    Senator Cochran. Madam Chairwoman, thank you for your 
leadership in this subcommittee.
    And Mr. Administrator, we appreciate your cooperation with 
the subcommittee. I remember our visit in my office when you 
were making the rounds of the Hill after assuming the position 
you now have, and I was very impressed with your commitment to 
moving us forward in the space exploration program, and got the 
impression that that also includes a robust testing program.
    We are very proud of the fact that in my State, the Stennis 
Space Center provides testing facilities and experience to help 
make sure that we do have demonstrated reliability, which were 
your words to describe your test for NASA safety standards.
    Do you continue to have the view that a robust testing 
program is essential to a reliable and safe and successful 
space exploration program?
    Administrator Bolden. Senator, I continue to hold that. 
There is nothing better than a robust testing program. The $312 
million that the President has proposed in the fiscal year 2011 
budget for commercial will allow us to buy down some risk by 
trying to help the commercial industries do maybe some more 
tests than they may have planned in their present portfolio. So 
I am a believer in tests.
    Senator Cochran. Well, I was worried that the budget 
request doesn't have any funds that are specifically designated 
for the testing program at Stennis Space Center.
    Administrator Bolden. Senator, the heavy-lift propulsion 
development program will contain tests that will be run at 
Stennis. I think you know we are continuing the retrofits to 
the A-3 test stand. We already have commercial entities that 
have contracted to test their engines at Stennis. Stennis is 
critical. It is vital to the future of any kind of space flight 
because we want it to be the center for testing of propulsion 
systems, whether they are for the military, commercial, or 
NASA.
    Senator Cochran. Well, that is reassuring, and I appreciate 
the clarification of that. I also want to let you know that we 
appreciate the comments that you are 100 percent committed to 
the mission of NASA and its future. Broadening our capabilities 
in space will continue to serve our society in ways we can 
scarcely imagine. I share that enthusiasm and commit to you our 
best efforts here in this subcommittee to identify how we can 
invest the public funds so that we achieve those goals.
    Administrator Bolden. Thank you, sir.
    Senator Cochran. Thank you.
    Senator Mikulski. Senator Voinovich.

               GLENN RESEARCH CENTER--PLUMBROOK FACILITY

    Senator Voinovich. Thank you, Madam Chairwoman.
    First of all, I would like to say that NASA Glenn in my 
State and the Plum Brook station are unique and a powerful 
resource for our State. More than 3,500 highly skilled civil 
service and contractor employees work at these facilities, and 
your agency's economic impact to the State exceeds $1.2 
billion.
    Further, it is a catalyst for 1,200 aerospace-related 
companies in our State, companies that employ more than 100,000 
Ohioans. And the undertow in a lot of the comments that you are 
getting today is that NASA has been very, very helpful to our 
respective States, and the Constellation program has been very 
important to NASA Glenn.
    On the other hand, last year, for every dollar this country 
spent, we borrowed 41 cents. Our debt is out of control. It is 
not sustainable. As far as we look down the road, we have 
budgets that are not balanced. And we have to come to some 
point where we start to analyze what we are doing. And I think 
that it is important that you do a better job of clarifying 
just exactly what it is that you are trying to get done.
    Administrator Bolden. Yes, sir.

                       PRIVATE SECTOR COMPETITION

    Senator Voinovich. Are you trying to get a rocket made real 
quickly so you can go up to the space station, and you think 
you can do it better by having competition from the private 
sector? Are you intending to go to Mars and the rest of it, as 
President Bush talked about? And if you are, I think you 
mentioned how far out is it and what are the things we have to 
do in order to reach it?
    But I think that you have to do a better job of clarifying 
things.
    Administrator Bolden. Yes, sir.

                     NASA AND COMMERCIAL COMPANIES

    Senator Voinovich. And the question I want to ask you is 
that the thing that you laid out in your budget represents a 
fundamental shift in the direction and fundamental shift in the 
relationship that NASA has with commercial companies. What was 
it about the way the agency has been doing business that led 
the agency and this administration to believe it is needed to 
undertake such a dramatic overhaul in the way you are doing 
business?
    Is it because of the budget? Is it because you think you 
can get there quicker by going the route you are going? Or is 
it a combination thereof?
    Administrator Bolden. Senator, if I can summarize it, the 
No. 1 thing is we are trying to meet the expectations of the 
Congress and the Nation that go back to the 2008 Space Act that 
put as a primary challenge to NASA to help develop a commercial 
space industry. We see that commercial space industry as 
allowing NASA to focus on exploration beyond low-Earth orbit, 
while the commercial industry provides access to low-Earth 
orbit. So it is a combination of things.
    But we are not trying to do anything fast. I have always 
heard it said if you want it quick and fast, you will get it 
quick and fast, and it probably won't be very good. So urgency 
is important. Speed is not something that I am asking my people 
to do with any of this, but I do want them to try to get us 
where we want to go with a sense of urgency.

                      INTERNATIONAL SPACE STATION

    Senator Voinovich. Well, there is a lot of feeling in the 
country that we are going to have to rely upon the Russians to 
get up to the International Space Station. And by the way, more 
countries should be paying for the operation of that, and I 
would like you to look into that and how we can get others to 
pick up the tab because we are not Uncle Sugar anymore. We are 
in a little different position. In fact, we are probably worse 
off than some of the people that are our partners up there.
    But the fact is people are concerned about that. How much 
are they going to charge us? How long is that going to last? 
That has got something to do with how people feel about where 
we are going. We want to get out from under them.
    Administrator Bolden. Yes, sir. Senator, that will require 
a fundamental change in the way that NASA and its partners have 
operated the International Space Station. From day one, the 
fundamental agreement was that the Russians would provide 
access for humans to and from the International Space Station. 
NASA, because we had the most remarkable vehicle ever known to 
man and the space station that could carry large cargo, would 
provide the vehicle to carry cargo to orbit. So it is not new 
that we rely on the Russians to get humans to the International 
Space Station and back. That has always been a basic, 
fundamental agreement in the partnership. So that is not new.

                    SUSTAINABLE EXPLORATION PROGRAM

    The other fundamental change is that this President, 
through his budget, has decided that he must and we must build 
a sustainable exploration program, and the way we were 
operating until now was not sustainable. That was my gut feel 
as an outside observer, in the 14 years that I was outside NASA 
after my leaving before and coming back now, and this--we are 
now going to have a sustainable program.
    Senator Voinovich. You are going to have to do a big job--
--
    Administrator Bolden. Oh, yes, sir. I understand.
    Senator Voinovich [continuing]. Convincing this 
subcommittee about it not being sustainable----
    Administrator Bolden. Yes, sir.
    Senator Voinovich [continuing]. And what you are doing with 
the money that we are going to make available to you. And many 
of us are interested in whether or not the money that we have 
already put into Orion is just going to be poured down the 
drain, or whether or not it is going to be able to stay in the 
game in terms of competition in order to go forward with this 
because of all the work that we have done.
    Administrator Bolden. Yes, sir. We intend to do that.
    Senator Mikulski. Senator Voinovich does that----
    Senator Voinovich. That is it.
    Senator Mikulski [continuing]. Complete your testimony?
    Senator Voinovich. Thank you.
    Senator Mikulski. Senator Hutchison.

                             SPACE PROGRAM

    Senator Hutchison. Well, thank you, Madam Chairwoman, and I 
do appreciate your holding this hearing, and I would say that 
as the ranking member of the Commerce Committee, I have invited 
the Administrator to come to a hearing next week where others 
have been invited, but have been told the Administrator is not 
available. And I hope, Madam Chairwoman, that changes, General 
Bolden, because I think after the incredible consequences of 
the President's decision that I would ask you to be available.
    Senator Mikulski. Senator, may I inquire the day, time and 
date of the hearing?
    Senator Hutchison. April 28 at what time? 2:30.
    Senator Mikulski. Perhaps, Senator, Administrator Bolden's 
able staff could check it while we are engaging in this 
questioning.
    Administrator Bolden. Madam Senator, I think there may be 
some confusion or lack of communications between your office 
and mine. It was my understanding that we had moved the hearing 
to May 12, and I was going to be there because I am scheduled 
to be at the Johnson Space Center on the day of the hearing 
that you originally scheduled, but we will resolve the issue.

                                SCIENCE

    Senator Hutchison. Thank you.
    General Bolden, I read your testimony. I have heard your 
testimony. I have heard the President's speech. And it just 
doesn't all come together. And I will say that I was one who 
was very supportive of your nomination for the reasons that 
others have stated because I knew that you would be committed 
to the missions of NASA and would understand it and would be a 
great leader.
    But I am concerned about a very mixed message. The 
President says that he is committed to science. I don't see how 
you can have a commitment to science, but not a commitment to 
having humans in space at the same time. Because the space 
station is right now one of the key areas of science. There are 
others--the Hubble, which I support completely, and all of the 
other scientific missions--but the space station is the future.

                      INTERNATIONAL SPACE STATION

    Congress and the President have embraced extending the 
space station until 2020, but we have not been assured that we 
can get people there. And I know you said that it isn't a 
change that the Russians were tasked with putting people in the 
space station, but it was always envisioned, in my estimation, 
that American shuttles would be going to the space station.
    For one thing, you have to make sure that you have the 
equipment. The second thing is you need to make sure that if 
there are repairs or something that you might need in the 
future, that you have the maximum capability. We were never 
going to have a gap in the beginning. Now, the gap started 
coming, of course, because, frankly, I think NASA has been 
starved throughout several administrations.
    So I think that you are going to have to work with us, I 
hope in a constructive way, toward keeping people in space and 
keeping American control over our own destiny.

                         COMMERCIAL CAPABILITY

    The emphasis, to the tune of $6 billion, into a very 
fledgling commercial capability I just think is not sound, and 
it is certainly not going to be reliable. They are very short--
I mean, it was even said that you have all of the expenses of 
closing down a contract, but then we are going to have to have 
new contracts.
    So let me just say that I am skeptical and very 
disappointed that we would have a goal of keeping science in 
the forefront, but no plan to keep people involved in that 
effort under American control and under the control of NASA.
    I think we are too heavily relying in the President's plan 
on commercial capabilities, which we had a hearing in Commerce 
Committee. We had the leaders of the commercial--the two 
commercial space operations. They are, in my opinion--I 
attended the hearing--not ready for this kind of reliance, and 
I don't think we can take that kind of chance.

                          CREW RETURN VEHICLE

    So let me just ask you the questions that I can. If the 
Russian Soyuz has an accident or something happens that the 
crew return vehicle isn't operable, what if you had the 
accident, and it grounded the Soyuz for an extended period of 
time and we don't have our own reliable efforts?
    Or I would ask you, how long would it take before the six-
person crew that would still be aboard the International Space 
Station at certain points would have to evacuate using two of 
the Soyuz vehicles that just experienced a critical failure, 
assuming the failure occurred on descent? I mean, what are your 
plans here?
    Administrator Bolden. Senator, I am going to try to 
understand the scenario you are placing. If that scenario takes 
place between now and 2015 with the existing program of record, 
Constellation, after shuttle is retired in September, or 
whenever we fly our last mission, we have no way to get 
Americans or anyone else to the station. We have two vehicles 
on station. We would be able to get the six-person crew home, 
but that would terminate all use of the International Space 
Station. The Constellation program was not going to provide 
that capability. The gap that you refer to actually began in 
2004, probably began even before then. But when the vision for 
space exploration was given and then not funded sufficiently, 
the gap began to materialize and grow and grow and grow.
    As Senator Voinovich mentioned, one of my primary drivers 
in recommending to the President what I did was I could not 
responsibly ask him to put the Nation into even more debt by 
putting the amount of money into Constellation that would have 
been required for us to try to catch it up. In fact, we still 
would not have been able to gain that gap. Money can do a lot 
of things. It would not have been able to close the gap 
appreciably. So we were looking at about 2015 before we would 
have a domestic, NASA-built, with industry, capability to get 
humans to space.
    Senator Hutchison. Well, General Bolden, the starving of 
NASA started before 2004.
    Administrator Bolden. Oh yes, ma'am. I agree. I agree.
    Senator Hutchison. I mean it has been starved for over 20 
years. And so, we don't need to place blame so much as we need 
to address the issue.
    Administrator Bolden. Yes, ma'am. I agree.

                         CONSTELLATION MISSION

    Senator Hutchison. And I am concerned. First of all, I 
think we need to go forward with the Constellation or the next 
generation. If skipping from Ares I to Ares I-X or Ares V is 
necessary, I am not committed to the Constellation, but I am 
committed to the Constellation mission.
    Administrator Bolden. Yes, ma'am.
    Senator Hutchison. Which is to transport people to and from 
the space station, and with all due respect, I think we ought 
to be looking at not adding to the number of shuttles, but 
delaying the timeframe. That would bridge a gap, and it can be 
done if all of us work together without an additional budget 
over and above what the President is asking. It is reworking 
the budget that the President has said is the budget.
    But if we had over 2 or 3 years, the same number of space 
shuttles so that you have the ability to assess and use the 
Soyuz in between to take people to and from, I think that would 
be a much more innovative approach. And it would give us more 
of the filling in of the gap for emergencies or for the 
scientific capabilities at the same time that we are developing 
our own Constellation-type operation.
    So I hope that we can work on something that would not say 
we are going to be closed down in September, and 2015 would be 
the first time. In fact, in your own testimony, you said that 
we would be able, under the President's plan which you are 
supporting, to put humans into space early in the next decade. 
Well, I am assuming that since this is 2010, you are talking 
about 2020. That is early in the next decade.
    Administrator Bolden. Perhaps I didn't make myself clear. 
Under the President's budget and his vision, we will have 
humans going beyond low-Earth orbit in 2020 or very shortly 
after that.
    I have just selected a class of astronauts in this past 
year who were brought on strictly to occupy and operate the 
International Space Station. In reference to your concern about 
science, we now have the capability with a fully occupied 
International Space Station to do incredible science. And 
thanks to the President recommending that we--and funding--
providing the funds to extend the International Space Station 
to 2020 and beyond, we now know that we are going to have 10 
more years of human occupation and science being done on-
station.

                  INTERNATIONAL SPACE STATION SURVIVAL

    Senator Hutchison. I know that my time is up. Let me finish 
with just the last direct question. And that is, the Soyuz has 
an accident, and we can't get there for 2 years or 3. How can 
the station survive? How is that possible? Even the Augustine 
report said----
    Administrator Bolden. Ma'am, the International Space 
Station use will, as I said, in the scenario that you mention 
in today's environment, with the program of record, 
unfortunately, because we allowed this gap to grow, there is no 
way to do what you and I both want to do. We will be single-
string once the shuttle stops flying.
    Senator Hutchison. I think we can----
    Administrator Bolden. We will be just like we were after 
the Columbia accident, for a couple years.
    Senator Hutchison. I think we can fix it, General Bolden.
    Administrator Bolden. Yes, ma'am.
    Senator Hutchison. And a couple years would be okay. Five, 
7, 10, is not okay, and I hope that all of the Senators that 
are interested in this will work with you, with the 
administration. I think we can do better than this.
    Thank you.
    Administrator Bolden. Thank you very much.

                        CLOSING REMARKS TO NASA

    Senator Mikulski. Thank you, Senator Hutchison.
    There are many more questions, but Mr. Frost has been quite 
patient. It is now 11:30. We anticipate a vote over the next 30 
minutes, so we want to hear from Mr. Frost and have time to 
really explore the safety issue.
    So, Ambassador you are in treaty negotiations. And what we 
will have will be a whole series of other questions we will 
submit to you and to your team for our record. I will have a 
particular set of questions related to space science and 
particularly also to green science.
    We are heartened by the fact that the President did provide 
reliable, undeniable, survivable $5 billion in the science 
appropriations request. But we just don't want to be spending 
money. We also want to be able to get results for our science.
    I am so proud of the work that is done at Goddard. You 
can't be the Senator that has the Hubble telescope kind of 
based in your State, if you will, through Goddard and the Space 
Telescope Institute at Hopkins, without being very proud of 
what we do in science. It is what the world relies on us to be 
able to do. We want to make sure we have money in the 
appropriations, but that we also have outcomes we seek. So we 
will move with that.
    So we will excuse you today. Obviously, there must be more 
conversations on this around our mission, around our workers 
and the industrial base, and look forward to further 
conversation with you.
    Administrator Bolden. Thank you very much.
    Senator Mikulski. Thank you very much.
    Administrator Bolden. I appreciate it. Thank you.
    Senator Mikulski. Thank you, Administrator Bolden.
    The chair now calls Mr. John C. Frost, who is a member of 
the NASA Aerospace Safety Advisory Panel. He comes with a 
distinguished background in safety, serving both DOD, as well 
as his work in NASA. And rather than going through a long bio, 
I am going to put your bio in the record so that, really, you 
come with extensive experience, outstanding credentials, and a 
real commitment to both safety and knowing what Government 
needs to do, that when Government asks people to do things that 
we keep them safe.
    [The information follows:]

                   Biographical Sketch of John Frost

    Mr. John C. Frost is an independent safety consultant who retired 
from Federal Service with 33 years of Safety Engineering experience. 
Mr. Frost was the Chief of Safety for the Army Aviation and Missile 
Command (AMCOM) with worldwide responsibility for missile and aircraft 
safety. Mr. Frost directed and implemented a comprehensive System 
Safety Program for all aspects of a major high technology organization 
that develops, fields and supports all of the state-of-the-art aircraft 
and missile/rocket systems for the Army worldwide and provides 
facilities and services for approximately 20,000 residents, workers, 
visitors and contractors on Redstone Arsenal. Prior to this, he served 
as the Chief of the MICOM Safety Office and held other supervisory 
positions leading various Missile Command (MICOM) System Safety, 
Radiation Protection, Explosive Safety, Test Safety and Installation 
Safety program elements. Mr. Frost began his Federal career in the 
Safety Office of the Army's Electronics Command at Fort Monmouth, New 
Jersey, where he became Chief of System Safety Engineering.
    Mr. Frost was born and raised in Birmingham, Alabama and earned a 
Bachelor of Science in Electrical Engineering from the University of 
Virginia where he was a DuPont Scholar. He completed a Master of 
Science specializing in safety engineering from Texas A&M and an 
additional year of advanced safety engineering training. Mr. Frost is a 
senior member of the International System Safety Society, a 
professional member of the American Society of Safety Engineers, and 
remains active in various system safety organizations and initiatives. 
He was previously registered in Massachusetts as a professional 
engineer in the specialty of safety engineering and as a certified 
safety professional. He and his wife Linda, of 33 years, have two sons, 
Christopher and Hampton.

    Senator Mikulski. So why don't we get right to your 
testimony, and thank you for your patience.

STATEMENT OF JOHN C. FROST, COUNCIL MEMBER, AEROSPACE 
            SAFETY ADVISORY PANEL
    Mr. Frost. Thank you, Madam Chair. I appreciate that, and I 
think that is a good path ahead.
    Good morning to you, to Ranking Member Shelby, and the rest 
of the subcommittee, if they had been here.
    I do appreciate the opportunity to approach the panel and 
explain our views on these issues. I am very comforted to see 
that you obviously have read what we have written and you are 
already very tuned in to our concerns.
    Our chairman, Admiral Dyer, could not be with us today, but 
he sends his regards to you all.
    The Aerospace Safety Advisory Panel, or the ASAP, was 
created by Congress in 1968 to provide independent safety 
assessments and recommendations to NASA after the tragic Apollo 
1 fire that took the lives of three of our astronauts. We also 
advise Congress on NASA's overall safety challenges and 
performance. We issue quarterly recommendations to the NASA 
Administrator, and we publish an annual report to Congress.
    Our role here may be somewhat unique because, as we say in 
Alabama, we don't have a dog in this fight. So maybe we can 
bring that view to the table.
    Before I begin, I want to express a heartfelt commendation 
that I believe is shared by every member of the ASAP. That 
commendation is for the quality of leadership and the 
commitment to safety that has long been demonstrated by 
Administrator, General Charlie Bolden. When it comes to the 
safety of our astronauts, I can think of no better hands for 
the agency to be in.
    Now, on to our key 2009 findings, first, the life of the 
space shuttle is nearing its end. In view of the inherent 
hazards of the shuttle design, the age of the critical 
subsystems that it contains, and the need to recertify the 
fleet, the panel believes that the life of the space shuttle 
should not be extended significantly beyond completion of its 
current manifest. To do so would require substantial efforts 
even after which the vehicle could not be considered safe by 
modern standards.
    Second, I will address the follow-on to the shuttle, which 
is really the subject today, I think. After detailed 
evaluations, we have found that because of the fundamental 
vehicle architecture choices made at its concept stage, the use 
of the heritage-based subsystems with proven track records, and 
the intense involvement of the experienced NASA safety design 
professionals, the Ares I and the Orion offer the basis for a 
high degree of inherent safety.
    In fact, they are being designed to provide a tenfold 
improvement over the safety of any existing vehicles. In our 
opinion, such inherent safety simply cannot be taken as a given 
in possible alternative launchers, as some would like to be the 
case. As we have already been quoted a couple of times today 
from our 2009 report, we believe that to abandon Ares I as a 
baseline vehicle for any alternative without demonstrated 
capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.
    We are aware that commercial entities hope to provide safe 
and low-cost access to orbit in the future, and we look forward 
to their innovations. We do support their work, but we must 
point out that NASA has not yet even established what the 
safety requirements for these commercial providers will be. The 
potential safety of these alternatives cannot be evaluated 
until the safety requirements, such as the acceptable risk 
level for loss of crew, are established and the proposed 
designs are evaluated against them.
    Our bottom-line safety recommendation is to not abandon the 
progress already made on the program of record before 
determining if the alternatives can provide equal or better 
safety for our astronauts.
    My third topic concerns the workforce. NASA has developed 
detailed transition plans that carefully map the skills and the 
funding streams to move from the shuttle operation to the Ares-
Orion development. If a major change in the mission of these 
workers is the path that is chosen, it is imperative that a new 
plan be developed quickly to clearly show these workers their 
place in the new vision. Otherwise, we face a risk of loss of 
the key personnel that are essential to safe space flight.
    Finally, I must report to you that we are seeing examples 
of facility degradation, which concern us, across NASA. 
Adequate funding for NASA facilities and infrastructure must be 
considered on an even ground with that of the more visible 
missions that come out of these facilities.
    In conclusion, Madam Chair, the ASAP believes that 
America's human space flight program stands at a critical 
juncture today. Choices made today will impact the safety of 
astronauts for at least a generation to come. Safety must be an 
inherent part of the vehicles that we use to launch those 
astronauts. It cannot simply be added on after the fact.
    Just as importantly, the resources provided to NASA must be 
consistent with whatever mission they are assigned, and both 
the resources and the mission must be kept stable. Asking NASA 
to attempt too much too fast with too little can only lead to 
danger and to disappointment.
    I will be happy to answer any questions that you or the 
other members may have.
    [The statement follows:]

                  Prepared Statement of John C. Frost

    Good morning Madam Chair, Ranking Member Shelby and other members 
of the subcommittee. Thank you for the opportunity to discuss the 
Aerospace Safety Advisory Panel's observations as they relate to the 
scope of your subcommittee. Because of a schedule conflict, our 
chairman, Admiral Joseph Dyer could not be with us today but sends his 
best regards.
    Let me start with a brief background of the Aerospace Safety 
Advisory Panel, or ASAP. The ASAP was established by Congress in 1968 
to provide independent safety assessment and recommendations to NASA 
after the tragic Apollo 1 fire that took the lives of three astronauts. 
By law, we now serve two functions: (1) Provide independent safety 
advice to the NASA Administrator; and, (2) Advise Congress on NASA's 
overall safety challenges and performance. We visit different NASA 
Centers and activities once a quarter where we probe and question all 
the elements of the Agency's safety program, both for spaceflight and 
for terrestrial operations. We issue quarterly recommendations to the 
NASA Administrator and publish an annual report to Congress, 
summarizing our findings and recommendations. I will attempt to very 
briefly summarize for you our key findings and observations from the 
last year as they relate to your pending budget considerations.
    First, let me express a heartfelt commendation that I believe is 
shared by every member of the ASAP. That commendation is for the 
quality of leadership and commitment to safety that has been long 
demonstrated by the new administrator General Charlie Bolden. When it 
comes to the safety of our astronauts, I can think of no better hands 
for the agency to be in.
    Now on to the key findings of our 2009 report that relate most 
directly to the issues that your subcommittee is dealing with at this 
time.
    Space Shuttle.--As you know, the life of the Space Shuttle is 
nearing its end. Because of the Herculean efforts of the managers and 
workers at NASA and its contractors, this complex flying machine has 
performed admirably during its 29 year life. Sadly, the very power and 
complexity that enable it to accomplish the wide variety of missions 
for which it was designed, have also contributed to two tragic 
accidents and the loss of 14 lives. The ASAP has closely monitored 
Shuttle operations since its inception. In view of the inherent hazards 
of the basic Shuttle multifunction design, the age of some critical 
subsystems, and the need to recertify the fleet as identified by the 
Columbia Accident Investigation Board, the Panel believes that the life 
of the Space Shuttle should not be extended significantly beyond 
completion of its current manifest. To do otherwise would require 
funding the substantial efforts required to ensure that life extension 
vulnerabilities are identified and corrected in a timely manner. 
Additionally, the inherent risk of continuing to operate this system 
would have to be accepted by the Nation's leaders.
    Follow-on to Shuttle.--The Panel has intensely monitored the 
progress of the Space Shuttle replacement program since its beginnings. 
We found that the Ares 1 vehicle has been optimized for crew safety 
since its inception. Because of fundamental vehicle architecture 
choices made at its concept stage, the widespread use of heritage-based 
subsystems with proven track records and the intense involvement of 
experienced NASA space design professionals serving as the systems 
integrators, the ASAP believes the Ares 1/Orion offer a high degree of 
inherent safety. In fact, they are being designed to provide a tenfold 
improvement over the safety of existing vehicles. In our opinion, space 
vehicle safety simply cannot be taken as ``a given'' as some would like 
to be the case. As we stated in our 2009 report to Congress, ``To 
abandon Ares 1 as a baseline vehicle for an alternative without 
demonstrated capability nor proven superiority, or even equivalence, is 
unwise and probably not cost-effective.'' We are aware of course that 
several commercial entities hope to provide safe, low-cost access to 
Low Earth Orbit in the not too distant future. We have not evaluated 
their proposals and cannot comment on their eventual safety; however we 
must point out that NASA has not yet established any safety 
requirements for these commercial providers. Even more importantly, the 
agency has not yet established a process that can provide the right mix 
of insight and oversight to ensure the safety of NASA astronauts 
traveling in these vehicles. The safety of potential commercial 
providers cannot be evaluated until key safety requirements, such as 
the acceptable risk level for Loss of Crew, are established and 
proposed designs are evaluated against them. While progress is now 
being made on establishing these requirements and processes, it is too 
early to tell if the commercial options that are contemplated can 
eventually be deemed safe enough for our astronauts. Our bottom line 
recommendation is to not abandon the well-established progress already 
made on the Program of Record in favor of an alternative, until such 
time that it is determined that the alternative provides equal or 
better safety for our astronauts.
    Workforce Transition.--The ``magic bullet'' that has allowed NASA 
to achieve the incredible feats for which they are known around the 
world is its highly dedicated and motivated workforce. At every Center 
that we visit, we see this dedication and excitement in every face. 
Maintaining this talent, momentum, and enthusiasm during a time of 
transition from a Shuttle based Manned Spaceflight Program to an 
alternative is the key to the future of the agency. In the past 4 
years, NASA has expended significant effort developing detailed 
transition plans that map skills, talent, and necessary funding streams 
from a ``Shuttle Centric'' organization to one that is Ares/Orion 
based. The Panel has found this Transition Plan paying off already in 
the form of workers' excitement and satisfaction over their role in the 
coming exploration of our solar system. If a major change in the future 
roles and missions of these NASA workers is the path chosen, it is 
imperative that a new transition plan be developed quickly, clearly 
showing these workers their place in the new vision. The turmoil 
created by uncertainty can result in loss of key personnel which 
presents obvious safety concerns.
    Infrastructure.--As the panel visits the various Centers, we 
carefully watch for facility conditions that could contribute to 
mishaps or hurt mission performance. I must report to you that we are 
seeing examples of such conditions which concern us. While, to a 
person, the employees ``can-do'' attitudes help them cope with the 
impediments of these conditions, it is inevitable that worker 
performance and safety could be impacted. Adequate funding for NASA 
facilities and infrastructure must be considered on even ground with 
that of the more visible missions that actually come out of these 
facilities.
    In conclusion, Madam Chair, in the view of the ASAP, NASA stands at 
a critical juncture. Choices made today about the future of Human 
Spaceflight will impact the safety of astronauts for a generation to 
come. Most importantly, resources and schedules provided to NASA must 
be consistent with whatever mission they are assigned. Asking NASA to 
attempt too much, too fast, with too little can only lead to danger and 
disappointment. I will be happy to answer any questions that you or the 
other members of the subcommittee may have about our observations.

    Senator Mikulski. I am going to turn to Senator Shelby to 
ask his questions. He has many duties also related to the 
Financial Services.
    Senator Shelby.
    Senator Shelby. Thank you. Thank you, Madam Chairwoman.
    Mr. Frost, welcome to the subcommittee. We are glad to have 
you here, but more than that, we appreciate your background and 
your statement.
    The future of human space flight is being proposed to be 
given, as I understand it, to companies that have never 
launched humans before. That is disturbing to me because your 
own panel for years has advised that they are not ready. If 
there is substantial risk in relying on unproven commercial 
providers to put our astronauts in orbit, do you have a 
suggestion on how to reduce that risk?
    Mr. Frost. The risk that the panel sees is principally the 
unknown nature of their abilities. If we bet our entire future 
on those as yet unproven abilities, there is risk that they may 
not pan out. A common method of handling that kind of risk is 
hedging your bet or as one member of the Augustine panel I 
believe was quoted as saying, ``If it is a horse race, bet on 
the field, and then you can pick the winner a little later.''
    So keeping redundant capabilities and not being single-
string dependent can greatly reduce that risk. There is a cost 
to that.
    Senator Shelby. A big cost, though, isn't it?
    Mr. Frost. That is right.
    Senator Shelby. Do you believe that NASA should relinquish 
its role in ensuring safety through rigorous testing during 
development and production if NASA were to allow their 
astronauts to fly on any spacecraft, commercial or otherwise?
    Mr. Frost. At the current time, for NASA to put its 
employees, its astronauts onboard something as potentially 
hazardous as a rocket ship, they are going to have to have a 
robust program to check its safety. There may come a day when 
it becomes as routine as a commercial airline. That day is far 
away, in my personal opinion.
    Senator Shelby. Thank you, Madam Chairwoman.
    Thank you, sir.
    Senator Mikulski. First of all, Mr. Frost, I would like to 
thank you for the service that you have done through the ASAP 
Committee, and also please thank the other people who 
participate, who put a lot of time into this, and we have read 
your reports. We also note that there is regularity to the 
actual visitation, that this isn't some think-tank egghead 
intellectual exercise reading memos or mathematical 
simulations. And we take to heart all of your comments, 
including the degradation of the NASA facilities and your 
caution about maintaining morale and competency among our 
workforce.
    Well, let us get right to this whole issue of going 
commercial. There is an inherent tension here between boldness 
and innovation and looking because technology moves fast in its 
development, much faster than Government contracts and 
procurement. But at the same time, we are not sending cases of 
Tang into space. We are sending our astronauts and the 
astronauts from other countries. They rely on us.
    So here goes the question. On page 3 of your testimony, you 
say, ``We have not evaluated their proposals and cannot comment 
on their eventual safety.'' Here is the key point. ``However, 
we must point out that NASA has not yet established any safety 
requirements for their commercial providers.''
    Now, as you recall, in my questions to General Bolden, I 
said is there going to be a single standard? He told me yes. 
Then he told me they have this manual that they have either 
developed or are in the process of completing. I am confused. 
Is there a standard? Is there not a standard? Is there a 
manual? Could you share with us your comments on this?
    Mr. Frost. Yes, I will be happy to. My understanding is, 
and we have been briefed and evaluated this very carefully, 
that NASA does have a human rating--NPR, it is called. It was 
recently updated in 2008. It specifically did not address and 
exempted commercial providers. It was aimed at the type of 
program where NASA manages the hardware. And that is critical 
because the way you state and explain and track the safety 
requirements depends on the kind of program it is.
    If you are buying a taxi ride, you have a different set of 
requirements than if you are developing a taxi. So that was 
exempted. The ASAP made that a primary recommendation for, I 
think, about 2 years that that section of the standard be built 
out so that the people trying to develop commercial vehicles 
knew what to aim for.
    General Bolden has taken the initiative to make that a 
priority. The current estimate is that some type of standard 
for those commercial providers will be available by the end of 
2010 setting the requirements.
    Senator Mikulski. So if, in fact, you say to these bold, 
innovative companies on which we are now betting the future of 
our astronauts going to the space station or in a low orbit 
there is going to be a safety standard, but we won't have it 
complete until 2010?
    Mr. Frost. That is the current estimate. That is correct. 
And I might point out that that is the hardware requirements. 
Then we need a process, set of processes that will take longer.
    Those processes depend on how much knowledge we have of the 
provider. If we don't have much insight into how they develop 
their rocket ship, if you will, then we will need very 
extensive testing and verifications. And that process will take 
longer, in my opinion, than 2010.
    Senator Mikulski. So then there are the processes. Now, 
there is the hope that they will be ready to go in 3 years. You 
know, that is all part of the glitz and the glory that we are 
hearing about, that they are going to be ready to go in 3 
years, when--I am looking at the development of the shuttle--we 
have followed the development of the shuttle together. Senator 
Shelby and I came to the Congress and have worked together 
since we came, and the shuttle had problems. But remember, the 
shuttle was going to go 100 flights, and it was going to be 
like the Greyhound bus to wherever we wanted to go.
    Now what I am saying, is if, in fact, the safety manual is 
not done until 2010, and those processes that are really 
mandatory, usual, and customary, then how could a commercial 
vehicle just getting what they need to know in the standards, 
be able to meet a 3-year timeframe? Do you think that is 
realistic?
    Mr. Frost. I am not privy to the development schedule of 
the COTS folks. That sounds highly optimistic to me.
    Senator Mikulski. I am not trying to pin you down. I am 
trying to get your experience.
    Mr. Frost. My experience would be that that is going to be 
a tough schedule to meet. And one safety concern that drives 
our panel is that they are designing parts of those vehicles 
today. There are engineers at tables picking safety factors and 
design features that may or may not comply with the 
requirements that will be developed later in the year. In which 
case, we will either have to accept the risk or step back and 
redesign. Both involve risk.
    Senator Mikulski. So they are designing today without 
having the firmness and definite--the definite nature of NASA 
standards.
    Mr. Frost. That is correct. They are attempting to design 
to what they think the standards will be. And if they are 
right, then we will be in good shape. And if they are wrong, 
then we will have difficulty.
    Senator Mikulski. Next question. Senator Hutchison 
presented a really doomsday scenario. When she said it, 
actually, I thought, ``Oh, my gosh, she is so right.'' I think 
you get a flare here. When it comes to the space program, we 
have really been a bipartisan group. And for those of us who 
have the centers and meet with the astronauts and so on, you 
know, we feel like we are all in this together.
    But when Senator Hutchison said she is concerned about 
bringing them back home if something happens to Soyuz, Bolden 
says it would be the end of the space station. Well, yes, it is 
also the end of those astronauts that are up there.
    What do you think? Because you talked about it in your 
testimony, you say ``end the shuttle.'' Senator Hutchison 
presents this very troubling scenario. Is there a way we can 
have it both ways, which is to have a shuttle on reserve for 
rescue, keep flying it maybe for a specific mission, but have 
it? In other words, is she on to something that we should 
explore?
    Because in both your oral and written remarks, you say it 
is time to say good-bye to the shuttle, and every scientist, 
engineer, et cetera, and NASA Administrator has said the same. 
Could you tell us what you think about extending the life of 
the shuttle? And would it be possible, or is it really would 
be--what would be your observations?
    Mr. Frost. I will be happy to. First, to the premise, I 
think she is absolutely on to something of the nightmare 
scenario, that being single-string dependent, having humans in 
orbit, and only one elevator to get there subject to 
catastrophic failure, in which case it can be shut down, as we 
have seen, is definitely a high risk, and I think needs to be 
thought of.
    There are several solutions. Minimizing the gap, in my 
view, is the best approach. You could keep flying the shuttle. 
There is no question. We see no--we call it ``knee of a 
curve.'' It won't wear out in July, but it is getting old, and 
principally, it has a very high level of risk.
    Each launch is something like 1 chance in 78 to maybe 1 
chance in 100, somewhere in that range, of losing the crew, the 
more times you fly it, the more likely that you are going to 
find that result.
    Senator Mikulski. In other words, just to be sure of the 
risk analysis, after a certain date, the longer you keep the 
shuttle flying, the more increased the risk to the astronauts.
    Mr. Frost. We don't see an increase per flight, but as you 
do more flights, it is like playing Russian roulette. The more 
times you pull the trigger, the more likely you----
    Senator Mikulski. I know you math whizzes will get into 
probabilities, but I think we got the picture. Thank you.
    Mr. Frost. But we don't see the shuttle wearing out 
immediately. It is simply that there is great risk involved, 
and the Nation could accept that risk. And the astronauts, I am 
sure, are willing to live with it. That is a very high level of 
risk, in our opinion.
    Senator Mikulski. But what do you think--you know, we all 
have these kind of now movie fantasies, the way we think the 
world works like the movies or now like video games. Could you 
literally take the shuttle and put it aside and keep it prepped 
and ready to go if there would have to be a very daring rescue 
mission?
    Mr. Frost. I think the movie was ``Space Cowboys''--great 
movie.
    In safety, there is a concept called OPTEMPO, and that is 
that if you fly too many missions too frequently, it becomes 
unsafe. You are pressing your crews too hard. But on the other 
side of that, if you fly too rarely, they lose their skills, 
their edge, and their abilities. They don't remember exactly 
how to tighten the bolts that they used to know how to tighten, 
and safety degrades greatly. And that curve is generally a 
bell-shaped curve. If you just put the shuttle in storage and 
didn't use it, I would have great concern about the reliability 
of that launch as it came out of cold storage.
    Senator Mikulski. Well, I appreciate that. This is my final 
question. Will the ASAP Committee be involved in assessing the 
safety issues of these commercial enterprises?
    Mr. Frost. Yes, we have made that a central focus of our 
committee. We are not staffed to do a technical evaluation and 
an independent review of the hardware, but we will look at the 
processes that will be used to do that.
    Senator Mikulski. Well, I think these were excellent.
    Senator Shelby, do you have----
    Mr. Frost, first of all, I would like to thank you for your 
answers here, I think they were very instructive to us. We 
would look forward possibly as this--our process of evaluation 
goes on to come back to you and other members of the committee. 
Again, thank you for excellent testimony.
    We would also welcome from the committee this issue of 
center infrastructure degradation, because no matter what we 
do, we have got to keep--we have got to make sure that they are 
fit for duty.
    So thank you very much. This subcommittee will excuse you, 
but we would ask you and your committee to be available for 
ongoing--and the staff--for ongoing conversation.
    Mr. Frost. We will be happy to do that. Thank you.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. Madam Chairwoman, I just want to thank Mr. 
Frost, too, for his incisive answers and his background and his 
experience of safety.
    Thank you.
    Mr. Frost. Thank you.
    Senator Mikulski. I also want to note that for NASA's 2011 
budget, it affects many States, and I know that there is an 
interest in other Senators with this topic and that there are 
going to be follow-up questions that are budgetary, 
programmatic, mission-focused, and how we can do this within 
this budget.
    Senator Shelby. Madam Chairwoman, I hope we could reserve 
the right to hold another hearing on this matter, if warranted.
    Senator Mikulski. I absolutely agree that we will hold 
another hearing to be able to pursue any topics. I would 
suggest now that our able staff connect with NASA, really sift 
through this rather content-rich nature of what we have 
listened to.
    I would also like to thank all of the members who 
participated for their civility and for their very insightful 
questions. I believe if we all focus on where we want America 
to be in space, and how we protect Americans who we ask to do 
things we will be able to find solutions to how we work through 
these complex challenges.
    Again, Mr. Frost, thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this morning, Senators 
may submit additional questions for the subcommittee's official 
record. We are going to ask NASA's response within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted to Hon. Charles F. Bolden, Jr.
           Questions Submitted by Senator Barbara A. Mikulski

                        COMMERCIAL SPACE FLIGHT

    Question. As part of canceling Constellation, NASA has advocated 
for the commercial space sector to support low-orbit mission, spending 
$6 billion in the next 5 years for commercial crew and cargo vehicles.
    What led the administration to put its faith in commercial space 
flight for transporting crew to low Earth orbit?
    Answer. A more robust role for the private sector in spaceflight 
has been recommended by many groups over the years, including the U.S. 
Congress in the 2005 and 2008 NASA Authorization Acts. Most recently, 
the Augustine Committee found that: ``Commercial services to deliver 
crew to low-Earth orbit are within reach.''
    NASA has a long history of partnership with the commercial space 
sector. Nearly all NASA Science payloads are launched aboard 
commercially owned and operated vehicles. And the commercial sector is 
instrumental in each space shuttle launch, as nearly 90 percent of the 
shuttle workforce are industry contractors. Additionally, the 
commercial space industrial sector has a demonstrated record of safe 
and reliable launches. For example, United Launch Alliance, a provider 
of commercial launch services, has successfully launched 25 Department 
of Defense (DOD) satellites consecutively. This impressive launch 
record underscores a continuing capability to deliver high-value 
payloads to orbit via an established U.S. commercial space industry.
    Question. What if this commercial venture fails?
    Answer. NASA is confident in the ability of our commercial cargo 
partners to develop the capability to deliver cargo to/from the 
International Space Station, and to ultimately deliver cargo under the 
Commercial Resupply Services (CRS) contracts. We also are looking 
forward to working with commercial partners on a commercial crew 
development effort in the near future.
    The development of a commercial crew transportation capability 
shares the same risks that are typical in any aggressive, challenging 
space hardware development program. NASA is in the process of 
structuring its plan to support development of a commercial crew 
transportation capability, should the fiscal year 2011 budget provide 
funding for this activity. The President's budget request provides NASA 
with resources to support the development efforts of multiple providers 
and to provide significant technical support during the development 
phase. This will maximize the likelihood that selected commercial 
providers will successfully complete development activities and will 
minimize the impact to the agency if any one commercial provider is not 
fully successful in its development activities.
    Question. Does this mean the United States won't be able to send 
astronauts into space for 10 years?
    Answer. NASA is in the process of developing a procurement 
solicitation for commercial crew, should the fiscal year 2011 
appropriation include this activity. Therefore, the timing for the 
availability of commercial crew services will not be known until NASA 
receives proposals for the development of this capability. However, the 
Augustine Committee had noted that commercial crew launch service could 
be in place by 2016. Estimates provided to the Augustine Committee by 
potential providers said commercial crew services could be in place 3 
to 5 years from the point of funding.
    Question. What is NASA's back-up plan?
    Answer. With regard to cargo, NASA plans to pre-position spares 
onboard the ISS with the final logistics flights to provide some margin 
for delay in commercial cargo services. Additionally, NASA plans to 
rely on the transportation capabilities of Russia, the European Space 
Agency and Japan to transport cargo to ISS. Russia's Progress vehicle 
has been providing cargo services to ISS through a contract with NASA. 
The ESA Automated Transfer Vehicle had a successful initial flight to 
the space station in 2008. The Japanese HII Transfer Vehicle had a 
successful first flight in 2009. ESA's and Japan's services are 
provided through barter agreements. Beyond that, there is no planned 
back-up capability for ISS commercial cargo. Timely commercial cargo 
capability is critical for effective ISS operations. Without U.S. 
commercial cargo capability, the crew size and research operations 
planned for ISS would need to be reduced.
    With regard to commercial crew transportation services, NASA hopes 
to award development funding for up to four proposals, thus increasing 
the chances that multiple partners would succeed at developing a 
commercial crew vehicle. After the commercial crew services procurement 
is released, NASA is hopeful that more than one partner will be 
selected to supply those services, thus providing redundancy of 
capabilities. Additionally, should those capabilities fail to 
materialize on time, NASA has purchased Soyuz seats through 2014 and 
has legislative authority to purchase additional seats through July 1, 
2016. If we need to purchase seats beyond July 1, 2016, NASA would need 
to extend the current exception under the Iranian North Korean Syria 
Nonproliferation Act that permits purchase of Soyuz launch services. 
Lastly, NASA intends to provide significant technical support to 
commercial providers during the development and demonstration phase, 
thereby helping to increase their chances of success both 
programmatically and with respect to safety.
    Question. Did NASA look at options other than the commercial 
sector?
    Answer. This information is pre-decisional.
    Question. What about building upon the successes of the Delta and 
Atlas rocket programs and using Evolved Expendable Launch Vehicles 
(EELV) as an interim means to reach the space station?
    Answer. Evolved Expendable Launch Vehicles (EELVs), including the 
Delta and Atlas rockets, are commercial vehicles and they are certainly 
candidates for the Commercial Crew Program. In fact, the program will 
be open to any domestic company interested in providing these services 
in accordance with existing U.S. laws and policies. Any domestic 
company that had been part of the Constellation Program can, if it 
chooses, compete with others as part of this new commercial crew 
transportation program. In addition, Boeing and United Launch Alliance 
were chosen earlier this year for NASA awards under our Commercial Crew 
Development (CCDev) initiative designed to develop and demonstrate 
technologies that enable commercial human spaceflight capabilities.
    Question. How do you balance leaving companies alone while managing 
oversight of issues like safety, cost and performance, and technical 
soundness?
    Answer. Safety is and always will be NASA's first core value, so we 
will provide significant--but not intrusive--oversight over any 
commercial venture, whether it be cargo or crew. For example, NASA has 
a Commercial Orbital Transportation Services (COTS) Advisory Team 
comprised of approximately 100 NASA technical experts from across the 
agency. These experts work with our partners and review partner 
technical and programmatic progress for each milestone and provide 
progress assessments to NASA's Commercial Crew Cargo Program Office. 
Additionally, they participate in all major design reviews providing 
technical review comments back to our partners. The advisory team 
provides another method by which NASA gains confidence that our 
partners will be able to perform their flight demonstrations.
    One of the strengths of the COTS venture is that companies are free 
to do what they do best, that is developing truly unique spaceflight 
vehicles using innovative processes that are not available within the 
Federal bureaucratic framework. NASA provides requirements that they 
must meet and we ensure that they have met those requirements, but we 
try not to dictate how they meet those requirements. For example, each 
COTS partner must successfully verify compliance with a detailed set of 
ISS interface and safety requirements prior to their planned ISS 
berthing missions. These requirements are imposed on all visiting 
vehicles wishing to visit to the International Space Station (ISS). 
Both COTS partners are currently working with the ISS program on a 
daily basis to ensure they meet the ISS visiting vehicle requirements. 
This also helps to give NASA independent insight into their progress 
and it builds confidence in their abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in an appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    Question. If the program experiences cost overruns, who pays? The 
companies or the Government?
    Answer. With regard to potential cost overruns in the Commercial 
Crew Development program:
    If NASA uses SAAs, it is likely that such agreements will be 
structured similarly to NASA's COTS development SAAs. For the COTS 
SAAs, the Government provided a pre-negotiated set amount of funding to 
our two current partners. Each partner is awarded funding as they 
successfully meet pre-negotiated milestones and commercial partners are 
responsible for additional costs in excess of NASA's investment.
    If NASA uses fixed-price contracts, those contracts will similarly 
use pre-negotiated performance-based milestones. So, under this 
approach as well, the company will be responsible for any cost 
overruns. NASA's investment will be fixed.
    Question. What are commercial companies contributing to this plan?
    Answer. Although NASA is still preparing a strategy to support 
development of commercial crew, in general, we intend for NASA's 
investment to supplement private investment in developing a commercial 
crew capability, thus providing strong incentive for industry partners 
to perform and ``stay in the game.''
    It is important to remember that NASA did not specify a minimum 
level of cost sharing for COTS partners because the agency felt that it 
would be inappropriate to prejudge a potential partner's business case. 
NASA reviewed each proposal as a whole, and assessed each proposal 
based on its own merits. That included review and evaluation of the 
type of vehicle system proposed, the development process proposed, as 
well as market factors such as the potential for other non-government 
customers, the amount of investment each company plans to contribute, 
the company's experience in similar endeavors, etc. No single factor is 
necessarily more important than another.
    Question. Who are the other customers? Is there a market for 
sending humans into space?
    Answer. NASA has not conducted any market surveys. However, there 
are general indicators that such a market exists. For example:
  --From an historical perspective, Russia and the United States have 
        been providing human space transportation services to 
        astronauts from other countries since 1978. Since that time, 
        Russia and the United States have transported nearly 100 
        astronauts representing 30 nations. In addition, eight people 
        have flown to space in the past decade as spaceflight 
        participants.
  --Another strong indicator came from NASA's CCDEV solicitation. In 
        answer to NASA's CCDEV solicitation for commercial crew 
        spaceflight concepts, the agency received 36 proposals--an 
        indicator that there is robust interest from U.S. industry in 
        developing human spaceflight capabilities.
  --Helping to support an enhanced U.S. commercial space industry will 
        create new high-tech jobs, leverage private sector 
        capabilities, spawn other businesses and commercial 
        opportunities, and spur growth in our Nation's economy.
  --Most importantly, the administration's proposal to extend and fully 
        utilize the ISS provides a reliable, sustainable market for 
        commercial human space transportation services likely to 2020 
        or beyond.
    Studies in the public domain suggesting that commercial providers 
can be successful include:
  --Collins, P. and Isozaki, K. ``Recent Progress in Japanese Space 
        Tourism Research,'' IAC Italy, October 1997.
  --O'Neil, Bekey, Mankins, Rogers, Stallmer ``General Public Space 
        Travel and Tourism,'' NASA-MSFC, March 1998.
  --Aerospace Commission ``Final Report of the Commission on the Future 
        of the United States Aerospace Industry,'' November 2002.
  --Space Tourism Market Study, Futron Corporation, 2002.
  --Webber, D. and Reifert, J. ``Filling in Some Gaps'', Executive 
        Summary of the Adventurers' Survey of Public Space Travel,'' 
        September 2006.
  --Commercial Spaceflight Federation ``Commercial Spaceflight in Low 
        Earth Orbit is the Key to Affordable and Sustainable 
        Exploration Beyond,'' input to the Review of U.S. Human Space 
        Flight Plans Committee, June 29, 2009.
  --Final Report of the Review of U.S. Human Spaceflight Plans 
        Committee, 2009.
    Question. Are we subsidizing space tourism?
    Answer. NASA is not subsidizing space tourism. Rather, NASA is 
helping to develop a critical capability that is needed by the agency. 
By investing $6 billion in commercial crew efforts over the next 5 
years, NASA can focus on the forward-leaning work we need to accomplish 
for beyond-LEO missions. Additionally, this investment will:
  --Reduce the risk of relying solely on Russia to transport astronauts 
        to the ISS following the retirement of the space shuttle;
  --Free up NASA resources to focus on the difficult challenges in 
        technology development, scientific discovery, and exploration;
  --Make space travel more accessible and more affordable.
  --Build an enhanced U.S. commercial space industry that creates new 
        high-tech jobs, leverages private sector capabilities, spawns 
        other businesses and commercial opportunities, and spurs growth 
        in our Nation's economy.
  --Inspire a new generation of Americans by these commercial ventures 
        and the opportunities they will provide for additional visits 
        to space.

                        SPACE SHUTTLE RETIREMENT

    Question. The President's budget makes it clear that the space 
shuttle will retire at the end of 2010, marking the end of an era. Only 
four more launches are planned.
    Do you need any additional funding to close out the shuttle 
program?
    Answer. No. The President's fiscal year 2011 budget request 
includes $600 million to fly the space shuttle through the first 
quarter of fiscal year 2011. The last shuttle mission, STS-134/AMS, is 
now scheduled for February 2011. Because of additional savings that 
have been identified in 2010, NASA will not require funding beyond that 
requested in the President's budget to close out the space shuttle 
program.
    Question. Will we have the right people in place to safely see the 
shuttle program all the way to the end?
    Answer. While many space shuttle workers have expressed the desire 
to stay with the program until the shuttle retires, NASA and its space 
shuttle contractors have worked to ensure that the program retains the 
critical skill mix needed to fly out the remaining missions safely. As 
one example, NASA has offered retention bonuses for workers who 
continue with the program through shuttle retirement. The contractors 
are conducting incremental layoffs designed to ensure that they can 
meet shuttle manifest requirements safely, and the agency is confident 
that the program will have the personnel necessary to accomplish this.
    Question. What steps are you taking to make sure a major safety 
misstep does not occur as workers face the end of the program and the 
potential loss of their job?
    Answer. NASA and its contractors are emphasizing the criticality of 
focusing on each of the remaining missions in turn in order to ensure a 
safe flight. Each mission is processed and flown according to time-
tested procedures and safety protocols, and reporting lines of 
communication encourage employees to raise any safety concerns they may 
have. The agency and shuttle contractors are also supporting a variety 
of efforts to help transition workers after the end of the program.
    Question. What are the budgetary implications of the delay in the 
Advanced Magnetic Spectrometer (AMS) which will delay STS-134?
    Answer. The President's fiscal year 2011 budget request includes 
$600 million to fly the space shuttle through the first quarter of 
fiscal year 2011. If STS-134, which will carry the AMS experiment to 
ISS, launches in February 2011, as currently planned, NASA will not 
require further funding beyond that requested in the President's fiscal 
year 2011 budget request.

                          WORKFORCE TRANSITION

    Question. The retirement of the space shuttle program will affect 
as many as 12,000 workers. The Constellation program was supposed to 
help transition some--though not all--of this high-tech workforce over 
to good jobs. Now, with the proposed cancellation of Constellation, the 
``Jobs Gap'' grows larger and deeper. The administration has suggested 
that 1,700 new jobs over 5 years in Florida will help support 
commercial rockets.
    On April 15, President Obama pledged $40 million to help displaced 
Florida space workers transition to new, high-technology jobs.
    Where does the proposed $40 million come from?
    Answer. To ease the transition for workers dislocated while the new 
space strategy is being implemented, the President, on June 11, 2010, 
as part of a fiscal year 2011 budget amendment, proposed to dedicate up 
to $100 million of the funds requested for the Constellation transition 
in fiscal year 2011 to transform the regional economy around KSC and 
prepare the workforce for these new opportunities, as well as other 
geographic areas affected to the shuttle and Constellation transitions.
    Question. What about workers in other severely impacted States? 
What is the plan for transitioning these workers to other jobs?
    Answer. As noted in an earlier response, the administration has 
recently announced a comprehensive initiative, funded at a level up to 
$100 million, to support economic growth and job training in Florida 
and other regions affected by the shuttle retirement and other 
programmatic changes in NASA's exploration program. While the 
initiative began on April 15 when the President announced a $40 million 
initiative to aid the areas around Kennedy Space Center, the group was 
also directed to prepare a plan that ``explores future workforce and 
economic development activities that could be undertaken for affected 
aerospace communities in other States, as appropriate.''
    Several States and county officials have been applying for 
workforce-related grants through existing Federal programs. On June 2, 
2010, Secretary of Labor Solis announced the award of an additional $15 
million in workforce re-training funds for aerospace workers in Brevard 
County, Florida. In addition, on April 30, 2010, the Department of 
Labor announced a $1.2 million grant to assist approximately 200 
workers affected by layoffs at ATK Launch systems in Corinne, Utah, in 
connection with the transition of the space shuttle and Constellation 
programs. It is our understanding that the communities impacted within 
the State of Texas have also applied for assistance from the Department 
of Labor.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; 
        and,
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    The SSTLO consists of several organizations including NASA 
Headquarters, the NASA Human Space Flight Centers, shuttle prime 
contractors, and State and local organizations in communities affected 
by shuttle retirement. To identify applicable resources and build 
partnerships with other Federal departments and agencies, members of 
the SSTLO established relationships with the Employment and Training 
Administration, Department of Labor, and the Economic Development 
Administration in the Department of Commerce. Ongoing SSTLO meetings 
are leading to communication at the State and local level among the 
workforce and economic development agencies and the affected companies 
and communities.

                         COST OF CONSTELLATION

    Question. To date, NASA has already spent roughly $9.5 billion on 
Constellation. The fiscal year 2011 budget requests an additional $1.9 
billion just to terminate the program.
    The Augustine Commission has suggested that Constellation would 
require billions more annually than what the Bush administration had 
budgeted for it. The Commission suggested that even with this 
investment, the U.S. gap in access to low earth orbit could last until 
2019.
    How much money--over and above the levels provided--would be needed 
to finish the Constellation Program?
    Answer. The Constellation Program is envisioned in two phases--the 
ISS phase and the beyond-low Earth orbit or lunar phase.
    The first key milestone for the ISS phase is the Initial 
Operational Capability (IOC) for Ares I and Orion, which is defined as 
the first crewed flight of Orion to the ISS. Based on the fiscal year 
2010 President's budget request, NASA anticipated that Constellation 
would need approximately $35.2 billion total to achieve IOC for Ares I 
and Orion in March 2015. As of May 2010, NASA had spent $10.6 billion 
on Constellation--leaving $24.6 billion--or around $23 billion if the 
$1.9 billion for Constellation termination in the fiscal year 2011 
budget request were applied to continue Constellation. (Note, at this 
time, a March 2015 IOC is not achievable due to fiscal year 2010 
funding constraints such as the Continuing Resolution, the enacted 
fiscal year 2010 appropriation, termination liability, and new 
Construction of Facility appropriations controls on the total Program.)
    For the Augustine review in the summer of 2009, NASA estimated that 
the Constellation Program of Record, using Orion, Ares I, Altair, Ares 
V, and supporting elements, could deliver a crewed lunar mission by 
2020, for $109 billion since the inception of the Constellation 
Program. Of this $109 billion since inception, $100.2 billion would be 
required in fiscal year 2010 and out (the same time period as the 
Augustine estimates), and $96.7 billion would be required in fiscal 
year 2011 and out. If the $1.9 billion of Constellation transition 
funding in the President's fiscal year 2011 budget were applied to 
continue the Program of Record, approximately $95 billion of additional 
funding would be required in fiscal year 2011 and beyond. However, 
achieving a crewed lunar mission by 2020 for this funding assumes that 
authority to proceed with lunar development occurs early in fiscal year 
2011, and sufficient funding is available in the early years of lunar 
development.
    Question. If NASA's budget were to receive no additional funds, 
where would you cut in the existing budget to come up with the annual 
amount needed to cover the cost of finishing Constellation?
    Answer. If NASA were to continue development of Ares I and Orion, 
the year-to-year rate would be approximate to the total of $5.4 billion 
per year, which would include funding for Ares and Orion development as 
well other Constellation elements (mission control, launch complex, 
ground processing facilities, program integration functions, etc.) 
However, it is unwise to fund Constellation on this year-by-year 
situation because a development program such as Constellation needs a 
steady and dedicated funding stream to succeed, and unfortunately, 
given tight budget years, that funding stream has come at the expense 
of other NASA programs and projects.
    If NASA were to take the entire amount for Exploration in the 
President's fiscal year 2011 budget request and assumed runout and 
apply it to continuing Constellation and the fiscal year 2010 Advanced 
Concepts theme that supports Constellation--assuming that NASA has a 
flat-line budget with zero growth through 2020, there would be a 
shortfall of more than $50 billion through 2020 when Constellation was 
expected to return to the Moon. Under this same zero-growth funding 
scenario through 2020, funding for the remaining agency programs--earth 
and space science, aeronautics, technology, space station, and center 
and agency operations--would need to be reduced by about one-third. 
Even if ISS were not extended through 2020, funding for the remaining 
agency programs would need to be reduced by about one-sixth through 
2020.
    Question. How expensive would Constellation be to operate annually 
compared with the space shuttle and how would those costs compare to 
what you expect to pay annually to utilize the purely commercial system 
envisioned in the 2011 budget request?
    Answer. NASA estimates the complete costs of operating two 
Constellation flights per year to the ISS as $3.6-$4 billion per year 
in the 2016-2020 timeframe. This estimate would include funding for 
sustaining engineering; production/refurbishment of flight hardware; 
all ground operations; all mission operations; EVA suits; program 
integration etc.
    This is comparable to appropriately-inflated shuttle costs, given 
that Constellation is based on shuttle hardware, infrastructure, and 
practices.
    NASA does not know what costs commercial crew vendors will be able 
to achieve, but the intent is that a commercial, less-prescriptive, 
requirements-based approach, coupled with innovative and clean-sheet 
infrastructure, will result in costs substantially lower than shuttle 
or Constellation.
    Question. Are there elements of the existing Constellation program 
that you would consider retaining as part of an overall path forward on 
human space flight?
    Answer. Following the release of the fiscal year 2011 budget 
request, NASA established six study teams within NASA's Exploration 
Systems Mission Directorate to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation program and to plan for the 
implementation of the new Exploration program. The work undertaken by 
these teams is a necessary part of that planning. One team, the 
Constellation Transition team, has initiated a broad survey of current 
workforce, contracts, facilities, property, security, knowledge 
capture, information technology, and other Government agency interface 
issues to determine what infrastructure and hardware could be used by 
the new programs and projects.
    Despite the early nature of these planning efforts, NASA is 
optimistic that there will be many capabilities developed by the 
Constellation program that will feed forward into the new programs. For 
example, options using the Orion capsule are currently being pursued 
for autonomous rendezvous and docking; and many of the capabilities we 
are pursuing at a low level through the Exploration Technology 
Development program are directly applicable to the new programs. Other 
important areas that will enable further advancement in the new 
initiative areas are: advanced robotics, propulsion development and 
test, friction stir welding, autonomous landing and hazard avoidance, 
and entry, descent, and landing technologies.
    Given that the fiscal year 2011 budget request is still pending 
with Congress, NASA has not yet made any final decisions with regard to 
what capabilities will and will not transfer to the new programs. 
Therefore, it would be premature for NASA to provide estimates about 
how much the agency has already invested in these technologies.
    Question. If NASA employed testing and oversight functions like 
those used by the Air Force in its launch program, how much money could 
be saved in completing all or at least some of the critical parts of 
the Constellation program?
    Answer. An apples-to-apples comparison between NASA and the U.S. 
Air Force is extremely difficult for several reasons:
  --The Air Force EELV fleet is in operational mode, whereas the 
        Constellation program is currently in the design, development, 
        test and evaluation phase of the program.
  --The Air Force launch program only manages the launch vehicle and 
        ground systems required to support launch, whereas the 
        Constellation program currently includes two launch vehicles, a 
        capsule to carry astronauts to the ISS and to the Moon, as well 
        as all the ground and mission operations infrastructure to 
        operate the capability and future lunar surface capabilities.
  --Many of the costs incurred by the Ares I and early Constellation 
        elements actually support development of future Constellation 
        architectural elements, such as the Ares V and the Altair lunar 
        lander.
    Question. The $1.9 billion to terminate this program seems like a 
large amount. What exactly will these funds cover?
    Answer. The fiscal year 2011 budget request transitions away from 
the Constellation program, and in doing so, provides a total of $2.5 
billion in fiscal year 2011 and fiscal year 2012 for Constellation 
closeout and transition costs--funding that is expected to cover 
closeout activity associated with facilities, environmental 
remediation, workforce, and prime and support contracts. A portion of 
this funding will also be used to support the retraining of shuttle 
program contractors as that program is brought to a successful close. 
It should be noted, however, that at present, the breakdown of costs is 
not complete. The agency is using the current budget planning 
activities to develop the details; and an implementation plan and 
coordinated communications with NASA responsible offices and current 
Constellation contractors are required to further refine this estimate, 
which is consistent with past planning experience and cost estimation 
for the Space Shuttle Transition and Retirement. NASA's experience with 
close-out of the shuttle program will serve as a useful reference for 
the complexity of the tasks and the potential associated costs.

                    CONTRACT TERMINATION--FOLLOW-UP

    Question. Under the fiscal year 2011 budget plan, NASA will 
eventually need to terminate the Constellation program and the 
Government contracts that go with it. The fiscal year 2010 bill 
prevents NASA from canceling Constellation. It seems clear that current 
law prevents NASA from terminating or significantly restructuring 
contracts in the current fiscal year.
    At our April 22 hearing, you stated: ``We are reminding them (the 
contractors) that it is their responsibility to determine, I guess 
technically for them, it's to determine what level of risk the company 
is willing to accept in terms of being able to handle a termination if 
it should come. So, we are not telling them that they need to reserve 
funds. We're telling them that they do have to be aware of the fact 
that termination liabilities, some of them lie on them by their 
contract. And it's the company's determination of what level of risk 
they want to incur, whether they put aside funds or whether they assume 
that they are not going to need them.''
    What does this mean in practical terms? Is the ultimate impact to 
reduce the amount of work planned in 2010? Are you essentially forcing 
the contractors to self-terminate so you won't have to?
    Answer. The cited testimony is clear on this point. NASA is not 
forcing the contractors to do anything, but has simply reminded certain 
of them that the terms of their contracts limit the obligations of the 
Government for reimbursement of costs, including termination costs, to 
the amount allotted to the contract.
    Question. Is this NASA's usual practice? What has NASA done 
regarding termination liability when it has terminated contracts in the 
past?
    Answer. NASA has terminated very few contracts in the past, and we 
are not aware of a situation in which NASA waived contract terms during 
the termination of a contract.
    Question. Are you planning to terminate all Constellation 
contracts?
    Answer. NASA has no current intention of terminating any 
Constellation contracts in fiscal year 2010.
    Question. What will it cost to terminate work related to 
Constellation in fiscal year 2011, both for Government employees and 
for contractors?
    Answer. NASA recognizes that the transition away from the 
Constellation program will personally affect thousands of NASA civil 
servants and contractors. Civil servants who support Constellation 
should feel secure that NASA has exciting and meaningful work for them 
to accomplish after Constellation, and our contractor colleagues should 
know that NASA is working expeditiously to offer new opportunities for 
them to partner with the agency on our new Exploration portfolio.
    With regard to contract termination costs, NASA is working with our 
prime contractors to gather current estimates of their potential 
termination liability (PTL) costs should Constellation contracts be 
terminated. The chart below provides PTL estimates as of June 21, 2010. 
Please note that PTL costs can vary over time, depending on current 
contract activity, such as status of long-lead items, active 
subcontractors and suppliers, facility/lease costs etc.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                         As of June 21,
       Current PTL required for Prime Contracts               2010
------------------------------------------------------------------------
ATK...................................................              $500
Lockheed Martin.......................................               350
PWR...................................................                48
Boeing................................................                81
Oceaneering...........................................                15
Current PTL required for non-Prime Contracts..........                66
------------------------------------------------------------------------

    With regard to program transition and termination costs, NASA is 
confident that the $2.5 billion provided in the fiscal year 2011 budget 
for Constellation closeout and transition would be sufficient to cover 
closeout activity associated with facilities, environmental 
remediation, workforce, and prime and support contracts. However, at 
present, the breakdown of costs for transitioning away from 
Constellation is not complete, for several reasons:
  --Following the release of the fiscal year 2011 budget request, NASA 
        established six study teams within ESMD to ensure we understand 
        the steps (and the implications of those steps) that would need 
        to be taken for an orderly transition of the Constellation 
        Program and to plan for the implementation of the new 
        Exploration program. One team, the Constellation Transition 
        team, has initiated a broad survey of current workforce, 
        contracts, facilities, property, security, knowledge capture, 
        information technology, and other Government agency interface 
        issues to determine what infrastructure and hardware could be 
        used by the new programs and projects--information that will be 
        key to understanding the exact costs for Constellation 
        transition. However, the work of each team is still ongoing. It 
        is expected that these teams will complete a majority of their 
        work by the end of the third quarter of fiscal year 2010, and 
        we will share those findings with Congress as they are 
        finalized.
  --Additionally, NASA is still developing mission requirements and 
        subsequent cost estimates for the development of an emergency 
        crew return vehicle, announced by the President on April 15, 
        2010. NASA hopes to be able to finalize these cost estimates in 
        the near future and provide them to Congress.
    Question. How do you propose to pay for contract termination costs?
    Answer. Except for two contracts that contain a special termination 
costs clause, the Constellation prime contract terms limit the 
Government's obligation to make payments, including payments for 
termination costs, to the amounts allotted to the contracts. 
Accordingly, termination costs would be paid with funds allotted to the 
contracts. For the two contracts containing special termination 
clauses, termination costs would be paid from funds that NASA is 
required to, and has, set aside for that purpose.

                          SATELLITE SERVICING

    Question. Building upon the important role that humans have played 
in the success of Hubble by servicing it a record five times, this 
subcommittee provided funds in fiscal year 2009 and 2010 for the 
development of a sustained aggressive satellite servicing capability.
    What is NASA doing with the $20 million provided in 2009 and the 
$50 million in 2010 to develop a full scale, world class satellite 
servicing program? What activities are involved? What are near term 
technical and schedule milestones to demonstrate critical tasks like 
``in flight'' refueling of satellites?
    Answer. The Satellite Servicing Study has two major thrusts. The 
first is an analytical study in which NASA is engaging with industry, 
academia, and other agencies to determine the extent of the potential 
satellite servicing market and the customers' capability needs. A 
Request for Information (RFI) on the Feasibility of Using Human 
Spaceflight or Robotic Missions for Servicing Existing and Future 
Spacecraft was released on December 8, 2009, and openly solicited ideas 
on satellite servicing concepts and capabilities. NASA received over 70 
responses to the RFI.
    Subsequently, NASA conducted an International Workshop on On-Orbit 
Satellite Servicing at the University of Maryland University College 
Inn and Conference Center, March 24-26, 2010. The workshop brought 
together 234 registered participants from industry, academia, other 
U.S. Government agencies and foreign entities. Others participated via 
Webex, Twitter, and Ustream (audio). The live audio stream received 280 
hits on the first day. The opening plenary addressed NASA's vision for 
satellite servicing as well as national security space and commercial 
space perspectives. The remainder of the workshop was divided into 5 
themed sessions with over 50 presentations. About one-half of the RFI 
respondents spoke at the workshop. The themes addressed Missions and 
Customers of Satellite Servicing, Business and Commercial Case for 
Satellite Servicing, Servicing with Humans, Robotic Servicing 
Technology, and more general Servicing Technology. Presentations 
clearly marked for unrestricted distribution are available on the 
servicing study Web site at http://servicingstudy.gsfc.nasa.gov/
workshop_1_presentations.htm.
    Fact finding discussions are continuing between NASA and potential 
servicing customers, technologists, systems developers and operators, 
including other Government agencies, commercial satellite operators and 
possible commercial servicing providers. NASA is also developing 
several notional satellite servicing mission concepts which will help 
identify implementation approaches, costs, and technology gaps. A 
report documenting findings from these analytic activities will be 
issued this fall. This report will provide a foundation upon which to 
determine future spacecraft servicing architectures, desired 
capabilities and future implementation plans, including cost and 
schedule.
    The second thrust involves implementing two technology 
demonstrations on the International Space Station (ISS) using the 
station's Special Purpose Dexterous Manipulator (SPDM) ``Dextre'' 
robot. The Robotic Refueling Dexterous Demonstration (R2D2) will show 
that a robotic mission can potentially refuel and repair satellites 
which were not designed for on-orbit servicing. It will include an end-
to-end refueling demonstration as well as a busy-board for 
demonstrating the ability of the robot to access and interface with 
satellite test ports. An R2D2 Systems Requirements Review (SRR)/
Preliminary Design Review (PDR) was held in March 2010. A Critical 
Design Review was conducted in June 2010. Hardware completion is 
planned for October 2010. The other demonstration is a Dextre Pointing 
Package (DPP) to enhance orientation and control of Dextre. DPP, 
positioned to view vehicles as they approach or depart ISS, will be 
used to evaluate various sensors and algorithms for future autonomous 
acquisition, rendezvous, and capture of customer spacecraft. The DPP 
SRR/PDR was conducted in June 2010. Hardware integration is scheduled 
for completion in December 2010. Additionally, robotic technology 
development capability at West Virginia University is being established 
to refine and mimic orbital robotic contact dynamics in the ground 
environment. This will assist in developing algorithms for on-orbit 
use. A 1G demonstration is planned for August 2010. These 
demonstrations will reduce risk and enable future satellite servicing 
missions.
    Question. Is NASA having any success in enlisting the interest of 
other Federal agencies in developing this capability?
    Answer. NASA is discussing satellite servicing needs and potential 
collaboration opportunities with other Federal agencies, mostly in the 
National Security community. Additionally, relevant systems, 
technologies and needs of the Department of Defense and other 
Government agencies were addressed in presentations at the 
International Workshop on On-orbit Satellite Servicing held at the 
University of Maryland University College Inn and Conference Center, 
March 24-26, 2010.
    Question. What are the five top tasks that you envision this 
satellite servicing capability having, how much funding would each task 
require, and what is the relative schedule for executing and completing 
each task or capability development?
    Answer. Please see earlier response. Fact finding discussions are 
ongoing between NASA and potential servicing customers, technologists, 
systems developers and operators, including other Government agencies, 
commercial satellite operators and possible commercial servicing 
providers. NASA is also developing several notional satellite servicing 
mission concepts which will help identify implementation approaches, 
costs, and technology gaps. A report documenting findings from these 
analytic activities will be issued this fall. This report will provide 
a foundation upon which to determine future spacecraft servicing 
architectures, desired capabilities and future implementation plans, 
including cost and schedule.

                         SATELLITE ACQUISITION

    Question. NASA serves as the procurement agent for its own large 
satellites and for complex satellite systems on behalf of other 
Government agencies. To ensure the best value for the Government, 
procurement law is very specific about the circumstances when NASA and 
other Federal agencies may pursue contracts in a manner other than by 
full and open competition.
    What are NASA's guidelines for issuing sole source contract awards 
for spacecraft above $50 million and which NASA official(s) are 
responsible for approving these awards?
    Answer. In addition to applicable Federal Acquisition Regulations, 
the guidelines for issuing sole source contract awards are set forth in 
the NASA Federal Acquisition Regulation Supplement (NFS), 1806.304-70 
(http://www.hq.nasa.gov/office/procurement/regs/nfstoc.htm) Approval of 
NASA justifications. These guidelines apply to all sole source contract 
awards regardless of the commodity or service as follows:
    For proposed contracts over $11,500,000 but not exceeding 
$78,500,000:
  --Concurring Officials.--Center Procurement Officer and Center or 
        Headquarters Competition Advocate
  --Approving Official.--Head of the contracting activity.
    For proposed contracts over $78,500,000:
  --Concurring Officials.--Center Procurement Officer, Center or 
        Headquarters Competition Advocate, Head of the contracting 
        activity and, Agency Competition Advocate
  --Approving Official.--Assistant Administrator for Procurement
    The approval authority of FAR 6.304(a)(3) may not be delegated to 
other than the installation's Deputy Director. For proposed contract 
actions requiring approval by the Assistant Administrator for 
Procurement, the original justification shall be forwarded to the 
Assistant Administrator for Procurement, Office of Procurement, Program 
Operations Division. Regardless of dollar value, class justifications 
shall be approved by the Assistant Administrator for Procurement.
    Question. Does NASA plan to acquire or procure any commercial 
spacecraft from industry under other than full and open competition, 
leading to a sole source contract, for any science missions with a 
spacecraft value of greater than $50 million?
    Answer. NASA's Science Mission Directorate is committed to full and 
open competition leading to the selection of its spacecraft and 
hardware. Missions and instruments are selected based on their 
scientific merit through peer review. However, in the wake of the loss 
of the competitively selected Orbiting Carbon Observatory (OCO) in 
February 2009 and in response to national needs for a carbon monitoring 
capability, NASA has awarded JPL authority for a near-identical OCO 
replacement, OCO-2. This unique procurement strategy minimizes the 
cost, schedule, and performance risk of the replacement mission.
    With the restructuring of the NPOESS program, NASA is now assuming 
responsibility for the procurement of the Nation's next generation 
weather and environmental monitoring satellites. Options to procure 
spacecraft to minimize any gaps in NOAA's weather and climate 
monitoring requirements will consider sole source procurements where 
appropriate.
    Question. If so, what is the justification for these sole source 
spacecraft?
    Answer. For the OCO-2 procurement, JPL concluded that any deviation 
from the original OCO mission would require substantial re-engineering/
re-testing, re-writing of existing documentation, and would infuse 
significant risk to the project. To minimize additional testing and 
mitigate risk, JPL's intent is to procure identical items wherever 
possible. For example, the Orbital spacecraft bus procurement will 
provide for an exact duplicate of the OCO spacecraft while the Northrop 
cryocooler procurement will provide for the closest-to-identical 
replacement cryocooler currently available.
    Continuity of measurements supporting accurate weather and climate 
predictions is a clear national priority. No sole-source decisions have 
been made to date for any future NPOESS/JPSS spacecraft. Any sole-
source procurements of spacecraft for the future Joint Polar Satellite 
System will be considered only if required to ensure continuity at 
reasonable risk.

                             EARTH SCIENCE

    Question. NOAA and NASA are leaders in the U.S. Climate Change 
Research Program. With an increase in severe storms and severe drought, 
accurate seasonal and yearly forecasts are becoming more of a 
necessity. The amount of Earth observation data coming from NASA's 
satellites, reinforce the concerns that our data must be handled 
properly and efficiently, and not ending up in a ``data mortuary''.
    Are there clear lines for collaboration between the NOAA and NASA, 
especially when it comes to moving research to operations?
    Answer. Yes. NASA and NOAA established a Joint Working Group (JWG) 
in response to section 306(a) of the NASA Authorization Act of 2005. 
The JWG meets at the level of the NASA Earth Science Division Director 
and the NOAA Assistant Administrator for Satellite and Information 
Services. The JWG meets approximately quarterly, with the next meeting 
planned for July 9, 2010. In this forum, NASA and NOAA coordinate plans 
for Earth observation and research, and especially the subject of 
transitions of NASA research satellite capabilities to NOAA for NOAA 
operation in support of NOAA's mission. NOAA's fiscal year 2011 budget 
request to begin development of the Jason-3 ocean altimetry mission is 
the first major outcome of this joint planning. Jason-1 (following 
TOPEX Poseidon) was a joint NASA/CNES (France) mission; Jason-2 was 
developed and launched by NASA/CNES, but is being operated by NOAA and 
EUMETSAT (NOAA's European counterpart). Jason-3 will be developed as 
NOAA/EUMETSAT partnership (with NASA/JPL's assistance under a 
reimbursable agreement).
    In the area of research, NASA and NOAA are collaborators with the 
DOD and NSF in the Joint Center for Satellite Data Assimilation, which 
works to accelerate the use of research satellite data to improve 
routine weather and climate prediction using global numerical models. 
NASA and NOAA established the Short-term Prediction Research and 
Transition (SPoRT) Center in 2002 to demonstrate the application of 
NASA satellite measurements to improve short-term weather forecasts on 
regional and local scales. NASA continues to operate 13 satellites that 
provide many of the space-based observations needed by the U.S. Global 
Change Research Program to accomplish its research goals. Data from 
several of these satellites are also used by NOAA for climate 
monitoring.
    The GOES program, begun in 1974, is another example of NOAA-NASA 
cooperation. NOAA funds and manages the program and determines the need 
for satellite replacement. NASA acts as NOAA's acquisition agent to 
design, develop, and launch GOES satellites. After a satellite is 
launched and checked out by NASA, the spacecraft is turned over to NOAA 
for its operation. The latest GOES satellite, GOES-15, was launched on 
March 4, 2010, and is presently in the final stages of on-orbit 
checkout.
    In addition to cooperation on satellite systems, NASA and NOAA also 
have a history of collaborating on research campaigns. For these 
campaigns, NASA and NOAA contribute aircraft, ships, and/or sensors to 
make complementary measurements of environmental conditions of interest 
to both agencies. For example, in 2008, NASA collaborated with NOAA on 
the Southern Ocean Gas Exchange Experiment (GasEx) to study how gases 
move between the atmosphere and oceans under high winds and seas. NASA 
funded science investigations that took place on-board NOAA's Research 
Vessel Ronald H. Brown. In April 2010, NASA concluded the Global Hawk 
Pacific mission (GloPac), the initial science mission with the Global 
Hawk Unmanned Airborne System (UAS). GloPac's purpose is to obtain 
unique observations of the lower stratosphere and upper troposphere in 
association with NASA's Aura satellite and both NASA- and NOAA-
instrument teams participated in the campaign. In the future, NASA is 
planning the Genesis and Rapid Intensification Processes (GRIP) 
airborne campaign for summer 2010 to better understand how tropical 
storms form and develop into major hurricanes. NASA plans to use the 
DC-8 aircraft and the Global Hawk UAS. NOAA will participate and deploy 
one or two low-altitude P-3 aircraft and possibly a Gulfstream IV 
aircraft for the upper troposphere measurements.
    Question. What percentage of NASA's earth science data is utilized 
by scientists? How does that utilization compare with NOAA's satellite 
data?
    Answer. In fiscal year 2009, the NASA Distributed Active Archive 
Centers (DAACs) distributed over 250 million data products to users 
around the world. In fiscal year 2009, NASA recorded over 910,000 
distinct users of EOSDIS data and services. Ninety percent of the 
distributed products and 88 percent of the distributed volume 
(Gigabytes delivered) went to science users. Data is also typically 
accessed for educational or applications purposes.
    Last year, the DAACs identified 466 papers that used data from NASA 
DAACs in various peer-reviewed science journals, such as Advances in 
Space Research and Journal of Geophysical Research. As it is not 
mandatory that researchers who use NASA data cite the source of that 
data, this number represents a low estimate of the numbers of papers 
that used NASA data.
    NASA does not monitor the use of NOAA data. However, NASA 
scientists do make broad use of the NOAA data.
    Question. Now that NASA will be heavily involved in the successor 
program to NPOESS, how will you ensure that it undertakes this task 
effectively without diverting budget or manpower resources from the key 
missions to which NASA is committed and which are presented in the 2011 
budget?
    Answer. The Joint Polar Satellite System program will actually be 
easier to manage from a budget and manpower planning standpoint for 
NASA than NPOESS was. In NPOESS, NASA did not have a direct development 
management role; NASA needed to identify manpower resources to help 
with NPOESS instrument development problems on a non-predictable basis. 
JPSS, on the other hand, will be run much the way the POES program was 
for three decades. NOAA will budget for the program and reimburse NASA 
for its satellite development work; since all JPSS work is 
reimbursable, there is no impact to NASA's budget. This more stable 
program, with stable roles, enables effective long term planning. POES 
and GOES proceeded in parallel with NASA's development of the Earth 
Observing System in the 1990s and early 2000s, and the workforce 
synergies were beneficial to both programs. We foresee the same for 
JPSS and NASA's development of its research missions.
    While JPSS will require an unusually rapid ramp-up, Goddard 
currently manages 18 flight projects and has a large and experienced 
workforce. The immediate challenge will be the need to quickly assign a 
cadre of very experienced senior level managers, and GSFC has already 
identified a strong leadership team to initiate the transition from 
NPOESS to JPSS. Many of these individuals are coming off programs that 
have launched in the past months or are about to launch, including 
Hubble Space Telescope Servicing Mission 4 and the Solar Dynamics 
Observatory. The plan is to ramp up to 150 Civil Servant and Contractor 
employees during the first year, with an ultimate program/project size 
of 300-350 people. In the short term, Goddard will manage the 
reassignment of people with the intent of minimizing impact to its 
other flight projects.
    Question. What efforts will NASA take to make its earth science 
more relevant to pressing regulatory challenges like carbon monitoring 
and other greenhouse gas issues?
    Answer. The President's fiscal year 2011 budget request includes 
funds for an Orbiting Carbon Observatory-2 mission to be developed for 
launch in February 2013. The policy and science communities look 
forward to the availability of these data, from which CO<INF>2</INF> 
sources and sinks can be inferred. Further, the OCO-2 funds are planned 
to enable generous instrument spare parts development. This will both 
reduce risk in OCO-2 schedule and, upon achievement of a successful 
OCO-2 launch, enable assembly of a second instrument copy to be flown 
as a mission of opportunity or as part of the Decadal Survey ASCENDS 
mission. The result will be extended data continuity, which is 
essential for carbon monitoring.
    The fiscal year 2011 budget request also funds the continuation of 
NASA's pilot Carbon Monitoring System activities begun in fiscal year 
2010. The goal of these activities is to generate and test an improving 
set of products on carbon storage and exchange between the surface and 
the atmosphere. These information products will be provided on a 
regular basis to policy and decisionmakers as well as to scientists and 
program managers designing the future evolution of a carbon monitoring 
capability.
    For other greenhouses gases and aerosols, the fiscal year 2011 
budget request funds the refurbishment of an existing Stratospheric 
Aerosols and Gas Experiment-III (SAGE III) to be hosted on the 
International Space Station, which operates at an ideal orbital 
inclination for this instrument. NASA continues development of the 
Ozone Mapper and Profiler Suite-Limb instrument for flight on NPP in a 
collaborative activity with NOAA on climate data continuity.
    As part of the Earth Science Research Program, NASA is investing 
over $160 million in research related to understanding the quantity of 
carbon on the Earth's surface, in the atmosphere, and the oceans, as 
well as how carbon is cycled between these reservoirs. The Carbon Cycle 
and Ecosystem Program uses six NASA satellites already in operation to 
monitor global carbon levels. The Land Cover and Land Use Change 
program, which is part of the Carbon Cycle and Ecosystems Program, 
monitors and models the interactions of land cover and land use change 
with the carbon cycle. New research opportunities through the Carbon 
Cycle and Ecosystems Program seek to better understand and model human-
ecosystem-climate interactions.
    Question. We have an annual report of Hubble's science 
accomplishments. Why have we never received anything comparable for 
NASA's earth science program even though we spend more than $1.5 
billion per annum on it? What are the five most important discoveries 
in NASA's earth science program for each of the past 5 years? (2004-
2009)
    Answer. While NASA's Earth Science program does not have an 
equivalent to Hubble's Space Telescope Institute which prepares that 
annual report, we do report annually on Earth science accomplishments 
through the Aeronautics and Space Report of the President and through 
contributions to the annual Our Changing Planet report of the U.S. 
Global Change Research Program. NASA would be pleased to provide more 
information on our accomplishments in Earth Science in any form the 
subcommittee would find useful.

                                  2009

NASA Satellite Reveals Dramatic Arctic Sea Ice Thinning
    Using the ICESat spacecraft, researchers showed that Arctic sea ice 
thinned dramatically, with thin seasonal ice replacing thick ``multi-
year'' ice as the dominant type for the first time on record. These 
measurements represent the first time that changes in ice thickness and 
volume were measured over the entire Arctic Ocean. Such information is 
used to calculate annual ice production and has shown periods of near-
zero replenishment of the multi-year ice cover and significant 
transport of ice out of the Arctic. http://www.nasa.gov/home/hqnews/
2009/jul/HQ_09-155_Thin_Sea_Ice.html
Methane, Carbon Monoxide Heat Up the Home Planet
    A team of NASA researchers at the Goddard Institute for Space 
Studies found that two greenhouse gases have a significantly more 
powerful impact on global warming than previously thought. In a paper 
published in October, the team conducted one of the first modeling 
experiments designed to rigorously quantify the impact of greenhouse 
gas-aerosol interactions on climate and air quality. The study found 
that methane's global warming impact has been underestimated, and the 
combined impact of emissions that cause both warming and air pollution 
have as much effect on warming as carbon dioxide. This improved 
knowledge of the warming effect of these greenhouse gases will help 
policymakers devise more efficient strategies to mitigate climate 
change. http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=1585
NASA Satellites Unlock Secret to Northern India's Vanishing Water
    Using NASA satellite data, scientists found that groundwater levels 
in northern India have been declining by as much as 1 foot per year 
over the past decade. A team of hydrologists led by Matt Rodell of 
NASA's Goddard Space Flight Center found that northern India's 
underground water supply is being pumped and consumed by human 
activities, such as irrigating cropland, and is draining aquifers 
faster than natural processes can replenish them. The finding is based 
on data from NASA's Gravity Recovery and Climate Experiment (GRACE), a 
pair of satellites that sense changes in Earth's gravity field. These 
changes directly relate to changes mass distribution, including water 
masses stored above or below Earth's surface. The results were 
published in October. http://www.nasa.gov/topics/earth/features/
india_water.html
Using NASA Data to Improve Public Health Tracking
    High concentrations of 2.5 micron particulate matter (PM2.5) are 
associated with heart and lung disease. Accurately monitoring 
concentrations of PM2.5 are difficult using ground observations alone. 
Similarly, 10 micron PM (from naturally occurring dust) are associated 
with asthma and other respiratory distress in the desert Southwest. 
NASA and the CDC have been partners in linking PM2.5 and PM10 and 
health observations to enhance public health surveillance through the 
CDC Environmental Public Health Tracking Network (EPHTN). The EPHTN, a 
surveillance tool that scientists, health professionals, and--for the 
first time--members of the public can use to track environmental 
exposures and chronic health conditions, went operational in July 2009. 
NASA was an integral partner in enhancing the capabilities of this 
system as it was developed, using surfacing algorithms, modeling 
capabilities, and observations from and CALIPSO. http://
www.naphsis.org/index.asp?bid=983
NASA Researchers Evaluate Impacts of the Montreal Protocol
    A team of NASA-led scientists have simulated ``what might have 
been'' if chlorofluorocarbons (CFCs) and similar chemicals were not 
banned through the Montreal Protocol. CFCs are known to deplete ozone 
in the atmosphere, which results in an increase in ultraviolet 
radiation reaching the surface of the Earth. The simulation used a 
comprehensive model that included atmospheric chemical effects, wind 
changes, and radiation changes. The simulation has shown that, without 
regulation, by 2065, 67 percent of the overhead ozone would be 
destroyed in comparison to 1980. Large ozone depletions in the polar 
region would become year-round rather than just seasonal, as is 
currently observed in the Antarctic ozone hole. Ozone levels in the 
tropical lower stratosphere remain constant until about 2053 and then 
collapse to near zero by 2058 as a result of ``polar ozone hole'' 
chemical processes developing in the tropics. In response to ozone 
changes, ultraviolet (UV) radiation increases, tripling the ``sun-
burning'' radiation in the northern summer mid-latitudes by 2065. 
http://www.atmos-chem-phys.net/9/2113/2009/acp-9-2113-2009.html

                                  2008

Arctic Sea Ice Decline Continues
    In September, Arctic sea ice coverage reached the second-lowest 
level recorded since the dawn of the satellite era, according to 
observations from the NASA-supported National Snow and Ice Data Center 
at the University of Colorado. While slightly above the record-low set 
in September 2007, this season further reinforces the strong negative 
trend in summer sea ice coverage observed during the past 30 years. In 
March, when the Arctic reached its annual maximum sea ice coverage 
during the winter, scientists from NASA and the data center reported 
that thick, older sea ice was continuing to decline. NASA developed the 
capability to observe the extent and concentration of sea ice from 
space using passive microwave sensors. http://www.nasa.gov/home/hqnews/
2008/sep/HQ_08234_Artic_Sea_Ice.html
Linking Rainfall Amounts to Pollution
    Rainfall data from TRMM has shown the impact that human activities 
have on the environment. Researchers found that midweek storms in the 
southeastern United States tend to be stronger, larger, and wetter than 
weekend storms. They found a positive correlation between this 
precipitation data and airborne particle pollution data from the EPA, 
concluding that human activities such as driving help seed the 
atmosphere and encourage rain. http://www.nasa.gov/home/hqnews/2008/
feb/HQ_08031_pollution_rain.html
Mapping Global Carbon Dioxide
    Using data from the Aqua satellite, a NASA-led research team 
produced the first global satellite maps of carbon dioxide in the 
Earth's mid-troposphere. From the data, the team found that carbon 
dioxide concentrations are highly dependent on atmospheric circulation 
patterns and major surface sources of carbon dioxide. Concentrations 
vary by hemisphere due to the relative abundance of land in the 
Northern Hemisphere. http://www.nasa.gov/topics/earth/features/airs-
20081009.html
Understanding Microseisms
    A team led by NASA-scientists were able to pinpoint a source of 
microseisms, small Earth tremors created when ocean waves traveling in 
opposite directions merge together, solving a 50-year-old mystery. The 
researchers found that some microseisms originate in the North Atlantic 
Ocean, where ocean waves combine to form stationary waves that beat 
down on the ocean floor, causing it to vibrate. These vibrations 
generate seismic waves that propagate for thousands of miles. http://
www.jpl.nasa.gov/news/features.cfm?feature=1626
Identifying the Influence of El Nino Storms on Wintertime Storms
    A team of NASA-led scientists have found that El Nino-Southern 
Oscillation (ENSO) events can lead to more intense winter storms in 
certain regions in the United States, specifically, the west coast, 
Gulf States, and the Southeast. By comparing historical rainfall and 
snow records and computer models, the scientists found that ENSO events 
can double the probability of certain extreme winter storms. http://
eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=826

                                  2007

NASA Satellites Unearth Antarctic ``Plumbing System''
    Scientists using NASA satellites discovered an extensive network of 
waterways beneath a fast-moving Antarctic ice stream that provide clues 
as to how ``leaks'' in the system affect sea level and the world's 
largest ice sheet. Data from the Moderate Resolution Imaging 
Spectroradiometer instrument aboard NASA's Aqua satellite, and data 
from the Geoscience Laser Altimeter System on NASA's Ice Cloud and Land 
Elevation Satellite, provided a multi-dimensional view of changes in 
the elevation of the icy surface above a large subglacial lake and 
surrounding areas during a 3-year period. Those changes suggest the 
lake drained to the nearby ocean. http://www.nasa.gov/vision/earth/
lookingatearth/antarctic_plumbing.html
Using NASA Satellites to Predict Tropical Cyclone Intensity
    NASA and university scientists announced in November 2007 the 
development of a promising new technique for estimating the intensity 
of tropical cyclones from space. This new method of estimating 
intensity requires cloud profiling information from over or near a 
storm's eye, including simultaneous, accurate measurements of cloud-top 
temperatures from the Aqua satellite, and cloud-top height and cloud 
profiling information from the CloudSat satellite. Both satellites fly 
in formation as part of NASA's ``A-Train'' of Earth-observing 
satellites. Initial results show the technique's estimates agreed with 
available weather data and this method could one day supplement 
existing techniques, assist in designing future tropical cyclone 
satellite observing systems, and improve disaster preparedness and 
recovery efforts. http://eospso.gsfc.nasa.gov/newsroom/
viewStory.php?id=809
Using NASA Satellites to Study Algal Blooms
    NASA satellite data helped scientists solve a decades-old puzzle 
about how vast blooms of microscopic plants can form in the middle of 
otherwise barren mid-ocean regions. The research team published 
findings in May 2007 that used the data to show that episodic, swirling 
current systems known as eddies act to pump nutrients up from the deep 
ocean to fuel such blooms. Data sets came from NASA's TOPEX/Poseidon, 
Jason, Aqua and QuikSCAT satellites. The fate of all of that biomass 
also is important, as plankton blooms can remove substantial amounts of 
carbon dioxide from surface waters and sink it to the deep ocean. The 
plants in the bloom either die and sink when the bloom runs its course 
or are consumed by animals, which then make fecal pellets that drop to 
the sea floor. http://eospso.gsfc.nasa.gov/newsroom/
viewStory.php?id=771
NASA Satellites Measure Antarctic Snow Melt
    A 2007 study led by team of NASA and university scientists found 
clear evidence that extensive areas of snow melted in west Antarctica 
in January 2005 in response to warm temperatures. This was the first 
widespread Antarctic melting ever detected with NASA's QuikScat 
satellite and the most significant melt observed using satellites 
during the past three decades. The affected regions encompass a 
combined area as big as California. Changes in the ice mass of 
Antarctica, Earth's largest freshwater reservoir, are important to 
understanding global sea level rise. Large amounts of Antarctic 
freshwater flowing into the ocean also could affect ocean salinity, 
currents and global climate. The 2005 melt was intense enough to create 
an extensive ice layer when water refroze after the melt. However, the 
melt was not prolonged enough for the melt water to flow into the sea.
Amazon Rainforest Resilient to Drought
    Using data from Terra and TRMM, researchers have found that the 
Amazon Rainforest is more drought-tolerant than originally predicted. 
Forest productivity increases and the forest canopy becomes greener 
during the dry season when more light is available due to cloudless 
conditions. Unlike plants in the pasture regions, plants in the forest 
are able to tap into deep soil water during the short dry season, 
allowing them to continue growing. http://eospso.gsfc.nasa.gov/
newsroom/viewStory.php?id=801

                                  2006

NASA Satellites and Science Ozone Studies
    NASA-funded researchers have provided new insights into the 
processes driving ozone chemistry and the impacts of ozone on pollution 
and climate change. By tracking chemicals present in the Earth's 
atmosphere using Aura, the researchers found that the burning of 
biomass in the tropics increase pollution by producing carbon monoxide 
and nitrogen oxides, two pollutants that lead to the formation of 
ozone. In a second study, researchers found that the amount of ozone in 
the tropics is dependent on the Madden-Julian Oscillation is a cyclical 
pattern of slow, eastward-moving waves of clouds, rainfall and large-
scale atmospheric circulation anomalies that can strongly influence 
long-term weather patterns around the world. Low-pressure systems 
increase the amount of subtropical total ozone. http://
eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=730
NASA Satellites Show Decline of Arctic Perennial Sea Ice
    In fiscal year 2006, analysis of NASA data showed that Arctic 
perennial sea ice, which normally survives the summer melt season and 
remains year-round, shrank abruptly by 14 percent between 2004 and 
2005. According to researchers, the loss of perennial ice in the East 
Arctic Ocean neared 50 percent during that time as some of the ice 
moved from the East Arctic to the West. Researchers have long suggested 
that the icy surface of the Arctic's waters is retreating due to a 
warming climate. Sea ice functions as an indicator of changing water, 
air, and sea surface temperatures, and is important to the continued 
well-being of Arctic mammals such as polar bears. A research team that 
used NASA's QuikScat satellite to measure the extent and distribution 
of perennial and seasonal sea ice in the Arctic discovered that, while 
the total area of all the Arctic sea ice was stable in winter, the 
distribution of seasonal and perennial sea ice experienced significant 
changes. http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=696
NASA Satellites Show Changes in Greenland and Antarctic Ice Sheets
    In the most comprehensive survey ever undertaken of the massive ice 
sheets covering both Greenland and Antarctica, NASA scientists 
confirmed that climate warming is changing how much water remains 
locked in Earth's largest storehouses of ice and snow. The survey 
showed a net loss of ice from the combined polar ice sheets between 
1992 and 2002 and a corresponding rise in sea level. The survey 
provided the first documentation of the extensive thinning of the West 
Antarctic ice shelves, an increase in snowfall in the interior of 
Greenland, and thinning at the edges. All these phenomena are 
indicators of a warming climate previously predicted by computer 
models.
NASA Scientists Uncover Lost Mayan Ruins
    Using remote sensing capabilities from satellites and NASA airborne 
instruments, researchers were able to locate Mayan architectural sites 
otherwise not visible in the dense jungle of Guatemala. Remote sensing 
instruments were able to detect changes in the local fauna indicative 
of the presence of Mayan buildings. Certain plant species were 
suppressed around building sites, while other plants were discolored 
due to changes in soil chemistry from the erosion of the buildings. 
http://eospso.gsfc.nasa.gov/newsroom/viewStory.php?id=651
Using Satellites to Predict Wildfires
    By observing plant conditions from space, researchers are able to 
predict when and where wildfires may occur. Plant moisture and the 
proportion of live to dead plant material, as measured by MODIS and 
AVIRS, provide strong indicators of the conditions favorable for 
wildfires. Such data can be assist operational agencies in their 
forecasting of fire potential across the United States. http://
www.nasa.gov/centers/goddard/news/topstory/2006/wildfire_threat.html

                                  2005

NASA Satellites Assist in Hurricane Katrina Recovery Efforts
    NASA's Earth-observing ``eyes in the sky,'' including Earth 
orbiting satellites, aircraft, and the International Space Station, 
provided detailed images of the flooding and devastation in areas 
affected by Hurricanes Katrina and Rita. NASA, along with academic 
institutions and partner agencies, worked to ensure that the Department 
of Homeland Security and the Federal Emergency Management Agency had 
the best available information to aid the rescue and recovery effort. 
The images and associated data helped characterize the extent of the 
flooding, the damage to homes, businesses, and infrastructure, and the 
potential hazards caused by the storms and their aftermath. http://
www.nasa.gov/mission_pages/hurricanes/main/index.html
NASA Satellites Assess the Impacts of the Indonesian Earthquake and 
        Tsunami
    The December 2004 Indonesian earthquake caused a massive tsunami to 
wash over 10 countries in South Asia and East Africa. NASA satellites 
were able to capture the effects of the earthquake and tsunami in this 
region. Using Earth observations from before and after the Indonesian 
earthquake, NASA scientists calculated that it slightly changed the 
planet's shape; the Earth's oblateness (flattening on the top and 
bulging at the equator) decreased by a small amount and the North Pole 
shifted by about 2.5 centimeters. The earthquake also increased the 
Earth's rotation and decreased the length of day by 2.68 microseconds. 
Physically, this is like a spinning skater drawing their arms closer to 
the body resulting in a faster spin. http://www.jpl.nasa.gov/news/
news.cfm?release=2005-009
Developing a Decision-support Capability in Central America
    Through NASA's Applied Sciences Program, scientists developed 
SERVIR, a regional visualization and monitoring system that integrates 
many different satellite data sets, forecast models, and ground-based 
observations in order to provide better information to policymakers and 
stakeholders on a range of issues including disaster management, 
agricultural development, biodiversity conservation and climate change. 
SERVIR serves communities in Central America by providing easily 
accessible customized visualization tools and services utilizing NASA 
data. Building on the success of SERVIR in Central America, NASA 
expanded SERVIR in 2008 to serve communities in East Africa. SERVIR-
Africa is primarily focused on applications related to disasters, 
health, and biodiversity. http://www.servir.net/
Measuring the Earth's Radiation Budget
    Using a combination of global climate models, ground-based 
measurements, and satellite observations, NASA researchers found that 
the Earth absorbs about 0.85 Watts of energy per square meter more than 
is radiated back to space. While some of this imbalance has led to 
increased global temperatures and snow and ice melt, a large portion of 
the energy is absorbed by the Earth's oceans making the overall effect 
to the Earth's temperature less than what would otherwise be expected. 
http://www.giss.nasa.gov/research/news/20050428/
Monitoring Sea Level
    Using a number of NASA satellites, including TOPEX/Poseidon, Jason, 
ICESat, and GRACE scientists were, for the first time, able to 
understand the rate at which the Earth's sea level is changed by 
establishing a reference sea level independent of land. Such 
information can be used not only to measure changes in sea level, but 
also can be used to identify the causes of those changes and their 
significance. For example, this information can be used to monitor the 
rate at which ice is growing or shrinking. http://www.nasa.gov/home/
hqnews/2005/jul/HQ_05175_sea_level_monitored.html

                                  2004

Black Soot and Snow--a Warmer Combination
    A NASA study found that emissions of soot, or black carbon, alter 
the way sunlight reflects off snow. A computer simulation indicated 
that soot may be responsible for as much as 25 percent of observed 
global warming over the past century. Soot on snow absorbs more of the 
Sun's energy and heat than icy, white backgrounds, which reflect the 
Sun's rays. With global warming, many snow- and ice-covered areas are 
already melting. As can be seen when glaciers and ice sheets melt, they 
tend to get dirtier as the soot becomes even more concentrated. Soot 
thereby adds to the warming effect as ice melts, making icy surfaces 
darker and absorbing more solar energy. Soot is generated from traffic, 
industrial pollution, outdoor fires, and household burning of coal and 
other fuels, and is the product of incomplete combustion. http://
www.giss.nasa.gov/research/news/20031222/
Satellites Used To Discover Chameleon Species New to Science
    NASA-supported biologists developed a modeling approach that uses 
satellite data and specimen locality data from museum collections to 
successfully predict the geographic distribution of 11 known chameleon 
species in Madagascar. The model also helped lead to the discovery of 
seven additional chameleon species new to science. The discovery shows 
that NASA satellite data and data from museum collections can help 
identify places to survey for new species of life, while locating areas 
likely to be of conservation importance. The study appeared in the 
December 2003 issue of the Nature journal and demonstrated that 
existing museum collections and satellite measurements of Earth's 
surface and climate hold great promise for the accurate prediction of 
species distributions. http://www.nasa.gov/vision/earth/livingthings/
lizards.html
Measuring the Lense-Thirring Effect
    The combined use of high-accuracy space geodetic tracking of the 
LAGEOS 1 and 2 satellites and GRACE gravity field data has validated 
the Lense-Thirring effect as predicted by Einstein's theory of General 
Relativity. As we have come to learn from Einstein, the gravity of 
massive objects warp the time and space continuum. This same theory 
also predicts that rotating massive objects drag this continuum with 
them; the Lense-Thirring effect calls this frame dragging. By carefully 
monitoring shifts in the position of the two LAGEOS spacecraft, 
researchers were able to identify anomalous motions consistent with 
those predicted by the Lense-Thirring effect. http://www.nasa.gov/
vision/earth/lookingatearth/earth_drag.html
Hurricanes Help Plants Bloom in ``Ocean Deserts''
    By measuring ocean color from the SeaWIFS instrument on the SeaStar 
satellite, scientists have found that ocean productivity increases in 
the wake of a hurricane over a 2-3 week period. The high winds 
associated with a hurricane help bring nutrients and phytoplankton to 
the ocean's surface, helping the plants to bloom. In addition, the 
scientists found that the larger the hurricane, the larger the 
resulting bloom. http://www.gsfc.nasa.gov/topstory/2004/
0602hurricanebloom.html
    Question. Isn't it true that we are relying on more and more 
satellite based assets for Earth science data? What is NASA doing to 
consider working with the commercial satellite sector for advancing 
Earth science missions?
    Answer. Space-based assets are essential for providing global, 
frequent, consistent and optimal resolution sampling to create the data 
sets that form the foundation for much Earth science research. NASA 
works with the commercial satellite sector to acquire spacecraft and 
launch services, and to some extent instruments, for these satellite 
assets. An example is our work with Orbital Sciences Corporation, a 
leading commercial satellite firm in all three areas, in the Glory 
mission.
    With respect to commercial satellite firms that develop and deploy 
their own satellite systems for communications or remote sensing, 
NASA's relationship is one of synergy. The commercial market for remote 
sensing, for example, is in imagery with a resolution of less than 2 
meters. NASA does not compete with the commercial sector in this area; 
we develop and operate remote sensing satellites with coarser 
resolution (but more frequent revisit times and tighter calibration). 
NASA and the commercial sector benefit from each other's efforts; NASA 
satellite data provides the contextual imagery that users of high-
resolution commercial satellites employ to aid in interpretation of 
higher resolution imagery.
    In limited instances, NASA is also able to purchase Earth science 
data from commercial satellite sources. The longest-running instance is 
NASA's involvement with the Sea-viewing Wide Field-of-view Sensor 
(SeaWiFS) instrument that flies aboard GeoEye's SeaStar spacecraft, 
which launched on August 1, 1997. NASA uses SeaWiFS to acquire data 
that are critical for the study of the role of the oceans in the 
Earth's biogeochemical process, especially the effect of the temporal 
and spatial variability in phytoplankton and their impact on the global 
carbon cycle. Under this arrangement, NASA provided approximately $30 
million up front to the development of the instrument, and maintained a 
close involvement with SeaWiFS since its inception, especially in the 
areas of algorithm development, calibration/validation, and archival 
and distribution of data for scientific research. Since 2005, NASA has 
had a contractual relationship with GeoEye for a large volume of space-
based multispectral imagery of the Earth from the SeaWiFS instrument.
    The future holds the prospect of more collaborative NASA/commercial 
satellite partnerships. The fiscal year 2011 budget request funds a new 
feature of the Venture class program--annual competitive solicitations 
for development of Earth observing instruments to fly on missions of 
opportunity. Coupled with the development of standard instrument-to-
spacecraft interfaces funded in the fiscal year 2011 budget, this will 
enable NASA to take advantage of rapidly-emerging opportunities for 
international and commercial partnership offers.

                             CYBER SECURITY

    Question. During fiscal years 2007 and 2008, NASA reported 1,120 
security incidents that resulted in unauthorized access to sensitive 
information. NASA has taken action to better defend against cyber 
attacks, but GAO recently concluded that NASA remains vulnerable. Basic 
IT security practices, such as using proper password protection, 
encrypting sensitive information and restricting access to privileged 
systems are not being implemented.
    Why has NASA neglected to fully implement its own information 
security program?
    Answer. In recent years, NASA has struggled with the paradox of 
using its budget to satisfy dated FISMA requirements and implementing a 
meaningful risk-based approach to securing NASA's information systems. 
An inordinate investment in compliance rather than a true understanding 
of risk fails to improve security and has placed NASA at greater risk 
of data loss, disruption to enterprise services, and disruption to 
mission operations.
    In the face of these challenges, and with limited resources, NASA 
has begun to implement the following capabilities to improve 
situational awareness and to operationalize compliance-based 
activities:
  --The Security Operation Center (SOC) centrally collects and analyzes 
        network monitoring and incident data to identify attack trends. 
        As a result of the SOC's initial operating capability, NASA has 
        discovered the great extent of network traffic that must be 
        monitored and the resources required to remediate incidents 
        across the agency.
  --The Cyber Threat Analysis Program (CTAP) identifies common and 
        advanced threats, vulnerabilities, and attack vectors in order 
        to develop risk profiles and mitigation solutions for the 
        agency. NASA is now increasingly aware of the alarmingly 
        advanced, persistent nature of the attacks against its 
        information systems, and of the resources required to detect 
        and respond to these attacks.
  --NASA's IT Security Enterprise Data Warehouse (ITSEC-EDW) will 
        provide a near-real-time inventory of all network assets, 
        including such security information as existing 
        vulnerabilities, patch status, anti-virus status, and 
        conformance to standard configurations (e.g., FDCC, USGCB). As 
        more data sources are integrated into ITSEC-EDW NASA will gain 
        a more complete view of its risk posture, and will become 
        capable of supporting automated continuous monitoring of the 
        agency's most critical security controls.
  --NASA's migration to the use of HSPD-12 compliant smart cards 
        further enhances the secure access to desktop and application 
        resources across the agency.
  --The IDMax portal ensures that secure account authorization to NASA 
        applications is established, controlled, and terminated as part 
        of the employee and contractor management processes. NASA must 
        now work to integrate additional applications into this portal.
    Additionally, NASA is working closely with the White House, the 
Federal CIO, Department of Homeland Security, Department of State, OMB, 
and public sector organizations such as the SANS Institute to further 
realize the benefits of a truly risk-based information security 
program. NASA's emphasis must clearly be to securely enable its mission 
by balancing risk with mission and business needs.
    NASA is working diligently to improve its information security 
programs and has made great strides toward a more complete approach.
    Question. How does NASA's fiscal year 2011 budget improve IT 
security when the request for ``IT Management'' drops from $28.6 
million to $16.1 million?
    Answer. In previous years, IT Security was captured under IT 
Management Project Reporting Activities (PRA) but during the budget 
formulation cycle for BY 2011, the OCIO reprogrammed its budget to 
better align functionalities and capabilities or the agency-wide IT 
service (AITS) projects to the PRA. Therefore, the IT Security programs 
originally budgeted under IT Management are being executed under 
Infrastructure to more accurately align NASA with Industry standards.
    The fiscal year 2011 IT Infrastructure budget, which includes IT 
Security, increases significantly due to the above mentioned 
realignment and also as AITS is focusing on improving IT security and 
efficiency, NASA is implementing new AITS contracts that consolidate or 
replace agency and center specific contracts. Currently, there are 
multiple approaches in place for funding for IT services across the 
NASA Centers making it difficult to efficiently execute critical IT 
services. Additionally, funding was transferred to AITS for 
transformation and renewal of the NASA IT network infrastructure at the 
NASA Centers. This IT initiative will mitigate IT security threats and 
vulnerabilities through network security zones and provide enterprise-
wide benefits of consolidated network management and monitoring, 
coupled with sufficient capacity and reliability to support increasing 
mission-related data transfer requirements.

                          FINANCIAL MANAGEMENT

    Question. Last year, Congress appropriated $18.7 billion for NASA, 
this subcommittee's largest account. GAO and the NASA inspector general 
have both recently reported that financial management at NASA continues 
to be a serious problem. Recent independent reviews by Ernst & Young 
have identified significant financial deficiencies at NASA that lead to 
delayed and inaccurate reporting.
    How has NASA met the IG's and GAO's recommendation for better 
financial management?
    Answer. As of September 30, 2009, NASA had one remaining material 
weakness related to legacy property, plant, and equipment, or PP&E, and 
two other significant, but not material, deficiencies. The first 
deficiency related to processes used to estimate NASA's Environmental 
Liability. The second deficiency related to a lack of substantial 
compliance with the Federal Financial Management Improvement Act of 
1996, resulting primarily from a lack of integration between NASA's 
real property system and its core financial system.
    NASA is working closely with the IG, GAO and the agency's auditors, 
Ernst & Young, to resolve these remaining weaknesses. NASA is working 
on three specific actions that directly address fiscal year 2009 
financial audit recommendations:
  --As encouraged by Ernst & Young, NASA is adopting a new accounting 
        standard, SFFAS No. 35, Estimating the Historical Cost of 
        General Property, Plant, & Equipment: Amending Statements of 
        Federal Financial Accounting Standards 6 and 23, that will help 
        to resolve the legacy PP&E material weakness. SFFAS No. 35 
        permits the agency to establish auditable estimates for those 
        legacy assets--particularly the International Space Station and 
        space shuttle, and real property--for which the agency does not 
        have the full historical cost records or for which it would not 
        be cost effective to recreate such records.
    NASA, in collaboration with the IG, GAO, and its auditor, is 
        working to establish the basis for reasonable estimates, the 
        approaches for implementing those bases, the information 
        required to support the resulting estimates, and the timeframe 
        within which the estimates can be generated.
  --NASA continues to utilize the agency's ongoing Continuous 
        Monitoring Program (CMP) to monitor and improve key financial 
        activities and controls. The CMP is a monthly process that 
        provides for robust and rigorous reviews to validate the 
        quality and sufficiency of information for key accounts and 
        accounting transactions. Changes in key processes are 
        accompanied by reviews and, if required, improvements in the 
        related CMP control activities.
  --NASA has integrated its real property asset financial records into 
        the core financial system's asset management module in fiscal 
        year 2010. This improves overall PP&E accounting, and addresses 
        the FFMIA weakness identified in the auditor's fiscal year 2009 
        Report on Internal Control.
    Today, using current systems and processes, NASA is able to track 
and control its funds, account for the costs related to individual 
programs and projects, and manage the agency's day-to-day operations. 
The agency is committed to resolving its remaining weakness and 
deficiencies as it continues to improve its financial management.
    Question. Please break out by program area, the 2010 and 2011 
budgets for civil servant salaries and expenses, travel and support 
service contractors, including a crosswalk by each NASA field 
installation and headquarters.
    Answer. For fiscal year 2010, we have provided budget for civil 
service salaries and expenses, travel and procurement by center at the 
mission level. The estimates are based on actual labor and travel costs 
through April 2010 with projections through the remainder of the fiscal 
year. At the agency level, NASA does not budget and account 
specifically for support contractors, but accounts for all contract and 
grant activities including support contractors, prime contractors, 
facilities and other items within the procurement line. Please note 
that the Headquarters Procurement funding estimate for 2010 includes 
approximately $500 million that has not yet been distributed to 
centers.

                                                    FISCAL YEAR 2010 APPROPRIATION FUNDING ESTIMATES
                                                                [In millions of dollars]
                                 [Projections based on costs through April 30 and budget distributions through June 23]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                               TOTAL    HQ \1\    ARC      GRC      LaRC     DFRC     GSFC     MSFC     SSC      JSC      KSC      JPL
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science.....................................    4,448      388      180       39       80       65    2,173      139        3       21      266    1,094
    Labor...................................      277  .......       28       10       19       13      186       16        1        4  .......  .......
    Travel..................................       17        1        2        1        1        1        9        1  .......  .......  .......  .......
    Procurements............................    4,154      386      151       28       60       51    1,978      122        2       16      266    1,094
Aeronautics Research........................      500       43      107      128      164       56        2  .......  .......  .......  .......  .......
    Labor...................................      184  .......       38       55       75       16  .......  .......  .......  .......  .......  .......
    Travel..................................        6  .......        1        1        2  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      310       43       67       72       86       40        2  .......  .......  .......  .......  .......
Exploration Systems.........................    3,757      107       98      133       92       39       31    1,279      106    1,660      169       43
    Labor...................................      445  .......       32       51       42        8        8      125        5      117       59  .......
    Travel..................................       20        2        2        2        2        1  .......        3  .......        6        1  .......
    Procurements............................    3,293      106       65       80       48       31       23    1,151      101    1,537      109       43
Space Operations............................    6,142      403       14       43        6        8      246      893       38    3,927      387      178
    Labor...................................      429  .......        3       15        2        1       21       61        8      217      101  .......
    Travel..................................       19        1  .......        1  .......  .......        1        3  .......        8        4  .......
    Procurements............................    5,694      401       11       27        4        7      224      829       30    3,701      281      178
Education...................................      180       60        7       14       16       15       49        3        1        8        5        2
    Labor...................................        3  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................        1  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      177       60        6       14       16       15       48        3        1        8        4        2
Cross-Agency Supt...........................    3,193      415      255      277      323       72      495      433       64      453      381       25
    Labor...................................    1,204      190      100       87      116       37      242      143       21      148      120  .......
    Travel..................................       34        9        2        3        4        1        3        4        1        4        3  .......
    Procurements............................    1,954      216      153      187      202       35      250      286       42      301      259       25
CoF & ECR...................................      468       65       36       70       18       22       45       27       33       74       66       14
    Labor...................................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................      468       65       36       70       18       22       45       27       33       74       66       14
OIG.........................................       36       36  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Labor...................................       28       28  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Travel..................................        1        1  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Procurements............................        8        8  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
                                             -----------------------------------------------------------------------------------------------------------
      TOTAL.................................   18,724    1,517      697      704      697      277    3,041    2,774      245    6,143    1,273    1,356
          Labor.............................    2,570      218      201      218      254       74      458      346       35      486      280        0
          Travel............................       97       15        7        8       10        4       13       12        1       19        8        0
          Procurements......................   16,057    1,284      489      478      433      200    2,570    2,417      209    5,638      984    1,356
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ HQ Procurement funding includes approximately $500 million that has not yet been distributed to centers.

    For fiscal year 2011, we have provided a spreadsheet, attached, 
that shows how NASA civil service labor and expenses are proposed to be 
reallocated from the programs and projects for establishment of a new 
Civil Service Labor and Expenses theme. This information was submitted 
to the Committees on Appropriations by letter dated June 1, 2010. These 
estimates are based on centers' pricing analysis of total center FTE 
ceilings and their associated expenses, and inputs provided by the 
missions on the required civil service, travel and procurement 
requirements by project. Because of the competitive nature of many of 
the agency's projects across all missions and the uncertainty of which 
center may win the selection, NASA budgets these funds at NASA 
Headquarters until the completion of the selection process. These 
competitive selection processes limit the ability to provide complete 
budget data at the center by mission level for the civil service 
salaries and expenses, travel and procurement estimates that are 
requested.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year                   Updated Fiscal
                                                                   2011 Request   Labor Transfer     Year 2011
----------------------------------------------------------------------------------------------------------------

                             Science

Earth Science:
    Earth Science Research:
        Earth Science Research and Analysis.....................           324.6           -36.2           288.4
        Computing and Management................................           113.5            -7.1           106.4
                                                                 -----------------------------------------------
          Total, Earth Science Research.........................           438.1           -43.3           394.8
                                                                 ===============================================
    Earth Systematic Missions:
        Global Precipitation Measurement (GPM)..................           128.8           -17.1           111.7
        Glory Mission...........................................            21.9            -1.3            20.6
        Landsat Data Continuity Mission (LDCM)..................           156.8           -11.9           144.9
        NPOESS Preparatory Project (NPP)........................            64.4            -5.6            58.8
        Ice, Cloud, and land Elevation Satellite (ICESat-2).....            68.5           -12.2            56.3
        Soil Moisture Active and Passive (SMAP).................            82.5            -2.4            80.1
        Other Missions and Data Analysis........................           286.5           -27.8           258.7
                                                                 -----------------------------------------------
          Total, Earth Systematic Missions......................           809.3           -78.3           731.0
                                                                 ===============================================
    Earth System Science Pathfinder:
        Aquarius................................................            17.0            -0.4            16.6
        OCO-2...................................................           171.0  ..............           171.0
        Venture Class Missions..................................            79.5  ..............            79.5
        Other Missions and Data Analysis........................            36.2            -2.1            34.1
                                                                 -----------------------------------------------
          Total, Earth System Science Pathfinder................           303.8            -2.5           301.3
                                                                 ===============================================
Earth Science Multi-Mission Operations..........................           161.2            -7.3           153.9
                                                                 ===============================================
Earth Science Technology........................................            52.8            -6.3            46.5
                                                                 ===============================================
Applied Sciences: Pathways......................................            36.6            -3.5            33.1
                                                                 ===============================================
      Total, Earth Science......................................         1,801.8          -141.2         1,660.6
                                                                 ===============================================
Planetary Science:
    Planetary Science Research:
        Planetary Science Research and Analysis.................           131.0            -6.6           124.4
        Other Missions and Data Analysis........................            23.9            -2.3            21.6
        Education and Directorate Management....................             5.1            -0.3             4.8
        Near Earth Object Observations..........................            20.3  ..............            20.3
                                                                 -----------------------------------------------
          Total, Planetary Science Research.....................           180.4            -9.1           171.3
                                                                 ===============================================
    Lunar Quest Program:
        Lunar Science...........................................            74.7            -3.6            71.1
        Lunar Atmosphere and Dust Environment Explorer..........            57.9            -7.6            50.3
        International Lunar Network.............................             4.0            -1.5             2.5
                                                                 -----------------------------------------------
          Total, Lunar Quest Program............................           136.6           -12.7           123.9
                                                                 ===============================================
    Discovery:
        Gravity Recovery and Interior Laboratory (GRAIL)........           104.8            -0.1           104.7
        Other Missions and Data Analysis........................            97.2            -2.3            94.9
                                                                 -----------------------------------------------
          Total, Discovery......................................           202.0            -2.4           199.6
                                                                 ===============================================
    New Frontiers:
        Juno....................................................           184.2            -0.6           183.6
        Other Missions and Data Analysis........................            39.6            -1.5            38.1
                                                                 -----------------------------------------------
          Total, New Frontiers..................................           223.8            -2.1           221.7
                                                                 ===============================================
    Mars Exploration:
        2009 Mars Science Lab...................................           231.6            -0.5           231.1
        MAVEN...................................................           161.2            -6.5           154.7
        Other Missions and Data Analysis........................           140.0            -1.4           138.6
                                                                 -----------------------------------------------
          Total, Mars Exploration...............................           532.8            -8.3           524.5
                                                                 ===============================================
    Outer Planets...............................................           103.5            -2.1           101.4
                                                                 ===============================================
    Technology..................................................           106.5            -8.0            98.5
                                                                 -----------------------------------------------
      Total, Planetary Science..................................         1,485.7           -44.8         1,440.9
                                                                 ===============================================
Astrophysics:
    Astrophysics Research:
        Astrophysics Research and Analysis......................            60.2            -5.0            55.2
        Balloon Project.........................................            27.1            -4.0            23.1
        Other Missions and Data Analysis........................            68.7            -1.2            67.5
                                                                 -----------------------------------------------
          Total, Astrophysics Research..........................           156.1           -10.1           146.0
                                                                 ===============================================
    Cosmic Origins:
        Hubble Space Telescope (HST)............................           102.7            -3.6            99.1
        James Webb Space Telescope (JWST).......................           444.8           -23.3           421.5
        Stratospheric Observatory for Infrared Astronomy (SOFIA)            79.6           -12.6            67.0
        Other Missions and Data Analysis........................            60.6            -2.0            58.6
                                                                 -----------------------------------------------
          Total, Cosmic Origins.................................           687.7           -41.5           646.3
                                                                 ===============================================
    Physics of the Cosmos: Other Missions and Data Analysis.....           103.3            -6.0            97.3
                                                                 ===============================================
    Exoplanet Exploration: Other Missions and Data Analysis.....            42.5            -1.7            40.8
                                                                 ===============================================
    Astrophysics Explorer:
        Nuclear Spectroscopic Telescope Array (NuStar)..........            32.1            -0.4            31.7
        Gravity and Extreme Magnetism...........................            21.0            -5.3            15.7
        Other Missions and Data Analysis........................            33.6            -4.1            29.5
                                                                 -----------------------------------------------
          Total, Astrophysics Explorer..........................            86.7            -9.8            76.9
                                                                 ===============================================
          Total, Astrophysics...................................         1,076.3           -69.0         1,007.3
                                                                 ===============================================
Heliophysics:
    Heliophysics Research:
        Heliophysics Research and Analysis......................            31.7            -1.4            30.3
        Sounding Rockets........................................            48.9            -4.7            44.2
        Research Range..........................................            19.6            -1.5            18.1
        Other Missions and Data Analysis........................            66.7           -11.1            55.6
                                                                 -----------------------------------------------
          Total, Heliophysics Research..........................           166.9           -18.7           148.2
                                                                 ===============================================
    Living with a Star:
        Radiation Belt Storm Probes (RBSP)......................           140.0            -1.1           138.9
        Solar Probe Plus........................................            14.1            -0.6            13.5
        Other Missions and Data Analysis........................            60.2            -2.1            58.1
                                                                 -----------------------------------------------
          Total, Living with a Star.............................           214.3            -3.8           210.5
                                                                 ===============================================
    Solar Terrestrial Probes:
        Magnetospheric Multiscale (MMS).........................           143.8           -18.2           125.6
        Other Missions and Data Analysis........................            19.1            -1.3            17.8
                                                                 -----------------------------------------------
          Total, Solar Terrestrial Probes.......................           162.9           -19.5           143.4
                                                                 ===============================================
    Heliophysics Explorer Program:
        IRIS....................................................            69.0            -2.0            67.0
        Other Missions and Data Analysis........................            28.7            -1.8            26.9
                                                                 -----------------------------------------------
          Total, Heliophysics Explorer Program..................            97.7            -3.9            93.8
                                                                 ===============================================
    New Millennium..............................................             0.1  ..............             0.1
                                                                 ===============================================
      Total, Heliophysics.......................................           641.9           -45.8           596.1
                                                                 ===============================================
      Total, Science............................................         5,005.6          -300.8         4,704.8
                                                                 ===============================================

          Aeronautics and Space Research and Technology

Aeronautics Research:
    Aviation Safety.............................................            79.3           -33.4            45.9
    Airspace Systems............................................            82.2           -22.4            59.8
    Fundamental Aeronautics.....................................           228.5          -102.6           125.9
    Aeronautics Test............................................            76.4           -25.6            50.8
    Integrated Systems Research.................................           113.1           -20.6            92.5
                                                                 -----------------------------------------------
      Total, Aeronautics Research...............................           579.6          -204.6           375.0
                                                                 ===============================================
Space Technology:
    Early Stage Innovation:
        Space Technology Research Grants........................            70.0            -3.9            66.1
        NIAC Phase I and Phase II...............................             3.0            -0.5             2.5
        Center Innovations Fund.................................            50.0            -8.5            41.5
        SBIR/STTR...............................................           165.6            -7.3           158.3
        Centennial Challenges...................................            10.0  ..............            10.0
                                                                 -----------------------------------------------
          Total, Early Stage Innovation.........................           298.6           -20.2           278.4
                                                                 ===============================================
    Game Changing Technology:
        Game-Changing Developments..............................           123.6           -19.0           104.6
        Small Satellite Subsystem Technologies..................             6.0            -1.2             4.8
                                                                 -----------------------------------------------
          Total, Game Changing Technology.......................           129.6           -20.1           109.5
                                                                 ===============================================
    Crosscutting Capability Demonstrations:
        Technology Demonstration Missions.......................            75.0            -7.5            67.5
        Edison Small Satellite Demonstration Missions...........            10.0            -1.3             8.7
        Flight Opportunities....................................            17.0            -1.2            15.8
                                                                 -----------------------------------------------
          Total, Crosscutting Capability Demonstrations.........           102.0           -10.1            91.9
                                                                 ===============================================
    Partnership Development and Strategic Integration...........            42.0            -9.7            32.3
                                                                 ===============================================
      Total, Space Technology...................................           572.2           -60.2           512.0
                                                                 ===============================================
      Total, Aeronautics and Space Research and Technology......         1,151.8          -264.8           887.0
                                                                 ===============================================

                           Exploration

Exploration Research and Development:
    Technology Demonstration....................................           652.4          -111.1           541.3
    Heavy Lift and Propulsion Technology........................           559.0           -67.6           491.4
    Robotic Precursor Missions..................................           125.0           -31.0            94.0
    Human Research..............................................           215.0           -19.0           196.0
                                                                 -----------------------------------------------
      Total, Exploration Research and Development...............         1,551.4          -228.7         1,322.7
                                                                 ===============================================
Commercial Spaceflight:
    Commercial Cargo............................................           312.0            -5.3           306.7
    Commercial Crew.............................................           500.0           -18.5           481.5
                                                                 -----------------------------------------------
      Total, Commercial Spaceflight.............................           812.0           -23.8           788.2
                                                                 ===============================================
Constellation Transition........................................         1,900.0          -337.6         1,562.4
                                                                 ===============================================
Constellation Systems:
    Constellation Systems.......................................  ..............  ..............  ..............
    Commercial Crew and Cargo...................................  ..............  ..............  ..............
                                                                 ===============================================
Advanced Capabilities:
    Human Research Program......................................  ..............  ..............  ..............
    Exploration Technology Development..........................  ..............  ..............  ..............
    Lunar Precursor Robotic Program.............................  ..............  ..............  ..............
                                                                 ===============================================
      Total, Exploration........................................         4,263.4          -590.1         3,673.3
                                                                 ===============================================

                        Space Operations

Space Shuttle:
    Space Shuttle Program:
        Program Integration.....................................           284.8           -46.4           238.4
        Flight and Ground Operations............................           373.2           -21.8           351.4
        Flight Hardware.........................................           331.1           -15.3           315.8
                                                                 -----------------------------------------------
          Total, Space Shuttle..................................           989.1           -83.5           905.6
                                                                 ===============================================
International Space Station:
    International Space Station Program:
        ISS Operations..........................................         1,923.0          -173.2         1,749.8
        ISS Cargo Crew Services.................................           856.8  ..............           856.8
                                                                 -----------------------------------------------
          Total, International Space Station....................         2,779.8          -173.2         2,606.6
                                                                 ===============================================
Space and Flight Support (SFS):
    21st Century Space Launch Complex...........................           428.6           -13.7           414.9
                                                                 ===============================================
    Space Communications and Navigation:
        Space Communications Networks...........................           371.2           -19.4           351.8
        Space Communications Support............................            62.6            -4.9            57.7
        TDRS Replenishment......................................            19.0            -4.5            14.5
                                                                 -----------------------------------------------
          Total, Space Communications and Navigation............           452.9           -28.8           424.1
                                                                 ===============================================
    Human Space Flight Operations...............................           114.4           -28.7            85.7
                                                                 ===============================================
    Launch Services.............................................            78.9           -33.8            45.1
                                                                 ===============================================
    Rocket Propulsion Test......................................            44.3            -7.1            37.2
                                                                 ===============================================
    Crew Health and Safety......................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, Space and Flight Support (SFS).....................         1,119.0          -112.1         1,006.9
                                                                 ===============================================
      Total, Space Operations...................................         4,887.8          -368.8         4,519.0
                                                                 ===============================================

                            Education

Higher Ed. STEM Education:
    STEM Opportunities (Higher Education).......................            16.9            -0.9            16.0
    NASA Space Grant............................................            27.7            -1.4            26.3
    Experimental Program to Stimulate Competetive Research......             9.3            -0.5             8.8
    Minority University Research & Education Program............            27.2            -1.4            25.8
    Global Climate Change Education.............................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, Higher Ed. STEM Education..........................            81.0            -4.2            76.8
                                                                 ===============================================
K-12 STEM Education:
    STEM Student Opportunities (K-12)...........................            46.1            -2.0            44.1
    STEM Teacher Development (K-12).............................            16.7            -0.7            16.0
    K-12 Competitive Educational Grant Program..................  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total, K-12 STEM Education................................            62.8            -2.7            60.1
                                                                 ===============================================
Informal STEM Education:
    Science Museums and Planetarium Grants......................  ..............  ..............  ..............
    NASA Visitor Centers........................................  ..............  ..............  ..............
    NASA Informal Education Opportunities.......................             2.0            -0.7             1.3
                                                                 -----------------------------------------------
      Total, Informal STEM Education............................             2.0            -0.7             1.3
                                                                 ===============================================
      Total, Education..........................................           145.8            -7.6           138.2
                                                                 ===============================================

                      Cross-Agency Support

Center Management and Operations:
    Center Institutional Capabilities...........................         1,776.1          -590.1         1,186.0
    Center Programmatic Capabilities............................           494.0          -346.8           147.2
                                                                 -----------------------------------------------
      Total, Center Management and Operations...................         2,270.2          -936.9         1,333.3
                                                                 ===============================================
Agency Management and Operations:
    Agency Management...........................................           432.0          -244.4           187.6
                                                                 ===============================================
    Safety and Mission Success:
        Safety and Mission Assurance............................            49.0           -11.9            37.1
        Chief Engineer..........................................           103.6           -40.6            63.0
        Chief Health and Medical Officer........................             4.1  ..............             4.1
        Independent Verification and Validation.................            45.0            -5.0            40.0
                                                                 -----------------------------------------------
          Total, Safety and Mission Success.....................           201.6           -57.5           144.1
                                                                 ===============================================
    Agency IT Services (AITS):
        IT Management...........................................            16.1            -0.5            15.6
        Applications............................................            79.1            -8.6            70.5
        Infrastructure..........................................            82.6            -3.6            79.0
                                                                 -----------------------------------------------
          Total, Agency IT Services (AITS)......................           177.8           -12.7           165.1
                                                                 ===============================================
    Strategic Capabilities Assets Program:
        Simulators..............................................            11.7            -4.8             6.9
        Thermal Vacuum Chambers.................................             8.4            -1.8             6.7
        Arc Jets................................................             9.7            -2.6             7.2
                                                                 -----------------------------------------------
          Total, Strategic Capabilities Assets Program..........            29.8            -9.1            20.7
                                                                 ===============================================
          Total, Agency Management and Operations...............           841.2          -323.7           517.5
                                                                 ===============================================
Civil Service Labor and Expenses................................  ..............         2,792.6         2,792.6
                                                                 ===============================================
Congressionally Directed Items..................................  ..............  ..............  ..............
                                                                 ===============================================
      Total, Cross-Agency Support...............................         3,111.4         1,532.0         4,643.4
                                                                 ===============================================

    Construction and Environmental Compliance and Restoration

Construction of Facilities:
    Institutional CoF...........................................           280.8  ..............           280.8
    Science CoF.................................................            40.5  ..............            40.5
    Exploration CoF.............................................  ..............  ..............  ..............
    Space Operations CoF........................................            14.0  ..............            14.0
                                                                 -----------------------------------------------
      Total, Construction of Facilities.........................           335.2  ..............           335.2
                                                                 ===============================================
Environmental Compliance and Restoration........................            62.1  ..............            62.1
                                                                 ===============================================
      Total, Construction and Environmental Compliance and                 397.3  ..............           397.3
       Restoration..............................................
                                                                 ===============================================
                        Inspector General

IG Program
    Inspector General...........................................            37.0  ..............            37.0
                                                                 ===============================================
      Total, NASA Fiscal Year 2011..............................        19,000.0  ..............        19,000.0
----------------------------------------------------------------------------------------------------------------

    Question. Why has NASA failed to comply with the subcommittee's 
repeated directives to provide more budget detail in the Congressional 
justifications like is submitted by the DOD and individual military 
services in their R-2 documentation as part of their budget 
justifications?
    Answer. NASA is not aware of repeated directives to provide more 
budget detail in the Congressional justifications like is submitted by 
the DOD and individual military services. NASA provides information 
that is comparable to the DOD R-2 documentation for all of NASA's 
projects in formulation and development within the Congressional 
Justification Budget book. Both the formulation and development 
sections in the Congressional Justification book provide descriptions 
of the project's purpose, parameters, deliverables, schedule 
commitments, budget trace from previous years President's budget 
submission, a description of project management, acquisition strategy 
and independent reviews which far exceed documentation requirements for 
R-2. In addition, the projects in development sections contain 
additional information for explanation of project changes, project 
commitments, development cost and schedule summary, development cost 
details and project risk management.

                       NASA-SPONSORED CONFERENCES

    Question. Starting in 2008, this subcommittee asked NASA's 
Inspector General (IG) to examine the costs NASA was spending on its 
conferences. In a report released on March 23, the IG found that NASA 
had failed to follow NASA and Government guidelines regarding 
conference planning, resulting in excessive travel and food and 
beverage costs.
    At one conference, the IG found that NASA spent $66 per person per 
day on coffee, fruit, cookies, and bagels. Ironically, this was the 
same conference put on for NASA procurement officials whose job is to 
spend the Government's money wisely.
    Do you think this was a reasonable and appropriate expense?
    Answer. We agree that $66 per civil servant would have been 
excessive for light refreshments alone. However, that was not the case 
with the Procurement Training Conference, since the price for food and 
beverages (F&B) was part of a package deal that included hotel meeting 
rooms at no additional charge. This bundling of facility rentals and 
services like F&B is a common practice, and hotels will regularly 
discount or omit charges for meeting rooms when a minimum level of 
services and occupancy are procured. All of the other hotels reviewed 
as potential sites for the Procurement Training Conference offered 
similar, but more expensive, bundled rates for F&B and meeting room 
charges.
    If you compare this to another meeting NASA recently held in 
Annapolis, Maryland, the per person charge for meeting rooms was almost 
as high as the per person charge for meeting rooms plus refreshments 
(bundled) at the Procurement Training Conference. A competitive 
comparison used to plan the Annapolis conference showed that rates in 
Annapolis and Baltimore hotels for facilities rental alone ranged from 
$20,570 to $45,000, for a meeting one-third the size, as compared to 
the bundled F&B/facilities charge of $62,611 for the Procurement 
Training Conference. Thus, per person charges for facilities rental 
plus F&B for the Procurement Training Conference ($65.84) were only 
slightly higher than per person charges in the Baltimore/Annapolis area 
quoted for hotel meeting room rentals alone ($61.22). The Baltimore/
Washington area is expensive, but there are advantages to holding some 
events in this area. In conclusion, the comparison shows that charges 
for the Procurement Training Conference appear to have been reasonable 
all circumstances considered.
    Question. How will NASA meet the IG's recommendation for better 
financial management in its conference planning?
    Answer. NASA's IG noted in its report that the Procurement Training 
Conference was held prior to the issuance of NASA's revised conference 
policy, NASA Interim Directive (NID) 9312.1, on January 12, 2009. In 
the past year NASA has implemented a number of process improvements and 
issued two updates to NID 9312, the most recent being issued on April 
23, 2010. With each iteration, NASA has improved its ability to track 
and report on conferences, and increased the level of detail required 
for approval of a NASA Sponsored Conference. A key focus for the 
changes in the first two versions of NID 9312 was on insuring that NASA 
did not exceed the Congressionally mandated $5 million cap on fiscal 
year 2009 conference spending and 50 person limit on foreign conference 
attendance. A new NASA Conference Tracking System was implemented to 
automate key parts of this process in conjunction with use of NASA's e-
Travel systems. With the most recent update to NID 9312 and its revised 
reports, NASA has incorporated all the further recommendations made by 
the IG in its March 23, 2010 report. Among other enhancements relating 
to NASA Sponsored Conferences, approval is now required in advance for 
any Government furnished meals or snack/refreshment service, and NASA 
now specifically requires written justification and senior level 
approval (Center Director or equivalent) for charges in excess of 33 
percent M&IE for light refreshments.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                OVERVIEW

    Question. Like many of my colleagues on this subcommittee, I was 
encouraged by the administration's new vision for NASA. The bold 
decision to eliminate the Constellation program will enable NASA's to 
dedicate the necessary resources to develop the required technologies 
for manned spaceflight beyond low-earth orbit and the moon. I believe 
that this is an appropriate role for NASA, and I share the Presidents 
belief that these changes will also create jobs and benefit the 
domestic U.S. space industry as a whole.
    However, the President's budget and his justification lacked 
specificity. Specifically, the budget was lacking details in three 
critical areas: astronaut and rocket safety, preservation of strategic 
industrial capacities, and exploration timelines.

                                 SAFETY

    Proponents of the Constellation program believe that the Ares 
rocket is a proven rocket that meets higher safety standards than the 
private rockets which the President proposes to use to ferry astronauts 
and cargo to the International Space Station in the coming years.
    Is the Ares I a safer rocket than the Falcon 9 or Taurus II?
    Answer. Ares I was designed to be the safest crew vehicle ever 
flown, but that was based on modeling probabilistic risk analysis 
(PRA). When referring to safety records, it is best to speak in terms 
of demonstrated safety records. Although NASA and SpaceX have both 
launched test flights--NASA's Ares I-X suborbital flight and SpaceX's 
inaugural Falcon 9 orbital flight (a non-NASA flight), these test 
flights do not equate to a demonstrated safety record. Neither vehicle 
has entered its operational phase and hence neither vehicle has a 
demonstrated safety record. As such, NASA does not have any 
documentation about the Falcon 9's safety record or PRA that it can 
provide to the subcommittee at this time.
    Question. Will NASA safety standards be relaxed to accommodate the 
private companies who are developing rockets for NASA?
    Answer. Safety is and always will be NASA's first core value, so we 
will provide significant--but not intrusive--oversight over any 
commercial venture, whether it be cargo or commercial. NASA will have 
equivalent safety standards for commercial crew. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. NASA has unique expertise and history 
in this area, and a clearly demonstrated record of success. NASA will 
bring that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. Simply put, U.S. 
astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so.
    Question. What oversight will NASA conduct to ensure that high 
standards are set for crew and cargo safety in privately owned NASA 
space launch vehicles?
    Answer. As noted in the above response, safety is and always will 
be NASA's first core value, so we will provide significant--but not 
intrusive--oversight over any commercial venture, whether it be cargo 
or commercial.
    For example, NASA has a Commercial Orbital Transportation Services 
(COTS) Advisory Team comprised of approximately 100 NASA technical 
experts from across the agency. These experts work with our partners 
and review partner technical and programmatic progress for each 
milestone and provide progress assessments to NASA's Commercial Crew 
and Cargo Program Office. Additionally, they participate in all major 
design reviews providing technical review comments back to our 
partners. The advisory team provides another method by which NASA gains 
confidence that our partners will be able performs their flight 
demonstrations.
    One of the strengths of the COTS venture is that companies are free 
to do what they do best, that is developing truly unique spaceflight 
vehicles using innovative processes that are not available within the 
Federal bureaucratic framework. NASA provides requirements that they 
must meet and we ensure that they have met those requirements, but we 
try not to dictate how they meet those requirements. For example, each 
COTS partner must successfully verify compliance with a detailed set of 
ISS interface and safety requirements prior to their planned ISS 
berthing missions. These requirements are imposed on all visiting 
vehicles wishing to visit to the ISS. Both COTS partners are currently 
working with the ISS program on a daily basis to ensure they meet the 
ISS visiting vehicle requirements. This also helps to give NASA 
independent insight into their progress and it builds confidence in 
their abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in an appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    Question. Will the Aerospace Safety Advisory Committee have the 
access and authority it needs to review/suggest modifications to new 
launch vehicles prior to NASA missions?
    Answer. The Aerospace Safety Advisory Panel will be provided access 
to review new launch vehicles development to the same level that NASA 
has access and the Aerospace Safety Advisory Panel will continue to 
have the authority to make recommendations or suggestions to NASA 
concerning the launch vehicles.

            PRESERVATION OF STRATEGIC SOLID ROCKET CAPACITY

    Question. In an interview with Deputy Undersecretary of the Air 
Force for Space Programs Gary Payton, published in Space News on April 
19, 2010, Deputy Undersecretary Payton concluded that the President's 
new direction for NASA would have a small, but manageable, impact on 
Navy and Air Force ballistic missiles, and only a ``trivial impact'' on 
DOD space launch capacity. Do you share Deputy Undersecretary Payton's 
conclusions? Will the President's new direction for NASA undermine the 
ability for the Department of Defense to conduct meaningful space and 
missile programs?
    Answer. I share the view that the President's direction will not 
undermine DOD's ability to conduct meaningful space programs. I believe 
that we have to rely upon the assessment of DOD's leadership on this 
matter, and I do. I also recall General Kehler, Commander of Air Force 
Space Command, stating in a recent hearing that, while he saw the 
potential for some challenges regarding solid rocket motors, those 
challenges would be manageable. At the same time, my colleagues in DOD 
have stated that the investment that NASA plans in terms of research 
and development for a new liquid engine is a good opportunity in which 
DOD would very much like to collaborate. They see that as a good 
opportunity for the country going forward. DOD also sees our plans to 
improve launch infrastructure as a mutually beneficial one. We 
similarly see potential benefits to national security from some of our 
COTS and technology investments. NASA and DOD work closely on the 
management of the National government space enterprise, and discussions 
are under way at all levels about ensuring we carefully consider and 
maintain the space industrial base that supports both our civil and 
national security needs.
    Question. With the wind-down of the space shuttle program already 
disrupting the job market in the aerospace industry, what additional 
disruption do you expect to occur in the aerospace job market as a 
result of the termination of the Constellation program?
    Answer. The President's fiscal year 2011 budget request for NASA is 
$19.0 billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Public Law 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5-years compared with last 
year's budget plan. The President's strategy and accompanying funding 
increase means more jobs for the country, more astronaut time in space, 
and more investments in innovation. NASA has initiated planning 
activities to be able to effectively and efficiently implement these 
new activities in a timely manner upon enactment of the fiscal year 
2011 budget.
    The proposed changes to the human spaceflight program in the fiscal 
year 2011 budget request will have an impact on civil service and 
contractor workforce planning. While NASA is not planning reductions to 
the civil service workforce, the nature of the work done by the civil 
service workforce would change under the President's fiscal year 2011 
budget plan. NASA has also made preliminary program assignments across 
the Centers for new or extended activities proposed in the fiscal year 
2011 budget, helping to clarify the work opportunities for contractors 
under the proposed portfolio and preparing NASA to execute the work 
content.
    Also in fiscal year 2011, NASA will provide up to $100 million from 
within the funds requested for the National Aeronautics and Space 
Administration's Exploration account to develop a plan to spur regional 
economic growth and job creation along the Florida Space Coast and 
other affected areas. This workforce plan furthers the administration's 
bold new course for human space flight, which revitalizes NASA and 
transitions to new opportunities in the space industry and beyond.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; and
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    Question. What steps will NASA take to ensure that the job market 
disruptions caused by the termination of both the space shuttle and 
Constellation programs in fiscal year 2011 do not cause a long term 
brain-drain in the United States or hurt the long term viability of the 
domestic space industry?
    Answer. The President's fiscal year 2011 budget request and plans 
articulate a strong commitment to NASA's mission and future U.S. human 
space exploration. NASA will ensure continuous American presence in 
space on the International Space Station (ISS) throughout this entire 
decade and likely beyond, re-establish a robust and competitive 
American launch industry, launch more robotic probes into our solar 
system as precursors for human activity, invest in a new heavy lift 
research and development (R&D) program, and build a technological 
foundation for sustainable, beyond-LEO exploration, with more capable 
expeditions in lunar space, and human missions to near-Earth asteroids, 
the Moon, Lagrange points, and, ultimately, Mars. NASA will embark on 
these transformative initiatives by partnering with the best in 
industry, academia and other government agencies, as well as with our 
international partners.
    Many positive outcomes are likely from a long-term NASA advanced 
space systems concepts and technology development program, including a 
more vital and productive space future than our country has today, a 
means to focus NASA intellectual capital on significant national 
challenges and needs, a spark to renew the Nation's technology-based 
economy, an international symbol of our country's scientific and 
technological leadership, and a motivation for many of the country's 
best young minds to enter into educational programs and careers in 
engineering and science.
    NASA has initiated planning activities to be able to effectively 
and efficiently implement these new activities in a timely manner upon 
Congressional enactment of the fiscal year 2011 budget. On April 7, 
NASA outlined the agency's planned major program assignments across the 
agency's centers for new or extended activities proposed as part of the 
President's fiscal year 2011 budget request. These planned assignments 
build on the deep knowledge and expertise that NASA has built up over 
five decades, recognize the wealth of experience, commitment, and 
expertise resident at the NASA Centers, and expand upon the strengths 
at each center. The establishment of program offices and initiation of 
effort in support of new or extended activities for this proposed new 
work is contingent upon congressional approval of the President's 
fiscal year 2011 request for these activities. These planned program 
assignments will enable NASA to engage workforce at the agency's 
centers in formulation activities and planning activities to minimize 
disruption in the job markets.

                         EXPLORATION TIMELINES

    Question. The President's budget and justification do not include a 
timeline with set benchmarks and destinations. I believe that these 
goals are necessary, and that they will help drive the important work 
being done at NASA. Will you please elaborate on when NASA will be able 
to accomplish the following tasks under the President's proposal, and 
under the program of record?
    After the shuttle retires, when will NASA be able to re-supply the 
Space Station with cargo? If the Constellation program is continued, 
when would the United States be able to resupply cargo to the ISS?
    Answer. Whether or not the Constellation program is continued, NASA 
plans to rely on U.S. industry to re-supply the International Space 
Station (ISS) with cargo after the space shuttle retires. NASA 
anticipates that the first two such flights under the Commercial 
Resupply Services (CRS) contracts will be in July and October 2011. The 
agency can also continue its use of Russian Progress cargo spacecraft 
through the end of calendar year 2011, in the event the CRS vehicles 
are delayed.
    Under Constellation--the Program of Record--the Orion Crew 
Exploration vehicle was not designed to carry cargo to the ISS. Rather, 
NASA was planning to depend on commercial cargo providers to resupply 
the ISS, along with international partners.
    Question. After the shuttle retires, when will NASA be able to 
carry astronauts to the space station? If the Constellation program is 
continued, when would the United States be able to transport astronauts 
to the ISS?
    Answer. After the retirement of the space shuttle, NASA will 
continue its use of the Russian Soyuz spacecraft for crew 
transportation and rescue services for U.S., European, Japanese, and 
Canadian ISS astronauts until a U.S. commercial crew transportation 
system becomes available, possibly as early as 2015.
    The Augustine Committee noted that commercial crew launch service 
could be in place by 2016. Estimates provided to the Augustine 
Committee by potential providers said commercial crew services could be 
in place 3 to 5 years from the point of funding.
    Under the Program of Record and based on fiscal year 2010 funding 
constraints, NASA can no longer achieve an Initial Operational 
Capability (IOC) for Ares I and Orion--the first crewed flight to the 
ISS--in March 2015. The Augustine Committee concluded that, were the 
ISS to be deorbited in 2015, IOC could take place in the mid-late 
2010s.
    Under the proposed fiscal year 2011 budget request, NASA is 
targeting 2015 as the start of commercial-crew transportation services, 
with development efforts beginning in 2011.
    Question. When will NASA be able to carry astronauts beyond low 
earth orbit under the President's plan? If the Constellation program is 
continued, when will U.S. astronauts be able to leave low earth orbit?
    Answer. Under the proposed fiscal year 2011 budget, NASA plans to 
develop the technologies that would allow NASA to support manned 
beyond-LEO missions in the mid-2020 timeframe, if funding was later 
provided for such missions as part of later budget cycles.
    The Augustine Committee concluded that the Program of Record, 
constrained to the fiscal year 2010 budget profile, would be capable of 
crewed missions beyond low Earth orbit in the late 2020s and a lunar 
landing well into the 2030s. In support of that committee, NASA 
estimated that the Constellation Program of Record, could deliver a 
crewed lunar mission by 2020 using Orion, Ares I, Altair, Ares V, and 
supporting elements, for $109 billion since the inception of the 
Constellation Program. Of this $109 billion since inception, $96.7 
billion would be required in fiscal year 2011 and out.
    Question. When will NASA astronauts reach the Moon under the 
President's proposal? When would astronauts be able to reach the Moon 
under the program of record?
    Answer. Please see the above response for an answer to the human 
lunar return date under the current program of record.
    Under the President's fiscal year 2011 budget request, NASA would 
build technologies with the goal of supporting a sequence of deep-space 
destinations matched to growing capabilities, progressing step-by-step, 
beginning with crewed flight tests--perhaps a circumlunar mission--
early next decade of vehicles for human exploration beyond LEO, a human 
mission to an asteroid by 2025, and a human mission to orbit Mars and 
return safely to Earth by the 2030s. A date for a manned lunar mission, 
however, has not been established.
    NASA also plans to send precursor robotic missions to candidate 
destinations such as the Moon, thus paving the way for later human 
exploration of the Moon, Mars and its moons, and nearby asteroids. Like 
the highly successful Lunar Reconnaissance Orbiter and Lunar Crater 
Observation and Sensing Satellite missions that captured the Nation's 
attention last fall, future exploration precursor missions will scout 
locations, gather key knowledge and demonstrate technologies to 
identify the most compelling and accessible places to explore with 
humans and validate potential approaches to get them there and back 
safely. These missions will provide vital information--from soil 
chemistry to radiation dose levels to landing site scouting to resource 
identification--necessary to plan, design and operate future human 
missions. These missions will help us determine the next step for crews 
beyond LEO, answering such questions as: Is a particular asteroid a 
viable target for crewed mission? Do the resources at the lunar poles 
have the potential for crew utilization? Is Mars dust toxic? NASA plans 
to begin funding at least two dedicated precursor missions in fiscal 
year 2011, and to identify potential future missions to begin in fiscal 
year 2012 and/or 2013.
    Additionally, a new portfolio of explorer scouts will execute 
small, rapid turn-around, highly competitive missions to exploration 
destinations. Generally budgeted at between $100-$200 million lifecycle 
cost, these missions will allow NASA to test new and innovative ways of 
doing robotic exploration of destinations of interest to future human 
exploration. Selected projects may provide multiple small scouting 
spacecraft to investigate multiple possible landing sites, or provide 
means of rapid-prototyping new spacecraft approaches.
    Question. When will NASA astronauts reach Mars under the 
President's proposal? When would astronauts be able to reach Mars under 
the program of record?
    Answer. Based on the information provided to the Augustine 
Committee, as outlined in the above response, NASA estimated that the 
Program of Record could achieve a manned Mars mission in the 2030s. 
While the Augustine Committee noted that Mars should be the ultimate 
destination for human exploration, it did not provide a specific date 
for when such a mission could be achieved by the Program of Record or 
under any of the options the committee developed. Under the proposed 
fiscal year 2011 budget, NASA plans to develop the technologies that 
would allow NASA to support a manned Mars mission in the 2030s, as part 
of a sustainable beyond-LEO human exploration program.
    Question. The President stated in his April 13, 2010 speech at 
Kennedy Space Center that the plan to utilize the commercial space 
industry for low earth orbit missions has the potential to save the 
American taxpayer money. How much do you expect the shift toward 
private industry handling low earth orbit services to save American 
taxpayers?
    Answer. NASA anticipates that industry, through increased 
efficiencies will be able to provide human space transportation to low-
Earth orbit (LEO) at a lower cost than would be possible through the 
use of Government-operated transportation systems, though the magnitude 
of the savings is not known at this time. In addition to making space 
travel more accessible and more affordable, the agency believes that an 
enhanced U.S. commercial space industry will create new high-tech jobs, 
leverage private sector capabilities and energy in this area, and spawn 
other businesses and commercial opportunities, which will spur growth 
in our Nation's economy.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

      COMMERCIAL SPACE FLIGHT INITIATIVE AND ISS ACCESS AND SAFETY

    Question. In your response to my question at the hearing, you said 
that you agree that if there were an accident with the Soyuz, either 
with the launch vehicle on ascent or the crew module on descent, which 
were serious enough to ground the Soyuz for an extended period of time 
while an accident investigation were completed and any necessary 
changes made, that same Soyuz vehicle would be the only vehicle 
astronauts could use to evacuate the ISS.
    How long would it be before the six-person crew still aboard the 
ISS would have to evacuate?
    Answer. In addition to providing crew rotation capabilities, the 
Soyuz vehicle also plays a critical role as the crew rescue vehicle. 
The Soyuz is currently the only vehicle that can provide this function 
for ISS expeditions, as it is the only vehicle that remains on-orbit 
for extended periods of time and provides emergency crew return 
capability. As explained in detail below, should there be a stand-down 
on Soyuz launches, NASA and its International Partners would have 2-4 
months to understand the Soyuz issue and to resolve it before the ISS 
would need to be de-crewed.
    Should there be an incident which results in Soyuz vehicles being 
grounded, there are several factors involved in determining the 
timeframe in which to downsize the ISS crew or de-crew the ISS. For 
this scenario, these factors include Soyuz spacecraft life and the 
length of time the on-orbit crew has been on board ISS.
    The Soyuz spacecraft maximum mission duration is 200 days (vehicle 
launch to vehicle landing), due to systems certification. Mission 
duration beyond 200 days exceeds the certified lifetime of the vehicle 
and is not recommended.
    Based on a myriad of health factors, including radiation exposure 
and other biomedical factors, a continuous on-orbit limit of 220 days 
for crewmembers has been established. Crew rotations are planned so 
that no crewmember is on-orbit longer than 220 days at a time. Should a 
reduction in crew size or de-crewing of the ISS be necessary, NASA and 
the ISS International Partners have developed guidelines and a timeline 
for an orderly de-crewing of the ISS. In general, the procedures for 
the reduction in crew size or de-crewing of ISS begin 15 days prior to 
the departure of the Soyuz and involve configuring the ISS for an 
extended period of unmanned operations.
    Indirect handovers are planned to most effectively utilize the ISS 
resources and ground support operations. ISS docking port availability 
and utilization requires that a Soyuz vehicle depart prior to its 
replacement arriving at ISS. Russian assets are utilized to support 
both a Soyuz landing and a Soyuz launch, including the contingency 
support should an abort occur during launch. The availability of these 
resources and time required to support both events dictate a 2-week 
interval between a Soyuz landing and the subsequent launch of its 
replacement vehicle.
    Moreover, typical spacing between Soyuz launches is a minimum of 2 
and a maximum of 4 months. If a problem arose with a Soyuz launch, the 
on-orbit Soyuz would have 2-4 months of life remaining. Therefore, NASA 
and its International Partners would have 60-120 days to understand the 
Soyuz issue and to resolve it before the ISS would need to be de-
crewed.
    Question. Under this scenario, how will NASA determine if it is 
safe for astronauts escaping or otherwise departing the station to use 
versions of the same vehicle that just suffered an accident or failure 
significant enough to ground the entire Soyuz fleet?
    Answer. NASA and Roscosmos (and its major contractors) have 
developed over the years a close working relationship in regard to 
safety and flight worthiness. As demonstrated by the Soyuz separation 
anomaly resolution, Roscosmos shared with NASA in-depth information 
about the design and safety of the Soyuz in a timely manner in order to 
assess the re-entry risk to the crew. In the event of a grounding of 
the Soyuz launch vehicle and spacecraft, NASA fully expects that 
Roscosmos will again share vital data that are necessary to ensure the 
safety of our crew.
    Question. If, in this scenario, the ISS crew had to abandon the 
station, how long could the untended ISS remain viable in a minimal 
state of ground-controlled automated activity, before its orbit might 
deteriorate or systems might begin to fail without crew maintenance, to 
the point it would be irretrievable or impossible to reactivate once 
the Soyuz were able to fly again?
    Answer. NASA has plans and procedures in place for the crew to take 
necessary measures to configure the ISS platform in order to maintain 
safe untended operations for an extended period. Among the tasks the 
crew would perform would be to configure the ISS for a minimum power 
usage and close all hatches. The ISS systems that are needed to 
maintain a stable and viable vehicle are robust in their ability to 
perform even after failures and anomalies. Key systems such as the 
electrical power system; guidance, navigation and control; 
communications; and active propulsion have multiple layers of 
redundancy. The ISS could also be boosted to a higher orbit to maintain 
sufficient altitude without a risk of re-entry for several years.
    Question. Given the seriousness of this very plausible and possible 
scenario, it is of great concern to me that answers to these questions 
are not clearly available and have not been fully addressed before the 
decision was made to launch the country on this path for human space 
flight, with only a single life-line to and from to the International 
Space Station for any period of time.
    Please explain why these contingencies have not been fully--and 
satisfactorily--addressed before the fiscal year 2011 budget and the 
new plan for human space flight was adopted by the administration?
    Answer. The reliance of the ISS partners on a single crew 
transportation system (Soyuz) for a period of time between the 
retirement of the space shuttle and the development of a follow-on 
system was established years ago when it was determined to retire the 
shuttle at the completion of ISS assembly. NASA cannot simultaneously 
fund continuing shuttle operations while developing the next generation 
U.S. human space flight program, so a period of ``single-string'' 
reliance on Soyuz was unavoidable. The new direction for the agency 
aims to minimize this period by encouraging a robust commercial space 
industry that can provide crew transportation services to the United 
States and its European, Japanese, and Canadian ISS partners.
    Question. From the standpoint of relatively near-term human 
spaceflight, the President's proposed budget and associated plan seem 
focused on: (a) The development of a commercial, as opposed to 
Government-owned human space flight launch capability and (b) The 
continuation--and expansion--of support to the International Space 
Station to at least 2020.
    Would you agree with me that, in actual fact, the two initiatives 
are directly interwoven, in that the real driver behind the business 
case for commercial space launch capability--for both cargo, as under 
the COTS program now underway, and for human space flight, at least in 
its early stages--is the existence of a viable, healthy, safe and 
functioning International Space Station?
    Answer. NASA considers the ISS a key component in the agency's 
attempt to encourage and promote a robust commercial space industry, 
both in terms of the scientific and engineering research that can be 
conducted aboard this National Laboratory in orbit and as a destination 
that requires the transportation of personnel and cargo to and from 
low-Earth orbit (LEO). The continuing viability of ISS as both a 
spacecraft and research facility bolsters the business case for 
commercial space launch capability.
    Question. As you begin to develop the requirements for a 
competition for a commercial crew development contract, what would be 
the target date for full operational capability, and how would you 
define that? If a target date has not been set, what is your best 
estimate for when a commercial crew launch system might be fully 
operational?
    Answer. NASA is targeting 2015 as the start of operations for 
commercial crew services. However, NASA may adjust this date as we 
receive proposals from industry.

             SUSTAINABILITY OF INTERNATIONAL SPACE STATION

    Question. In 2005, the OMB mandated that of the 28 remaining 
flights then planned in support of ISS; NASA could only plan on 
performing 17 of them (plus an option for 1 for Hubble Telescope 
servicing). NASA was forced to reconfigure the payloads from the 10 
cancelled missions to ensure that necessary spares and replacement 
parts could be delivered to the ISS on the 17 remaining flights. 
However, the decisions made regarding critical spares and equipment was 
based on what was at that time an internal planning date for end-of-
life for ISS as 2015.
    Given the near-certain extension of ISS--pressed by the Congress in 
the 2008 NASA Authorization Act, and now agreed to by the 
administration, what steps are you taking to understand the 
requirements for sustaining the ISS vehicle and systems through 2020?
    Answer. As part of NASA's yearly budgetary planning cycle, the ISS 
Program has defined the necessary spares, logistics, operations, 
training and transportation services necessary to extend the operations 
of the ISS to at least 2020. NASA along with its International Partners 
is also in the process of certifying the ISS platform to 2028.
    Question. The 2008 NASA Authorization Act (Public Law 110-422) 
required a report, within 9 months of enactment (Due July 15, 2009) of 
what would be necessary to sustain the ISS vehicle and systems through 
at least 2020. That report was received on August 9, 2009. It provided 
information that was not particularly helpful and contained 
contradictory information--such as descriptions of critical systems for 
which analysis would be done in 2011--after the planned end of shuttle 
operations. For many of these systems it appears transport to the ISS 
appears unlikely on any vehicle other than the shuttle. In most cases, 
reliance for delivery was placed on ``planned'' availability of COTS 
cargo capability, because the additional cargo-delivery systems, the 
Russian Progress vehicle, the Japanese HTV and the European ATV, would 
still leave a short-fall of 40 metric tons of required supplies. There 
was no analysis of the potential impact of a failure of either the COTS 
cargo capability or the ATV and HTV systems, neither of which had flown 
to the ISS at that stage. Most importantly, there was no analysis of 
potential spare part requirements that might need the space shuttle 
payload bay in order to deliver them to the station.
    What, if anything, has been done since August of last year, when 
the report was filed, to ensure us that NASA has a complete 
understanding of what is needed to sustain the space station through at 
least 2020? If that has in fact been studied, please detail extensively 
the results and knowledge gained.
    Answer. The planning and analysis required to keep ISS flying is a 
continuous process. There is a real-time component that monitors on-
board failures and spares. The goal is to keep adequate spares on ISS 
to cover all failures. With the retirement of the shuttle, NASA is 
prepositioning almost all available spares on orbit, so the agency is 
protecting against multiple component failures. There is also a 
strategic component for manifest planning. NASA runs models with 
reliability and maintenance estimates. These models are used to set the 
basic yearly launch upmass estimates. The models are continually 
updated with real failure rate data. In summary, the ISS storage space 
is almost fully utilized. The agency has a process in place that has 
been demonstrated to keep ISS flying. This process has been updated, 
and NASA has adequate margin to maintain ISS with the remaining shuttle 
flights, the European Automated Transfer Vehicle (ATV), the Japanese H-
II Transfer Vehicle (HTV), and commercial cargo coming on line in late 
2011.
    Question. Since the decision to extend the space station was 
announced as part of the fiscal year 2011 budget request, what 
additional work has been done--or started--that would provide the 
Congress the confidence that the needs of ISS sustainability are fully 
understood and considered? If that has in fact been studied, please 
detail extensively the results and knowledge gained.
    Answer. As part of NASA's yearly budgetary planning cycle, the ISS 
Program has defined the necessary spares, logistics, operations, 
training and transportation services necessary to extend the operations 
of the ISS to at least 2020. NASA along with its International Partners 
is also in the process of certifying the ISS platform to 2028.
    Question. It seems clear that there is no way of knowing, with any 
degree of assurance, whether or not there are requirements for spares, 
replacements, or refurbishment of parts that would require shuttle 
flights beyond the end of this year in order to protect our investment 
in the space station and maximize its research potential. That suggests 
an inability to guarantee the ``destination'' of the space station with 
a low risk profile sufficient to allow commercial transportation 
systems, for either cargo or crew, to be able to convince investors 
that they should put venture capital into those projects.
    Given that situation, would NASA and the administration consider 
the option of stretching out the remaining manifest (remaining shuttle 
flights) into the end of next year, combined with the activation of the 
contingency mission as a full mission capable of taking payloads to the 
space station, while immediately conducting the assessment necessary to 
determine whether there are requirements that could be met by using 
that added mission?
    Answer. In formulating the payloads to be carried to ISS under the 
current space shuttle manifest, NASA carefully reviewed the station's 
likely requirements for spares, replacements, and refurbishment of 
parts in order to ensure the continued viability of ISS after the 
retirement of the shuttle. By the time the manifest has been completed, 
ISS will have been fully assembled (this is essentially the case now) 
and outfitted for long-term operations and utilization. After this 
point, the cargo capacity of the shuttle will no longer be required, 
and future components will be compatible with existing and anticipated 
cargo vehicles. Even such critical large items as Control Moment Gyros 
(CMGs) can be redesigned and/or repackaged to fly aboard smaller 
vehicles (in the case of CMGs, several smaller gyros can take the place 
of a single large unit).
    Stretching out the shuttle manifest would be disruptive to our 
workforce, and potentially increase risk, since the operating tempo 
would be reduced to a point where personnel proficiency might suffer. 
In addition, the Aerospace Safety Advisory Panel recommended against an 
extension of the shuttle past the current manifest for these reasons. 
At this time, STS-335 is slated as the Launch On Need (LON) mission for 
STS-133, should that flight encounter an emergency.
    Question. Regarding the new plan announced by the President to 
revive the Orion Crew Exploration Vehicle, but in a design modification 
that would allow it to be launched unmanned on an expendable launch 
vehicle, to serve as a life-boat for the ISS: How is that development 
going to be paid for, and what is your estimate for the cost and the 
schedule for delivery to the ISS?
    Answer. NASA is currently assessing cost and schedule to develop an 
emergency crew return derivative of the Orion spacecraft, per this new 
direction from the President's April 15, 2010 address. The goal is to 
be as cost effective as possible, taking maximum advantage of the work 
performed to date on Orion design, development, and testing while 
deferring further work on systems that would provide capabilities not 
needed for emergency crew return.
    It is not yet determined precisely where the funding will come 
from. The sources will be dependent on the magnitude of the estimated 
cost, which is still in work. The total proposed budget for NASA did 
not change with this new direction to develop an Orion emergency crew 
return module. Therefore, its costs will need to be offset by 
reductions to other line-items.
    Question. How many such vehicles would be required? Would they be 
cycled every 6 months, like the Soyuz vehicles, or would they have a 
longer on-orbit stay-time?
    Answer. NASA is just beginning to assess what the specific 
requirements for an emergency crew return derivative of the Orion 
spacecraft should be. Very likely, the four-person capability currently 
in work under the Constellation program of record will be preserved for 
this emergency return variant. The specifics of an Orion-derived crew 
return spacecraft are in development.
    Question. How many seats would they provide? Would they enable the 
four seats per year that the United States is still obligated to 
provide under the Memoranda of Understanding and Intergovernmental 
Agreements for ISS signed in 1998?
    Answer. NASA is just beginning to assess what the specific 
requirements for an emergency crew return derivative of the Orion 
spacecraft should be. Very likely, the four-person capability currently 
in work under the Constellation program of record will be preserved for 
this emergency return variant.
    Question. Would that mean that the total station crew size could be 
expanded to seven, as originally planned, thus enabling greater 
potential for crew time being applied to research, as opposed to ISS 
maintenance?
    Answer. The ISS today is capable of supporting a crew of seven as 
originally designed.
    Question. If so, how would that impact the cargo and supply 
requirements?
    Answer. This has not been factored into the extension assessment.
    Question. Given the three-seat limitations on Soyuz, would that 
make it impossible to expand the station crew size because of no way to 
deliver the sufficient number of crews to ISS?
    Answer. If Soyuz were the only vehicle to service ISS, the crew 
size could not be increased to seven permanent crew.
    Question. If so, what is the advantage of developing and using the 
Orion as a crew-rescue vehicle only?
    Answer. It will enable a cost-effective American crew escape 
capability that will increase the safety of our crews on the space 
station, reduce our dependence on foreign providers, and simplify 
requirements for commercial crew providers.
    This effort will also help establish a technological foundation for 
future exploration spacecraft needed for human missions beyond low 
Earth orbit and will preserve some high-tech contractor jobs in 
Colorado, Texas, and Florida.
    Continuing Orion as a rescue vehicle only will reduce costs by 
simplifying the design and eliminating development, testing, and 
production costs for systems associated with launching humans such as 
the Orion launch abort system and human rating the expendable launch 
vehicle. Continuing work associated with launching humans to the ISS 
aboard Orion would be duplicative of the commercial crew development 
efforts.
    Question. How would the cost of development and launch of the Orion 
CRV compare to the cost of simply continuing to pay for Russian Soyuz 
to serve the crew escape function?
    Answer. NASA procures services from Roscosmos that cover all 
aspects of transportation and rescue using Soyuz. This includes crew 
training, launch, landing, and having the spacecraft available at ISS 
for a 6-month ``increment'' as a rescue vehicle, should an emergency 
arise. The cost of using the Soyuz uniquely as a rescue vehicle has not 
been broken out, and would need to be negotiated, in any case.
 continuous u.s. human spaceflight capability--compliance with the law
    Question. In the 2005 NASA Authorization Act, signed into law as 
Public law 109-155, the Congress stated that it was ``the policy of the 
United States to possess the capability for human access to space on a 
continuous basis.'' The law went on to make it clear that such 
capability for human access to space on a continuous basis was to be 
provided by U.S. transportation systems, not by other nations' 
capabilities that we would ``rent'' or purchase access from. It is also 
a matter of international agreement, within the ISS implementing 
agreements, that the U.S. would be responsible for providing access to 
the ISS for European, Japanese, and Canadian crew members. The decision 
to terminate space shuttle operations in 2010, at least 4 years before 
any replacement U.S. capability was then planned to be available, was a 
direct violation of both the spirit and the letter of that law. When 
you and your Deputy Administrator each took the oath of office as 
Administrator, after confirmation by the Senate, you both swore to 
uphold the laws of the United States.
    What have you done, since assuming your positions, to ensure that 
the law of the United States, establishing a policy of continuous U.S. 
capability for human space flight, is upheld?
    Answer. As noted in the above response the ``gap'' in U.S. human 
spaceflight capability was the result of NASA not having sufficient 
resources to simultaneously fund continuing shuttle operations while 
developing the next generation U.S. human space flight program. The 
fact of the gap has been long established; the questions have been how 
long the gap would last, and what domestic system(s) the United States 
would use in the future. The new direction for the agency aims to 
minimize this period by encouraging a robust commercial space industry 
in LEO that can provide crew transportation services to the U.S. and 
its European, Japanese, and Canadian ISS partners.
    Question. If a proposal by the administration--whether the Obama 
administration or the Bush administration, created and imposed on NASA 
by the Office of Management and Budget, or by the Office of Science and 
Technology Policy--represents a direct circumvention of the law, what 
is your responsibility, as the Administrator of the agency empowered to 
implement that law, to take steps to inform the authors of that 
proposal that their actions are in violation of the law, and to insist 
that they adhere to the law and policy established by the Congress?
    Answer. It is the responsibility of everyone in public service to 
uphold the laws of the United States, and to ensure that proposals they 
advocate adhere to the law. In April 2009, NASA submitted to the 
Congress its Human Space Flight Capabilities report, which responded to 
language in section 611(a) of the NASA Authorization Act of 2008 
(Public Law 110-422) directing NASA to report on the lack of a U.S. 
human space flight system to replace the space shuttle upon its planned 
retirement. This requirement was an amendment to a reporting 
requirement in section 501 of the NASA Authorization Act of 2005 
(Public Law 109-115), referenced above. This report was required by law 
in case it was determined that the United States would not be able to 
maintain the capability for human access to space on a continuous 
basis.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                             BUDGET PROCESS

    Question. The decision to shut down the Ares I and V programs have 
significant impact to the Aerospace Industrial base, especially to the 
Solid Rocket Motor industry. In lieu of this, did you coordinate or 
consult with the Department of Defense when making this decision to 
shut down Constellation which will have immediate and far-reaching 
impacts to our national defense?
    If so, when was this done and with whom?
    Answer. NASA, the Department of Defense (DOD), and the National 
Reconnaissance Office (NRO) have worked closely on the management of 
the Nation's space enterprise for many years. In the context of the 
President's budget proposal and subsequent Congressional action, 
discussions have been underway at all levels about ensuring that we 
carefully consider and maintain the Nation's space industrial base. I 
have been working with Secretary of the Air Force Michael Donley, 
General Robert Kehler, the Commander of Air Force Space Command, and 
General Bruce Carlson, the NRO Director, throughout my tenure as NASA 
Administrator on these crucial subjects. While the President has 
proposed a restructuring of the Constellation program, he is also 
seeking to invest significant funding to develop technologies and 
infrastructure to enable human exploration both to low-Earth orbit and 
beyond. These provide to benefits to both DOD and NASA, as evidenced by 
statements by senior DOD representatives on the subject over the past 
months.
    I have held several discussions with Secretary Donley, General 
Kehler, and General Carlson on this topic and met most recently with 
them on June 24, 2010. A key objective of these discussions has been to 
help ensure that we remain aware of launch options from a strategic 
perspective. I am committed to continuing to work closely with the DOD 
and the NRO as we move forward. As one example among many, the Office 
of the Undersecretary of Defense for Industrial Policy is leading a 
Solid Rocket Motor Industrial Base assessment in order to plan for the 
impact of changes in NASA's program, and NASA is a key participant in 
this assessment. We are additionally working with the national security 
space community on several other reviews and assessments to ensure that 
our civil and national security space objectives are met, while 
ensuring a robust national space industrial base.
    Question. When did you learn of the cancellation of the entire 
Constellation program?
  --Were you directly part of this decision?
  --Considering this was the largest program eliminated in the Federal 
        budget for fiscal year 2011, did you discuss cancellation of 
        the entire program with the President directly?
  --If not, who told you of the cancellation of Constellation?
    Answer. I can tell you that I participated in the construction of 
the fiscal year 2011 budget request. That's part of my responsibility 
as the NASA Administrator, and I represent the inputs that NASA made to 
the budget formulation process.
    Question. Were NASA's top technical and program folks engaged in 
crafting the budget? If so, who was involved with crafting the 
technical details of this new plan?
    Answer. Key NASA personnel were involved in the preparation of the 
fiscal year 2011 budget request.

                          CONSTELLATION COSTS

    Question. The administration seems to be throwing out different 
cost figures about how expensive it would be to simply continue the 
Ares program. General Bolden testified in front of the House Science 
Committee on March 23 by asserting that Ares would cost $4-$4.5 billion 
a year, and $1.6 billion per flight, which seems awfully inflated. 
However, in a subsequent House Science Subcommittee hearing on March 
25, NASA Associate Administrator for Exploration Systems Doug Cooke, 
testified that an earlier NASA written cost estimate provided to 
Representative Suzanne Kosmas (D-FLA) in 2009, citing a ``marginal'' 
cost of $176 million per launch was still a ``reasonable estimate.'' 
(his words). This NASA estimate further clarifies that if there were 
only one Ares I/Orion flight in a given year, the cost would be $919 
million. (It explains that the $919 million figure represents both 
fixed costs of $781 million, and marginal costs of $138 million). This 
$919 million figure for one flight is roughly the same as the $1 
billion cited by the Augustine report. However, and this is key . . . 
the document goes on to explain that most of the fixed costs are in the 
first flight. And that subsequent flights of the Ares/Orion are much 
cheaper. In fact, this NASA document states that a second flight would 
cost $138 million, and a third flight would cost another $138 million, 
and a fourth flight another $138 million, and so-on. So, given both 
NASA written and oral testimony in this regard, it is entirely possible 
to fly the Ares 1 with Orion capsule for continuing U.S. space flight 
to low earth orbit, and the International Space Station (ISS) and stay 
within NASA's constrained budgets. For example, for approximately $1.5 
billion, it seems that NASA could fund 4 launches of the Ares and Orion 
in a given year, continuing a robust manned space program and not 
having to rely on the Russians for transportation. This is well within 
NASA's budget. Do you disagree with previous NASA testimony on Ares 
costs? What are the correct cost figures, and what specifically do you 
include in those cost figures?
    Answer. To understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program. 
Based on the fiscal year 2010 budget request, NASA estimates it would 
cost approximately $5.4 billion in fiscal year 2011 to continue the 
full Constellation Program, including Ares I and Orion development and 
testing, and all supporting elements (ground processing facilities, 
mission control, program integration etc.), which together would lead 
to an Initial Operational Capability for two crewed flights to the 
International Space Station per year. Of the $5.4 billion figure, the 
Ares I project was estimated to cost $2.1 billion, with Orion costing 
$1.8 billion, and other Constellation supporting elements equating to 
about $1.5 billion.
    The fiscal year 2011 budget request transitions away from the 
Constellation Program. Therefore, under this assumption, if NASA were 
required to continue only the Ares I project, the cost to do so would 
be about approximately $4-$4.5 billion in fiscal year 2011--which would 
pay for the project elements and also include the full cost of all 
supporting elements outlined in the fiscal year 2010 budget request, 
such as ground processing facilities, mission control, program 
integration etc. Without these supporting elements, the Ares I could 
not fly. This scenario also assumes that Orion would be cancelled, so 
close-out costs for Orion were factored into this estimate. (Note: 
Without an Orion, this scenario would not provide an IOC capability.) 
Additionally, it is important to remember that under the fiscal year 
2010 budget request and its 5-year runout, the Constellation Program as 
a whole was expected to begin ramping up work in fiscal year 2011, and 
in doing so, was expected to also begin assuming additional Shuttle 
infrastructure and workforce costs in addition to increased development 
costs, currently estimated to be $600-700 million. Therefore, those 
costs are factored into the continuation cost estimate.
    With regard to marginal costs for Ares I, NASA recognizes that 
there is often confusion with regard to publicized flight cost 
estimates associated with the Ares projects, largely because those 
estimates often include different assumptions. One key point of 
confusion, for example, comes from the fact that the Ares I and Ares V 
share significant fixed costs for vendor production base and sustaining 
engineering, since both vehicles would use similar solid rocket 
boosters, upper stage engines and avionics. Therefore, there are two 
ways to consider the cost of an Ares I flight--one, where the Ares I 
fixed costs are lower because it is assumed that certain fixed 
operational costs would be shared with the Ares V, and another, where 
the Ares I fixed costs are higher because the current shared-cost 
scenario is not assumed.
    In general, NASA does not budget by flight, but rather by fixed and 
marginal costs expected on an annual basis. The fixed cost (i.e. prime 
and non-prime support labor, costs of facilities) would be the cost 
that must be incurred whether one rocket or multiple rockets are built. 
In other words, the fixed cost is absorbed by the first annual flight 
and is not counted again that year. The marginal costs, on the other 
hand, are those costs that can be cleanly attributed to the production 
of one unit, and that cost is generally the same, unit by unit. So for 
each subsequent annual flight, NASA adds on only the marginal cost, 
given that the fixed cost has already been absorbed into the first. It 
is important to note, however, that NASA's formula of calculating the 
cost of an Ares I flight (or subsequent annual flights) does not 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Those costs would be book kept under their respective project lines.
    With regard to the cost per flight, NASA currently estimates that 
both Ares I and Orion account for $69 million each in marginal costs 
for a flight unit, thus totaling $138 million in marginal costs for 
each flight since each flight would be assumed to have a capsule and a 
rocket. However, the fixed cost per flight would vary based on whether 
Ares I and Ares V shared operational costs were assumed.
    For example, the fiscal year 2010 budget request assumed that Ares 
I and Ares V would share some operational costs--approximately $700 
million per year, which would, in turn, equate to lower fixed costs for 
the Ares I. Therefore, under that scenario--which was provided to 
Congressman Aderholt's staff in November 2009--the total cost for the 
first flight would be $919 million ($781 million in fixed cost plus 
$138 million in marginal costs) with each subsequent flight costing 
$138 million extra in marginal costs, as outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I AND ARES V SHARING OPERATIONAL COSTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2008
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion)..........................             781
Marginal Cost for 1st flight............................             138
                                                         ---------------
      Total Cost for 1st flight.........................             919
Marginal Cost for 2nd flight............................             138
                                                         ---------------
      Total Cost for 2 flights per year.................           1,057
Marginal Cost for 3rd flight............................             138
                                                         ---------------
      Total Cost for 3 flights per year.................           1,195
------------------------------------------------------------------------
Note.--This assumes Ares I fixed costs are shared with Ares V. It also
  excludes fixed costs for supporting elements.

    However, if the assumption is that Ares I and Ares V would not 
share operational costs, it is equally true to say that the cost of an 
Ares I flight is nearly $1.6 billion. Under this scenario, all 
operational costs would be carried by Ares I--which would account for 
an approximate $700 million increase in the fixed cost for Ares I. 
Thus, under this scenario, the total cost for the first flight would be 
$1.461 billion in fixed cost plus $138 million in marginal costs, with 
each subsequent flight costing $138 million extra in marginal costs, as 
outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I CARRYING ALL OF THE OPERATIONAL COSTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2008
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion)..........................           1,461
Marginal Cost for 1st flight............................             138
                                                         ---------------
      Total Cost for 1st flight.........................           1,599
Marginal Cost for 2nd flight............................             138
                                                         ---------------
      Total cost for 2 flights per year.................           1,737
Marginal Cost for 3rd flight............................             138
                                                         ---------------
      Total Cost for 3 flights per year.................           1,875
------------------------------------------------------------------------
Note.--This assumes Ares I fixed costs are not shared with Ares V. It
  also excludes fixed costs for supporting elements.

    Question. What, in your opinion, is a higher priority--the safety 
of our astronauts or potential cost savings? With that in mind, I'd 
like to quote from the Aerospace Safety Advisory Panel's 2009 annual 
report which states, ``the Ares I vehicle has been designed from the 
beginning with a clear emphasis on safety. Its architecture was 
selected by NASA's Exploration System Architecture Study (ESAS) team 
because of its potential to deliver at least 10 times the level of crew 
safety as the current shuttle. The launch vehicle configuration has 
been developed to provide the best possible allowances for crew escape 
in the event of a launch failure.'' In your opinion, what are safer, 
solid rocket motors or a propulsion system based on liquid fuel? I'd 
like to know what are NASA's plans to ensure that any manned system 
designed and developed by private industry will be as safe as the 
system which is being developed under Project Constellation, the 
current program of record.
    Answer. One measure of launch vehicle safety is identifying the 
approximate probability of failure for the launch vehicle which can 
then be determined by summing up the chances of failure of all of its 
subsystems. For launches of U.S.-built vehicles in the last 20 years, 
problems with the propulsion system represented a significant portion 
of all failures therefore addressing reliability during the design of a 
launch vehicle is paramount to ensuring a safe vehicle. The type of 
propulsion system (solids versus liquids) is not a discriminator; 
rather simplicity and redundancy are the keys to high design 
reliability for any system and launch vehicles are no exception.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.

  COTS AND RESUPPLYING THE INTERNATIONAL SPACE STATION WITH CARGO AND 
                                  CREW

    Question. Please explain the line in the fiscal year 2011 budget 
proposal for commercial cargo of $312 million. The COTS program was 
established under a Space Act Agreement which has a fixed cost attached 
to it. If so, why a few years later is there a need to throw additional 
money at the Space Act Agreement holders? Could this be seen as a 
funding stream for the COTS providers because they are behind schedule 
and costs?
    Answer. The fiscal year 2011 budget request includes $312 million 
for commercial cargo development efforts, which NASA intends to 
allocate as follows:
  --$288 million would be an augmentation to the current Commercial 
        Orbital Transportation Services (COTS) funded agreements for 
        additional milestones that would add additional capabilities or 
        tests that would reduce risks and expedite the pace of cargo 
        delivery for the ISS. The funding would be equally split 
        between SpaceX and Orbital.
  --$14 million would be for currently negotiated milestones expected 
        to be completed in fiscal year 2011--part of the original $500 
        million COTS investment.
  --$10 million would be for program operations for the Commercial Crew 
        and Cargo Office at Johnson Space Center in fiscal year 2011.
    Question. Administrator Bolden I would like to understand what NASA 
and the taxpayers have received for this total COTS expenditures to 
date of approximately $618 million? What hardware has been delivered? 
What services have been provided? What does NASA own, IP rights?
    Answer. The dollar amount cited in the question includes payments 
made as part of the COTS cargo development effort and the Commercial 
Resupply Services (CRS) contract.
    With regard to COTS, expenditures as of mid June 2010 for our two 
funded Space Act Agreement (SpaceX and Orbital Sciences) total $393 
million. To date, our partners have completed all major design reviews, 
including Preliminary and Critical Design Reviews. Both partners have 
begun testing programs designed to qualify their respective cargo 
transportation systems for launch and spaceflight environments. 
Additionally, both partners are progressing through the ISS visiting 
vehicle integration.
    SpaceX has recently completed its Falcon 9 maiden flight, including 
the Dragon capsule qualification unit. Although this was a non-NASA 
milestone, this flight provided data for the company to verify launch-
vehicle operations for the new vehicle, and NASA expects data gathered 
from this test flight will be instrumental to our first COTS 
demonstration. NASA's COTS Demo flight 1 hardware is progressing. The 
COTS Demo 1 flight first stage has completed integration and is being 
readied for the integrated stage testing in Texas. Likewise, the COTS 
Demo 1, second stage integration, has been completed and is being 
readied for its integrated stage testing in Texas. Once integrated 
stage testing is complete, both stages will be shipped to Cape 
Canaveral for flight. The COTS Demo 1 Dragon Capsule integration is 
finishing up. The integrated spacecraft has been powered up and is 
currently flowing data to mission control. Currently, the launch is 
scheduled for August.
    Orbital continues to make progress as well. Its first stage static 
test article has been completed and initial static tests have been 
completed. The first stage engine, AJ-26, is currently planned to begin 
testing at the NASA Stennis Space Center in August this year.
    Regarding intellectual property (IP) rights for the COTS 
agreements, since 1980, with the passage of the Bayh-Dole Act (with 
regard to small businesses, universities and non-profits) and 1983, 
under Executive Order 12591 (with regard to large business), it has 
been the policy of the Federal Government to permit contractors and 
others who receive Federal funds to develop technology to retain the 
commercial rights to that technology, including the right to make a 
profit from technology developed with funds received from the Federal 
Government. Consistent with Bayh-Dole and EO 12591, NASA will not own 
any IP rights under the COTS SAAs. NASA will receive a Government 
purpose license to use inventions developed under the SAAs that 
commences 5 years after the completion of the SAAs. Consistent with the 
law and Federal policy, NASA encourages, and will continue to 
encourage, its contractors and partners to make commercial use of 
technology development funded by NASA. NASA retains ``march in rights'' 
for data and inventions if the COTS partners do not achieve practical 
application of IP developed under the COTS SAAs.
    With regard to NASA's CRS contracts, on December 23, 2008, NASA 
awarded contracts to SpaceX and Orbital for the delivery of cargo to 
the ISS after the retirement of the space shuttle. The scope of the CRS 
effort includes: delivery of pressurized and/or unpressurized cargo to 
the ISS; disposal or return of cargo from the ISS; and, non-standard 
services and special task assignments and studies that can be ordered 
to support the primary standard resupply service. The first two CRS 
flights to ISS are scheduled for July and October of 2011.
    Under these contracts, NASA does not purchase hardware; NASA 
purchases services. Payment for services is made upon completion of 
milestones. SpaceX has completed through the third milestone, Mission 
Integration Review, for delivery flights 1 and 2, and through the 
second milestone, Vehicle Baseline Review, for delivery flight 3. OSC 
has completed through the third milestone, Vehicle Baseline Review, for 
its delivery flight 1, and through the second milestone, Long Lead 
Order Placement for delivery flight 2. As of late April 2010, SpaceX 
and Orbital had received $101 million and $127 million, respectively, 
for their CRS work.
    Question. What is the schedule performance since COTS was started? 
Can you explain where the two current COTS providers are in terms of 
their original schedule milestones?
    Answer. Please see milestone charts below which shows milestones 
accomplished to date, payments made and projected dates for future 
milestones. The chart also includes the original milestone dates for 
each COTS funded partner.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. The COTS program was designed to create lower cost cargo 
access to the ISS. With the current Resupply Service Contracts for 
SpaceX costing $135 million per flight and Orbital costing $235 million 
per flight, and with Doug Cooke's recent testimony that the much more 
robust Ares vehicle recurring flight cost of $178 million per flight, 
are we really finding dramatic cost savings through COTS, doesn't seem 
like it from these numbers?
    Answer. The aforementioned CRS and Ares I costs cannot be compared 
in the manner cited because the missions are different. While Ares I 
was designed to go to the ISS, it was designed to carry crew and not 
cargo. The CRS missions, on the other hand, are designed to carry only 
cargo, so comparing costs between the two missions is not appropriate.
    Under CRS, NASA is purchasing cargo delivery services via a fixed-
price contract. Thus, NASA is paying a pre-set cost per delivery, and 
therefore, the company is responsible for paying for its own 
infrastructure and personnel costs, for example. However, NASA will 
have additional costs for its own infrastructure and workforce 
associated with commercial crew.
    In comparison, and as noted in an earlier response, NASA's estimate 
for Ares I marginal costs reflects only the costs that can be cleanly 
attributed to the production of one unit. However, that number does not 
include the fixed development costs for the Ares I program, nor does it 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Therefore, to understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program.
    Question. The original plan for commercial transportation to space 
was to have the COTS providers demonstrate cargo capability before 
moving to crew, a logical progression in spaceflight capabilities. What 
has changed that pushes us to begin commercial crew investment before 
even a single cargo demonstration has occurred?
    Answer. Nothing has changed. NASA is still pursuing an incremental 
strategy by establishing commercial cargo resupply services prior to 
establishing the provision of commercial crew services. NASA has always 
planned for the eventual provision of commercial crew services and 
Congress authorized NASA to pursue those activities in the NASA 2008 
Authorization Act. Congressional authorization, coupled with the 
endorsement of the Augustine Committee which stated in its final report 
that ``Commercial services to deliver crew to low-Earth orbit are 
within reach,'' and the decision to extend the life of the ISS likely 
to 2020 or beyond, enabled the administration and NASA to fund the 
development and demonstration of commercial crew transportation as part 
of the President's fiscal year 2011 budget request.
    Question. Is this putting too great of pressure on these companies, 
helping to ensure their failure?
    Answer. NASA has not yet selected the companies that will provide 
commercial crew services. However, NASA will evaluate the capability of 
all bidders during the proposal evaluation process and select those 
companies that have the necessary capabilities and plans for providing 
commercial crew services.
    Question. Current projections for new entrants into national human 
spaceflight, like India, project 10-12 years before ready for first 
human launch, and China has demonstrated that it took them 11 years 
after they had a certified launch vehicle to be ready. Why do we 
believe a commercial crew capability could occur in less than 5 years? 
On what do we base that projection besides claims of companies that 
have not placed a single human into space?
    Answer. During previous COTS announcements, multiple commercial 
companies proposed a crew transportation capability that could be 
developed in 36-48 months. These inputs were from established, low-risk 
companies who have placed humans into space, as well as smaller 
entrepreneurial companies.
    Question. Given NASA has not yet delivered human rating 
requirements for commercially provided vehicles, coupled with the fact 
that the COTS providers are running about 2 years behind on their cargo 
capability, how can you expect crew capability by 2015 and have 
confidence in this schedule?
    Answer. NASA has recently released a draft set of commercial human 
rating requirements for industry to review and provide comments. 
Comments were due back to NASA by June 18. These comments will be used 
to mature the requirements set in time to support a commercial crew 
announcement that meets the program's timeline.
    During previous COTS announcements multiple commercial companies 
proposed a crew transportation capability that could be developed in 
36-48 months. These inputs were from established, low-risk companies 
who have placed humans into space, as well as smaller entrepreneurial 
companies.
    Both SpaceX and Orbital have encountered technical challenges and 
schedule delays normally attributed to complicated endeavors such as 
fielding new launch vehicles and spacecraft. SpaceX, however, proceeded 
from signing the NASA SAA to launching its Falcon 9 launch vehicle in 
less than 48 months. Orbital Sciences is on target to fly its Taurus II 
in approximately 40 months from SAA signature.
    It is important to note that both of these COTS efforts include not 
only the launch vehicle but also spacecraft and all needed ground and 
mission support capabilities as well.
    Question. General Bolden, as we all know, the acquisition process, 
especially one of the magnitude of designing, and developing a manned 
space capability, is full of milestones, testing, reviews and much, 
much more. I'm curious to know, what are the acquisition-related steps 
that would need to be followed by the Government in the development and 
procurement of commercial crew transport services, e.g., development of 
a COTS-like demonstration program; COTS RFP preparation and release; 
competition for COTS awards; negotiation of COTS agreements; DDT&E 
phase; demonstration phase; RFP preparation and release for commercial 
crew transport contracts; contract competition, award, negotiation, 
potential protest resolution, etc.; and certification for operations 
involving U.S. astronauts before commencing commercial crew transport 
services to the International Space Station? Historically, how long has 
it taken to complete such acquisition steps in the development of new 
aerospace systems to be used by the Government?
    Answer. NASA released a Request for Information (RFI) in May 2010, 
which represented a critical element in the agency's overall proposed 
strategy for commercial crew. This RFI requested industry feedback to 
the NASA plans for certifying commercial crew vehicles for NASA 
services, including the Draft Commercial Human Rating Plan. In 
addition, the RFI sought input on the general acquisition strategy and 
philosophy. A second RFI is planned in the late summer timeframe for 
industry feedback on the ISS Service Requirements Document (SRD) and 
Interface Requirements Document (IRD). With this feedback, NASA will 
finalize the remaining requirements, reference documents, and 
acquisition strategy.
    Information from these RFIs will be used to finalize NASA's 
proposed commercial crew acquisition strategy. Upon strategy approval, 
the draft announcement (including ISS SRD and IRD) will be completed 
and released for further comment, clarification, and questions from 
industry.
    Historically, it has taken 6-9 months from instrument release 
(Request for Proposal (RFP), Announcement of Opportunity (AO), NASA 
Research Announcement (NRA), Cooperative Agreement Notice (CAN), Space 
Act Agreement ( SAA)) to award.

                             CONSTELLATION

    Question. Was there any consideration of taking more of a 
``Commercial'' approach to Constellation? Allowing for the cost and 
schedule savings that could be accomplished by taking this type of 
approach, but keeping the workforce transition plans in place and 
leveraging the investment in the program and benefiting from the safety 
regime incorporated, couldn't this be a prudent way to consider moving 
forward? Was this even considered and if so, what were the reasons that 
this approach was not selected, what concerns do you have to this 
approach?
    Answer. Budget formulation discussions are pre-decisional 
information and cannot be provided for the public record. However, in 
general, as part of normal fiscal year 2010 operations, the 
Constellation Program has been in discussions with the prime contractor 
about ways to reduce costs and improve schedule. Additionally, the 
commercial crew competition will be fully open, so the Ares I and Orion 
contractors can compete for those development awards as well.
    Question. Can you explain what the White House has done with the 
human spaceflight budget? While NASA's top line increases by $6 billion 
over the next 5 years, the Exploration account contains significant 
reductions over that same period. Over the next 4 years, the budget 
run-out for Exploration is almost $6 billion below last year's run-out. 
In just this year's request alone the Exploration budget has a $1.8 
billion cut from last year's projected number, how is that a commitment 
to Human Space Exploration? This also includes the $1.9 billion of 
close out costs for fiscal year 2011 also, so the actual budget for 
Exploration is that much lower even. Doesn't this go completely against 
the funding recommendation by the Augustine panel your boss 
commissioned?
    Answer. In the fiscal year 2011 President's budget request, the 
requested budget for Exploration is almost $500 million more than the 
fiscal year 2010 enacted level, and the projected budget for 
Exploration in fiscal year 2015 is $1.4 billion higher than the fiscal 
year 2010 enacted level--an increase of 37 percent in 5 years. While 
the fiscal year 2011 budget request, reflects less funding for 
Exploration than anticipated in the fiscal year 2010 request, funding 
for NASA as a whole increases $6 billion over 5 years despite a tough 
budget environment.
    Although funding for Exploration decreases when compared to the 
fiscal year 2010 budget runout, funding was increased for other 
spaceflight priorities that were either critical to enable a safe and 
effective near-term human spaceflight program--such as allowing the 
shuttle to safely complete its manifest, extending the International 
Space Station to 2020 and enhancing its utilization--or that were key 
to supporting human spaceflight activities in the long-term, such as 
cross-cutting technology; and developing commercial crew transport 
capabilities.
    Extending the spatial and temporal boundaries of human spaceflight 
is an important goal for the Nation and for NASA. However, human 
spaceflight remains an endeavor with substantial risks, and these risks 
must be identified, managed and mitigated appropriately to achieve the 
Nation's goals in space. Thus, as highlighted in the Review of U.S. 
Human Spaceflight Plans Committee report and as supported by the fiscal 
year 2011 budget request, investment in a well-designed and adequately 
funded space technology program is critical to enable progress in 
exploration. Exploration strategies can proceed more readily and 
economically if the requisite technology has been developed in advance. 
That is why the fiscal year 2011 budget request is so critical for 
NASA.
    Question. NASA's Safety Advisory Panel, which you were a member of 
prior to becoming Administrator, strongly advised you against the new 
approach you are defending today. Can you explain why this path was 
chosen from a safety perspective? And how as a former member of this 
panel that worked on the recently released report, can you argue with 
its findings? Have their findings drastically changed since you were on 
the ASAP?
    Answer. I was a member of the NASA Aerospace Advisory Panel (ASAP) 
from August 2006 to July 2009 and did not work on the development of 
their 2009 Annual Report. The administration's decision to undertake a 
new plan for human exploration was based in large measure on the 
findings and recommendations provided by independent Review of U.S. 
Human Spaceflight Plans Committee, chaired by Norm Augustine, which 
delivered its final report to NASA and the White House in October 2009. 
The new plan for NASA's exploration activities outlined in NASA's 
fiscal year 2011 budget request was not considered during my tenure on 
the ASAP. As we move forward to implement our new plan for human 
exploration, however, I can assure you that NASA remains committed to 
safety in all aspects of our activities. I frequently meet with the 
members of the ASAP in my capacity as the NASA Administrator and I have 
asked the ASAP to continue to independently review and assess our 
proposed activities and to provide specific recommendations on how NASA 
should be proceed to ensure the safety of our people and our programs.
    Question. Part of the Ares/Orion plan was to enable a smooth 
workforce transition of the space shuttle program. With thousands of 
Aerospace critical skills at stake, announcing the cancellation of 
Constellation has created quite a high level of unrest across the 
industry. What plan do you have now to address this?
    Answer. The President's fiscal year 2011 budget request for NASA is 
$19.0 billion, which represents an increase of $276.0 million above the 
amount provided for the agency in the fiscal year 2010 Consolidated 
Appropriations Act (Public Law 111-117), and an increased investment of 
$6.0 billion in NASA science, aeronautics, human spaceflight and 
enabling space technologies over the next 5-years compared with last 
year's budget plan. The President's strategy and accompanying funding 
increase means more jobs for the Nation, more astronaut time in space, 
and more investments in innovation. NASA has initiated planning 
activities to be able to effectively and efficiently implement these 
new activities in a timely manner upon enactment of the fiscal year 
2011 budget.
    The proposed changes to the human spaceflight program in the fiscal 
year 2011 budget request will have an impact on civil service and 
contractor workforce planning. While NASA is not planning reductions in 
the civil service workforce, the nature of the work done by the civil 
service workforce would change under the President's fiscal year 2011 
budget plan. NASA has also made preliminary program assignments across 
the centers for new or extended activities proposed in the fiscal year 
2011 budget request, helping to clarify the work opportunities for 
contractors under the proposed portfolio and preparing NASA to execute 
the work content.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (Public Law 110-422). The agency was directed to assist local 
communities affected by the termination of the space shuttle program by 
offering non-financial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. NASA is working 
diligently to determine how best to leverage these efforts to support 
the transition resulting from the proposed cancellation of 
Constellation. Specifically, the Office:
  --Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; and
  --Serves as a key point of contact for the community beyond NASA for 
        information about how the agency is working with local 
        communities to provide non-financial, technical assistance 
        during transition.
    The NASA workforce amendment would provide up to $100 million from 
within the funds requested for the National Aeronautics and Space 
Administration's Exploration account to develop a plan to spur regional 
economic growth and job creation along the Florida Space Coast and 
other affected areas. This workforce plan furthers the administration's 
bold new course for human space flight, which revitalizes NASA and 
transitions to new opportunities in the space industry and beyond.
    Question. The fiscal year 2011 budget includes $2.5 billion in 
Constellation contract termination costs, and $6 billion for new 
``commercial providers'' who likely will suffer the normal cost and 
schedule growth especially with their level of inexperience and $312 
million for additional COTS money that was never planned. It would seem 
to be a much more responsible use of taxpayer dollars to use this 
combined $8.812 billion to finish the program that has had 5 years 
worth of progress and accomplishments that is designed to deliver a 
safer, more reliable, way to send our astronauts to orbit then to hope 
that the ``commercial'' providers might come through? Can you please 
explain how this is not a waste of taxpayer dollars.
    Answer. At the highest level, the President and his staff, as well 
as NASA senior leadership, closely reviewed the Augustine Committee 
report, and came to the same conclusion as the committee: The human 
spaceflight program was on an unsustainable trajectory.
    To continue on the previous path we had to decide to either 
continue the ISS, support a program to get humans beyond LEO, or to 
make even deeper cuts to the other parts of NASA's budget. Further, we 
would have insufficient funding to advance the state of the art in any 
of the technology areas that we need to enable us to do new things in 
space, such as lowering the cost of access to space and developing 
closed-loop life support, advanced propulsion technology, and radiation 
protection.
    The President determined that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration.
    Following the release of the fiscal year 2011 budget request, NASA 
established six study teams within Exploration Systems Mission 
Directorate (ESMD) to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation Program and to plan for the 
implementation of the new Exploration program. Despite the early nature 
of these planning efforts, NASA is optimistic that there will be many 
capabilities developed by the Constellation Program that will feed 
forward into the new programs. For example, options using the Orion 
capsule are currently being pursued for autonomous rendezvous and 
docking; and many of the capabilities we are pursuing at a low level 
through our Exploration Technology Development Program are directly 
applicable to the new programs. Other important areas that will enable 
further advancement in the new initiative areas are: advanced robotics, 
propulsion development and test, friction stir welding, autonomous 
landing and hazard avoidance, and entry, descent, and landing 
technologies.

              SOLID ROCKET MOTORS AND THE INDUSTRIAL BASE

    Question. In the Solid Rocket Motor Capabilities report to Congress 
that was released in June 2009, in the executive summary on page 47 it 
says, ``Delays in the NASA Ares program could have significant negative 
impact on the large solid rocket motor prime contractors industrial 
base, and on some of the SRM sub-tier base, specifically material 
suppliers.'' So the key phrase was ``significant negative impact.'' So 
if a delay in NASA's Ares program would have a significant negative 
impact, what would the cancellation of the Ares program have if the 
administration recommendation goes through as part of the NASA budget 
in fiscal year 2011? If a delay is a significant negative impact on 
solid rocket motor industrial base, what's an outright cancellation 
going to do to the solid rocket industrial base?
    Answer. NASA is currently the only customer for large segmented 
PBAN solid rocket motors and a major user of Ammonium Perchlorate (AP) 
used to make solid rocket motors (SRMs). As such, cancellation of 
Constellation would have a major impact on these two industries. 
However, NASA and DOD are continuing to jointly assess the impacts in 
the joint study lead by the Office of the Undersecretary of Defense for 
Industrial Policy on the SRM industrial base. The DOD does not use PBAN 
large segmented SRMs, but rather smaller monolithic SRMs for strategic 
missiles, interceptors, and launch vehicle strap-on booster, so they 
are currently studying the impacts and options as part of the SRM 
industrial base study. NASA and DOD are also jointly studying heavy 
lift launch and propulsion related options in a different study, so 
NASA's future demand for SRBs is not yet clear. Constellation 
cancellation would require the DOD to fully carry the costs of the 
necessary SRM industrial base for National security needs and AP costs 
would likely increase given the lower demand and associate reduced 
economies of scale.
    Question. Please explain why the new Space Exploration plan seeks 
to stop using solid rocket motors which are the most reliable and 
capable first stage booster in NASA's inventory with over 100+ 
successful missions and decades of continuous design and manufacturing 
process improvements to rely upon a new, unproven system that could put 
the lives of our Nation's astronauts in jeopardy?
    Answer. One measure of launch vehicle safety is identifying the 
approximate probability of failure for the launch vehicle which can 
then be determined by summing up the chances of failure of all of its 
subsystems. For launches of U.S.-built vehicles in the last 20 years, 
problems with the propulsion system represented a significant portion 
of all failures therefore addressing reliability during the design of a 
launch vehicle is paramount to ensuring a safe vehicle. The type of 
propulsion system (solids versus liquids) is not a discriminator; 
rather simplicity and redundancy are the keys to high design 
reliability for any system and launch vehicles are no exception.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.
    At the highest level, the President and his staff, as well as NASA 
senior leadership, closely reviewed the Augustine Committee report, and 
came to the same conclusion as the committee: the human spaceflight 
program was on an unsustainable trajectory. To continue on the previous 
path we had to decide to either continue the ISS, support a program to 
get humans beyond LEO, or make even deeper cuts to other parts of 
NASA's budget. One key area that is a contributor to the unsustainable 
nature of the human spaceflight program is the size of the propulsion 
industrial base. Additionally, we would have had insufficient funding 
to advance the state of the art in any of the technology areas that we 
need to enable us to do new things in space, such as lowering the cost 
of access to space and developing close-loop life support, advanced 
propulsion technology, and radiation protection. The President 
recognized that what was truly needed for beyond LEO exploration was 
game-changing technologies; making the fundamental investments that 
will provide the foundation for the next half-century of American 
leadership in space exploration.
    With regard to commercial crew, as has been stated earlier, safety 
is and always will be NASA's first core value. Simply put, U.S. 
astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so.
    Question. What will happen to the unique workforce that our 
Nation's defense programs rely upon for the future needs in the Solid 
Rocket Motor industry if this cancellation of the Ares program is 
preserved?
    Answer. NASA, a discretionary funding-based civil space agency, is 
not responsible for primary support to the Nation's defense programs. 
If the Ares projects are cancelled, the DOD will have to fund an 
appropriately-sized SRM industrial capacity commensurate with its 
current and future requirements. NASA and DOD are jointly assessing the 
impacts and solution options. The Office of the Undersecretary of 
Defense for Industrial Policy is leading a SRM Industrial Base 
assessment in order to plan for this impact and adequately meet 
national security needs.
    Question. What role do you see the Solid Rocket Motor industry 
playing in the President's requested plan? What timeframe would solid 
rocket work be available in the new plan so as to not have to layoff 
the entire workforce and shutter needed facilities?
    Answer. Although NASA has almost 30-years of extensive experience 
with solid rocket motors on the space shuttle, if humans are to explore 
destinations beyond low-Earth orbit in the 2020-2025 timeframe, the 
Nation needs to aggressively bring about an affordable launch 
capability. The fiscal year 2011 budget request focuses on investing in 
technologies to improve the costs of liquid propulsion systems in an 
effort to reduce the overall cost of launch, as well as maintain the 
propulsion industrial base. NASA will begin heavy-lift vehicle system 
analyses on all launch vehicle concepts to determine the best 
affordable and reliable approach.
    The fiscal year 2011 budget request does not provide specific 
funding for SRM development or direct production. However, NASA and DOD 
are jointly studying heavy lift launch and propulsion-related options 
in a different study, so NASA's future demand for SRBs is not yet 
clear. Additionally, any domestic company, including those who have 
been part of the Constellation program, can, if they choose, compete to 
be part of NASA's proposed commercial crew development program.
    Question. In the technology development program account being 
created, there is funding for a new 1st stage liquid motor. Who is 
intended to be the customer using the new liquid first stage motor? How 
does the research on a new Liquid first stage engine impact the future 
of the solid rocket industry for NASA and DOD?
    Answer. The fiscal year 2011 budget request funds NASA to develop 
affordable engines for use by multiple customers (NASA, other 
Government agencies, and commercial) with associated technologies to 
support those engine development activities. NASA plans to work closely 
with DOD and commercial entities to develop an affordable, highly 
reliable hydrocarbon engine that will have multiple users. While there 
are significant synergies for propulsion system development between 
NASA and DOD, negotiations are currently underway to formalize a 
mutually-beneficial development effort to meet the National needs.
    As a part of normal program formulation activities, NASA will 
continue to examine the trade space with regard to heavy-lift vehicles 
for the next-generation human spaceflight system. The most recent NASA 
heavy lift study was conducted in November 2009, which resulted from 
recommendations of the Augustine Committee for NASA to move toward a 
``flexible path'' human exploration. This study included variations of 
LOX/LH2 heavy lift vehicle architectures with solid rocket boosters and 
as well as LOX/Hydrocarbon heavy lift launch vehicle architectures. The 
LOX/Hydrocarbon vehicle concepts were less mature than the LOX/LH2 
concepts at the time of the November study.
    NASA plans to continue studying heavy-lift issues in partnership 
with the DOD to continue to mature the LOX/Hydrocarbon concepts and to 
assess potential commonality between NASA, DOD, and potential 
commercial needs with the primary figure of merit of as ``affordability 
and operability.'' As part of this ongoing review, NASA and DOD plan to 
perform an assessment of the industrial base, as required by Congress.

                 PRESIDENT'S APRIL 15 SPEECH IN FLORIDA

    Question. When the President rolled out his plan for the future of 
NASA and the manned space program last week, he stated that one of the 
advantages in re-directing NASA and cancelling the program of record 
was that his new strategy ``begins major work on building a new heavy 
lift rocket sooner, with a commitment to decide in 2015 on the specific 
heavy-lift rocket that will take us deeper into space. Can you please 
explain to me how waiting another 5 years to decide on what technology 
to use to get us beyond Low Earth Orbit will allow us to develop a 
heavy-lift capability sooner than what is currently planned with the 
Ares V? Can you provide a timeline that lays out the specific details 
how this new plan will be faster?
    Answer. NASA's goal is to reduce costs and shorten development 
timeframes for future heavy-lift systems for human exploration. The 
Nation needs to aggressively bring about an affordable launch 
capability if humans are to explore destinations beyond low earth orbit 
in the 2020-2025 timeframe.
    The fiscal year 2011 budget request includes funds for NASA to 
conduct the important research and development and analysis necessary 
to make an informed decision on a heavy-lift vehicle no later than 
2015. A primary focus of this effort will be to conduct research and 
development on a U.S. first-stage hydrocarbon engine for potential use 
in heavy lift and other launch systems, as well as basic research in 
areas such as new propellants, advanced propulsion materials 
manufacturing techniques, combustion processes, propellant storage and 
control, and engine health monitoring. Additionally, NASA will initiate 
development and testing of in-space engines. Areas of focus could 
include a liquid oxygen/methane engine and lower-cost liquid oxygen/
liquid hydrogen engines. This work will build on NASA's recent R&D 
experience in this area, and the test articles will be viewed as a 
potential prototype for a subsequent operational engine that would be 
re-startable and capable of high acceleration and reliability. These 
technologies will increase our heavy-lift and other space propulsion 
capabilities and is intended to significantly lower costs--with the 
clear goal of taking us farther and faster into space consistent with 
safety and mission success criteria. In support of this initiative, 
NASA will explore cooperative efforts with the DOD and also develop a 
competitive process for allocating a small portion of these funds to 
universities and other non-governmental organizations. This research 
effort along with many of our new technology initiatives will be 
coordinated with the broader agency technology initiative led by NASA's 
new Chief Technologist.
    In addition to investing in transformative heavy-lift technologies, 
on April 15, 2010, the President called upon NASA to select a rocket 
design no later than 2015 and then begin to build it; a decision no 
later than 2015 means that major work on building a new heavy-lift 
rocket will likely begin 2 years sooner than in the previous plan.
    NASA is in the process of assessing the best approach for 
implementing this new direction. The initial strategy employs a 
rigorous systems analysis effort starting at the overall launch vehicle 
system level to define the top-level requirements for the heavy lift 
launch system that can support multiple end users. This includes 
setting performance goals, identifying lift capability, propellant 
suite for each launch vehicle stage as examples of top-level 
requirements.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges for propulsion systems; 
as well as innovative methods to manage a heavy-lift development 
program to include effective and affordable business practices. The RFI 
is open to the broad space community, including commercial, other 
Government agencies and academia. Information obtained from the RFI 
will be used for planning and acquisition-strategy development for 
current heavy-lift planning activities, funded in the fiscal year 2010 
Consolidated Appropriations Act (Public Law 111-117).
    Related to the RFI, on May 19, 2010, NASA posted a draft Broad Area 
Announcement (BAA). This draft BAA is soliciting proposals for a Heavy 
Lift and Propulsion Technology Trade study and seeks industry input on 
technical solutions in support of heavy lift system concepts studies. 
This draft BAA requests offerors to expand upon the previous NASA 
technical assessments. The final BAA solicitation, issued on June 30, 
2010, incorporates information obtained via the RFI as well as inputs 
from an Exploration industry workshop held in May 2010. These concept 
studies will include architecture assessments of a variety of potential 
heavy lift launch vehicles and in-space vehicle architectures employing 
various propulsion combinations and how they can be deployed to meet 
multiple mission objectives. All possible launch vehicle concepts will 
be evaluated to identify the best configuration to meet the Nation's 
needs. In addition, the studies performed during the execution of the 
BAA will identify technology gaps for heavy lift and propulsion systems 
to influence the suite of space launch propulsion technologies that 
need to be addressed as part of a development program. (Please note, 
the BAA is addressing fiscal year 2010 planned activities which may 
also contribute to future plans and activities.)
    The first major decision point for a heavy lift launch vehicle is 
anticipated to be in March 2011, at the completion of the BAA study 
effort, where NASA will have defined the optimum lift capability to 
meet multiple end users (NASA, DOD, and commercial) propellant suite 
for the launch vehicle stages, engine thrust level as well as other 
launch vehicle performance goals. At this point, without additional 
study funding, NASA will have the necessary information to make an 
informed decision to start the development of a heavy lift launch 
vehicle, pending adequate funding is available for the follow on heavy-
lift vehicle development effort.
    Question. When the President submitted his budget in February, it 
was thought by many that he was proposing cancelling the entire Project 
Constellation Program to include the Orion crew capsule? Can you 
provide insight as to why the change? In other words, what happened 
between February and April of this year that made him change his mind? 
Was the decision based on a cost analysis or some new requirement? To 
that end, did NASA program managers and cost analysts review the 
program at that time to compare the pros and cons of a full Orion crew 
capsule versus one that will only be used as an emergency escape 
vehicle?
    Answer. The President clarified our position on Orion during his 
April 15 speech at Kennedy Space Center, Florida. NASA's efforts to 
develop an emergency rescue vehicle would be based on the good work 
already completed on the Orion crew capsule and would focus the effort 
to provide a simpler and more efficient design that would provide crew 
emergency escape from the ISS and serve as part of the technical 
foundation for advanced spacecraft to be used in future deep space 
missions. This approach also would preserve a number of critical high-
tech industry jobs in key disciplines needed for our future deep space 
exploration program. NASA has put together a formulation team including 
Headquarters and Center personnel to develop a baseline approach that 
meets these requirements, balanced with the other priorities proposed 
in the President's fiscal year 2011 budget request. NASA will provide 
this information to Congress, including estimated costs, as soon as 
they are finalized.
    Question. Since the President is proposing an increase in the NASA 
budget of $6 billion over the next 5 years, the change in NASA emphasis 
is clearly not about trying to reduce deficit, correct? With the 
overall budget increasing, how much does the exploration portion for 
the budget change? If the previous exploration budget did not result in 
a sustainable program, how does a major reduction of $2 billion this 
year for exploration and $6 billion over the next 4 years alleviate 
that problem? Doesn't such a major reduction in exploration budget 
substantiate the public concern that we are on a path to nowhere?
    Answer. In the fiscal year 2011 President's budget request, the 
requested budget for exploration is almost $500 million more than the 
fiscal year 2010 enacted level, and the projected budget for 
exploration in fiscal year 2015 is $1.4 billion higher than the fiscal 
year 2010 enacted level--an increase of 37 percent in 5 years. While 
the fiscal year 2011 budget request, reflects less funding for 
exploration than anticipated in the fiscal year 2010 request, funding 
for NASA as a whole increases $6 billion over 5 years despite a tough 
budget environment.
    The fiscal year 2011 budget request outlines an innovative course 
for human space exploration, but does not change our goal--extending 
human presence throughout our solar system. NASA will lead the Nation 
on this new course of discovery and innovation, providing the 
technologies, capabilities and infrastructure required for sustainable, 
affordable human presence in space. NASA's investment in gaining 
critical knowledge about future destinations for human exploration, as 
well as transformational technology development and demonstration will 
serve as the foundation of NASA's ongoing space exploration effort, 
broadening opportunities for crewed missions to explore destinations in 
our solar system that we have not been to before.
    The President stated in his speech at KSC on April 15, 2010, that, 
``Early in the next decade, a set of crewed flights will test and prove 
the systems required for exploration beyond low Earth orbit. And by 
2025, we expect new spacecraft designed for long journeys to allow us 
to begin the first-ever crewed missions beyond the Moon into deep 
space. So we'll start--we'll start by sending astronauts to an asteroid 
for the first time in history. By the mid-2030s, I believe we can send 
humans to orbit Mars and return them safely to Earth. And a landing on 
Mars will follow. And I expect to be around to see it.''
    With a NEO and Mars as the key long-term destinations for NASA, we 
must begin to identify missing capabilities needed for such a mission. 
Mass is a huge barrier for a Mars mission because higher mass drives up 
cost, and it slows down progress. More mass without advanced 
technologies, such as advanced propulsion techniques or ways to prevent 
fuel boil-off in space, means that it will take more trips to lift 
resources into LEO for Mars missions and substantially more flights 
required to transport required resources to Mars. The same sort of 
scenarios also apply to missions for other beyond-LEO missions--more 
mass without advanced technologies will only serve to drive up costs 
and extend schedule, pushing our chances of breaking free of LEO even 
further into the future.
    In summary, while a timeline and budget plan for a manned Mars and 
other beyond-LEO missions is still in work, NASA believes that the 
benefits of the aforementioned technology development efforts along 
with anticipated infrastructure efficiencies will lead to sustainable 
manned missions to beyond-LEO destinations sooner and at less cost than 
missions currently envisioned under the Constellation Program.
    Question. Please quantify how the new plan creates 2,500 more jobs 
than Constellation would have by 2012? Since the new plan is advertised 
to be so good at creating new jobs in general and in Florida in 
particular, why is a $40 million transition program needed to retrain 
the displaced aerospace workers at Kennedy Space Center? Is this also 
going to be available in other States impacted by this decision?
    Answer. The fiscal year 2010 plan, which included retirement of the 
space shuttle and little need for build-up of workforce for 
Constellation launches, shows a drop of nearly 7,000 in total workforce 
demand in Florida, from just over 14,000 total contractors needed in 
2010 to approximately 8,500 needed in 2012. These estimates include 
direct labor and support labor in Florida, both contractor and civil 
servant, for both fiscal year 2010 and fiscal year 2011 President's 
budget request (PBR) plans.
    The fiscal year 2011 PBR plan extends the space shuttle 3 months, 
and locates a large amount of work in Florida, including but not 
limited to the 21st Century Space Complex construction and the program 
office for the Commercial Crew Program. Additionally, NASA's proposed 
plan identifies Kennedy Space Center as the deputy program office for 
the new Flagship Technology Demo program, which will bring some 
additional workforce demand. The estimates are that workforce demand 
for the fiscal year 2011 PBR plan will begin and remain higher than the 
fiscal year 2010 plan, starting at nearly 15,000 needed and falling to 
approximately 12,000 needed in 2012. This is an increase of as much as 
3,500 over the fiscal year 2010 plan, depending on assumptions of how 
much design and manufacturing work the commercial crew providers locate 
in Florida.
    NASA will continue to refine these estimates as program definition 
matures in preparation for the August 2010 Workforce Transition 
Strategy report submitted to Congress.
    The space shuttle program employs thousands of people in the 
Kennedy Space Center area. While the proposed fiscal year 2011 programs 
and funding planned for the Kennedy Space Center will create more jobs 
than the previous plans, NASA anticipates job losses in the community 
by the end of space shuttle program. The transition funding mentioned 
is intended to mitigate the impact of this loss.
    The administration has recently announced a comprehensive 
initiative, funded at a level up to $100 million, to support economic 
growth and job training in Florida and other regions affected the 
shuttle retirement and other programmatic changes in NASA's exploration 
program. While the initiative began on April 15, 2010, when the 
President announced a $40 million initiative to aid the areas around 
Kennedy Space Center, the Task Force established pursuant to the 
President's direction was also directed to prepare a plan that 
``explores future workforce and economic development activities that 
could be undertaken for affected aerospace communities in other States, 
as appropriate.''
    Several States and county officials have been applying for 
workforce-related grants through existing Federal programs. On June 2, 
2010, Secretary of Labor Solis announced the award of an additional $15 
million in workforce re-training funds for aerospace workers in Brevard 
County, Florida. In addition, on April 30, 2010, the Department of 
Labor announced a $1.2 million grant to assist approximately 200 
workers affected by layoffs at ATK Launch systems in Corinne, Utah, in 
connection with the transition of the space shuttle and Constellation 
programs. It is our understanding that the communities impacted within 
the State of Texas have also applied for assistance from the Department 
of Labor.
    Question. The latest proposal by the President changes the Orion 
crew capsule development effort to provide stand-by emergency escape 
capabilities for the space station--thereby reducing our reliance on 
foreign providers. Does this in any way impact our ability to send U.S. 
Astronauts into space? If not, how much are we planning on spending on 
this ``empty-shell'' capsule? Isn't the net result an expensive crew 
escape vehicle that duplicates what Soyuz already does and eliminates 
capability of using Orion for beyond Low Earth Orbit (LEO) missions? 
Does this change in Orion mission change the potential termination 
liability to Lockheed-Martin if Orion were to have been cancelled as 
proposed in original budget submittal from the President?
    Answer. NASA will provide details of this plan, including estimated 
costs, as soon as they are finalized.
    In addition to developing a U.S. commercial crew capability, 
creating an American-made crew escape capability will improve our 
ability of sending astronauts into space because it will lessen our 
dependence on foreign providers. Currently, NASA has purchased Soyuz 
seats through 2014 and it has legislative authority to purchase 
additional seats through 2016. However, if we need to purchase seats 
beyond July 1, 2016, NASA would need to secure legislative relief from 
the Iranian North Korean and Syria Nonproliferation Act.
    While it is likely that the President's proposed change to the 
Orion crew capsule would change Lockheed Martin's current estimate of 
potential termination liability, it is too early in the process to 
estimate the difference.
    Question. In late 1990s and early 2000s NASA embarked on game 
changing technology developments and spiral development of launch 
vehicles to significantly reduce cost of access to space, as part of 
Next Generation Launch Technology (NGLT) and 2nd Generation Launch 
Vehicle (2ndGen) programs. These initiatives resulted in the spending 
of billions of dollars on X-33 and X-34 single stage to orbit (SSTO) 
vehicles, RS-84 LOX/RP engine, and Orbital Space Plane (OSP), to 
mention a few, all of which were canceled. How is the current plan 
going to be successful when the same approach failed a decade ago? Why 
do we want to spend $3 billion on heavy lift technology development of 
a LOX/RP engine that is the same technology that flew on Saturn V 40 
years ago? How is LOX/RP engine development considered game changing 
technology development?
    Answer. Several recently released reports have described the 
agency's current plans for development of vehicles to access to LEO as 
being unsustainable for various reasons. The Office of Science 
Technology and Policy (OSTP) also performed an assessment of the 
current U.S. space launch industry (published in a report dated 
December 22, 2009) and came to a key conclusion: that although ``. . . 
the U.S. space launch propulsion industrial base provides a diverse 
range of technologies and more than adequate production capacity . . 
.'' the current U.S. industrial base ``. . . is under significant 
stress, due largely to low demand.'' The OSTP report further identifies 
a key driver in the loss of U.S. space launch services to foreign 
providers is due to development costs and overall performance. This 
situation has numerous serious consequences for the Nation, including 
loss of the global space launch market to foreign providers to the 
atrophy of the propulsion systems supply chain and associated loss of 
workforce skills and sub-tier providers. This imbalance between supply 
and demand could lead to the erosion of the Nation's technical 
leadership should this overcapacity and low demand scenario be allowed 
to continue.
    An approach to solving this imbalance is to direct the U.S. 
Government to invest in space launch propulsion-related activities that 
will ``identify potential breakthrough cost savings or performance 
opportunities in launch vehicle propulsion.'' (OSTP December 22, 2009 
report.)
    Question. Orion is part of Project Constellation. As such, it is 
being designed and developed concurrently with other major components 
of the program. I assume it is being designed to fly on an Ares rocket. 
Since the proposed plan appears to cancel Ares, are there any concerns 
that designing the capsule independently of the booster will create 
mating problems or interoperability problems at some point in the 
future?
    Answer. The Orion Crew Exploration Vehicle is being designed--and 
will continue to be designed until a change is authorized by Congress--
to fly on an Ares I launch vehicle. In the President's proposed plan, 
the emergency return vehicle (ERV) variant of Orion would be launched 
on an existing expendable launch vehicle system. Integration of the ERV 
with its launch vehicle (including factors such as physical mating 
interfaces, interoperability, induced loads environments, and rocket 
lift capability) will be extremely important to assess in detail as the 
design and implementation moves forward, assuming Congress approves the 
President's budget recommendation. Preliminary, low-fidelity 
assessments to date suggest that there are feasible options for 
launching an ERV on an existing rocket. Design-driving loads and 
environments induced by Ares I, for which Orion is currently designed, 
are expected to envelope those for existing rockets. Thus, major 
problems with launch vehicle integration are not expected.
    Question. Specifically related to cost, I would also like to know 
NASA's plans for operating the Orion crew capsule. Can you tell me how 
expensive it will be to launch the escape capsule? Would an Orion 
escape capsule be redundant seeing the Russian Soyuz capsule that our 
American astronauts would still need to use to get to the ISS would be 
docked and capable of being used as an emergency capsule?
    Answer. NASA has put together a formulation team including 
Headquarters and Center personnel to develop a baseline approach for 
the ERV. NASA will provide details of this plan, including estimated 
costs, as soon as they are finalized. However, in general, the 
objective is to create an American crew escape capability that will 
increase the safety of our crews on the space station, reduce our 
dependence on foreign providers, and simplify requirements for other 
commercial crew providers. This effort will also help establish a 
technological foundation for future exploration spacecraft needed for 
human missions beyond low-Earth orbit and will preserve some critical 
high-tech contractor jobs in Colorado, Texas, and Florida.
    Question. I imagine the escape vehicle would need to be 
periodically inspected and replaced to ensure it is operational in the 
critical time of need. How often would the Orion emergency escape 
capsule need to be replaced once docked to the ISS? To go beyond Low 
Earth Orbit, will another crew capsule need to be developed, i.e. will 
Orion have the capability of being used for anything other than an 
emergency vehicle for the ISS? How much money is saved by restricting 
the Orion crew capsule vice the current program of record? Does the 
analysis for any potential cost savings take into account the money 
NASA would provide private industry to develop a different manned crew 
capsule?
    Answer. The ERV would have to be maintained in a safe and ready 
state during its entire stay at the ISS. Indeed, periodic inspections 
and checkouts by the ground and/or ISS crew will likely be required, 
but details for such will not be established until design work 
commences. The current Orion Crew Exploration Vehicle is being designed 
to stay docked to ISS for up to 210 days. In contrast, the ERV would be 
designed to at least equal this life, but a longer docked life is being 
assessed as a goal for the ERV requirements. Initially, the ERV would 
be designed only for the ISS emergency return mission. However, per the 
President's proposed plan, it will also serve as a technical foundation 
for a future crew exploration vehicle. The specific extensibility of 
ERV technologies to the future vehicle(s) is currently being assessed. 
A bottoms-up cost estimate for the ERV is in work, along with the 
program requirements, acquisition plan, and implementation strategy. 
Results are expected to be completed over the next couple of months, 
and cost comparisons with the existing Orion project will be available 
at that time.

                        FUTURE OF CONSTELLATION

    Question. General Bolden, in a meeting with two of my colleagues in 
the Utah Congressional Delegation on Friday April 16, you reportedly 
clarified that, as far as you are concerned, the Constellation program 
was not dead under the administration's new plan. You reportedly said 
that you wished that the term ``cancelled'' could be removed from the 
current debate. What do you mean, exactly, by stating that you don't 
think Constellation is dead? It's clear that you would kill the Ares 
solid rockets, would you not? You would kill everything except a 
scaled-down Orion space capsule? Is that one piece of hardware from 
Constellation--the Orion capsule, sufficient for you to consider that 
Constellation lives? Please define what you mean by Constellation is 
still alive?
    Answer. Following the release of the fiscal year 2011 budget 
request, NASA established six study teams within ESMD to ensure we 
understand the steps (and the implications of those steps) that would 
need to be taken for an orderly transition of the Constellation program 
and to plan for the implementation of the new Exploration program. The 
work undertaken by these teams is a necessary part of that planning. 
One team, the Constellation Transition team, has initiated a broad 
survey of current workforce, contracts, facilities, property, security, 
knowledge capture, information technology, and other Government agency 
interface issues to determine what infrastructure and hardware could be 
used by the new programs and projects.
    Despite the early nature of these planning efforts, NASA is 
optimistic that there will be many capabilities developed by the 
Constellation program that will feed forward into the new programs. For 
example, options using the Orion capsule are currently being pursued 
for autonomous rendezvous and docking; and many of the capabilities we 
are pursuing at a low level through our Exploration Technology 
Development program are directly applicable to the new programs. Other 
important areas that will enable further advancement in the new 
initiative areas are: advanced robotics, propulsion development and 
test, friction stir welding, autonomous landing and hazard avoidance, 
and entry, descent, and landing technologies.
    Additionally, on April 15, 2010, President Obama laid out the goals 
and strategies for his new vision for NASA. In doing so, he directed 
NASA to build on the good work already completed on the Orion crew 
capsule and focus the effort to provide a simpler and more efficient 
design that would provide crew emergency escape from the ISS and serve 
as part of the technical foundation for advanced spacecraft to be used 
in future deep space missions. NASA plans to be able to launch this 
vehicle within the next few years, creating an American crew escape 
capability that will increase the safety of our crews on the space 
station, reduce our dependence on foreign providers, and simplify 
requirements for other commercial crew providers. This approach also 
will preserve a number of critical high-tech industry jobs in key 
disciplines needed for our future deep space exploration program.

                              NASA'S GOALS

    Question. General Bolden, one of the biggest criticisms of the 
administration's and NASA's old and new plan is the lack of a clear 
goal for all of this new science and technology that you purport to 
develop and fund on the carcass of Constellation. The President said he 
hopes to live to see the day when the United States has a mission to 
mars, or to an asteroid. That's all well and good, but that's so vague 
without a specific roadmap on how to get there. At least Constellation 
had a clear goal; back to the moon as a stepping stone for perfecting 
long-term basing in space, and then on to Mars. Does this new, revised 
plan have a specific goal, with specific timelines or milestones we can 
look to in judging its effectiveness?
    Answer. Under the fiscal year 2011 budget proposal, NASA would 
build technologies to support a sequence of deep-space destinations 
matched to growing capabilities, progressing step-by-step, beginning 
with crewed flight tests--perhaps a circumlunar mission--early next 
decade of vehicles for human exploration beyond LEO, a human mission to 
an asteroid by 2025, and a human mission to orbit Mars and return 
safety to Earth by the 2030s. A date for a manned lunar mission, 
however, has not been established.
    NASA's ESMD would lead the Nation on this new course of discovery 
and innovation, providing the technologies, capabilities and 
infrastructure required for sustainable, affordable human presence in 
space. Many of these capabilities have been recommended consistently 
for at least 24 years in national level reports of committees and 
commissions addressing future human space exploration. ESMD's 
investment in gaining critical knowledge about future destinations for 
human exploration, as well as transformational technology development 
and demonstration will serve as the foundation of NASA's ongoing space 
exploration effort, broadening opportunities for crewed missions to 
explore destinations in our solar system that we have not been to 
before. We have not sent people beyond low-Earth orbit in 38 years, and 
this budget gives us the great opportunity to focus on scouting and 
learning more about destinations to further explore our solar system 
and to develop the game-changing technologies that will take us there. 
It is important that we pursue these objectives to continue leading the 
world in human space exploration.
    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the fiscal year 2011 budget. In April, NASA outlined for the 
subcommittee the agency's planned major program assignments across the 
agency's centers for new or extended activities proposed as part of the 
President's fiscal year 2011 budget request. These planned assignments 
build on the deep knowledge and expertise that NASA has built up over 
five decades, recognize the wealth of experience, commitment, and 
expertise resident at the NASA centers, and expand upon the strengths 
at each center. Additionally, following the release of the fiscal year 
2011 budget request, NASA established study teams within ESMD to ensure 
we understand the steps (and the implications of those steps) that 
would need to be taken for an orderly transition of the Constellation 
Program and to plan for the implementation of the new initiatives in 
the Exploration program. The work undertaken by these teams is a 
necessary part of that planning.
    NASA is taking prudent steps to plan for the new initiatives 
included in the fiscal year 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies. NASA is eager to 
seek external input from industry, academia, and other partners, and 
plans to accomplish this via a series of RFIs and industry workshops 
conducted this spring and into the summer. Doing so will ensure that 
NASA receives important feedback from our space partners before it 
begins to finalize its implementation plans for the proposed technology 
demonstrations and human spaceflight systems development activities 
that will be supported by the fiscal year 2011 budget, once approved by 
Congress. During CY 2010, NASA plans to issue a series of program 
formulation documents seeking input from the broader space community.
    Finally, NASA also has established the Human Exploration Framework 
Team (HEFT) to serve as a cross-agency planning activity. The team is 
being led by the ESMD and staffed with technical leaders from across 
NASA centers. The team is focused on developing and reviewing the 
integrated set of requirements and technologies required for future 
human spaceflight missions to many destinations, including Mars. As 
part of its broad integration charter, HEFT will develop implementation 
recommendations on the performance and pacing requirements for the 
technologies needed for future human exploration missions using 
``design reference missions,'' or DRMs. These DRMs will be the basis 
for validating capabilities and missions for 5-, 10-, and 15-year 
horizons, with milestones including crewed missions beyond the Moon 
into deep space by 2025, sending astronauts to an asteroid, and 
eventually landing on Mars. NASA expects to have initial products from 
the HEFT team this summer.

              FUTURE OF SOLID ROCKETS AND ARES TECHNOLOGY

    Question. General Bolden: Do you foresee any opportunity for NASA 
to avail itself of the Ares solid rocket technology under the new 
revised announcement by the President? Will Ares be considered eligible 
to compete for any of the $3.1 billion he announced for research and 
development into a heavy-lift vehicle?
    Answer. NASA will begin heavy lift vehicle system analyses on 
various launch vehicle concepts to determine the best approach that 
meets the affordability and reliability figures of merit. The 
administration is not opposed to using solid rocket motors. Concept 
heavy-lift launch vehicles could include solid rocket motors as well as 
liquid strap-ons and all concepts will be evaluated during a rigorous 
systems analysis effort to identify the best heavy-lift configuration 
to meet the Nation's needs.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                         ROCKET TESTING COMPLEX

    Question. Administrator Bolden, the budget includes more than $2 
billion over the next 5 years for development of a 21st Century Launch 
Complex at Kennedy Space Center. I am concerned that we are building a 
21st Century Launch Complex, but will be stuck with a 20th century 
engine testing complex. No rocket will be launched from Kennedy without 
first undergoing extensive testing at Stennis. Yet there are no funds 
in the budget request for facility upgrades at Stennis. Given NASA's 
interest in safety, shouldn't we invest a proportional level of 
resources into NASA's premier engine testing complex? What upgrades 
would you propose to make Stennis a 21st century rocket testing 
complex?
    Answer. NASA is providing $13.8 million in American Recovery and 
Reinvestment Act appropriations for the following activities at Stennis 
Space Center (SSC): (1) test stand upgrades to support commercial AJ26 
engine testing; (2) modernization of the high pressure gas facilities 
that support the test stands; (3) completion of test complex 
communication systems; and (4) repair of the Test A2 liquid oxygen/
hydrogen delivery system. These activities can support both NASA and 
commercial engine development activities. In the initial fiscal year 
2010 Operating Plan, NASA added $3.0 million for the A-3 test stand, 
increasing the budget from $16.9 million to $19.8 million in fiscal 
year 2010. The additional funds have enabled work to continue on this 
project.
    Beyond these efforts, NASA is working to determine what further 
investments are to be made at SSC to support launch vehicle testing. 
The Exploration Systems Mission Directorate has identified preliminary 
estimates for Stennis facility requirements in support of Heavy Lift 
and Propulsion Technology, which involve test stand investments that 
are expected to be needed for all heavy-lift options being addressed. 
While preliminary assessments are still being refined, NASA currently 
expects to conduct fiscal year 2011 effort in the following areas:
  --Continued Construction of A-3 Rocket Propulsion Test Facility.
  --E-Complex (RP component testing); funding will support test stand 
        design activities and long lead item ordering.
  --B2 Test Facility (RP engine testing); funding will support design 
        activities, refurbishment, long-lead ordering.
  --LOX/LH2 engine testing; Exploration Systems will likely recommend 
        LH2 testing of an existing engine but it will not require 
        facility mods.

                           HEAVY LIFT VEHICLE

    Question. Mr. Administrator, when we met in October, I was very 
pleased to hear your enthusiasm for NASA's role in development of a 
Heavy Lift Vehicle and for the unique capabilities the A-3 test stand 
at Stennis is going to provide for the engine testing of these 
vehicles. As NASA moves forward with research, development and testing 
of a Heavy Lift Vehicle, what will be the role of this unique national 
asset, the A-3 test stand, and is completion of its construction 
critical to the development of a Heavy Lift Vehicle?
    Answer. NASA made a determination in June to complete the A-3 test 
stand. NASA is in the early planning stages of identifying the 
preliminary engine testing that will be required within the heavy lift 
program, and specific test facilities have not been identified to date.

                 TESTING OF COMMERCIAL LAUNCH VEHICLES

    Question. Given the proposed focus of allowing the private sector 
to develop and operate Low Earth Orbit launch vehicles and your 
commitment to safety, it seems NASA's testing facilities would take on 
an increased significance. What are your plans to ensure testing 
capabilities and facilities are adequately funded for the future, and 
what role could you see Stennis Space Center playing in the testing of 
commercial launch vehicles?
    Answer. NASA is providing $13.8 million in American Recovery and 
Reinvestment Act appropriations for the following activities at Stennis 
Space Center (SSC): (1) test stand upgrades to support commercial AJ26 
engine testing; (2) modernization of the high pressure gas facilities 
that support the test stands; (3) completion of test complex 
communication systems; and (4) repair of the Test A2 liquid oxygen/
hydrogen delivery system. These activities can support both NASA and 
commercial engine development activities.
    In the initial fiscal year 2010 Operating Plan, NASA added $3.0 
million for the A-3 test stand, increasing the budget from $16.9 
million to $19.8 million in fiscal year 2010. The additional funds have 
enabled work to continue on this project.
    Beyond these efforts, NASA is working to determine what further 
investments are to be made at SSC to support launch vehicle testing. 
The Exploration Systems Mission Directorate has identified preliminary 
estimates for Stennis facility requirements, which involve test stand 
investments that are expected to be needed for all heavy-lift options 
being addressed. While preliminary assessments are still being refined, 
NASA currently expects to conduct fiscal year 2011 effort in the 
following areas:
  --Continued Construction of A-3 Rocket Propulsion Test Facility.
  --E-Complex (RP component testing); funding will support test stand 
        design activities and long lead item ordering.
  --B2 Test Facility (RP engine testing); funding will support design 
        activities, refurbishment, long-lead ordering.
  --LOX/LH2 engine testing; Exploration Systems will likely recommend 
        LH2 testing of an existing engine but it will not require 
        facility mods.
    NASA's upgrades at SSC can support both Government and commercial 
launch vehicle testing, and the agency will make the facility available 
as an option for commercial vendors.

                           HEAVY LIFT VEHICLE

    Question. Administrator Bolden, President Obama said in his speech 
last week that he is committed to choosing a final design for the new 
Heavy Lift Vehicle no later than 2015. You and I agreed in our October 
meeting that development of a Heavy Lift Vehicle is one of the most 
critical initiatives NASA will take on in the coming years. Would 
choosing a Heavy Lift Vehicle design earlier than 2015, say in 2011 or 
2012, accelerate the President's proposals and fill some of the Space 
Center mission gaps that have members of this body so concerned? This 
seems like it could be a major part of a fairly reasonable compromise 
between the President's goals and the wishes of those in Congress who 
are concerned about the cancellation of Constellation.
    Answer. NASA's goal is to reduce costs and shorten development 
timeframes for future heavy-lift systems for human exploration. The 
Nation needs to aggressively bring about an affordable launch 
capability if humans are to explore destinations beyond low-Earth orbit 
in the 2020-2025 timeframe. Thus, as noted in the question, on April 
15, 2010, the President called upon NASA to select a rocket design no 
later than 2015 and then begin to build it; a decision no later than 
2015 means that major work on building a new heavy-lift rocket will 
likely begin 2 years sooner than in the previous plan. NASA is in the 
process of assessing the best approach for implementing this new 
direction. The initial strategy employs a rigorous systems analysis 
effort starting at the overall launch vehicle system level to define 
the top-level requirements for the heavy lift launch system that can 
support multiple end users. This includes setting performance goals, 
identifying lift capability, propellant suite for each launch vehicle 
stage as examples of top-level requirements.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges for propulsion systems; 
as well as innovative methods to manage a heavy-lift development 
program to include effective and affordable business practices. The RFI 
is open to the broad space community, including commercial, other 
Government agencies and academia. Information obtained from the RFI 
will be used for planning and acquisition-strategy development for 
current heavy-lift planning activities, funded in the fiscal year 2010 
Consolidated Appropriations Act (Public Law 111-117).
    Related to the RFI, on June 30, 2010 NASA posted a Broad Area 
Announcement (BAA). This BAA is soliciting proposals for a Heavy Lift 
and Propulsion Technology Trade study and seeks industry input on 
technical solutions in support of heavy lift system concepts studies. 
It requests that offerors expand upon previous NASA technical 
assessments and incorporates information obtained via the RFI as well 
as inputs from an Exploration industry workshop held in May 2010. These 
concept studies will include architecture assessments of a variety of 
potential heavy lift launch vehicles and in-space vehicle architectures 
employing various propulsion combinations and how they can be deployed 
to meet multiple mission objectives. All possible launch vehicle 
concepts will be evaluated to identify the best configuration to meet 
the Nation's needs. In addition, the studies performed during the 
execution of the BAA will identify technology gaps for heavy lift and 
propulsion systems to influence the suite of space launch propulsion 
technologies that need to be addressed as part of a development 
program. (Please note, the BAA is addressing fiscal year 2010 planned 
activities which may also contribute to future plans and activities.)
    The first major milestone for a heavy lift launch vehicle is 
anticipated to be in March 2011, at the completion of the BAA study 
effort, where NASA will have defined the optimum lift capability to 
meet multiple end users (NASA, DOD, and commercial) propellant suite 
for the launch vehicle stages, engine thrust level as well as other 
launch vehicle performance goals.

            SAFETY AND MISSION ASSURANCE TECHNICAL AUTHORITY

    Question. The Center Management and Operations Program, Safety and 
Mission Assurance (SMA) Technical Authority fiscal year 2011 budget has 
an increase of $4 million over the fiscal year 2010 enacted level 
($51.6 million fiscal year 2010 enacted to $55.5 million fiscal year 
2011), however, Stennis Space Center, who received funding in fiscal 
year 2010 is not included in this portion of the President's fiscal 
year 2011 budget. Stennis is the only center to receive funding in 
fiscal year 2010 and not be included in the fiscal year 2011 budget. 
Your fiscal year 2010 budget projected continued funding for SMA 
Technical Authority at Stennis Space Center? What has changed to cause 
that funding to no longer be necessary?
    Answer. The table included on Page CROSS--12 of the fiscal year 
2011 budget estimates are incorrect. The total shown for SMA Technical 
Authority is correct, but the Stennis Space Center line was 
inadvertently omitted from the table. The correct table is shown below:

                                                  [In millions]
----------------------------------------------------------------------------------------------------------------
                                                   2010      Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
            SMA Technical Authority              Enacted   Year 2011  Year 2012  Year 2013  Year 2014  Year 2015
----------------------------------------------------------------------------------------------------------------
Ames Research Center..........................       $3.4       $3.8       $3.9       $4.1       $4.2       $4.4
Dryden Flight Research Center.................       $4.6       $4.9       $5.0       $5.2       $5.4       $5.6
Glenn Research Center.........................       $2.1       $2.2       $2.3       $2.4       $2.5       $2.6
Goddard Space Flight Center...................      $12.6      $14.5      $15.1      $15.8      $16.4      $17.1
Johnson Space Center..........................       $6.8       $6.6       $6.8       $7.1       $7.3       $7.6
Kennedy Space Center..........................       $9.3      $10.7      $11.0      $11.3      $11.6      $11.9
Langley Research Center.......................       $3.1       $3.2       $3.3       $3.4       $3.6       $3.7
Marshall Space Flight Center..................       $8.2       $8.5       $8.8       $9.2       $9.4       $9.8
Stennis Space Center..........................       $1.3       $1.4       $1.4       $1.5       $1.5       $1.5
                                               -----------------------------------------------------------------
      Total...................................      $51.6      $55.6      $57.6      $59.9      $62.0      $64.2
----------------------------------------------------------------------------------------------------------------
Note.--Totals may not sum precisely due to rounding.

                                 ______
                                 
                   Questions Submitted to John Frost
          Questions Submitted by Senator Kay Bailey Hutchison

                SPACE STATION SAFETY AND SUSTAINABILITY

    Question. On page two of your Annual Report for 2009, it is stated: 
``While many threats impact the safety of the astronauts and the ISS, 
one of the biggest challenges is resupply and sustainability. A 
combination of shuttle, Soyuz and Progress flights has performed this 
mission admirably over the past 6 years.'' It went on to describe NASA 
plans to develop commercial Cargo Resupply Services, as well as 
developments of resupply capabilities by the European and Japanese 
space agencies, and express ``satisfaction'' at the progress being made 
in developing those capabilities. Beyond that, there is not much said 
about space station safety and sustainability in your report. Elsewhere 
in your report, and in the previous year's report, your panel states 
its view that continued shuttle flights beyond the planned termination 
date of 2010 is ``unwise.'' You don't say it is ``unsafe,'' as many 
media reports and others have claimed.
    I presume that, if the Panel felt the space shuttle was ``unsafe'' 
you would have recommended it stop flying immediately. Is that a 
correct assumption?
    Answer. Safety is a concept that only has meaning in a comparative 
sense. No significant activity, especially one in space, is free of 
risk. The question to be asked is whether the anticipated risk exceeds 
that which the program has found as acceptable. If the ASAP felt that 
the risk involved in continuing to fly the shuttle to complete its 
manifest was inconsistent with the level NASA had judged as acceptable, 
or if the risks were unnecessary or inconsistent with policies and 
procedures that NASA had described as applicable, the ASAP would have 
certainly informed NASA and Congress of that fact. Our reports to 
Congress have consistently provided the assessment that while the 
shuttle does not, and cannot, offer the degree of safety that a modern, 
safety optimized vehicle can provide, given the scrupulous attention to 
detail and extraordinary care NASA has been applying to its support, it 
is capable of completing its assigned missions with a risk that NASA 
has long accepted.
    Question. During questioning following your verbal testimony, you 
claimed the shuttle was unsafe simply because each flight increases the 
odds of an accident on the next flight, not because each shuttle 
deteriorates in an unsafe manner from one flight to the next. This 
analysis is not included in any ASAP report. Please detail extensively 
any reasons or rationale ASAP considers shuttle flights beyond the 
planned termination date of 2010 to be ``unsafe'' or ``unwise.''
    Answer. The ASAP does not believe that ``each flight increases the 
odds of an accident on the next flight''. As I stated in my testimony, 
because the shuttle's systems have not exhibited signs of an imminent 
``wear out'', its short term risk is thought to be relatively steady. 
The increasing risk that I referred to in my testimony was the 
accumulation of risk over time with each launch as the shuttle's safety 
systems are challenged more and more times. Statistically, this can be 
equated to rolling dice. The probability of eventually rolling snake 
eyes is proportional to the number of times you roll the dice. That 
being said, the Shuttle certainly is an aging system which, over the 
years, has had desirable safety improvements tabled or only partially 
implemented because of its limited remaining service life. The risk 
decisions behind those choices would need to be reexamined were the 
shuttle to continue to fly for any significant extended period. 
Additionally, many Shuttle components are gradually reaching the end of 
their safe use life. These components would also require evaluation, 
test and potential replacement. The Columbia Accident Investigation 
Board recognized that this process was both natural and inevitable and 
therefore recommended that if the shuttle were to be extended that it 
go through a rigorous recertification program. We agree.
    Question. It is clear that no thorough and complete analysis has 
been done by NASA to ensure that the basic space station systems, 
including life support systems, aboard the ISS will be able to function 
through 2020 without additional spares, replacements, or refurbishment. 
It is also unclear whether any such items that might be needed are of a 
size and weight that can only be delivered by the space shuttle (things 
like spare radiators or solar arrays, which are essential for power and 
thermal control of the station.)
    Shouldn't this be an issue of concern to the Aerospace Safety 
Advisory Panel?
    Answer. We agree and have begun a more detailed look at these 
issues. The ISS life extension is significant and could have broad 
safety implications.
    Question. Have you begun any review of this issue or requested 
information from NASA, in view of the decision to extend the station 
through at least 2020?
    Answer. While the Panel has not performed a detailed assessment of 
an ISS life extension, the Panel did provide one member of a 
congressionally mandated cross functional review in 2007 of the space 
station survivability given the various risks to which it is exposed. 
That review concluded that the largest threat to ISS survivability was 
Micrometeorite/Orbital Debris impact. Recommendations were made to 
minimize that risk. The ASAP has now begun to look at the various 
issues that are involved in the ISS life extension.
    Question. In your report for 2009, you mention the Safety and 
Mission Assurance Technical Excellence Program (STEP) and state ``One 
STEP goal is to transition the Safety and Mission Assurance 
professionals' focus from an operating focus for shuttle and space 
station to a design focus for building the next generation of manned 
space vehicles.''
    Given a decision to extend the station through 2020, shouldn't 
there remain a focus by the STEP program on space station safety 
issues?
    Answer. Yes, recent programmatic changes, including the ISS life 
extension, will require adjustments in the focus of the STEP Program.
    Question. Which safety issues in particular should be assessed?
    Answer. Significant changes are being proposed in the role that 
NASA personnel play in the research and development, acquisition, and 
operation of space programs. The proposed use of commercial providers 
for crew transport in particular would require a very different 
approach to verification, validation, and certification than NASA has 
traditionally used. Once policies to address these requirements are 
solidified, significant changes in the training, allocation, and 
organization of NASA personnel may be required. STEP will need to be 
adjusted accordingly.

            HUMAN RATING REQUIREMENTS--COMMERCIAL AND SOYUZ

    Question. The ASAP Report addressed the issue of Human Rating 
Requirements for commercial crew capabilities, which had been raised as 
an option during the Augustine panel review--a review of which the 
report was rather critical. While a focus by the panel on the 
development of those requirements is appropriate, a statement made in 
that section of the report regarding potential international crew 
transportation services raises significant concern. The report (on page 
6) states: ``International transportation service that would extend 
beyond that currently in use (Russia) should be evaluated against the 
same performance standard as COTS human transportation services from 
U.S. Vendors.'' Obviously, without actually saying it, the reference is 
to the Russian Soyuz crew transportation system.
    A reading of that language suggests that the Soyuz is exempt from 
``the same performance standard as COTS human transportation 
services.'' What would the basis be for that exemption?
    Answer. The Soyuz has already passed through the ``gate'' of NASA 
human rating by virtue of assessments done prior to its utilization by 
NASA crews and its long history of providing safe transport to Russian 
Cosmonauts. This history, and a close working relationship between the 
agencies of the two countries, has provided NASA with significant 
insight into the design and operation of the Soyuz and given them 
confidence in its abilities.
    Question. Has the Panel conducted any sort of review of safety and 
reliability measures for the Soyuz vehicle? If so, have you reported on 
that review? If not, can you explain why not?
    Answer. The Panel has had regular discussions with senior NASA 
experts on their processes for gaining confidence in the Soyuz system. 
Particular attention was focused on resolution of re-entry anomalies 
that were experienced in recent years. While the Panel itself is not 
privy to the details of the Soyuz vehicles, we have gained confidence 
that NASA officials are taking reasonable steps to gain the required 
insight.
    Question. Are you suggesting that the Aerospace Safety Advisory 
Panel is completely satisfied, whether by any independent analysis or 
direct assessment, that the crew vehicle on which the United States 
will rely for its only human access to space for the next 5 to 7 years 
is ``safe enough'' for us to be comfortable in accepting that reliance?
    Answer. As explained above, the Panel's assessment has been of the 
NASA processes used to gain confidence in the Soyuz system. While we 
cannot independently validate the safety of the Soyuz, we are aware of 
no issues that lead to significant concern at this time.
    Question. A full one-third of the last six Soyuz flights returning 
to Earth, have experienced ``unexplained anomalies.'' In two cases, the 
vehicles returned in a steeper-than-normal trajectory and experienced 
erratic movement during re-entry, caused by an improper separation of 
the descent module from the rest of the spacecraft. The crews were 
subjected to much higher gravity loads--if not dangerously high, at 
least uncomfortably high, from all reports. In another previous case, 
there was minor disturbance caused by what was reportedly the uneven 
packing and mounting of waste materials in the upper module, before it 
separated from the descent module. In none of these cases do we know 
for sure what took place. Steps have been taken to try to avoid what is 
thought to be the problem, but it has not been verified.
    If this were to happen with the space shuttle, what would be the 
result? Wouldn't it be necessary to ground the fleet until the cause 
was determined and repairs or adjustments made? Why is this acceptable 
for continued U.S. reliance on the Soyuz?
    Answer. Both the shuttle and the Soyuz flight teams examine each 
and every anomaly that occurs on their system on each flight. Just as 
they do for shuttle anomaly assessments, senior NASA officials sat with 
their Russian counterparts during the assessments for the problems 
described above. They reported to us that similar rigorous assessment 
techniques were used in both countries. Most probable causes have been 
identified and steps taken to prevent recurrence. It is worth noting 
that these anomalies demonstrated one of the unique safety features of 
the Soyuz design: its inherent reentry aerodynamic stability that does 
not rely on complex guidance components to maintain alignment during 
reentry.
    Question. If at any time in the next 5 to 7 years something more 
serious were to happen during a Soyuz descent, and if it were serious 
enough to force the grounding of the Soyuz fleet for an extended period 
of time (a year or more), it might be necessary, due to the on-orbit 
limits of the Soyuz, for the six crew members still on board the space 
station to have to abandon the space station--using the same kind of 
vehicle which had experienced the problem which forced the grounding of 
the fleet.
    Has your panel considered such a possibility? Could that possibly 
be considered a ``wise'' or ``safe'' choice for this Nation to make, to 
have placed our astronauts--and our partners' astronauts--in that 
position?
    Answer. This is one of the risks that the Panel will be evaluating 
in the coming months. As I stated in my testimony, there is an 
increased risk of forced station abandonment once we are limited to a 
single means of ISS crew access. The steps being taken to minimize this 
risk will be examined, as will the impact of such a potential 
abandonment, both on the crew and the danger an abandoned ISS might 
pose to those on the ground.

                              ASAP CHARTER

    Question. I have expressed some concerns I have about the 
thoroughness and appropriateness of some of the statements made in 
previous reports by your Panel. The Aerospace Safety Advisory Panel 
(ASAP) operates under the Federal Advisory Committee Act (FACA). That 
act imposes a requirement on the Committees of Jurisdiction to make a 
continuing review of the activities of each advisory committee under 
its jurisdiction to determine whether such advisory committee should be 
``abolished or merged with any other advisory committee, or whether the 
responsibilities of such advisory committee should be revised.'' In 
addition, the Charter of the ASAP states that it is to advise the NASA 
Administrator and the Congress.''
    Based on your experience on the Panel, do you believe there is any 
sense that there should be greater interaction between the appropriate 
congressional committees and the Panel, beyond simply briefing the 
Congress on its annual reports?
    Answer. The Panel, as currently constituted, is a strategic 
resource for Congress and NASA focused on processes, plans, and 
policies that are necessary to maximize safety rather than the detail 
design assessments of hardware. While the results of our deliberations 
are shared freely with both NASA and Congress, it must be remembered 
that since we only meet formally four times a year, the availability of 
material that would be of interest to the committees is somewhat 
limited. We have quickly responded to all requests for support from 
both NASA and Congress and will happily do so for any in the future.
    Question. Would that include a practice of briefing the Congress 
before publicly releasing the annual report, which the panel failed to 
do in releasing the Report for 2009?
    Answer. Our annual report is based directly on the results of our 
quarterly reviews which are specific and readily available. Due to the 
time sensitivity of many of these subjects, I suggest that an ongoing 
dialog concerning questions members may have about these reports may be 
of more value.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. I think our memories of the Challenger and the Columbia 
remind us of the risks our Astronauts willingly accept, just as 
Administrator Bolden did when he piloted the Discovery to deliver the 
Hubble telescope to space exactly 20 years ago this Saturday, April 24. 
I know NASA continues to look for ways to reduce the frequency of 
accidents. In your role as a NASA safety expert, could you help me 
understand to what degree and in what ways does robust engine testing 
minimize the risk of future accidents and ensure that our brave 
Astronauts come home safely?
    Answer. The propulsion component of any space transportation system 
is one of the most critical pieces of hardware for a safe and 
successful mission. It is the source of the most significant risks of 
catastrophic failure during launch. In the case of either solid or 
liquid rockets, testing is one of the most basic validation techniques 
to show that the systems analysis and safety studies are accurate and 
correct. For the case of solids, no test of the actual rocket that will 
be on the vehicle can be accomplished (it has only a one-time use), 
however testing must be done on a statistically significant sample to 
prove that our safety analysis is valid. On liquid or multi-use 
propulsion, we have the advantage of actually firing the engine which 
will be on the vehicle and then examining its condition after such a 
trial firing. This provides an extra margin of safety for engines of 
this type. There is no question, in either case, that testing both in 
development and in production/operations where possible provides a 
fundamental mechanism to validate safety assessments and performance 
analysis. Vigorous and extensive testing of rocket motors was one of 
the touchstones of Dr. Wernher von Braun's approach to development of 
human rated rockets like the Saturn V.
    Question. President Obama's new plan calls for the use of 
contractor owned and operated launches for the first time ever. His 
critics have said that the private sector cannot provide the level of 
safety that has been provided by NASA. The first time a commercial 
launch company experiences a significant accident, scrutiny of NASA for 
releasing direct control of launch activities and the President's plan 
will be jeopardized. Understanding that NASA already places great value 
on safety do you believe that NASA will need to place an even greater 
emphasis on commercial engine testing and safety to ensure the chances 
of such an accident are minimized.
    Answer. While the already high degree of emphasis on safety may not 
change under the proposed new acquisition strategy, the techniques for 
ensuring the safety of the vehicles carrying our astronauts certainly 
will. The classical acquisition strategy of direct and detailed NASA 
involvement in every step of space vehicle design provides NASA with 
deep insight into the design features, potential failure modes, 
robustness, and reliability of the systems and their components. This 
deep insight may not be available with commercial providers who 
independently develop systems using their own procedures, approaches, 
and experience base. The current NASA work process will have to be 
replaced with a different approach that has not yet been developed. 
This approach may well include significantly more test and 
demonstration of safety critical components such as engines.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
Thursday, April 29 at 10 a.m., when we will take the testimony 
of Attorney General Eric Holder.
    The subcommittee stands in recess.
    [Whereupon, at 11:50 a.m., Thursday, April 22, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 29.]

</pre></body></html>
